<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR FISCAL YEAR 2008</title>
<body><pre>[Senate Hearing 110-521]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-521
 
  STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2008

=======================================================================

                                HEARINGS

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                   on

                               H.R. 2764

AN ACT MAKING APPROPRIATIONS FOR FOREIGN OPERATIONS, EXPORT FINANCING, 
AND RELATED PROGRAMS FOR THE FISCAL YEAR ENDING SEPTEMBER 30, 2008, AND 
                           FOR OTHER PURPOSES

                               __________

                          Department of State
                        Nondepartmental Witness
           United States Agency for International Development

                               __________

         Printed for the use of the Committee on Appropriations

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                     U.S. GOVERNMENT PRINTING OFFICE
33-935 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                               __________
                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            TED STEVENS, Alaska
TOM HARKIN, Iowa                     ARLEN SPECTER, Pennsylvania
BARBARA A. MIKULSKI, Maryland        PETE V. DOMENICI, New Mexico
HERB KOHL, Wisconsin                 CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             MITCH McCONNELL, Kentucky
BYRON L. DORGAN, North Dakota        RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         JUDD GREGG, New Hampshire
RICHARD J. DURBIN, Illinois          ROBERT F. BENNETT, Utah
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              SAM BROWNBACK, Kansas
FRANK R. LAUTENBERG, New Jersey      WAYNE ALLARD, Colorado
BEN NELSON, Nebraska                 LAMAR ALEXANDER, Tennessee
                    Charles Kieffer, Staff Director
                  Bruce Evans, Minority Staff Director
                                 ------                                

    Subcommittee on State, Foreign Operations, and Related Programs

                  PATRICK J. LEAHY, Vermont, Chairman
DANIEL K. INOUYE, Hawaii             JUDD GREGG, New Hampshire
TOM HARKIN, Iowa                     MITCH McCONNELL, Kentucky
BARBARA A. MIKULSKI, Maryland        ARLEN SPECTER, Pennsylvania
RICHARD J. DURBIN, Illinois          ROBERT F. BENNETT, Utah
TIM JOHNSON, South Dakota            CHRISTOPHER S. BOND, Missouri
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
JACK REED, Rhode Island              LAMAR ALEXANDER, Tennessee
                           Professional Staff
                               Tim Rieser
                              Kate Eltrich
                             Nikole Manatt
                         Paul Grove (Minority)
                        Michele Wymer (Minority)
                       LaShawnda Smith (Minority)

                         Administrative Support
                             Renan Snowden


                            C O N T E N T S

                              ----------                              

                       Wednesday, March 28, 2007

                                                                   Page

United States Agency for International Development...............     1

                       Wednesday, April 18, 2007

United States Agency for International Development: Bureau for 
  Global Health..................................................    25

                         Thursday, May 10, 2007

Department of State: Office of the Secretary.....................    93


  STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2008

                              ----------                              


                       WEDNESDAY, MARCH 28, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:03 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Patrick J. Leahy (chairman) 
presiding.
    Present: Senators Leahy, Bond, and Gregg.

           UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

STATEMENT OF HON. RANDALL L. TOBIAS, ADMINISTRATOR


             OPENING STATEMENT OF SENATOR PATRICK J. LEAHY


    Senator Leahy. Good morning. Ambassador Tobias, I'm glad 
you're here. This is a very busy day. We considered postponing 
this hearing because the votes are set at 11 o'clock, but we 
don't have hearing dates available in April, we can't be sure 
what dates are available in May, so I'm going to put my opening 
statement in the record.
    I would hope that you would summarize yours so we can go to 
questions.
    [The statement follows:]

             Prepared Statement of Senator Patrick J. Leahy

    I want to begin by welcoming Senator Gregg who is the new ranking 
member of this subcommittee. Senator Gregg and I come from States that 
share a border and I look forward to working with him in the same 
bipartisan way that his predecessor, Senator McConnell, and I worked 
together for so many years.
    I think we both agree that the United States does not need a 
Democratic or Republican foreign policy, we need an American foreign 
policy, and that is what I intend to strive for.
    Ambassador Tobias, we appreciate you being here. We also appreciate 
your past leadership as the Global AIDS Coordinator. You got that 
program off to a good start.
    The jobs of USAID Administrator and Director of Foreign Assistance 
are quite different from either the CEO of a private corporation or the 
AIDS Coordinator, as I'm sure you have discovered.
    Today we want to focus on the President's fiscal year 2008 budget 
request for USAID, and on your proposals for reforming our foreign aid 
programs.
    I think most people would agree that there is a lot of room for 
improvement in our foreign aid budget, personnel and procurement 
policies, and programs. But the issue is how you do it, and what 
decision-making authority is retained by USAID.
    On the positive side, you have developed a more coherent process 
that will enable your office to more accurately show where and how 
funds are spent. That will help and we welcome it.
    We are also assured by your office that you consulted extensively 
during this process, although that is not what we have heard from some 
of those whose views we would have wanted to see reflected, including 
within USAID itself.
    While the budget process may be more coherent and transparent, I am 
mystified by many of the results.
    A glance at your budget request yields as many questions as 
answers. A country like Colombia, that has received roughly $565 
million in each of the past 5 years, gets the same amount for the same 
purposes in fiscal year 2008, even though we know that some things have 
not worked and that conditions in Colombia have changed.
    In Nepal, a country where years of fighting has cost thousands of 
lives, there is a chance to end the Maoist insurgency and replace 
feudalism with democracy. Yet you propose to cut our assistance.
    The Democratic Republic of the Congo, a huge country with every 
imaginable problem, has emerged from conflict and completed its first 
election in 40 years. It holds the key to the future of central Africa, 
yet you propose to cut our assistance.
    Vietnam, a country of 80 million people, seeks closer ties with the 
United States, and there are so many opportunities for working 
together. Yet, with the exception of HIV/AIDS, you propose to cut our 
assistance.
    The Congress has worked hard to increase funding for global 
environment programs, particularly to protect biodiversity in the 
Amazon and central Africa where the forests are being destroyed. Yet 
you propose to slash funding for those programs.
    Last year, you testified before this subcommittee that, and I am 
quoting you, ``our intent is not to have a USAID budget or a State 
Department budget, but a Foreign Assistance budget that will make all 
of it more coherent in a way that all of us can better understand.''
    I have mentioned just a few of many examples. I have to ask what is 
the purpose of this stated ``coherence'' if it produces illogical 
outcomes? What was the strategic thinking behind these decisions? How 
were the views of USAID program officers in the field and their 
implementing partners reflected? How were the Congress' views 
reflected?
    We know you have to make hard choices. We all face budget 
constraints. But Pakistan, Afghanistan, Iraq, and Indonesia are not the 
only countries where the United States has important economic and 
security interests. You need to make sense of this for us if we are 
going to be able to work together.

    Senator Leahy. I do want to begin by welcoming Senator 
Gregg, who is the new ranking member of this subcommittee. 
Senator Gregg and I share a border, a beautiful border along 
the Connecticut River. We've known each other for a long time 
and, of course, he had a distinguished career as Governor 
before, and I feel privileged that he's here.
    As you know, Senator McConnell and I worked together for 
years--sometimes he'd be chairman, sometimes I'd be chairman, 
but I think the hallmark of this subcommittee during that time 
was that we would try to get the foreign aid bill passed in 
bipartisan fashion. As a result, we've been able to pass the 
bill in about a tenth the amount of the time that it used to 
take. Senator Gregg, would you like to say anything before we 
begin.
    Senator Gregg. Well, let me put my statement on the record 
and say how much I'm looking forward to working with you.
    We had a great relationship over the years on a lot of 
issues and it's going to be--it's an interesting committee with 
tremendously important jurisdiction, and I'm excited to have 
the chance to be the ranking member on it, and to follow in the 
footsteps of who we've mentioned. It's such a such a great job 
and certainly a team effort here to try to make sure that our 
foreign accounts are strongly supported.
    [The statement follows:]

                Prepared Statement of Senator Judd Gregg

    Welcome, Ambassador Tobias. You have the distinction of being the 
first witness to appear before this subcommittee in the 110th Congress.
    We appreciate the opportunity to discuss the $3.8 billion, fiscal 
year 2008 budget request for the operations and activities of the 
United States Agency for International Development (USAID), and to 
learn more about your efforts to reform foreign assistance. Both are 
difficult and challenging tasks, and I know many of us are curious how 
you divide your time between your jobs of USAID Administrator and the 
Director of Foreign Assistance.
    When it comes to foreign aid reform, what is past is prologue. 
Beginning with the Foreign Assistance Act of 1961 (which provided USAID 
its mandate), numerous Administrations--Republican and Democrat--
attempted to improve the efficiency and effectiveness of foreign 
assistance. Since 1961, the goals and objectives of U.S. aid have 
changed due to the shifting priorities of Administrations and 
Congresses which seek to keep apace with an ever-changing world.
    The Government Accountability Office notes in reports dating from 
the late 1970s that investments in large infrastructure projects 
overseas (intending, in part, to blunt the influence of the Soviet 
Union) were redirected by Congress to smaller programs targeting 
agriculture, nutrition, education, healthcare, and family planning for 
the poor. During the immediate post-Cold War period, U.S. aid supported 
emerging democracies throughout the former Soviet Union and significant 
emphasis was placed on activities targeted toward economic growth and 
development.
    Following the September 11, 2001 terrorist attacks, foreign 
assistance serves a renewed purpose to improve the lives and 
livelihoods of people who might be open to the hateful and violent 
ideology of extremists. I expect that everyone who sits on this 
Subcommittee would agree that foreign aid, if properly managed, can be 
an effective bulwark against terrorism.
    Afghanistan serves as example of the success that can be 
accomplished through the generosity of the American people. It is 
interesting to note that U.S. assistance supports large infrastructure 
projects throughout that country, smaller programs intending to improve 
the lives of the most destitute Afghans, and economic growth and 
development programs. We know from the pending supplemental request for 
Afghanistan that reconstruction is a long-term endeavor and that more 
needs to be done by all international donors.
    Your immediate challenge as Director of Foreign Assistance appears 
two-fold: first, to convince often entrenched bureaucracies that change 
is necessary, and second, to work hand-in-hand with Congress to enact 
proposed reforms, including the fiscal year 2008 budget request. I 
commend you on the improved Congressional Budget Justification 
materials, and I look forward to learning more about the process by 
which the fiscal year 2008 State and foreign operations budget request 
was crafted.

    Senator Leahy. Thank you. Ambassador, would you----
    Ambassador Tobias. Mr. Chairman, Thank you very much for 
the opportunity. I think that I will follow your example and 
ask that my opening statement be submitted for the record.
    [The statement follows:]

              Prepared Statement of Hon. Randall L. Tobias

    Thank you, Mr. Chairman and Ranking Member Gregg, for the 
opportunity to testify before the subcommittee today on the fiscal year 
2008 budget for foreign assistance.
    When I came before you last year, I outlined a series of challenges 
I sought to undertake as the first ever Director of U.S. Foreign 
Assistance. Now, after nearly a year in this role, I appreciate the 
opportunity to share with you what we have achieved, and what I hope we 
can achieve together through the fiscal year 2008 budget process.

                  RESPONSIVENESS TO THIS SUBCOMMITTEE

    I want to begin by thanking this subcommittee for its work and for 
the support you provided before these reforms even got off the ground. 
Before discussing the budget, I would like to note our efforts to 
address your concerns raised in report language. Emphasized in fiscal 
year 2006 report language, and then re-emphasized in fiscal year 2007 
report language, this subcommittee directed that Congressional Budget 
Justification materials improve in both the timing of their delivery 
and the quality of information put forth. I am happy to say that this 
year, we delivered material to support the Congressional Budget 
Justification on February 14th, nearly a month before the March 
deadline put into report language. Further, we included standardized 
budget tables per country to allow the public to meaningfully compare 
request levels per country. In addition, we have addressed the 
coordination concerns between USAID and State programs raised in fiscal 
year 2007 report language by bringing State and USAID staff and senior 
managers to the same table to discuss budget priorities for fiscal year 
2008.
    We have done far more than make process changes, however. With the 
new budget package comes a carefully considered set of budget 
priorities that, combined, will help advance our National Security 
Strategy. I realize that not all of the changes that we are proposing 
will sit entirely comfortably with each Member of this distinguished 
subcommittee. To the contrary, it is more likely that at least one of 
the changes we propose will raise concerns with you about our 
prioritization. I look forward to engaging with you to discuss your 
concerns. Part of my drive, to lay out the budget transparently in a 
way that can be compared across countries, is so that we can have a 
discussion, using common understandings and terminology, about just 
where our foreign assistance dollars are going and what we are trying 
to accomplish by allocating them as we have.
    We have taken big steps to increase transparency, accountability, 
and coherence of strategy in the allocation of our resources, including 
the creation of one office, under my direction, to oversee all USAID 
and State foreign assistance resources. I hope to make your oversight 
responsibility less burdensome by laying our principles and priorities 
clearly on the table, and providing tools by which we can consistently 
assess results.
    Specifically, we applied six principles to the allocation of the 
fiscal year 2008 budget, in response to concerns raised by Congress and 
the President himself about the lack of coordination and coherence in 
our planning, allocation and monitoring of foreign assistance funds. I 
would like to take a moment to elaborate on them now.

                               PRINCIPLES

    The fiscal year 2008 State and USAID foreign assistance request is 
$20.3 billion, a $2.2 billion or 12 percent increase over fiscal year 
2006 enacted levels, the last year for which we have completed 
allocations. Given current budget pressures and a shared commitment 
with Congress for deficit control, this increase reflects the 
importance this Administration places on foreign assistance, not just 
as a moral obligation to alleviate suffering, but as a foundation of 
our national security strategy.
    As a result of foreign assistance reform, this year's request 
reflects a different approach to building the budget from previous 
years' methods, and I would like to take a moment now to explain the 
six principles that governed our prioritization.
    First, we integrated planning based on the totality of U.S. 
Government resources and the commitment to a shared goal.--Consistent 
with your request that we improve coherence and coordination of State 
and USAID foreign assistance, for the first time in our Nation's 
history, all $20.3 billion of U.S. foreign assistance under the 
authority of the Department of State and USAID, as well as resources 
provided by the Millennium Challenge Corporation, are being applied to 
the achievement of a single overarching goal--transformational 
diplomacy. In response to input received from many of you, our 
colleagues in the international development community, and our host 
government counterparts, that goal now reads: To help build and sustain 
democratic, well-governed states that respond to the needs of their 
people, reduce widespread poverty and conduct themselves responsibly in 
the international system.
    Over 100 interagency teams, organized by country, were tasked with 
ensuring that all State and USAID resources were coordinated for 
maximum efficiency and impact, and targeted to the achievement of 
shared objectives. Teams considered investments from the President's 
Emergency Plan for AIDS Relief and the Millennium Challenge Account 
(MCC) when allocating resources. As a result, in countries that will 
receive MCC Compact funds in 2008, you will see funds allocated to 
programs that will support the success of these investments, such as an 
increase in trade and investment funds and private sector 
competitiveness in Honduras, and in Ghana, a shift in funding to 
enhance the capacity of local government, who will be responsible for 
implementing the MCC Compact's programs.
    Second, we focused on country progress.--The ultimate goal of 
transformational diplomacy is to support recipient country efforts to 
move from a relationship defined by dependence on traditional foreign 
assistance to one defined by full sustaining partnership status. Now, I 
will spend a bit of time on this principle, because, while it seems 
like this is what we have been doing all along, this year's approach 
was quite different.
    In past budget years, funds were allocated first by account, then 
by sector, and lastly, by country. Much of the budget was built by 
determining so much for family planning, so much for basic education, 
so much for security assistance, and so on. Funding from within these 
sector levels was then parceled out to countries on the basis of 
multiple sector-based strategies--one for family planning, etc. You get 
the picture.
    It is not that these sectors are not critical to a country's 
development strategy--clearly they are, and we continue to evaluate 
resources by sector, ensure appropriate targeting, and incorporate best 
practices. It's a matter of what should drive the country's development 
program--country-prioritized need or a set global amount for a sector. 
We must tailor programs to the unique needs of each recipient country 
in reaching the transformational diplomacy goal.
    This year, we led with country progress. We brought together teams 
of experts from USAID and State, in consultation with their field 
counterparts, and we gave them an overall planning number for each 
country--not by account, not by sector, just a total.
    We gave them data on the status of country progress against 
independent indicators assessing poverty, human capacity, life 
expectancy, governance, and barriers to economic growth. We gave them 
the new Strategic Framework for U.S. Foreign Assistance, which outlines 
interventions according to countries' common country traits. We then 
asked them to allocate that budget to the areas that would best advance 
individual country progress, based on the opportunities and challenges 
that exist on the ground, and in turn, advance U.S. policy. The result 
is an fiscal year 2008 budget focused on country progress.
    Third, consistent with concerns raised by this subcommittee to 
align our foreign assistance resources with our National Security 
Strategy, we invested in states critical to long-term regional 
stability and prosperity.--As many of you are aware, the new Strategic 
Framework for Foreign Assistance categorizes each country receiving 
U.S. foreign assistance based on common traits and places them on a 
trajectory to measure their development progress against standardized 
indicators. The country categories are largely explained by their 
category name: Rebuilding, Developing, Transforming, Sustaining 
Partnership and Restrictive.
    In the fiscal year 2008 budget request, you will find that 51 
percent of Department of State and USAID program assistance resources 
are concentrated in Rebuilding and Developing countries. These are the 
countries that are farthest away from sustaining partnership status, as 
measured by instability, poverty, human capacity, life expectancy, 
governance, and barriers to economic growth--all critical barriers to 
regional stability and success in the War on Terror.
    We have seen the risks that ``ungoverned spaces'' can pose to our 
national security and to their regional neighbors; we are also very 
aware of the costs of these ``ungoverned spaces'' to their own 
citizens. States like Somalia, Afghanistan, Sudan, and the Democratic 
Republic of the Congo are among the poorest in the world. Their 
citizens are among the least able to access basic needs--including 
security.
    At the same time, to truly transform the development landscape, we 
need to focus on Developing States such as Nigeria, Ukraine, Georgia, 
Pakistan, Jordan, and Indonesia--states that are on the cusp of 
transitioning to economic, political and social self-sustenance, and 
that, with continuing progress, can serve as anchors for regional 
stability and prosperity. We need to work with them to help them 
strengthen their institutions to make their progress permanent.
    Fourth, we focused on demand-driven interventions that are critical 
levers for sustainable progress and transformation.--Foreign assistance 
in the past has run the risk of being a mile wide and an inch deep. 
With a thousand agendas embedded in our foreign assistance programs, 
our impact was diluted and diffuse. It is important to note, as I often 
do, that there is very little that we do in our development portfolio 
that is bad. Someone, some community, is benefiting from the services 
we are providing and the interventions we are supporting.
    But that is not the point. The real question is, are we achieving 
sustainable impact? Are we, in fact, enabling transformation? Are we 
giving people what they need to sustain further progress on their own?
    Based on the new country-driven process, we have prioritized 
resources to the areas that we believe will promote and sustain long-
term country progress. Funding is increased to programs targeted to 
improving governance and democratic participation, programs mitigating 
diseases that threaten the human and economic capacity of countries to 
progress on their own, programs that expand access to and improve the 
quality of education, and programs that enhance economic opportunity 
and the skills needed to participate in the global economy. These 
resource allocations reflect the wisdom of our interagency teams of 
country experts.
    I often think about our past practice of allocating funds as being 
similar to teaching an individual a little French, a little German, and 
a little Spanish. If we keep doing it, that person will very slowly be 
able to speak a little more French, a little more German, and a little 
more Spanish. But if we instead took the resources spent on each 
language and put them toward one language, that person would be able to 
communicate fluently, and would then be better able to learn the other 
languages on his or her own.
    Similarly, when we split up our resources into too many sectors in 
one country, progress will be slow and often imperceptible. If we 
instead focus our resources, we enhance the ability of countries to 
gain enough strength and stability in areas critical to sustaining 
further progress on their own.
    Focusing resources in this way has its tradeoffs. When one area 
goes up, unless there is an abundance of new resources, other areas go 
down. While the fiscal year 2008 budget increased by $2.2 billion over 
fiscal year 2006 enacted levels, we squeezed far more in the budget. 
The budget includes important increases for HIV/AIDS, malaria, and 
humanitarian assistance; and for countries in which there are new 
requirements and opportunities such as in Kosovo, Iran, and Cuba. The 
fiscal year 2008 budget also reflects efforts to continue to shift 
program funding, where requirements are predictable, from supplemental 
requests for Iraq, Afghanistan, Sudan and avian influenza into the base 
budget.
    Within the country-level requests, you will also find quite a bit 
of smaller, yet equally important, shifts. Country teams prioritized 
interventions that would help a country's institutions to build the 
capacity to take on challenges in the longer term. So you will see 
increases in resources for conflict mitigation, justice systems, 
executive branch institution-building, anti-corruption, basic 
education, energy services, agriculture policy, workforce development, 
and clean environment. But with these increases, certain sectors were 
not prioritized by the country teams to the degree that they have been 
funded in the past. These areas include sectors that we realize are 
important to members of Congress, including family planning, maternal 
and child health, and biodiversity. We know that putting decreases 
forward in these areas requires a robust justification of our reasons, 
and I hope we will have a substantive dialogue about why our teams made 
the choices that they did.
    At the outset of the reform process, some members of this committee 
expressed concern that greater alignment between State and USAID 
foreign assistance resources would result in a short-shrifting of long-
term development goals. I am pleased to note that in fact the opposite 
occurred. In fiscal year 2008, resources for the three objectives 
targeted to achieving long-term development progress--Governing Justly 
and Democratically, Investing in People, and Economic Growth--increase 
by 19 percent over fiscal year 2006 levels for these Objectives. The 
fiscal year 2008 request includes the largest request this 
Administration has ever made for basic education, and when projected 
fiscal year 2008 MCC disbursements are considered, investments in these 
objectives increased by 29 percent over fiscal year 2006.
    Fifth, we allocated funds intended for country programs to country-
level budgets.--In the past, ambassadors and mission directors often 
did not have a full picture of the resources being implemented in their 
countries, because some activities were planned and implemented from 
Washington. Consequently, they did not exercise full oversight over 
these programs, and doing so from Washington was costly and time-
consuming.
    To empower our mission directors, ambassadors, and country teams, 
who are our people in the field with the best knowledge of country 
circumstances, the reform process maximized resources implemented at 
the country level into country-level budgets. Resources within global 
or regional budgets that had been planned for specific countries were 
accordingly shifted to those countries' budgets and planned together 
with other country-based support. As a result, such resources can be 
implemented consistent with country strategies and benefiting from 
expertise on the ground.
    Recognizing that not all foreign assistance is most effectively 
implemented on a country basis, and that issues that transcend a single 
country's borders are best addressed as part of a global or regional 
strategy, activities such as support to regional institutions, 
multilateral organizations, or cross-cutting research remain funded 
within global and regional budgets. Humanitarian assistance, which is 
allocated on the basis of emerging crises, also remains funded within 
global budgets.
    Finally, we matched accounts with country circumstances and the 
priorities the county categories are designed to address.--Many of you 
may be used to hearing about the budget less in terms of countries and 
more in terms of accounts. There is a specific reason I have not 
mentioned accounts until now.
    Account levels did not drive our allocation process. Country 
progress did. After the country teams submitted their allocations by 
program, we centrally aggregated them to their appropriate accounts. In 
doing so, we sought to maximize the use of account authorities and 
establish clear priorities in support of effective implementation of 
foreign assistance programs.
    This means that, overall, funding for the Development Assistance 
account (DA), which has traditionally supported assistance in poor 
countries that demonstrate performance or a commitment to development, 
has been prioritized to Developing and Transforming countries. The 
Economic Support Fund (ESF), which focuses primarily on providing 
economic support under special economic, political, or security 
conditions, has been prioritized to support activities in the 
Rebuilding and Restrictive Country Categories.
    However, activities to support the poor and invest in development 
have not changed. For the three objectives supporting long-term 
development: Governing Justly and Democratically, Investing in People, 
and Economic Growth, DA and ESF totaled $3.7 billion in fiscal year 
2006. For fiscal year 2008, DA and ESF in these objectives total $3.8 
billion.
    The real change is within Restrictive and Rebuilding countries: 
Total funding in the three objectives supporting long-term development 
increased by 63 percent over fiscal year 2006 levels. However, the 
balance between DA and ESF changed, with DA declining from $331 million 
in fiscal year 2006 to $42 million in fiscal year 2008; and ESF 
increasing from $525 million in fiscal year 2006 to $1.4 billion in 
fiscal year 2008.
    Now I realize that this may have many of you worried that this DA 
decrease and ESF increase means that foreign assistance will now be 
used increasingly for political ends and that poor people will suffer. 
I know there is often a skepticism between our two branches when one 
side or the other presents a series of numbers, so let me address any 
doubts by citing a group many consider an ``Honest broker''--the Global 
Leadership Campaign. In their February 26, 2007, analysis, they point 
out, ``Overall `development-type' activities do not decline in fiscal 
year 2008 due to the shift between DA and ESF, and in fact, increase in 
the aggregate.''
    Let me assure you of this point. Our intent in shifting funds from 
DA to ESF is to draw cleaner lines around their use, as identified by 
country characteristics. Period. These cleaner lines allow us to 
justify to you why we have requested amounts for each account. There is 
no intent to take the ``development'' out of any of our development 
resources.

                        REGIONAL FUNDING TRENDS

    Consistent with the principles mentioned above, I would like to 
review briefly the regional funding trends you will see in the fiscal 
year 2008 budget.
    Africa.--When projected MCC disbursements are included, the fiscal 
year 2008 request for Africa represents a 54 percent increase over 
fiscal year 2006. Including actual disbursements and projected fiscal 
year 2008 disbursements from the MCC, resources for Africa have nearly 
quadrupled from 2001-2008. Over 75 percent of the fiscal year 2008 
budget will focus on Investing in People in order to address the 
crippling effects of disease and poverty, a $2 billion increase from 
fiscal year 2006. These increases are largely due to HIV/AIDS 
resources, but not entirely. When HIV/AIDS, MCC and the emergency-
oriented accounts of Public Law 480 Title II food aid, Migration and 
Refugee Assistance, and International Disaster and Famine Assistance 
are excluded in both fiscal year 2006 and fiscal year 2008 (as 
allocation of emergency funds is often unknown until the end of a 
fiscal year), there is actually a 15 percent increase in resources to 
Africa.
    East Asia and the Pacific.--With projected fiscal year 2008 MCC 
disbursements included, proposed fiscal year 2008 funding for the 
region increases by 15 percent over fiscal year 2006. Democratic 
challenges and terrorist threats require that peace and security 
programs emphasize counterterrorism and conflict mitigation while also 
maintaining military assistance for key War on Terror partners. 
Resources for these types of key security programs make up 18 percent 
of the request for the region. Countries such as Indonesia, the 
Philippines, and Mongolia collectively receive 53 percent of the 
region's request.
    Near East.--The fiscal year 2008 request for the Near East 
represents a 4 percent increase over fiscal year 2006, including 
reduced levels for Egypt and Israel under glidepath agreements. The 
fiscal year 2008 request emphasizes continued investments in Peace and 
Security and political reform. Accordingly, funding for Peace and 
Security increase by 4 percent, while investments in Governing Justly 
and Democratically increase by more than 80 percent. The fiscal year 
2008 request is concentrated in Iraq, Israel, Egypt and Jordan, 
representing 93 percent of the region's budget.
    South and Central Asia.--Funding to South and Central Asia 
increased by 6 percent in the fiscal year 2008 request compared to 
fiscal year 2006 levels for the region. Funding will continue to 
support the Global War on Terror through security, reconstruction, 
development and democracy efforts, particularly in Afghanistan and 
Pakistan, which represent 84 percent of the region's request. Success 
in these countries is critical to achieving peace, stability, and 
development progress throughout South and Central Asia. Funding for the 
five Central Asian countries declined by nearly 24 percent from fiscal 
year 2006 to fiscal year 2008. Much of the decline comes in Uzbekistan, 
where the government has worked actively to limit U.S. assistance 
related to reform, and in Kazakhstan, whose oil wealth lessens the need 
for our assistance.
    Western Hemisphere.--Foreign assistance for Latin America has risen 
dramatically since the start of the Administration, rising from $862 
million in fiscal year 2001 to a requested $1.4 billion in fiscal year 
2008 for State and USAID Administered programs. If the fiscal year 2008 
request is fully funded and MCC fiscal year 2008 disbursements are 
taken into account, resources to the Western Hemisphere will have 
doubled under this Administration, from $862 million in fiscal year 
2001 to $1.66 billion in fiscal year 2008--a 4 percent increase over 
fiscal year 2006.
    The focus of resources within the region has also changed. The 
Western Hemisphere, in general, has made significant progress over the 
last decade, although major challenges remain. Funds have therefore 
shifted from service-delivery in health and basic education, where the 
region has made progress relative to other regions, to economic growth 
and activities to help consolidate democratic gains. Our programs are 
targeted to improve government capacity and provide access to economic 
opportunity to all citizens, especially the poor and marginalized, by 
catalyzing private sector investments, reducing the cost of doing 
business, and expanding access to microcredit. With MCC disbursements 
considered, economic growth resources are up 80 percent in fiscal year 
2008. Resources to improve government capacity and strengthen 
democratic institutions are up 5 percent.
    I am aware of recent briefings where concern has been expressed 
about declining funding for our neighbors. In fact, my very first trip 
since submitting the fiscal year 2008 budget was to Bolivia, Ecuador, 
and Peru, three countries that have sustained decreases in the fiscal 
year 2008 budget. In each of these countries, the positive impact of 
our past investments was clear, and our ability to build on them with 
innovative programming and partnerships was also evident.
    Europe and Eurasia.--This region represents another success story 
in development. The fiscal year 2008 request for Europe and Eurasia 
represents a 26 percent decrease from fiscal year 2006, reflecting 
success achieved in the region. When projected fiscal year 2008 MCC 
disbursements in Georgia and Armenia are included, the reduction is 13 
percent from fiscal year 2006. While United States assistance has 
played a substantial role in supporting further integration of 
countries in Eastern Europe and the Western Balkans into Euro-Atlantic 
institutions, a number of difficult challenges remain across the range 
of foreign assistance objectives. Funds for Kosovo and Serbia represent 
27 percent of the region's request. Countries at the forefront of 
reform--Ukraine, Georgia, and Moldova--and countries that present 
democratic challenges--Russia and Belarus--together represent 30 
percent of the region's budget.

                               CONCLUSION

    For too long, the debate between Congress and the Administration 
regarding foreign assistance has lacked focus. Very much like a ship 
with too many calibrations, the foreign assistance boat would move in 
one direction for a while, then shift directions with a new 
Administration or a new Congress, oftentimes back-tracking over the 
same course it had traveled just a few years ago. As a consequence, 
many recipient countries have not been given the tools they need for a 
long enough period of time to help their countries sustain progress. 
Globally, progress has been slow and often imperceptible.
    The fiscal year 2008 Foreign Operations budget, built on the basis 
of the principles and methodologies described above, reflects country-
based strategies for progress, evaluated within the context of regional 
challenges and opportunities, and responsive to a shared goal and 
objectives targeted to achieve that goal. And since budget planning was 
thoroughly integrated, the fiscal year 2008 budget, like a Rubic's 
Cube, relies on each individual piece to maintain the integrity of the 
whole.
    In addition to developing the new Strategic Framework for Foreign 
Assistance, we have developed a standardized set of definitions, or a 
``Development Dictionary,'' if you will, of the programs that relate to 
our five priority objectives, and ultimately to the transformational 
diplomacy goal. The Development Dictionary describes what we mean, 
across all programs and sources of funding, when we describe a program 
as ``justice system reform'' or ``conflict mitigation.'' We published 
this reference on line and have invited comments from your staffs and 
the NGO community. Every dollar of the fiscal year 2008 budget is 
identified against these common definitions, making comparisons across 
fiscal years, countries, programs, and regions transparent and easy.
    We have developed common indicators for each of the programs 
defined in the development dictionary, such that we will be able to 
compare partner, program, and country performance across agencies and 
sources of funding. We developed these indicators with input from the 
NGO community and have posted them on line, together with an email 
address to collect comments.
    We have wrapped the money, definitions, and indicators into one 
system that will be able to tell you who is getting the money, what 
they are spending it on, and what results we expect to be achieved. 
This information will come together in an annual Operational Plan 
submitted to Washington for each country where foreign assistance funds 
are provided. For the first time, starting with fiscal year 2007 funds, 
we will be able to tell you what a $1 million change from X activity to 
Y activity will mean for a program so that you can better determine 
whether such a change, and its opportunity cost, best reflects the 
impact you want to have.
    In making these changes, we sought explicitly to be responsive to 
concerns raised by Congress about the transparency of our 
decisionmaking, the coherence of our resources, and our ability to 
account for results. My hope is that the first steps taken over the 
past nine months will support a robust dialogue between the legislative 
and executive branches about funding priorities. Because with this new 
transparency of information comes a new responsibility on both of our 
parts to raise concerns where we feel our differing priorities will 
have a detrimental impact on transformational diplomacy progress. I 
look forward to hearing your input regarding the prioritization of 
resources that we have laid on the table.
    Far more than just moving the deck chairs, the reform reflected in 
the fiscal year 2008 budget represents the re-calibration of the ship. 
But only when we discuss our differing priorities, in the spirit 
intended by the balance of powers between the executive and legislative 
branches, will the ship find its most appropriate and progressive 
course. We need to develop common priorities for the ship's movement to 
sustain permanent progress.
    I look forward to engaging and working with you over the coming 
months to develop our common path and urge you to fund the full fiscal 
year 2008 request.
    Thank you.

                       TRANSFORMATIONAL DIPLOMACY

    Senator Leahy. Well, thank you and it will be. You say in 
your statement that for the first time in the Nation's history 
all of our foreign assistance resources are being applied to 
the achievement of the single over-arching goal, 
transformational diplomacy, and how democratic, well-governed 
states respond to the needs of their people, reduce wide-spread 
poverty, and conduct themselves responsibly in the 
international system. I think that is a fair summary of what 
you said, and I support that. We all do.
    But isn't that what we've been trying to do ever since 
World War II?
    Ambassador Tobias. Well, yes, I think we have. I think the 
question is: Have we been as effective in doing it as we might 
be and what can we do as we go forward to do a better job of 
it?
    Senator Leahy. I think what I mean is we do a lot of 
things. We train teachers, we strengthen healthcare systems, we 
reform judicial systems which is extremely important to build 
trade capacity. So may I ask you this: What have we been doing 
that we're not going to do and what are we going to do that we 
haven't been doing?
    Ambassador Tobias. Senator, I think that it begins with all 
of us, those in the Congress and those in the administration, 
as well as people in the NGO community and others that have an 
important interest in all of this coming to a common conclusion 
around what is it we're really trying to get done here, and 
what is the best way to get it done. So the administration has 
laid out this framework as a point of at least starting the 
discussion, with the idea being that in some instances I think 
our activities, well intended as they have been, have been more 
successful in building dependency than they have been in 
building a sustainable set of programs to allow countries to 
progress on a trajectory and eventually graduate from the need 
to be dependent on foreign assistance.
    I think that our foreign assistance has sometimes had a 
thousand objectives. We've been a mile wide and an inch deep, 
and we haven't been clear and crisp----

                       FOREIGN ASSISTANCE BUDGET

    Senator Leahy. But I can think of some of the times when we 
supported some of the worst heads of state because they said 
they were anti-communist.
    Then after the breakup of the Soviet Union it was Mr. 
Putin's method of governing. I'm not sure what the major 
changes are sometimes but after that, we said we would support 
anybody who said they were anti-drugs, because that became the 
mantra, and in a number of instances we closed our eyes to 
severe problems in countries that we were supporting because of 
that.
    Now if they say they are anti-terrorist, even some 
countries that have harbored terrorists, well, then we support 
them.
    These mistakes have been made by both democratic and 
republican administrations.
    You testified that contrary to concerns expressed by some 
Members of Congress in fiscal year 2008, resources for the 
objectives targeted to achieving long-term development, 
governing justly and democratically and investing in people 
increased by 19 percent over fiscal year 2006 levels.
    But if you take the Millenium Challenge Corporation and 
HIV/AIDS out of the equation, then how do fiscal year 2006 and 
fiscal year 2008 compare?
    Ambassador Tobias. Well, first of all, I'm not a fan of 
taking HIV/AIDS and the Millennium Challenge Corporation out of 
the equation.
    Senator Leahy. Well, the reason I ask that is because the 
Millennium Challenge Corporation has a huge amount in the 
pipeline but hasn't spent much at all, so that's why I asked 
the question.
    Ambassador Tobias. Well, the way we have done the 
calculation is to work with the Millennium Challenge 
Corporation to determine what they believe their actual outlay 
will be during the year 2008 in each of the countries where 
they have a compact. We have assessed what we believe our 
foreign assistance will be on a country-by-country basis--not 
on the size of the compact but on what will actually happen in 
2008.
    But in many countries in Africa, for example, if you look 
at an education program in a country where 20 percent of the 
teachers are dying every year, it becomes pretty clear that the 
AIDS initiative is dealing with more than just AIDS; it's 
dealing with the fundamental fabric of the country, so I really 
do think it's appropriate to count all of it.
    Senator Leahy. Let's talk about that. For example, in 
Nigeria, you said you want to help them strengthen their 
institutions and make progress permanent. But if you take out 
the AIDS money--and I'm not suggesting we do--I've been a 
strong supporter, as you know, of adding money for HIV/AIDS 
long before it became popular. But if you take out AIDS you 
only propose an additional $20 million for Nigeria, a country 
of 125 million people. You cut aid to the Ukraine by $16 
million, I believe. Georgia by $21 million. How does this show 
us strengthening their institutions? You see what I'm getting 
at?
    Ambassador Tobias. Of course I do.
    Senator Leahy. We're going to put the money in for HIV/
AIDS. I've worked closely with the President and others on 
that. Even when he hasn't had it in the budget we've put it in, 
but how do we strengthen democracy with only $20 million for 
Nigeria?
    Ambassador Tobias. Well, we're proposing to spend a 
significant amount of money on democracy programs because 
they're so incredibly important. Indeed, in a number of 
countries, unless we have rule of law and solid democracy 
programs, it's not likely that other things are really going to 
work in a sustainable way.
    But in all cases, we have put the budgets together on a 
country-by-country basis using people with expertise both here 
in Washington and in the field assessing the resources that we 
felt we could make available, and making a determination based 
on what the most compelling issues are in that country as to 
where can we spend the money and make the greatest difference 
in moving that country forward.
    Senator Leahy. Sure, but in Nigeria that's about 20 cents a 
person, and I'm not sure you're going to build an awful lot of 
democracy or better court systems in that way. I know we have a 
huge amount of money going to Pakistan and Afghanistan and 
Iraq. We have a huge amount of money that goes to Israel and 
Egypt, and a lot goes to Colombia even though it hasn't stopped 
drugs coming into this country.
    I worry about the areas where--I think you'd agree with 
me--there are going to be problems if the United States does 
not get involved. My time is up, and I yield to Senator Gregg.

                        FORMER SOVIET REPUBLICS

    Senator Gregg. Thank you, and picking up on that note I 
recognize that you've got to cover the whole globe and you have 
to--therefore you end up not putting a lot of money except into 
a few nations that have high-visibility issues, such as Iraq, 
Afghanistan, Egypt, and Israel.
    But accepting that as the context, why is the budget deduce 
the funding for the former Soviet Republics that are, basically 
it seems, some of the most fertile ground in the world for 
developing democracies, and the rule of law in countries that 
would be natural allies, especially since many of them are on 
the rim of the Middle East and represent marginally Islamic 
countries that could be friendly.
    Ambassador Tobias. Are you talking about Russia or are you 
talking about----
    Senator Gregg. The former Republics.
    Ambassador Tobias. The former Republics. Well, again, we've 
tried to prioritize within each region the countries in that 
region that our people with expertise have felt were the 
greatest priorities, and then within each country we've tried 
to prioritize those particular areas where people have felt we 
could make the most difference. I'd have to go through on a 
country-by-country basis, which I'd be happy to do, but at the 
end of the day it's----
    Senator Gregg. Let's do that, because your funding to the 
Former Soviet Republics which are now independent has been cut.
    Ambassador Tobias. Senator, I'm sorry. I'm having a little 
trouble hearing you.
    Senator Gregg. The funding to the Former Soviet Republics 
has been cut in this budget; I'm wondering why. So let's go 
through each one. Let's start with Georgia. Why did you cut 
funds to Georgia?
    Ambassador Tobias. Do you want me to find the list now?
    Senator Gregg. No. I want you to answer the question: Why 
did you cut funds to Georgia?
    Ambassador Tobias. Well, funds were reduced in the sense of 
looking at the resources that were available, and the people 
with the expertise on the region and on the countries in the 
region making the choices that with scarce resources, we would 
put the money in the places that----
    Senator Gregg. Because there was obviously a tactical 
decision made, or a strategic decision made, that you would 
focus dollars on other accounts at a more significant level and 
reduce dollars to what are now Republics that used to be Soviet 
client states. I guess the bottom-line question is: Why was 
that decision made? Clearly there was a decision made to do 
that.
    Ambassador Tobias. Well, again, I don't know how to answer 
it other than to say that it was a matter of----
    Senator Gregg. Give me some specifics as to what made 
that----
    Ambassador Tobias. There was no systematic intent to reduce 
levels in the former Soviet Republics. We considered each 
country program on an individual basis and in the broader 
context of competing needs around the globe. The request for 
the region overall reflects successes in promoting reform and 
creating legacy institutions, as well as increases for some 
countries with pressing needs or significant opportunities. As 
a result, you will see funding increases for Turkmenistan, for 
example, in response to opportunities presented by the 
transition of power in the presidency, and for Tajikistan 
(excluding emergency food aid) to respond to the urgent need to 
secure its border with Afghanistan and promote reform. Funding 
has decreased in Uzbekistan, where the government has worked to 
actively limit United States assistance related to reform and 
in Kazakhstan, whose oil wealth lessens the need for our 
assistance. In Georgia and the Ukraine, we see increasing 
capacity and contributions from host governments, thereby 
justifying lower assistance levels.
    Senator Gregg. Well, I honestly can't believe that as head 
of the foreign assistance and head of USAID, you can't give me 
something--a specific rational for why we are--we have decided 
to turn away from those nations and move the dollars to other 
nations. Other nations seem to be such fertile ground for our 
capacity to develop stable nations and nations which have 
democracy, which have rule of law, and which are potentially 
significant allies in the war against fundamentalism.
    Ambassador Tobias. Well, it certainly isn't that we've 
decided to turn away from them; it's simply been a matter of 
taking the resources that are available and trying to make a 
determination about what is the best way to use those 
resources. But I will be very happy to respond on a specific 
basis on what the rationale was in each case.

         USAID ADMINISTRATOR AND DIRECTOR OF FOREIGN ASSISTANCE

    Senator Gregg. Well, it doesn't make sense to me that there 
was a rationale in each case, because it had to be a 
philosophical decision because it's so apparent that you have 
moved away from this region of the world and moved money into 
another region of the world, specifically Africa, it looks 
like. It was a regional decision; it wasn't country-by-country, 
I don't think, but certainly the dollars have been flying out. 
How do you divide your time between being head of foreign 
assistance and USAID?
    Ambassador Tobias. In a typical day, Senator, I start my 
day, when I'm in Washington, in the State Department and spend 
the morning, usually, in the State Department. Then at about 
lunchtime I go over to USAID and we set up the schedule for 
meetings and things over there for the afternoon.
    Some days I'm over there longer; some days I'm in the State 
Department longer, depending on what's going on on that 
particular day, but that's my basic plan.
    Senator Gregg. How does that work? I mean, that seems 
inherently disjointed.
    Ambassador Tobias. Well, I think it's working well. I think 
it will work even better a year from now, because when my 
predecessor was the head of USAID and there were two separate 
foreign assistance budgets, one for USAID and one for State 
Department foreign assistance, you'd have programs coming from 
different directions in a country. There was an enormous amount 
of coordination that needed to take place, and the 
Administrator of USAID spent an awful lot of time talking to a 
variety of people in the State Department in an effort to 
coordinate.
    I'm now talking to myself for those kinds of things, and I 
think the coordination is much easier and much better, so I 
think it's been a significant improvement.
    Senator Gregg. Should there even be more integration then? 
Should, I mean, the physical location of the two organizations 
be merged?
    Ambassador Tobias. Well, I would not favor that. I think 
that we need a strong USAID, we need a strong organization of 
professionals who are focused on foreign assistance who have 
chosen to focus their careers in that way, and I'm very, very 
proud of the people in the organization, for their dedication, 
their knowledge, and their hard work.
    At the same time, I think that we need to ensure that we 
have USAID strategically lined up with what the United States 
Foreign Policy interests are in the countries where we are 
working.
    I think on the ground, on a country-by-country basis, 
historically and currently, I think it's probably worked better 
than it has here in Washington, where the U.S. Ambassador is 
leading the U.S. Government team on the ground. The USAID 
Mission Director reports, in part to the Ambassador, and in 
part back here to USAID, but is the principal professional 
development person on the Ambassador's team, and the 
integration of what the U.S. Government is doing on the ground, 
you know, begins there.
    But in the planning process, and the coordination process, 
and the technical expertise and so forth that takes place in 
Washington, it's been more fragmented than it needs to be. But 
I don't think the solution would be to totally merge the two 
organizations.
    Senator Gregg. Thank you.

                STATEMENT OF SENATOR CHRISTOPHER S. BOND

    Senator Bond. Thank you very much, Mr. Chairman, and I 
would say to you and ranking member Gregg that even though I 
spend a very large part of my time working on military defense 
matters and intelligence matters, I believe this committee is 
extremely important because the old saw that in a battle 
against ideology, it's 20 percent kinetic and 80 percent 
economic development, ideological, and this committee, I 
believe, has a much more important role than we have been able 
to recognize in the budget to achieve our goal through 
diplomacy and economic development. So I think this is 
extremely important, and I am very much concerned about some of 
the things that are going on, Mr. Ambassador. Excuse me. You 
wanted to say?
    Senator Leahy. I was just going to say I appreciate that. 
I, having served on the intelligence committee here, was the 
vice chairman of it, and you see a global view that the rest of 
us do not see, and I appreciate that very much.

                 AGRICULTURE DEVELOPMENT IN AFGHANISTAN

    Senator Bond. Well, thank you. I think our members of the 
intelligence committee would agree. But Mr. Ambassador, I have 
some real concerns about some of the specifics I've learned.
    A little over a year ago I was in Afghanistan. This year, 
Senators Mikulski, Hutchison, Brownback, Cornyn, and I are 
again requesting $20 million be made out of USAID's 2008 
foreign operations bill for the establishment of a U.S. land 
grant consortium to be led by Texas A&M to implement widespread 
training activities, to assist farmers to comprehensive level 
not being achieved, to teach them how to use best techniques to 
grow pomegranates and other alternative crops and set up 
independent credit cooperatives.
    Last year USAID totally ignored the congressional intent 
when we put in $5 million and the money was dribbled out to 
individual initiatives--underway with individual colleges. The 
intent of that money was, and still is, to strengthen a 
nationwide agricultural extension system through programs 
planned and delivered by people who have been working over 100 
years to help farmers in the United States.
    I remain concerned about what appears to be a deeply 
entrenched relationship between Kimonics and USAID and Kabul 
and DC. It's making it very difficult if not impossible for 
other proven contractors and even other NGOs from getting 
funds.
    I've spoken with a number of people inside and outside of 
Afghanistan who are trying to do some good and are extremely 
frustrated when they run into the monopoly between USAID, 
Kimonics, and other large USAID contractors. Some of those 
people, I will tell you, include our military commander in 
Afghanistan, a top expert from USDA Department of Agriculture 
who was there, and President Hamin Karzaj who told me that he 
wanted to have this assistance.
    I understand over the last 4 years USAID have gone through 
some $600 million on agricultural development in Afghanistan 
and had shown darn little for it.
    Now, I know it's easier to shovel out a couple of hundred 
million dollars to a big contractor, but when it's not getting 
the job done, what I want to know is: Why will you not take the 
time and make the effort to utilize resources where we can get 
volunteers from extension services, men and women who have been 
trained for years to help farmers, why you are not willing to 
accept this idea for Afghanistan?
    Ambassador Tobias. Senator, I'm a big supporter of the 
contributions that the land grant universities make. I just 
came back from Lebanon a few weeks ago where I saw a program 
where dairy farmers who had been selling their products on the 
side of the road 2 or 3 years ago, are now competing in global 
markets because of a USAID project that created a cooperative, 
and the expertise that has come from land grant universities in 
this country to help them have the skills they need to provide 
high-quality products.
    I'll take a fresh look at what we're doing in Afghanistan 
and see who all is involved, and whether or not there's more we 
can do, because----

                     FINANCIAL SERVICES VOLUNTEERS

    Senator Bond. I want a response for the record. I know in--
I was in India about a year ago, and the President's 
agricultural knowledge initiative envisioned you using land 
grant colleges. What I want to know is why the hell we can't 
get you to follow congressional intent to start out on a small 
program in Afghanistan and save a whole bunch of money that 
nobody seems to know what good it has produced.
    I think this is--it's unbelievable that the amount of money 
that's been spent, and the apparent lack of any demonstrable 
progress. I think you can do a very good job if you'll work 
with volunteer organizations.
    By the way, that brings to mind, I had a visit recently 
from some of the outstanding leaders who had the Financial 
Services Volunteer Corp. These are experts in financial 
systems, banking from--some volunteers from our largest banks, 
from accounting institutions. They have worked in countries 
to--they developed the currency for Afghanistan. They were 
working in Indonesia to help them develop a system for 
countering money laundering.
    They have--they bring on a volunteer basis, with just 
support services needed, the expertise of our top financial 
professionals in the United States, the countries who need that 
help. They tell me that they are not getting funding anymore 
from USAID, and I would like to know why a dedicated group of 
professionals who are doing a highly sophisticated job for 
countries that need it, are being shut out. Do you know what 
the reason is?
    Ambassador Tobias. No, I don't, Senator, but I'll take a 
good look at that. I'm familiar with the organization, but----
    Senator Bond. I mean, they had John Whitehead, they've had 
other top professionals, and I'm just dumbfounded that you 
wouldn't be looking, looking for pools of volunteers that could 
help like that. Thank you, Mr. Ambassador. Thank you, Mr. 
Chairman.

                     FOREIGN ASSISTANCE BUDGET CUTS

    Senator Leahy. Thank you very much. I have some of these 
same concerns about grants going just to a small handful of 
contractors, big contractors who also have lobbyists here in 
Washington, and then it closes out others who often have very 
innovative and very good ideas.
    Now, the changes you've made to the budget process may be 
more coherent and transparent, but I'm mystified by some of the 
results. Take a country like Colombia that has received roughly 
a half a billion dollars, $565 million, in each of the past 5 
years. They get the same amount this coming year, although we 
know a number of things that have not worked. We know 
conditions in Colombia have changed.
    We know that the idea of stopping cocaine from coming into 
America has been basically a failure. The price of cocaine and 
availability is the same today as it was before we took 
billions of dollars out of programs that might've stopped 
people from using cocaine, put it into Colombia to stop it from 
coming in here.
    In Nepal, a country where years of fighting has cost 
thousands of lives, there's a chance to end the Maoist 
insurgency and bring democracy to replace a feudalist system, 
but you propose to cut our assistance.
    Democratic Republic of the Congo, a huge country. I can't 
think of many places that have more problems, but they had 
their first election in 40 years. It holds the key, I think, in 
many ways to the future of all of central Africa, and is very 
important to us. You want to cut our assistance.
    Certainly other countries, like China and others, seem to 
be ahead of us in realizing its importance but you propose to 
cut our assistance there.
    Vietnam, a country of 80 million people that is trying to 
build closer ties with the United States and the President 
actually went there last fall. With the exception of HIV and 
AIDS, you're going to cut our assistance there.
    Congress has tried to increase funding for global 
environment programs which have bipartisan support, 
particularly biodiversity in the Amazon. Central Africa where 
forests are being destroyed at breakneck speed. I mean, in 5 
year's time what may have taken 400 or 500 years before, you're 
slashing funding for those programs.
    Last year you said our intent is not to have a USAID budget 
or State Department budget, but a foreign assistance budget 
that would make all of it more coherent in a way that all of us 
could better understand.
    I'm all for that, but what good is coherence if it produces 
illogical outcomes? I mean, what do people say in the field? It 
certainly doesn't reflect what a lot in Congress and both 
parties have been saying. What is the thinking behind these 
outcomes?
    Ambassador Tobias. Senator, you are making very eloquently 
the point that I would hope to make this morning, and that is 
that I'm very, very hopeful that this year the Congress will 
not cut the administration's fiscal year 2008 request for 
foreign assistance, because we need every penny.
    If I take the $20.3----
    Senator Leahy. If I might, and I apologize for 
interrupting, but you know, we need every penny, but I want to 
know where it's spent.
    I've had times up here when we've had grandiose proposals 
for budgets in various administrations knowing that there's no 
money for the things that many people feel we should have and 
somehow we have to find the money. At Millennium Challenge 
there's huge amounts of money in the pipeline. I think you have 
to admit that started off with a very, very slow start.
    Ambassador Tobias. Well, if I take the $20.3 billion in the 
request for foreign assistance, and if I back out of that the 
Global AIDS Initiative, and if I back out of that the 
approximate $1.8 billion in funding request for those 
contingency accounts that will be allocated as we go through 
the year, like emergency food aid, and refugee assistance, and 
that kind of thing, and then if I take the 31 largest country 
programs, which I think tend to be less controversial, and 
represent those programs at $50 million or higher, I'm left, 
out of that $20.3 billion, with $3.6 billion to spread over the 
124 remaining country programs.
    So we have made some very, very difficult decisions in 
allocating this budget. We have tried to do it in a far more 
transparent way than it has ever been done historically, with a 
level of detail that neither the Congress, nor the 
administration has had access to in the past, so that as we 
continue our dialog we can determine why the decisions were 
made in putting this budget together, and understand where we 
did not get it right. What are the things that we may need to 
think about in different ways?
    But this has been a very conscious good-faith effort to try 
to be sure that each country's program is driven by what people 
on the ground in that country and here in Washington believe, 
given the resources available, can make the most difference in 
moving that country on a path toward independence.
    Senator Leahy. Well, what are the five countries that get 
the most money?
    Ambassador Tobias. Let's see. They are Israel, Egypt, 
Afghanistan, Pakistan, and Sudan.
    Senator Leahy. Sudan gets more money than Iraq? Or are we 
talking about----
    Ambassador Tobias. Israel, Egypt, Afghanistan, Pakistan, 
Sudan, South Africa, Colombia, Kenya, Nigeria, Jordan, 
Ethiopia, and Iraq. I'm talking there about the 2008 budget 
request.
    Senator Leahy. Well, maybe we have different ways to count 
how much goes into Iraq. I noticed recently the President cut 
funds for the cops program but we're adding increased money for 
police forces in Iraq. I heard in the paper today that we've 
trained them so well they went in and killed 40 people as 
revenge killings, the police did, today in Iraq.
    Anyway, my time's up. Let me yield to Senator Gregg. We're 
all trying to do the same thing. I'm just worried that we spend 
an awful lot of money in places where we aren't getting much 
out of it, and there's been too little in places where we have 
a great potential.
    Ambassador Tobias. Well, Senator, I share that concern and 
that's why we are trying, on the one hand, to make the most 
conscientious effort we can to be sure that we are spending the 
money in the most appropriate, effective way we can, and to lay 
out the data as transparently as possible so that we will all 
know how those decisions are made, and I think it will be 
easier for us to collaborate going forward as to what we ought 
to be doing.

                     ASSISTANCE FOR THE MIDDLE EAST

    Senator Gregg. Can you read those five countries again? 
Egypt, Israel--the five countries that have the highest? Egypt, 
Israel----
    Ambassador Tobias. Israel, Egypt, Afghanistan, Pakistan, 
and Sudan.
    Senator Gregg. How much money have we given to Egypt over 
the last 20 years?
    Ambassador Tobias. The 2008 request is $1.720 billion.
    Senator Gregg. What's the total we've given to Egypt and 
Israel in the last 20 years?
    Ambassador Tobias. U.S. assistance to Egypt and Israel has 
been governed by similar ``glidepath'' agreements since 1998. 
The agreement between the U.S. Government and the Government of 
Egypt established steady Foreign Military Finance (FMF) 
assistance at roughly $1.3 billion per year. In contrast, 
Economic Support Fund (ESF) assistance has declined $40 million 
per year from a starting level of $815 million in 1998.
    In the 10 years prior to the signing of the glidepath 
agreement (1988-1998), the United States obligated 
approximately $24 billion of economic and military assistance 
to Egypt. We have provided approximately $19 billion to Egypt 
since the signing of the glidepath agreement in 1998. This 
total includes fiscal year 1999 levels through the fiscal year 
2008 request, if fully funded. The share of Peace and Security 
assistance as a share of total assistance has increased from 
approximately 61 percent in 1998 to 73 percent in 2007. Peace 
and Security assistance funds primarily Egyptian purchase of 
U.S. military equipment to shift Egyptian orientation to the 
United States and to increase our interoperability.
    The agreement expires in 2008, and we are currently working 
with both Israel and Egypt on what the future may hold with 
regard to foreign assistance levels.
    Senator Gregg. So there's a lot of money going to the same 
places over and over again.
    Ambassador Tobias. That's right.

                    MILLENNIUM CHALLENGE CORPORATION

    Senator Gregg. But there's not a lot of money to places 
where we might have an opportunity to do some significant 
activities, such as we talked about earlier, the Former Soviet 
Republics. How much money is in the Millennium Challenge right 
now?
    Ambassador Tobias. I'm sorry?
    Senator Gregg. How much money is in the Millennium 
Challenge right now?
    Ambassador Tobias. I think their request, which is separate 
from the $20.3 billion, I believe their request in the budget 
is $3 billion in the 2008 budget.
    Senator Gregg. Do you know how much is unspent?
    Ambassador Tobias. No, I don't. I don't.
    Senator Gregg. How many countries qualify for the money in 
Millennium Challenge?
    Ambassador Tobias. I don't know. I don't think I have that 
data.
    Senator Gregg. I mean, do you expect any more countries to 
come on line and qualify for the Millennium Challenge in the 
near future?
    Ambassador Tobias. Well, there are a number of countries 
that are working hard to meet the MCC requirements. There are 
several countries who are in a so-call threshold status where 
we are funding threshold programs to work with them to get them 
to the point where they will meet the criteria, and yes, I 
would expect there will be more countries coming on board.
    Senator Gregg. You don't know who's in line, though, do 
you?
    Ambassador Tobias. No, I don't.
    Senator Gregg. I notice you've got Laos listed as something 
above the lowest category of nations where it seems to me it's 
a pretty repressive nation. Shouldn't it be lumped in there 
with Cuba and North Korea and----
    Ambassador Tobias. Well, these designations are determined 
by a lot of indicators that come from various organizations 
like Freedom House, and the World Bank, and so forth, and they 
fall where they fall.
    Senator Gregg. The State Department doesn't have any role 
in making those designations?
    Ambassador Tobias. Well, we have used a set of indicators, 
but the purpose of that categorization is to try to give us a 
sense of the kinds of development interventions that we likely 
need to be using in each of these categories of countries. 
Obviously in countries like that, we would expect that more of 
our effort would be focused on democracy programs.
    Senator Gregg. Well, I wish you'd go back and explain to us 
why Laos and Sudan are not in the restrictive category. I just 
don't see how either of those elements could possibly not be in 
the restrictive category. The import/export bank, what's the 
status in that?
    Ambassador Tobias. Senator, that's beyond my area of focus 
and expertise. I'll be happy to pursue anything that you'd like 
for me to, but I'll have to do that for the record.

                              AFGHANISTAN

    Senator Gregg. Okay. We've now spent how much money in 
Afghanistan?
    Ambassador Tobias. Since 2001 through fiscal year 2006, the 
U.S. Government has provided over $14.2 billion in foreign 
assistance to Afghanistan. Of this amount nearly $9 billion has 
gone for security assistance and $5.2 billion for 
reconstruction, humanitarian and governance assistance.
    Senator Gregg. Well, what are we spending the money on? 
Let's try it this way. How are we spending the money in 
Afghanistan?
    Ambassador Tobias. A lot of the money is going into 
building infrastructure that will help the economy. There's 
been a lot of money going into roads, a lot of money going into 
electricity, money going into programs to provide and enhance 
the capacity and capability of the government ministries.
    I have visited programs in Afghanistan out in the rural 
areas where we're teaching farmers, who have been former poppy 
growers, the skills to grow alternative crops. We have programs 
where farmers who have been poppy growers are being taught to 
be electricians, or plumbers, or other skills that can give 
them a livelihood in other areas.
    Senator Gregg. Do we expect that you're going to change the 
forces of the marketplace in Afghanistan and cause people to 
stop growing poppies when it's the most lucrative crop?
    Ambassador Tobias. Well, that's probably one of the most 
difficult issues in Afghanistan, and there's a hard look being 
taken right now at the whole poppy issue to look at what we've 
been doing, what's worked, what has not worked, what lessons 
can we learn from other places in the world.
    I just visited a program in Peru a couple of weeks ago 
where villagers that are growing coca leaves, it's made very 
clear to them that their coca plants are going to be 
eradicated, but if they are willing to band together and sign a 
compact with the government that they're going to get out of 
the coca plant business, then we are working with them to 
address other issues that may improve the quality of life in 
those villages--building a school, building a health clinic, 
whatever kinds of things that the village may think is a 
priority, and----
    Senator Gregg. Is that in Afghanistan?
    Ambassador Tobias. That's in Peru, but the program's been 
very successful and we're not doing that in Afghanistan but 
we're looking at that as something to take to Afghanistan as an 
example.
    Senator Gregg. I'd be interested in knowing to what extent 
the poppy growing has been abated by the dollars we've spend in 
Afghanistan. Do we have any studies to that?
    Ambassador Tobias. The United Nations Office on Drugs and 
Crime published a report in February 2007: Afghanistan Opium 
Winter Rapid Assessment Survey. With increasing ties between 
narcotics traffickers and elements of insurgency in southern 
Afghanistan, poppy cultivation in the South has increased. In 
contrast, a mixture of political will and incentives and 
disincentives, such as eradication programs funded by the U.S. 
Government, contributed to a decline in opium cultivation in 
the Northern provinces. As a result, several Northern provinces 
with very low amounts of poppy are well on their way to 
becoming poppy free.
    Senator Gregg. What percentage of our dollars--we've spent 
somewhere in the vicinity of $3 billion in Afghanistan--what 
percentage of those dollars have been directed at poppy-growing 
suppression?
    Ambassador Tobias. Since 2001 through fiscal year 2006, the 
U.S. Government has provided over $14.2 billion in foreign 
assistance to Afghanistan. Approximately 9.5 percent has been 
provided for counter narcotics.
    There are other areas in Afghanistan where we can look at 
the things we've been doing and there's been significant 
progress. School enrollment in the Taliban time was about 
900,000 people, it's now about 5 million. When the Taliban was 
there, about 8 percent of the Afghan population had access to 
healthcare; it's now about 80 percent. It used to take 15 hours 
to get from Kabul to Kandahar; it now takes about 6 hours on 
the highway that's been built.
    The economy in Afghanistan has gone from about $2.5 billion 
to $.4 billion at the time the Taliban was there, to about $8.8 
billion now, so there are a number of areas where we're making 
progress, but the drug part of the equation has not been, and 
that's why we're all taking a very hard look now at what's 
failed, and what's worked, and how can we do better.
    Senator Leahy. Afghanistan is a difficult case. We've made 
colossal mistakes in the past and again, you know, if you're 
anti-communist, so we arm the Taliban with a lot of weapons 
that they're still using. We get them Stinger missiles to go 
after--or shoulder-fired missiles to go after the Russians. I 
don't know if those things deteriorate after a while, but a lot 
of them they never turn back in, obviously, and still have.
    You say some things have worked and some haven't. If you're 
in an area where the Taliban has control, I don't know of any 
program that works. We did build the highway and I think that's 
good news, but the fact of the matter is most of the economy 
you've talked about is in the Kabul area.
    Some have said that President Karzai is really president of 
Kabul, not of Afghanistan, and that there is lawlessness 
outside. I would like to see everybody go to school. I want to 
see both boys and girls go to school, and it is hard to find a 
country that is more oppressive toward women than Afghanistan 
under the Taliban, but I'm afraid that a lot of that power is 
still with the Taliban.

                                 EGYPT

    In your budget justification--and I was thinking of this as 
I read some of the press in the last few days--you say that the 
U.S. Government supports the enactment of the political reforms 
outlined by President Mubarek during the 2005 presidential 
campaign, namely replacement of the emergency law with a modern 
counter-terrorism law, revision of the modernization law 
governing the judiciary, revision of the media law to expand 
press freedom, revision of the penal code to narrow the power 
of authorities to hold people without charge, and parliamentary 
input on broader constitutional reform. Any one of those 
happen?
    Ambassador Tobias. Well, we've been working very hard with 
the Egyptian Government in a variety of ways.
    Senator Leahy. I've talked to President Mubarek a number of 
times.
    Ambassador Tobias. Oh. I'm sorry. I misunderstood what you 
said.
    Senator Leahy. Because I've talked to President Mubarek a 
number of times. Everybody, and they're most gracious people, 
friendliest, they'll always talk to you, but name anything 
that's happened. We pour a huge amount of money in there. Name 
anything that's happened. I mean, any reforms, whether of the 
judiciary, or press freedom, any reform of political parties, 
any reforms in arresting people without charge? I mean, there 
may have been, I just totally missed it.
    Ambassador Tobias. Well, there's been some recent reforms 
in the financial services industry, for example, where they've 
gone from monopoly, a government-owned bank, to a more 
competitive banking industry, and our people there are working 
very hard with reform-minded people inside and outside the 
government.
    Senator Leahy. What has that done for people's rights?
    Ambassador Tobias. I'm sorry?
    Senator Leahy. What has that done to improve anybody's 
rights?
    Ambassador Tobias. Well, I think as the economy has grown 
and as civil society has grown, that has certainly put people 
on a journey in the right direction, but there's much, much 
more to do.
    Senator Leahy. You said puts them on a journey. If you're 
the person being thrown in an Egyptian jail because you dared 
speak out against the government, you're not on a journey in 
the right direction.
    We haven't had the right to legal counsel strengthened, we 
haven't had the media law expanded for press freedom, we have 
not had revision of the modernization law governing the 
judiciary. I don't see where the emergency law has been 
replaced. I don't see that they have narrowed the power to hold 
people without charge. Tell me honestly. Do you feel there's 
forward progress in Egypt?
    Ambassador Tobias. I think there is in some areas, but I 
think there's a great deal more to do, and I think it's 
important to ensure that the money we're spending and that the 
programs that we have in place are tied to clear expectations 
about what we believe ought to happen in that partnership, and 
lots of people are working very hard on those issues.
    Senator Leahy. I know they're working very hard. We have a 
huge embassy there, we've got all kinds of people running 
around, and it's wonderful--it adds to the traffic jams in 
Cairo, and I know they're dedicated people, but I don't see 
where we're getting a heck of a lot for our dollar there.
    I understand there are political considerations in sending 
money there, but we don't have money for other things. Senator 
McConnell and I worked to expand programs to strengthen the 
rule of law in China. Your budget justification, the fiscal 
year 2006 level for these programs was $1.1 million. In fiscal 
year 2006 we provided $20 million in the human rights and 
democracy fund for China, Hong Kong, and Taiwan. Where did that 
money go? Certainly the administrative cost wasn't $19 million 
out of that $20 million. How come there's only $1.1 million in 
there?
    Ambassador Tobias. I don't know the details of that 
program, but----
    Senator Leahy. I'm sure you're going to want to get me an 
answer.
    Ambassador Tobias. Well, what my effort is really focused 
on is trying to go forward and ensure that you know and we know 
exactly what we're proposing the money be used for, and that we 
have a very transparent way of measuring that, and that we're 
doing the best job we can focusing it.

                                  IRAN

    Senator Leahy. If the transparency is there, somebody let 
me know where the money went. I mean, when we went from $20 
million to $1 million, just what's happened. You propose $75 
million for Iran to support human rights defenders, labor 
activists, women, student, religious, ethic, minorities, rule 
of law and justice programs. Heck, I'd love to see money for 
all those things, but in Iraq if you accept money from the 
United State you become a target. Won't the same thing happen 
to Iran?
    Ambassador Tobias. Well, I think there are probably a lot 
of brave people who are willing to engage and take that risk. 
Some of that money is in----
    Senator Leahy. Take money from the United States?
    Ambassador Tobias. I'm sorry?
    Senator Leahy. Willing to take money from, as they call it, 
the Great Satan?
    Ambassador Tobias. Well, some of the money in that program 
is intended to develop a new independent media in order to 
reach the people of Iran with messages, and news, and 
information that's----
    Senator Leahy. Inside Iran?
    Ambassador Tobias. Probably not.
    Senator Leahy. I'm all for getting more media in there, and 
I understand--I've not been to Iran--but I understand from 
people I know and respect who've been to Iran that there's a 
great deal of interest in the United States. I have other 
questions for the record.
    Some of these questions Senator Gregg and I and Senator 
Bond ask, we're not trying to play ``gotcha,'' we're just very 
concerned where the money goes. I understand some of the 
political considerations; every administration's had political 
considerations. But it's one thing to speak of lofty goals; 
it's another to affect the people on the ground. I'd like to 
see more competition among those who seek these kind of grants.
    Ambassador Tobias. One of the considerations that I have 
put into the country Operational Plan Process is that any 
country where the U.S. Government program is spending more than 
15 percent of its resources with a single source, I want to see 
it put on the table and justified as to why we're doing that.
    Now as you said, in some cases where people are shorthanded 
and operating expenses have been cut, it's easier to administer 
1 big contract rather than 10 small contracts. We, the Congress 
and the administration together, need to address that, and be 
sure that people have the tools to be able to operate with a 
lot more and newer participants and I'm trying pretty hard to 
do that.
    Senator Leahy. Especially among those 10 separate 
contracts, there may be three or four that are really going to 
hit the mark and would be a model for elsewhere.
    Ambassador Tobias. Yes.
    Senator Leahy. Okay. Well, thank you. I will place the rest 
in the record. I thank you for being here. You have one of the 
most difficult jobs in Government and I don't envy you that at 
all. Thank you.
    Ambassador Tobias. Thank you, Senator.

                          SUBCOMMITTEE RECESS

    Senator Leahy. Thank you all very much. The subcommittee 
will stand in recess to reconvene at 10:30 a.m. on Wednesday, 
April 18, in room SD-138. At that time we will hear testimony 
from Dr. Kent R. Hill, Assistant Administrator, United States 
Agency for International Development.
    [Whereupon, at 11 a.m., Thursday, March 28, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Wednesday, April 18.]


  STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2008

                              ----------                              


                       WEDNESDAY, APRIL 18, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Patrick J. Leahy (chairman) 
presiding.
    Present: Senator Leahy.

           UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

                        Bureau for Global Health

STATEMENT OF DR. KENT R. HILL, ASSISTANT ADMINISTRATOR

             OPENING STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. I apologize for being late. It's not often 
we have this distinguished a panel. We had votes that were 
supposed to have been earlier today, partly to accommodate this 
hearing, and then as sometimes happens in the Senate, things 
slipped.
    This hearing focuses on the aspects of our global health 
programs which address the core public health needs of the 
world's poorest people. I think of when children of people in 
my office, or my own grandchildren, get immunizations and it is 
a routine thing, and I think of so many children around the 
world where this does not happen, for them or their families.
    The chart on my right shows funding for HIV and AIDS, which 
has--for obvious reasons, and with bipartisan support of this 
subcommittee--increased dramatically in recent years, but 
funding for maternal and child health, and family planning and 
reproductive health, has languished.
    I don't want this to be an either/or thing, by any means. 
But, I am concerned, when you consider what a difference these 
programs make, and what we take for granted in our own country.
    Over the past 30 years, expanded immunization programs, 
often costing only pennies a child, have saved millions of 
lives. Family planning and reproductive health programs have 
also made enormous differences in child survival and women's 
health. USAID has been in the forefront of these efforts.
    But despite the great progress and countless lives saved, 
11 million children--11 million children under age 5--die each 
year, mostly from easily preventable and treatable causes, like 
diarrhea, pneumonia, or measles. Eleven million children each 
year--that's about 20 times the total population of my State of 
Vermont. Twenty times. That's each year.
    The administration's fiscal year 2008 budget request for 
these programs is $373 million, but that's compared to $420 
million in fiscal year 2007. An estimated 200 million women 
still lack access to family planning. Half a million yearly 
maternal deaths would be prevented with basic reproductive 
health services. The administration's budget request for these 
programs is $325 million, compared to $436 million in fiscal 
year 2007.
    What I worry about is we're short-changing the programs 
that have a proven and long history of success. We're also 
witnessing an alarming exodus of health professionals from 
developing countries, to higher-paying jobs in industrialized 
countries. The short- and long-term consequences of this brain 
drain, coupled with the deaths of countless health workers from 
AIDS, are staggering.
    I think of a country as great and powerful as the United 
States, and a country that has great economic means, that 
spends far less on maternal and child health, and on family 
planning and reproductive health for the world's 2 billion 
poorest people than we spend for the same purposes in the State 
of Vermont, with 625,000 people. We are far from being a 
wealthy State. I think most Vermonters would find that 
unacceptable, and I hope most Americans would find it 
unacceptable.
    Dr. Hill, who is the Assistant USAID Administrator for 
Global Health, will describe the administration's request.
    Dr. Helene Gayle is currently the President of CARE, one of 
the country's leading organizations fighting global poverty. 
She previously headed USAID's HIV/AIDS programs, and at the 
Gates Foundation she was the Director of HIV, TB, and 
reproductive health. Dr. Gayle and I have had discussions 
before, and my wife has, too, with her, and we consider that a 
privilege.
    Laurie Garrett is Senior Fellow for Global Health at the 
Council on Foreign Relations. Her Pulitzer Prize-winning book 
``The Coming Plague'', and her recent book ``Betrayal of Trust, 
the Collapse of Global Public Health'', should be read by every 
Senator, and every House Member, for that matter.
    Dr. Nils Daulaire is an old friend from my own State of 
Vermont, he's President of the Global Health Council, and after 
serving as USAID's Senior Health Advisor, he has been a friend 
and advisor to me and to others.
    So why don't we start with Dr. Hill, and place your full 
statement in the record. I wonder if you might sum up in 5 or 6 
minutes. Then we will go to Dr. Gayle, and Ms. Garrett, then 
Dr. Daulaire.

                   SUMMARY STATEMENT OF DR. KENT HILL

    Dr. Hill. Thank you, Chairman Leahy. I want to thank you, 
first of all, for holding this hearing, for your personal 
passion on these issues, which has been evident for so many 
years, and for the opportunity to testify with my esteemed 
colleagues and friends about these important issues.
    As you're well aware, over many years USAID has contributed 
to impressive reductions in child and maternal mortality, and 
in helping women and couples achieve the size of family they 
desire. In the process, we have strengthened health systems, 
built the capacity of developing countries to reduce maternal 
and child deaths, and provided basic health services.
    Maternal and child health, and family planning are often 
seen as separate and distinct, vertical and disconnected. But 
USAID is working very hard to integrate our programming, an 
approach that promotes efficiency and sustainability.
    I will talk about maternal and child health, and family 
health planning separately, but I do so only for ease of 
presentation--as they are, in fact, implemented in an 
integrated fashion in our country programs.
    Mothers and their young children bear a disproportionate 
share of the burden of diseases and preventable mortality in 
developing countries each year. More than 500,000 women die of 
complications of pregnancy and childbirth.
    Women in sub-Saharan Africa have more than a 150-times 
greater risk of dying in childbirth over a lifetime than women 
in the United States. Our programs focus on interventions 
targeting the high mortality complications of pregnancy and 
birth that account for two-thirds of maternal mortality; this 
would be hemorrhage, hypertension, infections, anemia, and 
prolonged labor.
    In USAID-assisted countries, skilled birth attendance has 
increased from an average of 37 percent in 1990 to 50 percent 
in 2005. Ten USAID-assisted countries have reduced maternal 
mortality by 33 percent on average over a decade, demonstrating 
that substantial progress is achievable.
    In this chart, which I won't detail for you, you can see 
all the lines going down; these are all countries that, over 10 
years, have seen a substantial decline in maternal mortality.
    But, every year, 3.7 million newborns fail to survive even 
the first month of life. Newborn mortality has not been reduced 
as much as mortality among older infants and children, making 
it the unfinished agenda of child survival.
    Let me now turn to child survival. Twenty years ago when 
USAID and UNICEF launched the Child Survival Revolution with 
the support of Congress, an estimated 15 million children in 
the developing world died every year. Without action, the 
number of deaths today would be more than 17 million each year.
    Instead, as a result of global child survival efforts, by 
2005, the number of child deaths was reduced to about 10.5 
million--still far too many, but representing more than 6 
million childrens' lives now being saved every year.
    Over the past 20 years, the United States has committed 
more than $6 billion to this effort, which has yielded public 
health successes at an unprecedented global scale. For example, 
almost 1 billion episodes of child diarrhea are treated with 
oral rehydration therapy each year, reducing deaths from 
diarrhea by more than half since 1990. More than 100 million 
children receive basic immunizations every year. More than 75 
million cases of child pneumonia receive treatment. Child 
malnutrition has been reduced by 25 percent, from 1 in 3 to 1 
in 4. An estimated 5 million children have been saved from 
death from paralysis through the polio eradication initiative. 
Finally, 500,000 children were saved last year by micro-
nutrition supplementation.
    These accomplishments are not attributable to USAID alone. 
Yet, as the graph to my left shows, in almost 30 countries with 
sustained USAID investment in child survival, we have seen 
significant reductions in mortality of children under the age 
of 5. The takeaway here is that the lines that are higher, in 
blue, are 1990, and the red shows what it's been reduced to. 
Wherever we've had a chance to work on these issues, we have 
been able to make a tremendous difference.
    These are great accomplishments. But even greater 
challenges remain, such as saving the lives of the more than 10 
million children who still die each year. I appreciate the 
chairman mentioning that fact--we must focus on the work left 
to be done.
    As the next graph shows, over two-thirds of the remaining 
child deaths--6.5 million--are preventable. Now, I want to make 
a point here. You saw the 15 million that were dying in the 
Eighties; you can see how many would be dying today if we did 
not act and that is 17 million. You see the number, the 10.5 
million that are still dying. Despite saving the lives of 6.5 
million, the point I want to make is the next one. Of that 10.5 
million, two-thirds of those deaths can be averted through 
proven interventions. Only 4 million of that 17 million 
represent things that would be very tough for us to get at.
    Now, to be sure, a lot of that remaining work is in remote 
areas and would cost a bit more, but it is what we ought to aim 
at. By replicating our best practices, I hope some of this came 
through. Anyway, by replicating our best practices and new 
approaches and interventions, we believe that it is possible to 
achieve reductions of 25 percent in under 5 years and maternal 
mortality in most of these countries by 2011.
    Now, let me turn to family planning for a minute. USAID and 
Congress's joint support for family planning has resulted in 
many successes since 1965. The use of modern family planning 
methods in the developing world has increased by a factor of 
four, from less than 10 percent to over 40 percent in the 28 
countries with the largest USAID-sponsored programs. The 
average number of children, per family, has dropped from more 
than six to less than four. Enabling women and couples to 
determine the number and the timing of their births has been 
crucial in preventing child and maternal deaths, improving 
women's health, reducing abortion, preserving often scarce 
resources, and ensuring a better life for individuals and their 
communities.
    To be sure, the United States is the largest bilateral 
donor and the acknowledged world leader in advancing and 
supporting voluntary family planning services.
    Because of our success, we are now able to address those 
countries with the greatest need for family planning and have 
strategically shifted our resources to do so. Many countries in 
Africa, for example, are characterized by low rates of 
contraceptive use, high fertility, and high unmet need for 
voluntary family planning.
    Between 1994 and 2000, there were nearly 39 million 
unintended pregnancies in Africa, and 24 percent of the women 
there expressed an unmet need for family planning. Nearly half 
of the world's maternal mortality occurs in Africa. As you can 
see in this particular chart, the unmet need is highest in sub-
Saharan Africa, but it is very great in areas of Asia, the 
Middle East, Latin America and Central Asia. To be sure, we try 
to graduate countries, and we have done so successfully.
    One final issue, perhaps, deserves our attention and that 
has to do with the ``brain drain.'' One challenge that faces us 
is the movement of trained healthcare providers away from the 
developing countries into more developed countries, commonly 
referred to as a ``brain drain.''
    USAID is trying to deal with this, and deal with health 
worker retention, in almost every country in which we work by 
strengthening in-service training, by reinforcing supervision 
systems so that they provide positive support to these workers, 
and by instituting quality improvement methods. This won't 
completely solve the problem, but this is what we have to work 
very hard on. There has been an increase in retention in places 
like Ghana, Namibia, and Uganda.

                           PREPARED STATEMENT

    USAID-supported maternal-child health programs and family 
planning programs have a proven success record. Our support has 
reduced under-5 mortality in almost 30 countries and maternal 
mortality in 10 countries. USAID-supported family planning 
programs have been successful in increasing access to and use 
of modern contraceptives in all regions of the world. We now 
have program approaches and interventions that will allow us to 
build on these successes. We have the experience to do it, and 
with the continued support of Congress, we will be able to 
contribute to further gains in maternal and child health, and 
family planning throughout the developing world.
    Thank you very much.
    [The statement follows:]

                 Prepared Statement of Dr. Kent R. Hill

                              INTRODUCTION

    Chairman Leahy, Senator Gregg, and other distinguished members of 
the Committee, I would like to thank you for convening this important 
hearing and for inviting me to testify. U.S. development assistance has 
brought dramatic improvements in health, income advancement, and 
education to much of the developing world in the last 50 years. Average 
life expectancy in low and middle-income countries increased 
significantly during this same period. Good public health underpins 
these advances. Indeed, research findings and country experience have 
demonstrated an inextricable link between investments in improving 
individual and collective health status and a nation's economic 
development and performance. Many of these advances are due, in large 
part, to your continued support for maternal and child health and 
reproductive health programs.
    USAID has a proven track record that has contributed to impressive 
reductions in child and maternal mortality and in helping women and 
couples achieve the size of families they desire in all regions of the 
world. Our support has helped to reduce under-five mortality in almost 
30 countries and maternal mortality in ten countries. USAID-supported 
voluntary family planning programs have been successful in increasing 
access to and use of modern contraceptives in all regions of the world. 
In the process, we have strengthened health systems and built the 
capacity of developing country institutions to reduce preventable 
maternal and child deaths and provide basic health services. Your on-
going commitment and support for maternal and child health has been and 
is critically important. As I often remind my staff, it is a great 
privilege to have work to do which matters, which saves lives of 
children and mothers, and it is you in the Congress whose compassion 
and support makes this work possible. And I want to express my great 
appreciation to you for this.
    In talking to you about our work in improving maternal and child 
health (MCH) and family planning and reproductive health (FP/RH), I 
would like to focus on five key points:
  --Our programs have a proven record of success.
  --Despite real progress, our work is not done.
  --We have pioneered program approaches and continually develop new 
        interventions that have made and will make a difference in our 
        progress.
  --There are crucial opportunities to accelerate progress.
  --We can take advantage of these opportunities by capitalizing on 
        existing resources and by focusing on key countries.
    Maternal and Child Health and Family Planning are often seen as 
separate and distinct--vertical and disconnected. But USAID is working 
to integrate our programming to the fullest extent possible, an 
approach which increases the affordability and sustainability of our 
global efforts to tackle these important public health challenges. For 
example, we are making substantial progress integrating our programs 
for women and children and building consolidated platforms such as 
antenatal care and community-based distribution approaches for family 
planning, child vaccinations, and other important health interventions. 
Most of our missions already support integrated MCH/FP programs and 
help to build broad-based health systems. These programs strengthen 
drug management, supervision, community outreach, and other critical 
systems needed to deliver basic public health services.
    In all our health programs, including MCH and family planning and 
reproductive health, we work to build human and organizational 
capacity, including taking steps to address the so-called ``brain 
drain.'' Our programs help strengthen human resources to implement 
quality health care services through workforce planning, allocation, 
and utilization; strengthened systems for sustained health worker 
performance on the job; and training of health professionals. While, as 
a development agency, we cannot affect recruitment policies of the 
developed world, we are working on ways to keep health workers in their 
countries by working with governments on developing appropriate 
incentives, providing clear and equitable career paths, and offering 
continuing education and professional development. Other projects also 
work to strengthen management systems and increase leadership capacity.
    By strengthening and building upon common service delivery 
platforms, we help to support the specific goals of new high-intensity 
initiatives like the President's Emergency Plan for AIDS Relief 
(PEPFAR) and the President's Malaria Initiative (PMI), and therefore 
advance countries' ability to deliver the full range of health 
services.
    I will talk about MCH and FP in separate sections, but I do so only 
for ease of presentation, as they are implemented more and more in a 
fully integrated fashion in country programs.
    Using cost-effective tools and approaches, USAID and its 
international development partners have an unprecedented opportunity to 
accelerate progress in MCH and family planning, leading to further 
reductions in maternal and child mortality and unintended fertility.

            MATERNAL, NEWBORN, AND CHILD SURVIVAL AND HEALTH

    To achieve impact in maternal, newborn, and child health, USAID has 
consistently applied an approach that focuses on:
  --working with countries having high burdens of maternal and child 
        mortality and malnutrition;
  --developing and delivering high impact maternal and child health 
        interventions such as increasing skilled attendance at birth, 
        control of post-partum hemorrhage, oral rehydration therapy 
        (ORT), immunization, and vitamin A;
  --bringing these interventions as close as possible to the families 
        who need them;
  --supporting results-oriented research to develop new interventions 
        and strengthen programs;
  --monitoring progress; and,
  --strengthening the capacity of countries and communities to save the 
        lives of their own women and children.

                      MATERNAL AND NEWBORN HEALTH

The burden of maternal and newborn mortality and disability
    Each year more than 500,000 women die of complications of pregnancy 
and childbirth. Indeed, this is the second most common cause of death 
of women of reproductive age. While the number of deaths is disturbing 
enough, it is estimated that an additional 15-20 million women suffer 
debilitating consequences of pregnancy. Pregnancy-related mortality 
shows the greatest inequity of all health indicators between the 
developed and the developing worlds. For example, the one-in-16 chance 
over a lifetime that a woman in sub-Saharan Africa has of dying as a 
result of pregnancy is more than 150 times greater than the one-in-
2,500 risk of a woman in the United States. In many Asian and Latin 
American countries, improved national averages often obscure the 
substantial risk of pregnancy that still remains for women living in 
poverty. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In addition, 3.7 million newborns die annually, failing to complete 
even the first month of life. As noted, newborn survival is 
inextricably linked to the health and nutritional status of the mother 
before and during pregnancy, as well as her care during labor and 
delivery. For this reason, USAID's programs always link mother and 
infant. As we make progress in reducing under-five mortality in 
general, the deaths of newborns in the first 28 days of life comprise a 
greater proportion of under-five and infant deaths. Globally, newborn 
mortality represents over one-third of all mortality among children 
under age five; however, in countries which have made greatest progress 
in child survival, newborn mortality can be more than half of the 
remaining deaths of infants and children. Thus, further progress in 
child survival must emphasize reduction of newborn deaths as a 
critically important element.

We have shown that substantial progress can be made in reducing 
        maternal and newborn deaths
    Despite the challenges faced in reducing maternal mortality, USAID 
has helped demonstrate that real progress can be made. Because maternal 
mortality is normally measured every 5-10 years, the globally-accepted 
proxy for maternal mortality is coverage at birth by skilled 
attendants. Across all USAID-assisted countries, skilled attendance has 
increased from an average of 37 percent in 1990 to 50 percent in 2005; 
the greatest progress has been in the Asia and Near East region, where 
coverage has more than doubled, increasing from 21 to 47 percent. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Most important, although global progress in reducing maternal 
deaths has generally been slow, ten USAID-assisted countries have 
achieved average reductions of maternal mortality of 33 percent over a 
decade. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Family planning also makes a substantial contribution to saving the 
lives of women by reducing the number of unintended pregnancies (each 
of which exposes a woman to risk) and by reducing abortions.
    For newborn mortality reduction, USAID funded-research has 
documented a 33 percent decline in newborn mortality in Sylhet, 
Bangladesh with a package of home-based essential newborn care, and a 
50 percent decline in Shivgarh, India with a similar program. Such 
programs have the potential to produce widespread impact on newborn 
survival in settings where most births take place at home, and they are 
now being scaled-up. In large controlled trials, community-based 
programs for detection and antibiotic treatment of life-threatening 
neonatal infections have also demonstrated the potential to reduce 
newborn mortality by almost half. We and other partners are replicating 
these trials and--if they are successful--will work with countries to 
apply the results in MCH programs. Neonatal interventions are 
relatively new in such programs, so we do not yet have examples of 
national-level mortality reduction. However, very recent analyses 
suggest that, as these interventions are scaled-up, we are beginning to 
see overall declines in newborn mortality at the global level.

This success can be scaled-up through expanding the use of proven, low-
        cost interventions
    Our work demonstrates that many of the major causes of maternal 
death are substantially preventable and treatable with low-cost 
interventions. USAID has sharpened its focus on a set of highly-
effective interventions targeting specific high-mortality complications 
of pregnancy and birth--hemorrhage, hypertension, infections, anemia, 
and prolonged labor. Together, these complications account for two-
thirds of maternal mortality. Hemorrhage alone accounts for almost one-
third, and USAID has been in the forefront of promoting ``active 
management of the third stage of labor,'' a highly-effective technique 
for preventing postpartum hemorrhage.
    USAID has recognized that attention to the newborn is essential to 
success in our child survival programs. Increasing evidence and program 
experience indicate that we can significantly reduce newborn mortality 
by combining focused antenatal care, a package of essential newborn 
care that enhances the survival of all infants, detection and treatment 
of serious neonatal infections, and community and facility-based 
approaches to special care for low birth weight babies. These 
approaches especially target newborn infection and birth asphyxia, 
which together account for more than 60 percent of newborn deaths. 
USAID is presently supporting introduction or expansion of newborn care 
programs based on these elements in 20 countries.

Accelerating progress
    While we have been able to demonstrate important progress in 
maternal survival in a number of countries, we recognize that sub-
Saharan Africa has generally made little progress and represents a 
special challenge. In response to this stagnation of progress in sub-
Saharan Africa, USAID has initiated a new ``Safe Birth Africa'' 
initiative to increase skilled attendance at birth, beginning in Rwanda 
and Senegal. This initiative includes a focus on decreasing financial 
barriers for families so that they will be more likely to bring 
expectant mothers for skilled care at birth. It also involves expanding 
the mandate of frontline providers so that they can perform life-saving 
measures, along with quality improvement approaches to ensure that good 
clinical practice standards are systematically applied. USAID plans to 
expand this work to other high burden countries in order to increase 
skilled attendance at birth and coverage with life-saving care.
    In all countries where maternal mortality is high, as well as in 
countries where there is wide disparity in birth outcomes between rich 
and poor, USAID is intensifying its work to spotlight specific life-
saving interventions. To expand the use of ``active management of the 
third stage of labor'' to prevent postpartum hemorrhage, USAID launched 
the Prevention of Postpartum Hemorrhage Initiative in 2002. As of 2006, 
this approach had been introduced into MCH programs in 15 countries. In 
support of this intervention, we are working to get oxytocin, the drug 
that contracts the uterus to reduce bleeding after birth, into single-
use UNIJECT injection devices, so that it can be provided by skilled 
birth attendants to women in peripheral health centers and homes. 
Because oxytocin is sensitive to heat, we are also exploring a time/
temperature index to be put on the oxytocin vial, similar to the 
Vaccine Vial Monitor, to ensure that medication given to women is 
potent and that health workers do not unnecessarily discard oxytocin 
that has not been refrigerated.
    In addition to further expansion of essential newborn care at 
birth, USAID is applying research results on treatment of sick newborns 
with antibiotics in the community. One step is testing the delivery of 
antibiotics in UNIJECT devices, so that treatment can be administered 
easily and safely by frontline-care providers. These newborn activities 
represent the combination of technical leadership and program 
application that USAID brings to MCH programs, working in partnership 
with other donors and recipient countries.

Reversing maternal disability
    While our efforts continue to emphasize safe births and prevention 
of maternal mortality and disability, we are also providing 
compassionate care for women who suffer the devastating problem of 
obstetric fistula, a consequence of prolonged labor that can cause a 
woman to leak urine or feces, often resulting in divorce and social 
isolation. In 2004, USAID began a program to provide surgical treatment 
for such women. By the end of 2006, USAID was supporting eighteen 
fistula repair centers in eight countries of south Asia and sub-Saharan 
Africa. This support included physical upgrading of centers, training 
of surgeons, nurses and counselors, and mobilizing more than 5,000 
community agents to change norms to delay pregnancy, reduce stigma of 
affected women, and promote use of family planning and maternity 
services. Over 2,000 surgeries have been completed.

                             CHILD SURVIVAL

    Let me now turn to the child survival component of our MCH program. 
This is one of the cornerstone components of USAID's health 
programming. Arguably, the quantifiable, at-scale results generated by 
the child survival and family planning programs helped build the 
confidence that paved the away for later investment in other global 
health programs, from TB and malaria to HIV/AIDS and Avian Influenza.
    The child survival program has a proven record of success, achieved 
by delivering high-impact interventions. Twenty years ago, when USAID 
and UNICEF launched the ``child survival revolution'' with the support 
of Congress, an estimated 15 million children under age five in the 
developing world died from common, preventable diseases each year. 
Across the developing world, more than one in 10 children did not 
survive to see their fifth birthday; in some countries, it was one in 
five. If the same rates of infant and child mortality existed today, 
the number of deaths would be more than 17 million each year. In 
contrast, for 2005 WHO and UNICEF estimate the number of children under 
five who died to have been reduced by more than one-third, to 10.5 
million--this is still far too many preventable deaths, but it means 
that more than 6 million children's lives are now being saved every 
year through global child survival efforts.
    Over the past 20 years, the United States has committed more than 
$6 billion in support of USAID's global child survival efforts. In 
collaboration with international, national, and private sector 
partners, this effort has yielded public health successes on an 
unprecedented global scale:
  --Almost a billion episodes of child diarrhea are treated with 
        lifesaving ORT each year, reducing child deaths from diarrheal 
        disease by more than 50 percent since 1990.
  --More than 100 million children receive a set of basic immunizations 
        each year, and tens of millions more receive supplemental 
        immunizations against polio, measles, and other killer 
        diseases.
  --More than 75 million cases of infant and child pneumonia are taken 
        for treatment by trained health workers.
  --Malnutrition among children under age five has been reduced from 
        one in three to one in four, a 25 percent reduction.
  --The Polio Eradication initiative has saved an estimated five 
        million children from death or paralysis.
  --Half a million children are estimated to have been saved last year 
        alone by micronutrient supplementation programs.
    These accomplishments are not attributable to USAID alone. In 
virtually all countries where it carries out child survival and 
maternal health efforts, USAID invests its resources in ways that best 
interact with and leverage the contributions of other donors and of the 
country itself. Yet, as the attached graphic demonstrates, in almost 
all the countries where USAID made an average annual investment of at 
least $1 million of child survival and maternal health funds each year 
during 2003-2005, we have seen significant reductions in mortality of 
children under age five. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Despite real progress, there is still a substantial job left to do
    Sustaining this progress is itself a challenge, especially in the 
poorest countries with the weakest governments and health systems. A 
greater challenge is saving the lives of the remaining 10.5 million 
children who still die each year. As shown in the graph from the 2003 
authoritative review of Child Survival in the medical journal The 
Lancet, the causes of most of these child deaths continue to be 
malnutrition, the common infections of newborns and young children--
diarrhea, pneumonia, infections of newborns, and, especially in Africa, 
malaria--and other life-threatening newborn conditions.\1\
---------------------------------------------------------------------------
    \1\ ``All other causes'' includes principally congenital anomalies, 
malignancies, all other infectious diseases, and injuries & accidents.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Lancet analysis indicates that over two-thirds of these child 
deaths are preventable with interventions that are available or in the 
pipeline, including Oral Rehydration Therapy for dehydrating diarrheal 
illness; basic treatment of serious infections including pneumonia, 
malaria, and newborn sepsis; improved nutrition through breastfeeding, 
better child feeding practices, and management of acute malnutrition; 
and delivery of micronutrients, especially vitamin A and zinc, which 
improve children's ability to resist infections or help them fight them 
off when they occur.
    Countries and the global community--with USAID playing an important 
leadership and program role--have been able to make substantial 
progress in delivering these high impact interventions. In addition to 
our substantial contributions to increased global coverage of 
interventions including immunization and oral rehydration therapy, 
there are several areas where USAID's contribution has been especially 
important. One of these is vitamin A. USAID supported a large part of 
the research demonstrating that vitamin A deficiency was widespread 
among young children in developing countries, and that preventing or 
repairing this deficiency could reduce overall mortality among children 
under age five by about one-fourth. Since then, integrating vitamin A 
supplementation into maternal, newborn, and child health programs has 
been one element of our work in most countries, working with UNICEF and 
the Canadian International Development Agency. One result is that by 
2004 (the latest year with complete estimates) almost 70 percent of 
children in the developing world had received at least one semi-annual 
dose of vitamin A supplementation, and almost 60 percent had received 
both doses needed each year for full protection. This achievement, 
combined with the increasing coverage of micronutrient fortification 
programs, of which we are also major supporters, means that tens of 
millions of children are receiving this important nutritional 
intervention.
    Another area worth special comment is breastfeeding, because 
malnutrition underlies over half of all under-five child deaths. 
Breastfeeding is one of the highest impact child survival 
interventions, but improving feeding practices and children's nutrition 
is one of the most challenging areas of child survival. The global rate 
of improvement in exclusive breastfeeding of children for the first six 
months of life is less than one percent annually. However, USAID 
demonstrated that this challenge can be effectively addressed through a 
multi-pronged approach that incorporates community workers, media, 
health services, and policy changes. Using this approach, seven USAID-
assisted countries have made at-scale improvements in exclusive 
breastfeeding of as much as 10 percentage points a year, well above the 
global trend. We are now working with partners to apply this experience 
in additional countries.
    A major challenge is that many of the remaining child deaths are 
occurring in places where existing services often do not reach: in the 
poorest countries and countries emerging from conflict (like Sudan, 
Afghanistan, and the Democratic Republic of Congo), in the huge rural 
areas of countries like India and Pakistan, and increasingly in the 
slums of the developing world's rapidly growing urban population.

We have new program approaches and new interventions that will make 
        additional impact
    Our response to these challenges is not just to do more of the 
same. Bringing high impact interventions to additional children who 
need them requires new approaches. One of these is our increasing 
emphasis on community-based programs, learning from our extensive 
partnerships with U.S. Private Voluntary Organizations and our 
experience working with countries that have pioneered these approaches 
as part of their national program strategies.
    One example is community treatment of pneumonia. At the end of the 
1990s, our analyses showed that progress in delivering simple oral 
antibiotic treatment to children with pneumonia--a treatment that 
research had shown reduces mortality by at least one-third--had leveled 
off, with only about 50 per cent of children needing treatment actually 
getting it. The reason was that in most countries, this treatment was 
restricted to formal health facilities. With the support of USAID and 
others, a few innovative programs in Nepal, Honduras, and Pakistan had, 
however, implemented treatment through trained community health 
workers. In Nepal, this approach more than doubled the number of 
children receiving treatment for pneumonia, and did so with excellent 
quality of care. We documented and presented this program experience to 
international partners including WHO and UNICEF, with the result that 
this is now the recommended approach to pneumonia treatment for 
countries where formal health services fail to reach many children. 
USAID itself has helped introduce this approach in Africa, beginning in 
Senegal; six additional countries are now implementing this community-
based approach, and several others are introducing it.
    Similarly, we helped pioneer ``Child Health Weeks,'' which are 
outreach approaches that bring vitamin A, immunization, insecticide-
treated nets, and other health interventions to underserved areas. The 
aim is to get basic interventions to all children possible now, while 
building countries' systems and capacities to do so through more 
systematic approaches in the future.
    Our program has also played a key role in developing, testing, and 
introducing new interventions and technologies that will save 
additional lives.
    One of these is zinc treatment for child diarrheal illness. 
Research--much of it supported by USAID--has clearly shown that zinc 
treatment reduces the severity and duration of these illnesses; as a 
result, zinc is now recommended by WHO and UNICEF as part of the 
treatment of diarrheal illness, along with oral rehydration. To 
implement this recommendation, we are supporting introduction of zinc 
treatment in countries including India, Indonesia, and Tanzania. We are 
also collaborating with UNICEF and potential zinc supplement producers 
to assure the availability of safe, standardized, high quality products 
to supply these new programs.
    Another example is ``point-of-use'' (POU) water disinfection 
technologies. These simple and cheap methods were first developed and 
used through collaboration of USAID and the Centers for Disease Control 
and Prevention (CDC) during cholera outbreaks in Latin America in the 
1990s. Subsequent research showed that ``POU'' water treatment can 
reduce diarrheal and other water-transmitted illnesses by one-fourth or 
more. Since then, we have collaboratively developed programs for their 
production and distribution in twelve countries. In some countries, 
like Indonesia, this is a purely private sector partnership, with the 
United States providing just the technical know-how. In poorer 
countries like Madagascar and Zambia, we are using social marketing 
approaches that involve some degree of subsidy to make sure they are 
available to low-income households (often most impacted by bad quality 
water). In emergencies--including the 2004 tsunami--these ``POU'' 
technologies have played an important part in reducing disease 
transmission, especially among children. Because over a billion people 
in the developing world still live without access to safe water, these 
simple technologies can play an important role in reducing the disease 
burden on young children.
    One other important new intervention is ``community therapeutic 
care'' (CTC), an innovative approach to therapeutic feeding and medical 
treatment of children with acute severe malnutrition in field 
environments with few human and medical resources. Many families 
impacted by emergencies cannot reach therapeutic centers, or cannot 
spare the family members needed to accompany a child in such a center 
for the days or weeks required to reverse malnutrition. In response, 
USAID has worked with non-government agencies and international relief 
organizations to develop this approach for children with severe acute 
malnutrition. A central innovation of CTC is the use of ready-to-use 
therapeutic foods such as Plumpy'nut, an energy-dense peanut paste. 
Plumpy'nut can be safely given by parents in the home, eliminating the 
need for a prolonged stay in feeding centers. CTC has already been 
introduced in several African countries as well as in Bangladesh. USAID 
is now working with WHO and UNICEF to endorse CTC as the standard of 
care in all countries for managing acute malnutrition.
    My testimony on child survival may best be summarized by the 
following graph. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    As I noted early in my statement, global efforts to improve Child 
Survival now result in the saving of over 6 million children's lives 
each year. This is a tremendous accomplishment, and one that needs to 
be sustained. At the same time, authoritative analyses tell us that we 
can save at least an equal number of those children who still are dying 
unnecessarily, using the tools and program experience that are already 
available to us. It is our intention to do our utmost with the 
resources provided to us to accomplish this important goal.

There is now an important opportunity to accelerate progress in 
        maternal, newborn, and child survival
    During the past few years, we have seen new commitments that we 
believe can lead to a ``second wave'' of global effort to improve 
maternal and child survival. There are new resources appearing from 
private sector partners like the Bill and Melinda Gates Foundation, 
from bilateral donors like the U.K. and Norway, and from multilateral 
partners including UNICEF. One of the largest increases is through 
funding from the International Funding Facility of the U.K. and Europe 
for immunization, through the Global Alliance for Vaccines and 
Immunization (GAVI). The European Union is providing substantial 
amounts of new funding to several countries to support maternal 
mortality reduction.
    The Millennium Development Goals (MDGs) are stimulating increased 
international attention to the need for accelerated progress to reach 
the child and maternal survival goals; this attention is producing new 
international cooperation, like the inter-agency ``Countdown 2015'' 
collaboration to monitor and report on progress toward these goals and 
the inter-agency ``Partnership for Maternal, Newborn, and Child 
Health.'' The African Union has recently developed and approved a new 
``Framework for Accelerated Progress in Child Survival'' as well as a 
new reproductive health regional strategy; work on a similar regional 
framework for maternal, newborn, and child health is beginning in Asia.
    Partly in response to the MDGs, and partly in response to their 
understanding of the need to accelerate social development, some 
countries themselves are substantially increasing their own investments 
in maternal and child health. One impressive example is India, whose 
Prime Ministerial ``National Rural Health Mission'' and new second 
stage Reproductive and Child Health Project represent the commitment of 
over $2 billion a year to improved health status among the underserved. 
There is also increasing public visibility, including ongoing attention 
by The Lancet to child survival, maternal and newborn health, and 
global public health in general.

Against this background, we have a strategy to use our existing 
        resources to substantially reduce maternal, newborn, and child 
        mortality and malnutrition in a focused set of high burden 
        countries
    To take advantage of this opportunity, we plan to focus resources 
on a set of countries which have the highest need, in terms of both the 
magnitude and the severity of under-five and maternal mortality; that 
is, countries that have the largest number of preventable deaths as 
well as the highest rates of mortality. We will focus on countries that 
have strong commitment to improving MCH and the capacity to program 
resources effectively, and wherever possible, offer the potential for 
interaction with other USG investments, including the President's 
Malaria Initiative and GAVI funding. We believe it is possible to 
achieve reductions of 25 percent in under-five and maternal mortality 
in most of these countries by 2011; and in many of them, we also 
believe it possible to achieve reductions of 15 percent in the number 
of children who are below weight-for-age.
    We will do this by applying our successful lessons from the past 
and the new approaches and interventions we now have. We will work with 
countries and partners to identify the most important maternal, 
newborn, and child health and nutrition problems, and the most 
important interventions that can be implemented at scale to address 
those problems. We will support those interventions through appropriate 
integrated delivery approaches, involving the public health system, 
private sector providers, NGOs, and community-based approaches. We will 
identify the best fit of our resources alongside those of other 
initiatives, partners, and the countries themselves. We will join with 
countries and partners to monitor progress in terms of improved 
coverage, and ultimately improved survival, health, and nutrition 
status. And we will identify and invest in developing the capacity of 
communities, health systems, and human resources to achieve and sustain 
progress.
    Our belief that such rapid progress is possible is not 
hypothetical. It is based on the real recent performance of a number of 
USAID-assisted countries, shown in the following table.

                        RAPID REDUCTION IN UNDER-5 MORTALITY BY USAID-ASSISTED COUNTRIES
----------------------------------------------------------------------------------------------------------------
                                                       Under-5                     Under-5
                                                      mortality                   mortality
                      Country                          (deaths/    Year    To      (deaths/    Year    Percent
                                                        1,000                       1,000             reduction
                                                       births)                     births)
----------------------------------------------------------------------------------------------------------------
Bangladesh.........................................          116   1996  <r-arr           88   2004           24
                                                                             o
Cambodia...........................................          124   2000  <r-arr           83   2005           33
                                                                             o
Ethiopia...........................................          166   2000  <r-arr          123   2005           26
                                                                             o
Malawi.............................................          189   2000  <r-arr          133   2004           30
                                                                             o
Madagascar.........................................          164   1997  <r-arr           94   2003           41
                                                                             o
Nepal..............................................          139   1996  <r-arr           91   2001           23
                                                                             o
Tanzania...........................................          147   1999  <r-arr          112   2004           24
                                                                             o
----------------------------------------------------------------------------------------------------------------

    Most of these recipient countries are still very poor. Yet they 
have demonstrated that through commitment to effective programs and to 
bringing needed services to children and families, rapid progress can 
indeed be achieved. These achievements, along with those I have already 
presented in maternal mortality reduction, give us confidence that our 
continuing work with countries and partners can produce equally 
important results during the next 5 years.
    Finally, the question comes up of determining when a country is 
ready to go on its own in MCH, without continued USAID support--the 
``graduation'' question. We plan to approach this process in a phased 
approach. By looking at past experiences and current conditions; 
progress on key indicators including under five and maternal mortality; 
and such factors as equity of health status, we will develop and apply 
graduation criteria and analyze each country receiving MCH assistance 
against these criteria. Based on this analysis, we will identify 
countries that have strong chances of successfully graduating in the 
near term. We will then work with the country to focus our program 
investments and to address institutionalization of health systems, 
including human resources, financing, drug management, quality 
improvement, and information systems and evaluation, that will promote 
sustainable capacity. This process will produce a 3- to 5-year phase 
down plan developed with the country. In this way, we plan to have a 
responsible process for dealing with countries that make good progress, 
while at the same time keeping our eye on the unmet need of countries 
with continued high burdens.

                FAMILY PLANNING AND REPRODUCTIVE HEALTH

    The United States is firmly committed to promoting the reproductive 
health and well-being of women and families around the world. Over the 
years, USAID has become the acknowledged leader in implementing the 
U.S.'s global voluntary family planning assistance program. Our 
portfolio of interventions strongly emphasizes method choice and 
includes a mix of contraceptives that are country appropriate and can 
include long-acting methods, injectibles, and fertility awareness 
options, sometimes known as natural family planning. We are fully 
committed to informed choice and to ensuring that family planning users 
know the risks and benefits of the method they choose. USAID supports 
these contraceptive options with a range of activities to advance 
service delivery, the quality of the medical care and counseling, and 
the effectiveness and sustainability of family planning programs. Our 
work includes helping to create an enabling environment for family 
planning programs, support for research on improved contraceptive 
methods, training of health care providers, and helping nations create 
a commodities logistics system.
    Since our program began in 1965, the use of modern family planning 
methods in the developing world, excluding China, has increased by a 
factor of four, from less than 10 percent to 42 percent. In the 28 
countries with the largest USAID-supported programs, the average number 
of children per family has dropped from more than 6 to 3.4. Moreover, 
abortion rates have declined in Eastern Europe and Eurasia. Using 
Romania as an example, abortion was the primary method of family 
planning through the early 1990s, with women having as many as four 
abortions in their lifetime. When modern contraceptive use more than 
doubled between 1993 and 1999, the abortion rate decreased by 35 
percent and abortion-related maternal mortality dropped by more than 80 
percent.
    USAID's program is unique in a number of ways: it is comprehensive 
in its support (with activities ranging from contraceptive development, 
to community-based delivery of FP/RH services), it works through 
multiple channels of delivery (including private sector and NGO 
sector--while other donors tend to focus on public sector and 
increasingly on basket funding), and it has on-the-ground health 
experts that direct, oversee, and manage bilateral activities. We have 
pioneered program approaches and continually develop new interventions 
that will accelerate progress.
  --Our efforts have made family planning services accessible to people 
        in hard-to-reach areas. These include door-to-door 
        distribution, clinic-based services and employee-based 
        programs.
  --USAID introduced contraceptive social marketing. These programs 
        privatize contraceptive distribution and marketing, using the 
        commercial pharmaceutical sector to reach more people at lower 
        cost, decreasing countries' dependence on the donor community 
        for supply and distribution of affordable commodities.
  --We support the world's largest information/education programs that 
        use in-country media and local entertainment outlets, 
        performers, and groups to educate millions of people about 
        contraception, child care, and health.
  --USAID created and standardized the largest repository of fertility 
        and family health information, the Demographic and Health 
        Survey, which is used by policy makers and program managers in 
        developing countries and the donor community to assess impact 
        and make informed decisions about program design and 
        management.
  --We are the major donor in developing new and improved contraceptive 
        methods and supporting research to improve existing 
        contraceptive technology. These innovations provide couples in 
        developing countries with superior and safe methods of family 
        planning. Americans also profit from USAID-supported 
        improvements, such as the introduction of low-dose oral 
        contraceptives and the female condom.
  --USAID has always given high priority to providing contraceptive 
        supplies and related assistance in logistics and quality 
        assurance. USAID provides 50 to 70 percent of all contraceptive 
        assistance in the developing world and nearly all logistics 
        management assistance.
    We have successfully graduated numerous countries and others with 
mature programs are on the road towards graduation from family planning 
assistance, allowing us to respond to countries where unmet need is 
still critical. Currently we are strategically shifting family planning 
resources towards sub Saharan Africa. The fiscal year 2008 budget 
request targets 43 percent of family planning resources to the region.
    Graduation of several countries from U.S. government assistance for 
family planning also is an indicator of USAID's success. In addition to 
the overall measures of lowering fertility and high levels of 
contraceptive use across income groups, successful graduation from 
family planning assistance requires that a number of specific elements 
are in place, including national commitment to family planning, 
adequate financing for programs, contraceptive security, sustainable 
leadership and technical skills, availability of high quality 
information, appropriate engagement of the private sector, and 
attention to access of underserved populations.
    The Asian countries of Indonesia, Thailand, and Turkey have 
graduated from family planning assistance. Egypt will graduate by 2010. 
In Latin America, Brazil, Mexico, Colombia, and Ecuador are no longer 
receiving family planning assistance. Family planning programs in the 
Dominican Republic, Jamaica, and Paraguay are on track to graduate from 
USAID family planning assistance in the next few years. In Europe and 
Eurasia, programs in Kazakhstan, Kyrgyzstan, Moldova, Romania, Russia, 
and Uzbekistan have successfully increased contraceptive use and 
thereby reduced abortion.
    As the world's largest bilateral donor, USAID delivers assistance 
in more than 60 countries through bilateral and regional programs. Each 
year, U.S. reproductive health programs deliver services to more than 
20 million women, including clinical services as well as non-clinic 
based approaches to deliver services to the hard-to-reach. The Agency 
works directly with hundreds of non-governmental organization partners, 
the majority of which are foreign NGOs, to provide technical assistance 
to family planning programs at the local level. Assistance is also 
provided through U.S.-based universities, and private sector companies 
and organizations.
    Despite our strong record of achievement, our work is not done. 
Women's health burden remains great:
  --More than 500,000 women die annually from maternal causes, almost 
        all of them in the developing world. Family planning helps 
        reduce maternal mortality by reducing unintended pregnancy and 
        the perceived need by many to resort to abortion, as well as by 
        ensuring that the proper spacing is achieved between wanted 
        pregnancies.
  --Of these annual pregnancy-related deaths worldwide, about 13 
        percent (or 78,000) are related to complications of unsafe 
        abortion. The United States believes one of the best ways to 
        prevent abortion is by providing high-quality voluntary family 
        planning services and providing assistance to prevent repeat 
        abortions through the use of family planning. As a result, 
        USAID-supported family planning programs in Eastern Europe have 
        resulted in significant declines in abortion as contraceptive 
        use has increased. 

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
Unmet need continues to be a challenge
    There remains a great need--and desire--for family planning. While 
more than 400 million women in the developing world are now using 
family planning, there are an estimated 137 million with an unmet need 
and 64 million using traditional, rather than modern, contraceptive 
methods.
    Unmet need is particularly great in Africa. There, nearly half of 
the world's maternal mortality occurs and on average only 15 percent of 
married women use contraceptive methods. The desired fertility in the 
region is considerably lower than actual fertility, which remains high 
at 5-7 children per women in most countries. Although demographic and 
health surveys reveal that a high proportion of women and men--well 
more than half in many African countries--said they wanted to wait at 
least 2 years before having their next child or that they had the size 
family they wanted, there were, in fact, nearly 39 million unintended 
pregnancies in Africa between 1994 and 2000--clear evidence of the need 
for family planning. In too many African countries, attention to family 
planning has declined and donor and government funding has stagnated. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

There are significant opportunities to accelerate progress
    Though family planning is primarily viewed through the prism of 
women's health, research has shown that the women themselves view 
family planning in broader terms. They believe that having smaller 
families and spacing births not only improves health, but increases 
opportunities for education as well as for greater domestic and 
community involvement. Their instincts are right--women are critical to 
achieving development goals.
    The impact of family planning on children's lives often is not 
considered. More than 10.5 million children under the age of 5 die 
every year in the developing world. Many of these deaths can be reduced 
by expanding access to family planning. Births that are spaced too 
close together, too early, or too late in a woman's life decrease both 
the mother's and infant's chances for survival. Children born too close 
together face increased risk of contracting and dying from infectious 
diseases and can suffer high rates of malnutrition. By helping women 
space births at least 3 years apart and bear children during their 
healthiest years, family planning could prevent many of these deaths. 
Research done in 2003 has shown that if women had not had any births at 
intervals less than 24 months, almost two million deaths to children 
under age 5 could have been averted. Additional deaths also would have 
been averted if mothers had spaced births at least 36 months apart. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The education of women is critical. Research has shown a strong 
link between girls' literacy and many other development objectives. 
Women who start families before age 20 are less likely to finish school 
than those who wait even a few years. Early and frequent childbearing 
can limit women's education. The importance of family planning in 
allowing women to stay in school goes beyond the women themselves. 
Mother's education is an important predictor of children's educational 
attainment and therefore of their future earnings. Conversely, 
education also improves use of family planning services. Studies show 
that women with as little as 2 or 3 years of formal schooling are 
significantly more likely to use reliable family planning methods than 
women with no formal education.
    Employment allows women to earn income, which increases life 
options and involvement in the community. Family planning users often 
are more likely than non-users to take advantage of work opportunities. 
In addition, high levels of female labor force participation and higher 
wages for women are associated with smaller family size. As women enjoy 
greater economic opportunities and as family income rises, they spend 
more money on the education and nutrition of their children, continuing 
the cycle of opportunity. This in part explain why micro-finance is 
such a powerful tool today in development, both economic and social 
development.
    Working with key international partners, family planning has now 
come to embrace a broader mandate.
  --Ensuring that family planning is introduced into policies, 
        programs, and services whenever there is a natural link. At the 
        country level, this aims to ensure that there are no missed 
        ``good'' opportunities.
  --Recognizing that program development is situation specific, USAID 
        will draw on the best current programmatic evidence to 
        determine priority interventions and conduct further research 
        to identify the best approaches that can be scaled up.
  --Programming for impact: underscoring that opportunities and 
        challenges differ in each country, local data and experiences 
        will be used to help determine which approach to strengthening 
        family planning will have the greatest impact.
  --Exploring strategies to reduce the large inequities--among the poor 
        and hard to reach--in family planning access, method choice, 
        and information among population subgroups.
  --Promoting national ownership and responsibility for the 
        strengthening of family planning services despite current 
        shifts in priorities and economic environments.
  --Ensuring optimal allocation of resources and strengthening of 
        technical and managerial capacity as prerequisites for 
        sustainable family planning programs.
  --Multisectoral approaches: strengthening linkages between health and 
        other sectors so as to make use of all available entry points 
        and opportunities to introduce family planning and address 
        unmet need.
    USAID also has several special initiatives that broaden our work 
beyond ``bread and butter'' family planning programs. Among them:
  --Reproductive health programs can be effective partners in HIV/AIDS 
        prevention in developing countries. Incorporating education and 
        counseling to promote condom use and other HIV/AIDS prevention 
        methods in reproductive health programs can contribute to the 
        fight to stop the spread of the epidemic. In addition, research 
        shows that adding family planning into programs for the 
        prevention of mother to child transmission of HIV (PMTCT) can 
        greatly reduce the number of orphans while saving the lives of 
        thousands of women and children.
  --Slowing the rate of population growth gives nations time to develop 
        sustainable solutions to other development challenges. Access 
        to reproductive health programs can contribute to preserving 
        the world's endangered environments by conserving scarce 
        resources. Currently, more than 505 million people live in 
        areas already experiencing chronic water shortages, a number 
        that is expected to increase to 2.4 billion in the next 20 
        years. In addition, in the past 3 decades, growing populations 
        have caused 10 percent of the world's agricultural land to be 
        lost due to residential and industrial needs. When reproductive 
        health and family planning information are widely available and 
        accessible, couples are better able to achieve their desired 
        family size. This not only directly impacts the well being of 
        families, but also contributes to both better management and 
        conservation of natural resources.
  --The Office of Population and Reproductive Health has other special 
        initiatives that address women's health and status in society 
        in innovative ways. These include working to bring about the 
        abandonment of female genital cutting; increasing male 
        involvement in family planning; gender violence; health equity 
        which is how to ensure the poorest of the poor receive our 
        services and programs; the reproductive health of refugees; the 
        availability and sustainability of health commodities including 
        contraceptives and condoms; and repositioning family planning 
        as attention and resources to this crucial health intervention 
        are sometimes neglected because of the understandable focus on 
        such pressing health concerns as HIV/AIDS.
We can take advantage of these opportunities by capitalizing on 
        existing resources and by focusing on key countries
    USAID must address the great unmet need for family planning that 
continues to exist by:
  --Maximizing access to good-quality services;
  --Emphasizing communication;
  --Focusing on men as well as women;
  --Increasing our efforts to reach the very poor.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Also, family planning programs can develop better links with other 
services for new mothers and young children. Making common cause among 
such programs should be efficient because unmet need is concentrated 
among women who are pregnant unintentionally or who have recently given 
birth. We are developing approaches to address high levels of need in 
the poorest countries of the world. I have spoken of the profound need 
to expand our programs in Africa. Significant need also continues to 
exist in low contraceptive prevalence countries in Asia, such as 
Afghanistan, Cambodia, northern India, Pakistan, and Yemen, where 
prevalence is below 25 percent. In Latin America, USAID is 
concentrating its family planning resources in Guatemala, Bolivia, and 
Haiti where contraceptive use ranges from 22 to 35 percent.
    However, USAID's targeted countries, particularly those in Africa, 
face a number of challenges in their quest to meet the family planning 
needs of its population. Among these are weak health systems, poor 
access to family planning commodities, the non-involvement of men in 
family planning interventions, and inefficient utilization of 
resources.
    We also must employ interventions that will ensure family planning 
remains on the agenda of all sectors and continue improving access to 
all services. Other interventions include strengthening national 
capacity for sustainable programs, strengthening community 
participation, addressing family planning needs of vulnerable 
populations, and conducting operations research.

                  BUILDING CAPACITY WHILE SAVING LIVES

    Our programs are aimed at achieving impact in saving the lives and 
improving the health of mothers and children. At the same time, we are 
a development agency--we therefore believe that everything we do should 
also build the capacity of countries and people to improve their own 
situations. To do this, our program investments aim to build 
integrated, sustainable approaches and develop key components of the 
health systems countries need to deliver all basic health services. Let 
me touch on several specific areas of particular importance.
Integration
    As I noted in my introduction, we recognize the important positive 
connections among voluntary family planning and birth spacing, good 
maternal care, and child health and nutrition programs in terms of 
health outcomes for women and children. To achieve these synergies, and 
at the same time build strong and cost-effective platforms for broader 
primary health care services, we implement integrated maternal-child 
health and family planning programs in almost all countries where we 
work.
    One example is the delivery of antenatal, delivery, and post-partum 
care services. We know that good antenatal care--including promotion of 
adequate nutrition and anemia prevention, detection and treatment of 
infections and complications, and planning for adequate care at birth--
can have important positive effects on outcomes for both women and 
their babies. It is also an important opportunity to begin discussing 
family planning options for women who want to delay a future pregnancy, 
which will help preserve their health and that of their infants. In 
areas where malaria is prevalent, we promote antenatal care as a key 
opportunity to provide antimalarial treatment and promote use of 
insecticide-treated nets, protecting women from anemia and illness, and 
protecting their unborn children from the low birth weight caused by 
maternal malaria infection. In high HIV environments, antenatal care is 
one of the best opportunities to offer testing and counseling services 
and identify mothers requiring anti-retroviral treatment or prevention 
of mother-to-child transmission of HIV (PMTCT). High quality care at 
delivery is one of the most critical interventions for the survival and 
health of mothers and newborns; it prevents or resolves life-
threatening complications and provides essential immediate care to 
newborns who need it. It also provides a key opportunity for PMTCT. We 
are now increasingly extending care into the post-partum period, 
allowing for the detection and treatment of serious maternal and 
newborn complications and better promotion of breastfeeding and 
essential newborn care. This post-partum period is also one of the most 
important opportunities to counsel women in voluntary family planning 
methods. Thus, in practice, our MCH-FP programs are delivered 
holistically, giving greater impact, greater sustainability, and 
greater support for other important health programs.
    The same is true for the community-based program approaches that we 
support in areas where formal health services cannot meet all basic 
health needs. We support outreach programs that often deliver multiple 
interventions including immunization of mothers and children, vitamin A 
and iron supplements, insecticide-treated bednet distribution, and 
antenatal care. We support community health worker and social marketing 
programs that often deliver family planning advice and commodities, 
condoms and information for HIV prevention, oral rehydration, and 
increasingly treatment for malaria and other child illnesses. We 
support programs for women's groups that promote family planning, 
breastfeeding and child nutrition, and birth planning; these groups 
often engage in income-generating and micro-finance activities that 
enhance their effectiveness and influence in their communities.
    Such integrated approaches reap the benefits of synergies among 
specific interventions and parts of our health programs. They also 
maximize the potential for sustainability by making the most effective 
use of each contact of services with families.
Strengthening Health Systems
    Achieving impact while investing in health systems is challenging, 
given the low levels of resources available in most countries with high 
fertility and mortality, and thus the huge number of potential claims 
on additional resources. As has been seen in some countries where a 
broad focus on health systems has replaced a clear focus on health 
outcomes (Zambia in the 1990s, Ghana recently), investment in systems 
not linked to outcomes will not necessarily improve the survival and 
health of women and children. USAID is recognized as a major 
contributor to approaches that strengthen key elements of health 
systems, while doing so in ways that link these investments to 
outcomes. Our efforts have made important contributions in several 
critical dimensions of health systems, including:
    Quality improvement.--USAID has been a global leader in the 
application of modern quality improvement approaches to health and 
family planning programs in developing countries. The Agency's 
``Maximizing Access and Quality'' initiative has impacted every country 
we assist and has even further reach. For example, quality improvement 
approaches have led to the development of a Global Handbook that 
documents protocols and best practices for family planning services. 
This document, which has been translated into eight languages, is 
published by the WHO and is used by USAID funded programs in more than 
60 countries through WHO's reach. Quality improvement approaches have 
led to the development of ``standards of care'' for maternal and child 
health services and the use of these standards to measure and improve 
quality of services. These approaches are being used to improve basic 
services, such as reducing delays in management of life-threatening 
obstetric complications and improving care of severely ill children; in 
hospitals in Nicaragua, this approach reduced child deaths from malaria 
by 86 percent, from diarrhea by 57 percent, and by pneumonia by 38 
percent.
    Drug and Commodity Supply and Logistics.--USAID is a major 
supporter of systems that provide, distribute, and track contraceptive 
commodities and other essential public health commodities. Last year, 
shipments for contraceptives and condoms were provided to 52 countries 
and additionally, many of these countries also received anti-retroviral 
drugs and diagnostics. Additionally, technical assistance 
pharmaceutical management and/or supply chain strengthening was 
provided in at least 39 countries. For maternal and child health, where 
most drugs and commodities are parts of routine health systems, efforts 
have focused on making MCH drugs parts of ``tracer'' systems that 
evaluate the functioning of overall logistics systems by tracking the 
availability and use of selected drugs. For new products, like zinc for 
treatment of diarrhea, USAID works with the U.S. Pharmacopoeia to 
develop quality and manufacturing standards needed to allow 
international procurement by UNICEF and countries, and also works with 
manufacturers to assure adequate quantity and quality of products 
required by programs.
    Financing.--USAID worked with WHO and the World Bank to develop 
``National Health Accounts,'' tools that for the first time allow 
country governments and their partners to see all the resources 
available for health--not just from government, but from donors and 
from families themselves. These important decision-making tools are now 
being utilized in approximately 70 countries, with direct USAID 
assistance to 26 of these. Another important area of USAID engagement 
is support for ``risk pooling'' approaches that remove cost barriers to 
care. One important approach is technical assistance to community-based 
insurance plans, or ``mutuelles,'' which is an innovative way to 
finance health care in Africa. These community-based plans now exist in 
about a dozen African countries; in Rwanda alone, where USAID is 
providing assistance, by 2006 there were over 300 community-based plans 
serving over 3.1 million people (or 40 percent of the population).
Human Resources and ``Brain Drain"
    One challenge which faces virtually all of our health programs is 
the movement of trained health care providers away from developing 
countries and into more developed countries--commonly referred to as 
the ``brain drain.''
    As a development agency, USAID has little influence on the policies 
of wealthy countries that receive emigrating health professionals, the 
demand side of this issue. Our strategy in this area focuses on 
retaining trained providers in their countries' health systems, the 
supply side of the issue.
    The in-country factors affecting the healthcare human resource 
supply are more than a shortage of workers or absentee-ism due to 
training. Low salaries and poor working conditions drive workers to 
other types of employment even within their own country. Weak human 
resource management systems do not support workers. The recruitment, 
deployment and promotion of workers are often politicized and not 
performance-based. Additionally, an inappropriate alignment of the 
workforce means that tasks are often assigned to the wrong types of 
workers causing overly burdensome workloads.
    USAID is actively engaged in multiple efforts within countries to 
increase retention and contribute to greater worker productivity. 
Specifically, in almost every country where USAID has programs, USAID 
is developing and/or strengthening in-service training systems to 
provide workers with the knowledge and skills needed to do their jobs; 
often utilizing innovative learning approaches, such as distance 
learning and self-directed learning, in order to minimize the time 
workers are out of post for training. USAID is collaborating with 
Ministries of Health to strengthen supervision systems so that they 
provide positive support to workers, and is instituting quality 
improvement methodologies that encourage workers to take an active role 
in ensuring the quality of the services they provide.
    Keeping workers on the job is essential to increasing the number of 
workers. In five African countries, several approaches are being tested 
and implemented in USAID programs, including: piloting financial and 
non-financial incentives; developing clear and equitable careers paths; 
offering continuing education and professional development. There has 
been an increased retention of workers in Ghana, Namibia and Uganda 
with improvements to the working environments and benefits such as 
transportation reimbursements.
    Improved management and modern quality improvement approaches are 
affordable and have the potential to improve dramatically the way 
health systems manage their human resources, helping to retain workers. 
USAID provides support for workforce planning and rationalization in 
six countries. Human resource (HR) managers are assisted to develop the 
skills needed to scan and analyze HR data, determine relevant policy 
questions, and make policies to ensure that workers with appropriate 
skills are available when and where they are needed. In several 
countries, HR Directorates in Ministries of Health are being 
strengthened through training of key staff and through secondments of 
HR experts who then share their knowledge and skills so as to create 
strong HR managers. In a number of countries, USAID is assisting MOHs, 
licensing and certification bodies, private-sector organizations and 
other stakeholders to develop the human resource information systems 
they need.

Sustainability
    Sustainability of MCH and family planning programs is a critical 
goal of USAID. To this end, we aim to:
  --Increase funding by host governments of national MCH/FP programs.
  --Increase diversification and long-term funding of MCH/FP activities 
        by donors and international organizations.
  --Improve the quality of national MCH/FP activities and establish 
        critical masses of health workers competent in MCH/FP 
        interventions.
  --Achieve high and sustained national coverage rates for MCH/FP 
        interventions.
  --Reduce inequities in access to health care and in health outcomes.
  --Involve community, voluntary and private sector organizations in 
        MCH/FP activities at national, district and community levels.
    With progress on each of these elements, MCH/FP programs will 
become more effective and sustainable. More importantly, national 
leaders, health managers, and the general population will expect and 
demand effective, nationwide MCH/FP programs and will help to make this 
happen. There will also develop an international mandate that no 
country will suffer stock-outs of essential MCH/FP commodities. This 
has already occurred for child vaccines. Finally, national governments 
and international donors and organizations will be judged by the 
quality and coverage of their MCH/FP programs.
    There is now evidence that USAID, other donors, and national 
governments are helping to make important progress on all these key 
elements of sustainability. For example:
  --There is evidence that host government contributions to MCH/FP 
        programs have increased in real dollar terms over the past 10 
        years.
  --Coverage rates for key MCH/FP interventions are steadily 
        increasing. For example, the worldwide coverage for the third 
        dose of the DPT vaccine is 74 percent and for vitamin A is over 
        50 percent.
  --As highlighted above, there are major new commitments of 
        international partners to MCH/FP and some new funding 
        mechanisms that promise long-term support for the sub-sector.
Complementary Funding and Global Development Alliances
    USAID funds have complemented over $4.6 billion from partners to 
advance development objectives worldwide.
    USAID provides leadership in the Reproductive Health Supplies 
Coalition (RHSC), a coalition of 21 members--multinational 
organizations, bilateral and private foundation donors, low and 
moderate income country governments, civil society, and the private 
sector--that works to increase political commitment and public and 
private financial resources, as well as more effective use of resources 
to ensure sustained access to quality reproductive health supplies 
through public, private, and commercial sectors.
    USAID supports the Global Alliance for Improved Nutrition (GAIN) to 
accelerate micronutrient fortification programs globally and to 
mobilize the private sector to deliver fortified products to the poor. 
The Alliance includes 14 governments; three donors; the United Nations; 
the private sector including Proctor and Gamble, Unilever, Danonoe, and 
Heinz; development agencies such as the World Bank; education and 
training institutions; and civil society. The Alliance has supported 15 
national food fortification programs projected to reach 446 million 
people.
    Between fiscal year 2001 and fiscal year 2006, USAID contributed 
$352.5 million to GAVI as one of the largest government donors 
representing nearly 20 percent of GAVI's funding. Since GAVI's 
inception in 1999, the Gates Foundation combined with a variety of 
donor governments has contributed a total of $1.9 billion.

                               CONCLUSION

    USAID sees improved health for the world's poorest people not only 
as a moral imperative but also as a pragmatic investment of U.S. 
funding for peace, security, and world-wide economic growth. USAID-
supported MCH/FP programs have a proven record of success which is 
helping to save lives and build health systems. Our support has helped 
to reduce under-five mortality in almost 30 countries and maternal 
mortality in ten countries. USAID-supported family planning programs 
have been successful in increasing access to and use of modern 
contraceptives in all regions of the world. We now have program 
approaches and new interventions that will allow us to build on these 
successes and make additional progress. We also have valuable 
experience in delivering these interventions and approaches in a fully 
integrated and cost-effective manner at district, health center, and 
community levels so that these life-saving services can be affordable 
and sustainable. With the continued support of Congress, we will be 
able to contribute to further gains in maternal and child health and 
family planning throughout the developing world. Thank you for your 
support.

    Senator Leahy. Thank you very much. I read your testimony 
last night, and I know your personal commitment to this.
    Dr. Gayle, thank you for being here. I've heard you speak 
many times before, and I just appreciate you taking the time 
here.

STATEMENT OF DR. HELENE GAYLE, PRESIDENT, COOPERATIVE 
            FOR ASSISTANCE AND RELIEF EVERYWHERE
    Dr. Gayle. Thank you very much, Chairman Leahy, and thank 
you for having us here, and thank you for your consistent and 
passionate commitment to these issues.
    I'm really honored to be here in front of you, and with the 
other witnesses here who, also, as you said, bring a lot of 
experience, and are very distinguished in this area.
    I represent the organization CARE, which is committed to 
reducing global poverty, and have broadened from what I was 
doing in the past, focusing on health issues, because I believe 
strongly that poor health and poverty are very intertwined. And 
so, that's the context in which our work is done, where we feel 
that health has such an important contribution to our work in 
eradicating global poverty, and vice versa.
    I'm not going to go through a lot of the facts, I think 
people have put those on the table, and I think have very 
eloquently pointed out that there are very unacceptable gaps in 
maternal mortality and child health and child survival around 
the world, and important unmet needs in family planning and 
contraception.
    Also, I think the testimony that Dr. Hill gave pointed out 
the incredible advances that the U.S. Government, particularly 
through USAID, has made, and the real leadership role that we 
have played around the world on these important health issues. 
I think--if nothing else--I would say our message is that we 
would like to continue to see the United States play that kind 
of global leadership role in these issues, and that we have an 
opportunity to continue to build on these incredible advances 
that have already been made.
    So, important progress has been made, but I think as has 
been pointed out, there is still a lot that remains, and that 
in some ways, we've become complacent about basic public health 
issues, like maternal and child health, and family planning as 
we have moved to focus on very key, specialized issues, like 
HIV and malaria and others, where we have seen incredible, and 
important, growth. But, I think, in the meantime it means that 
we've kind of let our eyes off of some of these very basic and 
core issues, where we have such a basis for continuing to 
build.
    Let me just make a few points from our experience, and then 
some recommendations. I'll make first, four points. First of 
all, that technical solutions alone will not bring about 
lasting results. Obviously, it's important to continue to look 
for better and new technologies, but for health impacts to be 
sustainable, they must also address the underlying causes of 
poor health, and the reasons why people don't have access to 
these technologies to begin with, and making sure that we have 
a focus on that.
    So, for example, we had a project in Peru, in an area in 
rural Peru, where CARE found that only one-third of women who 
needed obstetrical services actually accessed them. I mean, 
this is in an area where mortality--maternal mortality was 
about 15 times higher than it is here in the United States.
    But, by working to understand the needs of the rural women, 
for example, giving respectful attention from staff to speak to 
women in local language, provide access to transportation, 
provide basic facilities that met the needs of those women, and 
by connecting health workers at various levels, and really 
looking at, how do you distribute health services at different 
levels, and removing blocks to emergency referral care and 
services, CARE was able to reduce maternal mortality by half.
    So, even if the services are there, if they're not 
appropriate, if they don't take local circumstances into 
consideration, the needs won't be met. And so, we have to look 
at coupling our technology with ways to get it to people that 
are appropriate.
    Second, we learn that by being marginalized and powerless 
within a society, is often closely linked to one's ability to 
access healthcare services, and is linked to overall health 
status of the most vulnerable. The--less power means that 
people have less voice, and often less access to services. In 
most developing countries, women and youth are the least 
powerful, and the roots of health problems they face are often 
hidden.
    An example, from our work in Bangladesh, where CARE is 
working on a Safe Motherhood Initiative, we found that domestic 
violence was really the--one of the greatest risks that women 
faced during pregnancy, and that if we didn't address the 
domestic violence issues, and look at women's needs in a 
holistic fashion, that our obstetrical care programs didn't 
work. We were able to modify our approach to incorporate 
efforts to prevent violence against women in our Safe 
Motherhood Work, and found that our programs were much more 
effective and were actually able to reduce maternal mortality.
    Third, and Dr. Hill mentioned this as well, we've learned 
that dividing public health into various categories--while it 
may be convenient for allocating donor funding--that it really 
doesn't, is not the most effective way to approach health 
services.
    So, for example, maternal mortality and child survival are 
not separate activities. In some countries, if the mother dies, 
the risk of death for her child and her children under 5 
doubles or triples. Sometimes, as with HIV/AIDS, and 
reproductive health, we not only pursue them as separate 
issues, but also build parallel systems to develop services, so 
that we're not wasting resources that make our services more 
ineffective.
    So, by providing HIV information and testing to reach 
women, within the context of reproductive health, we obviously 
have much more effective programs.
    Then finally, we at CARE are dismayed by what seems to be a 
tendency to move away from evidence-based programs within the 
U.S. foreign assistance programs, particularly as they relate 
to sex and reproductive health. So, for example, the abstinence 
until marriage earmark in the Global AIDS Act of 2001 is a 
concern, whether or not it impedes the ability to have 
comprehensive and evidence-based programs that focus on the 
best programs and the epidemiology within local circumstances.
    Let me just wrap up by saying a few things that we would 
like to recommend. First, investing more, and more 
strategically in reducing maternal mortality and enhancing 
child survival. Over the past 5 years, the commitment to 
maternal and child health funding has not kept pace with the 
unmet needs or growth in other international health accounts, 
as has been well outlined. We urge you to provide strong 
funding levels for international maternal and child health 
programs. In particular, CARE strongly supports the U.S. Fair 
Share levels that Nils Daulaire will outline shortly.
    Second, a recommitment to the importance of family 
planning. This is one of the most cost-effective investments 
the United States can make in the future of women, children, 
communities and nations. The administration's budget request 
proposes a 23 percent cut in family planning funding for 2008, 
noting that these efforts do not require as much U.S. 
investment, because they've been so successful. Well, this is 
obviously the case, and we urge you to, not only restore those 
cuts, but to increase funding levels for international family 
planning.
    Also like to draw attention to the reports that the World 
Bank's new Health, Nutrition, Population Strategy that's going 
to be discussed here in Washington, appears to diminish their 
commitment to family planning, and we see this as an area of 
great concern.
    Third, commit to evidence-based reproductive health 
programming for youth. With the impending youth bulge that is 
going to occur, that's anticipated by demographers, the needs 
for reproductive health services that are tailored to the 
conditions for youth are critical and important.
    Fourth, removing any legal barriers that get in the way of 
evidence-based, effective programming in reproductive health 
and HIV. As mentioned, our concerns about any particular 
earmarks that don't provide for comprehensive funding.

                           PREPARED STATEMENT

    Finally, investing more globally in global health and 
development, in ways that help to strengthen the health 
infrastructure. As is previously noted, the importance of 
building a workforce capacity, without that, and without a 
strong commitment to the overall health infrastructure, none of 
these individual programs will be successful.
    [The statement follows:]

                 Prepared Statement of Dr. Helene Gayle

    Chairman Leahy, Senator Gregg, Subcommittee Members. I am honored 
to be here, discussing issues that are vital to the future of millions 
of people. For the past 61 years, CARE has worked across a spectrum of 
poverty-fighting arenas--from child survival to clean water, and from 
basic education to HIV/AIDS. We believe that poor health and extreme 
poverty are intertwined, and that one cannot be overcome if the other 
is neglected. That is why we work on a broad range of health issues, 
including maternal and child health, infectious diseases, ranging from 
HIV/AIDS to avian influenza, and reproductive health. My testimony 
today reflects CARE's experience in thousands of poor communities 
throughout the world over the course of half a century.
    We are here today to consider some basic, yet heart-wrenching, 
questions. Why does one woman die every minute of every day from 
complications related to pregnancy and childbirth? (99 percent of these 
deaths occur in developing countries, and the reasons are basic: women 
hemorrhage to death, they lack access to antibiotics to prevent 
infection or they don't have the option of a cesarean section.) Why do 
10.5 million children die each year before their fifth birthday 
(greater than the number of adults who die from AIDS, malaria and 
tuberculosis combined), when most of these deaths are preventable? Why, 
at a time when contraception is cheap and effective, do 120 million 
couples have an unmet need for family planning? Why, when some 70 
percent of young women in Africa become sexually-active as adolescents 
and more than 20 percent have their first child by 18, do we hesitate 
to confront that reality?
    Despite the magnitude of unmet need that remains, the U.S. 
Government can be proud of the difference it has made in the global 
health arena.\1\ For example, American leadership in family planning 
has contributed to some impressive gains. In 1960, only 10 percent of 
married women in developing countries used modern contraception. By 
2000, this figure had risen to 60 percent--and the average number of 
births per woman had fallen from six to three. More broadly, in the 
past 50 years, life expectancy in the developing world has risen from 
40 to 65 years, and a child's chance of living to the age of five has 
doubled.
---------------------------------------------------------------------------
    \1\ A recent analysis of six projects funded by USAID's Child 
Survival and Health Grants Program indicates that mortality of children 
under 5 has been reduced by approximately 8 percent in project areas 
due to interventions supported by the program.
---------------------------------------------------------------------------
    We have learned that large-scale improvements in public health are 
achievable. We have seen the real difference made in lives saved and 
economies strengthened. Sri Lanka's long-term commitment to a range of 
safe motherhood services has, over four decades, decreased maternal 
mortality from 486 to 24 deaths per 100,000 live births. In Egypt, a 
national campaign that promoted the use of oral rehydration therapy 
helped reduce infant diarrheal deaths by 82 percent between 1982 and 
1987. China's national tuberculosis program helped reduce TB prevalence 
by 40 percent between 1990 and 2000, and translated directly into 
social and economic benefits: for each dollar invested in the program, 
$60 was generated in savings on treatment costs and increased earning 
power of healthy people.\2\
---------------------------------------------------------------------------
    \2\ Center for Global Development, Millions Saved: Proven Successes 
in Global Health, 2007 edition.
---------------------------------------------------------------------------
    Even though important progress has been made, the need remains 
enormous and urgent. The knowledge and experience we have already 
gained position us to invest resources more wisely--and the 
partnerships formed reflect greater capacity to turn resources into 
effective action. Yet, even as efforts to fight HIV and AIDS are 
receiving greater attention and resources (as they should), we are 
becoming too complacent about basic public health issues like maternal 
and child health, family planning, and adolescent reproductive health. 
And we are not paying sufficient attention to building the strong, 
accountable health systems (both infrastructure and workforce) required 
to support any health interventions, be it neonatal care, family 
planning or AIDS treatment. Ultimately, CARE's experience in poor 
communities strongly supports both the need for increased investment of 
resources, and better use of those resources.
    Our first, and most important, insight has been that ``technical 
solutions'' alone don't bring lasting results. For health impacts to be 
sustainable, they must address underlying causes of poor health, be 
tailored to each cultural context and be broadly owned by local 
communities. For example, emergency obstetric care is vital to reducing 
maternal mortality, but lasting improvements in maternal health are not 
achieved simply by making such care available.
    In rural Ayacucho, in Peru, CARE found that only one-third of women 
who needed obstetric services actually accessed them; and of every 
100,000 live births, 240 women died (by contrast, in the United States, 
this ratio is 17 of every 100,000 live births). CARE did not approach 
this challenge as an exclusively medical problem. Rather, we tried to 
understand the health system in Ayacucho as a unique social institution 
embedded in a specific community. We found that women did not seek care 
because health center staff often did not speak Quechua (the local 
language) and women did not feel welcome there. Health center staff 
felt inferior to regional hospital staff and often felt ridiculed by 
them when they referred an emergency case; they also did not have means 
to transport emergency cases. Hospital staff were frustrated that 
emergency referrals were often misdiagnosed or came too late to save 
women's lives.
    By working to understand the needs of rural women and health 
workers at various levels, and removing blocks in the emergency 
referral system, CARE has helped to reduce maternal mortality in 
Ayacucho by half. Now, all health centers in our project area and the 
regional hospital have Quechua-speaking staff, a friendly environment, 
and culturally-appropriate options for childbirth (such as vertical 
birthing chairs, preferred in Ayacucho). Emergency obstetric protocols 
were developed by collaboration among doctors, nurses, midwives and 
Ministry of Health staff, drawing from ideas and realities of rural 
health personnel. As a result of competency-based training provided to 
rural health personnel and cost-effective resources like two-way radios 
and ambulances, women's conditions can now be diagnosed more accurately 
and they can be transported to hospitals quickly. Currently, 75 percent 
of women who need obstetric services can access them. A key aspect of 
CARE's approach was building broad political will to address the 
exceedingly high maternal mortality rate. As a result of Ayacucho's 
success, in January 2007, the Peruvian Minister of Health established 
new national clinical guidelines for obstetric emergencies, based on 
those developed by this project.
    Second, CARE has learned that individual and collective empowerment 
has much to do with access to health care services, accountability of 
health systems and the ultimate health status of the most vulnerable. 
Less power means less voice and less access, and that inequity results 
in poorer health. In most developing countries, women and youth are the 
least powerful, and their needs are often neglected. The roots of the 
health problems they face are often hidden, but we must strive to 
uncover, understand and address them.
    In Bangladesh, where CARE had been implementing a safe motherhood 
initiative, we concluded that domestic violence was one of the greatest 
risks that women faced during pregnancy. Even the best prenatal, 
obstetric and post-partum care could not fully help these women, unless 
the phenomenon of rampant violence against women was also addressed. 
CARE's modified approach, of incorporating efforts to prevent and 
respond to violence against women into safe motherhood work, holds much 
more promise not only of helping women have healthier pregnancies but 
also of securing safer societies. In isolated southern Maniema 
province, in the Democratic Republic of Congo, local health systems 
were devastated by war and women had encountered brutal violence and 
rape in war-time. Many women had married young and had multiple 
pregnancies, and CARE's promotion of family planning and birth spacing 
was welcomed as a respite--a chance to control at least one aspect of 
their bodies and lives. A young woman named Anifa told us: ``Normally, 
I'd be pregnant again, and able only to concentrate on my new baby, and 
not my other children. Now that I can control my pregnancies, I can be 
sure that my kids go to school. I will see a better life through my 
children.''
    Third, we have learned that dividing public health into various 
categories may be convenient for allocating donor funding, but these 
inherently related issues have to be understood and addressed within a 
broader and more integrated context. For example, we talk about 
maternal mortality and child survival as separate issues, but we know 
that they cannot be separated. In some countries, if a mother dies, the 
risk of death for her children under 5 doubles or triples. When women 
cannot space the births of their children, both they and their children 
are less likely to be healthy. Sometimes--as with HIV/AIDS and 
reproductive health--we not only pursue them as separate issues, but 
also build parallel systems to deliver services. This is ultimately a 
less efficient investment of resources as well as a barrier to 
effectiveness--for example, HIV information and testing could reach 
many more women, in ways that are potentially less stigmatizing, if 
they were made available through family planning or prenatal care 
services. Even within CARE, which is considerably less complex than the 
U.S. government, maintaining a system-wide view and integrating across 
various sectors and technical specialties is a challenge. We are 
constantly trying to do better.
    Finally, we at CARE have been dismayed to witness the increasing 
politicization of U.S. foreign assistance related to programs that deal 
in any way with sex or reproduction.\3\ For example, the abstinence-
until-marriage earmark in the Global AIDS Act of 2003 requires that 
one-third of all HIV prevention funding be spent on abstinence 
programs. Administrative guidance issued by the Office of the Global 
AIDS Coordinator translates this earmark into a requirement that fully 
two-thirds of funding for preventing sexual transmission of HIV be 
spent on abstinence and fidelity programs. It also permits condoms to 
be provided only to sexually-active youth, with little recognition of 
the fact that those who are not sexually-active today may be so 
tomorrow (no matter how much we urge them to be abstinent) due to 
economic pressures driving transactional sex or vulnerability to sexual 
violence. Although the earmark governs only the U.S. Government's HIV/
AIDS responses, the message that A and B are the priorities have 
strongly influenced U.S. reproductive health programs--especially those 
working with adolescents. The spillover effect is that reproductive 
health programs targeting youth are increasingly constrained in terms 
of the information and services they can provide--as a result, U.S. 
funded programs are less effective at protecting young people from 
pregnancy, or HIV and other STDs.
---------------------------------------------------------------------------
    \3\ In addition to the abstinence-until-marriage earmark and the 
Mexico City Policy, increased politicization is also evident in the 
requirement of the Global AIDS Act of 2003 that organizations must 
adopt a policy opposing prostitution and sex trafficking in order to be 
eligible for HIV/AIDS funding authorized under the act.
---------------------------------------------------------------------------
    From CARE's perspective, family planning and women's reproductive 
health have become too politicized and are losing ground on the U.S. 
global health agenda. The Mexico City Policy, in particular, is 
symbolic of this politicization and has caused much difficulty for 
implementers of reproductive health programs. Much of the work of 
international NGOs like CARE is done in partnership with local 
organizations. In the reproductive health field, many of the best local 
organizations provide comprehensive family planning services, sometimes 
including counseling on safe abortion. The Mexico City Policy prohibits 
organizations like CARE from working with such organizations, and in 
some cases, prevents us from working with the only organizations that 
are capable of providing the most basic family planning services. Thus, 
it diminishes not just the availability of these services but also 
their quality.
    These are just some of CARE's experiences that are pertinent to the 
matters at hand today. Given what we have learned, I want to urge you 
to consider the following:
    First, invest more--and more strategically--in reducing maternal 
mortality and child survival. On this, the twentieth anniversary of the 
global safe motherhood movement, the slow progress on reducing maternal 
mortality undermines America's deeply-held commitment to strengthening 
health and well-being throughout the world. We must gather the will and 
do much better. Over the past 5 years, United States commitments to 
maternal and child health funding have not kept pace either with unmet 
needs or with increasing growth in other international health accounts. 
I urge you to provide strong funding levels for international maternal 
and child health programs in 2008. In particular, CARE strongly 
supports the requested United States ``fair share'' levels outlined by 
Nils Daulaire on behalf of the Global Health Council for maternal and 
child health, and I urge their adoption by this committee in the coming 
appropriations process.
    The vast majority of maternal deaths are due to hemorrhage, 
infection and obstructed labor and can be easily prevented or treated. 
For each of the half a million women who die of complications during 
pregnancy and childbirth, 30 others are injured, many of them in 
seriously disabling and socially devastating ways. Women with obstetric 
fistulas, for example, are often abandoned by their families and 
condemned to isolation. The lifetime risk of dying in pregnancy or 
childbirth is 1 in 16 for women in developing countries, as compared to 
1 in 2,800 in developed countries. In Afghanistan, where 95 percent of 
women deliver their babies at home, without a skilled attendant on 
hand, the lifetime risk of dying in pregnancy or childbirth is 1 in 6.
    We must invest more strategically, not only to strengthen and 
expand all levels of health care (particularly speed of emergency 
referrals and quality of emergency obstetric care) but also to remove 
barriers to women's access to health systems and services. We must 
strive to ensure that all pregnant women have a skilled attendant at 
delivery; this need not be a doctor, but must be someone who can 
diagnose complications, administer drugs to manage them, and (where 
possible) refer women to emergency obstetric care. Drugs like 
misoprostol, which are cheap and easy to administer, can help 
strengthen contractions and control post-partum haemorrhage, and could 
ultimately increase the effectiveness of skilled attendants and reduce 
maternal mortality.
    Maternal health and child survival go together--this is why funding 
to reduce maternal mortality is such a smart investment. Four million 
babies die each year in the first month of their life; that is roughly 
the equivalent of all babies born in the United States in 1 year. 
Simple interventions like promoting breastfeeding, oral rehydration 
therapy, vaccinations, clean water, and insecticide-treated bed nets 
could make a huge impact on child survival, even where health systems 
are weak. USAID's Child Survival and Health Grants Program has done 
excellent work in this area and deserves your increased support.\4\ In 
partnership with this program, CARE has worked in the extremely poor 
far-west region in Nepal to reduce under-5 mortality by 53 percent. A 
key approach in Nepal was community case management, whereby volunteers 
are trained to provide an antibiotic to treat pneumonia. This 
intervention effectively prevents pneumonia deaths in communities where 
many families do not have the money or means of transportation to see a 
doctor in time. In settings as diverse as Nepal, Mozambique and Sierra 
Leone, CARE has achieved significant reductions in under-5 mortality 
for a cost per life saved of between $740 and $980.
---------------------------------------------------------------------------
    \4\ The analysis referenced in footnote 1 indicates that these 
projects saved more than 16,000 lives of children under 5.
---------------------------------------------------------------------------
    Second, recommit to the importance of family planning. Access to 
family planning services represents one of the most cost-effective 
investments the United States can make in the future of women, 
children, communities and nations. Family planning returns enormous 
value in improved health outcomes, economic development and national 
security. Yet, the administration's budget request proposes a 23 
percent cut in family planning funding for 2008. I urge you to not only 
restore the cut, but also provide significantly increased funding 
levels for international family planning, as the request outlined by 
the Global Health Council indicates.
    The ability to decide when, with whom and how often to have 
children is key not only to the individual futures of women and girls, 
but also to the development of countries struggling to overcome 
poverty. Although methods for avoiding unwanted pregnancies are cheap 
and effective, every year, 80 million women have unintended 
pregnancies. The unmet need for contraception is closely related to 
maternal mortality: if every woman who needed contraception had access 
to it, an estimated 20-35 percent of maternal deaths could be averted. 
However, with other health priorities taking precedence, family 
planning seems to be declining in importance. Between 1995 and 2003, 
donor support for family planning (commodities and service delivery) 
fell from $560 million to $460 million.
    The rationale provided by the administration for the 23 percent cut 
in family planning funds for 2008 is that these efforts have been so 
successful that they don't require as much U.S. investment going 
forward. Unfortunately, that is hardly the case. Large pockets of 
substantial unmet need still remain, and gains are reversed all too 
quickly when they are not reinforced. Kenya, for example, had a 
fertility rate of about eight births per woman in the 1960s. After 
decades of investment in family planning services, the fertility rate 
had fallen to 4.8 births per woman in 1998. In the past few years, 
however, attention has shifted away from family planning. As a result, 
availability of contraceptives at health facilities declined, as did 
outreach services. Sadly, between 1998 and 2003, the proportion of 
births reported by mothers as unwanted rose from 11 percent to 21 
percent.
    On a related note, I also want to register our concern about recent 
reports that the World Bank's draft health, nutrition and population 
strategy omits any commitments to family planning. This strategy is 
under review as we speak today and, if approved, could deal a serious 
blow to reproductive health programs all over the world. CARE urges the 
United States, as the largest shareholder of the World Bank, to 
underscore the importance of family planning and reproductive health in 
achieving progress on multiple fronts, including economic development, 
basic education and public health.
    Third, commit to evidence-based reproductive health programming for 
youth that is grounded in sound public health practice. The impending 
``youth bulge'', anticipated by demographers, demands that we act 
effectively, realistically and rapidly. Sadly, the new strategic 
framework for U.S. foreign assistance fails to highlight the specific 
needs of youth, and places their critical needs underneath a broader 
umbrella. Although the intent to ``mainstream'' youth reproductive 
health is laudable, our observation is that fewer and fewer U.S. 
funding opportunities are addressing youth issues--and we believe this 
important issue may be falling through the cracks.
    Young people, especially girls and young women, are vulnerable on 
many fronts, but especially when it comes to pregnancy, STDs and HIV/
AIDS. They are less likely than older people to protect themselves, 
either because they are not aware of--or cannot access--the protective 
measures that can keep them safe or because they have less control over 
the terms of sexual relations. We must ensure that the needs and rights 
of the most vulnerable young people are protected: for example, 
adolescents at risk of inter-generational or transactional sex; girls 
at risk of child marriage; young people who are victims of gender-based 
violence; and youth in conflict or post-conflict settings. Many young 
people fall into the category of orphans and vulnerable children 
(OVCs), orphaned or made vulnerable due to HIV/AIDS, other diseases and 
conflict, and are left without parental guidance and are particularly 
vulnerable to sexual exploitation. These young people are at risk of 
unplanned pregnancies, HIV/AIDS and other STDs, and therefore, are 
badly in need of comprehensive reproductive health services.
    Fourth, eliminate legal barriers that impede evidence-based 
programming in reproductive health and HIV/AIDS, especially related to 
vulnerable women and adolescents. I urge Congress to repeal the 
abstinence-until-marriage earmark and request the Office of the Global 
AIDS Coordinator to revise its ABC guidance in a way that promotes 
(rather than discourages) comprehensive sex education. I also urge 
Congress to repeal the Mexico City Policy--there is no evidence that 
having this policy in place has reduced the number of abortions 
performed. In fact, by cutting off funds to foreign family planning 
organizations that reject its conditions, the Mexico City Policy has 
most likely increased the number of unplanned pregnancies and led to 
increased numbers of abortions sought.
    In some of the countries in which CARE works, we see the 
implementation of the ABC approach translating into the operational 
message that abstinence and fidelity are the most desirable and moral 
options, and positioning condoms as something used only by people 
engaging in risky sex or as a ``last resort''. When Uganda first 
developed the ABC approach, it was compelling because it demystified 
HIV/AIDS and communicated that individuals had the power to protect 
themselves by choosing among A, B or C options. Delaying sexual debut 
and partner reduction is absolutely vital to preventing HIV and other 
sexually transmitted infections, but that does not mean that A, B and C 
should be broken up into parts and promoted to different segments of 
the population. In settings where risk of HIV infection is high, it is 
a disservice to not provide comprehensive information and prevention 
methods to young people who are not yet sexually active. The young girl 
who we counsel today about abstinence may be married tomorrow (or 
coerced into transactional sex), and we have an obligation to prepare 
her for the future.
    Finally, invest more broadly and strategically in global health and 
development. The U.S. leadership on HIV/AIDS has been admirable, but it 
must be accompanied by broader investments that promote community-led 
development, strengthen health care systems and build workforce 
capacity. We cannot save babies from contracting HIV only to see them 
dying of diarrhea or languishing without access to basic health and 
social services. Our investments in drugs, tests and other health 
interventions will be constrained if there are not enough health 
workers to administer them. If all boats don't rise at similar levels, 
the bold investment in HIV/AIDS may fail to deliver on its promise--and 
other areas in which gains have been made over several decades may be 
undermined. We cannot let that happen.
    I want to thank you for inviting me here today and I look forward 
to answering your questions. CARE has been a partner in the fight 
against global poverty with the U.S. Government and the American people 
for more than half a century and we are grateful for what your support 
allows us to do in thousands of poor communities around the world. We 
look forward to a future of productive partnership and exchange.

    Senator Leahy. Thank you, and I think you understand, 
Doctor----
    Dr. Gayle. No, no, that's fine.
    Senator Leahy. No, I think you understand, also----
    Dr. Gayle. Yeah.
    Senator Leahy [continuing]. From my background that you 
preach to the converted on many of these issues.
    Ms. Garrett, again, as I said earlier, your writings have 
been extremely illuminating. It was recommended to me by my 
staff to make sure to read your testimony, which I did, but 
please, go ahead.

STATEMENT OF LAURIE GARRETT, SENIOR FELLOW FOR GLOBAL 
            HEALTH, COUNCIL ON FOREIGN RELATIONS
    Ms. Garrett. Thank you very much, Senator, and thank you 
very much for your interest and concern in this area.
    I was going to remark that most Senators don't have a 
constituency that provides them with an advantage to taking on 
these issues, they're not make or break issues, but I think 
that may be different for Vermont.
    I'm happy to say that, with my colleague here to the right.
    Speaking of my colleagues, the two prior talks----
    Senator Leahy. Dr. Daulaire is rarely to anybody's right, 
but please, go ahead.
    We don't need that--we don't need that in the transcript, 
I'm sorry. It was just too easy, it was just too easy.
    Go ahead.
    Ms. Garrett. Well, of course from your vantage point, he's 
to my left.
    Senator Leahy. There you go. In fact, Dr. Daulaire is one 
of the most respected health professionals I know--by Democrats 
and Republicans.
    Ms. Garrett. My colleagues have done a wonderful job of 
laying out some of the key issues. What I'd like to do is, you 
have the written text, let me just see if I can hit some key 
points here.
    We are in an age of such fantastic generosity, we have seen 
the amount of money, as your chart indicates, skyrocketed, as 
being dedicated to global health, but it isn't just U.S. 
Government funding, it is across-the-board in increase in the 
amount of generosity pouring into global health. This is a 
skyrocketing that, literally, has occurred in the 6 year's 
time.
    Six years doesn't provide us with a big window to reflect, 
to try to ascertain whether the way we're spending the money, 
whether it's coming from philanthropic sources, such as the 
Gates Foundation, or individuals with great celebrity cache, 
such as Bono and Angelina Jolie and Brad Pitt, or coming from a 
whole host of other Government agencies around the world, akin 
to our USAID.
    It is a phenomenal amount of money, but it has not been 
suddenly flooded in with some overview, with some perspective 
put behind it.
    So, what we're doing is, we're increasing charity, we're 
not building anything. We're increasing charity. One of the key 
pieces of why the charitable incentive has risen so much, is 
because we now have evidence that certain diseases can be held 
at bay with seeming quick-fix drugs, with medicines that can be 
applied to them, and of course, HIV is the big landmark turning 
point, with the 1996 innovation of antiretroviral combination 
therapy.
    But the problem here is that the notion that we can simply 
flood a treatment modality on top of a very, very weak public 
health infrastructure, and suddenly medicalize a public health 
infrastructure overnight, this is--6 years is overnight--and 
turn it into a medical delivery system, that can 
instantaneously get antiretrovirals out to people in rural 
areas all over sub-Saharan Africa, get tuberculosis drugs out 
all over Haiti, get malaria bed meds out all over West Africa, 
this is an absolutely asinine notion. We cannot, overnight, 
scale up, switch our public health format into a medicalized 
treatment intervention format, without having casualties, all 
along the way.
    What are the big casualties? Women and children. Because 
the safety and survival of children under 5 is really, 
absolutely a public health mission. What kills children? Dirty 
water. Getting into their bodies through water, a whole host of 
microbes that shorten their poor little lives.
    What kills those mothers? Not having any kind of health 
delivery infrastructure, so that when they're in labor, and 
when all of the crises of childbirth hit, there's nobody to 
help, there's no where to go. Or, they get there, and because 
it's so grossly underfunded, they are treated with unwashed 
hands, non-sterile instruments, and succumb to infectious 
outcomes from that childbirth.
    We, just, we've talked about the brain drain, but let's 
just really think carefully about what this means. You put that 
much more money overnight into global health, you make the 
priorities of that money about getting pills out the door for a 
variety of different things, or quick-fix technologies, just 
shove them out there, but you don't have enough healthcare 
workers to do any of it.
    Indeed, we have a shortage of well over 4 million 
healthcare workers--sub-Saharan Africa alone is short 1 
million. By the way, I'm not just talking about doctors, this 
is doctors, nurses, lab technicians, health administrators, 
people who know how to do drug procurement, process supplies, 
the logistics, the whole infrastructure that is the essence of 
both public health and medical delivery. That is so weak, it 
was already fragile to the point of breaking, and now all of a 
sudden we put this surge of funding in, but it is funding with 
the priorities set in the wealthy world, not in the poor world, 
with the sense that it's all about ``we'' in the rich world, 
we'll have bragging rights and feel terrific, because we saved 
X number of lives by shoving these pills out the door.
    What's happening in practice, on the ground, is that 
because the healthcare worker crisis is so acute, we're seeing 
healthcare workers skewed towards the places where the money 
is.
    So, I am here wearing a red ribbon, which--as everybody 
knows--is the insignia of the fight against HIV/AIDS. I'm 
wearing that, partly, because I don't want anyone to misread 
what I'm saying to indicate that I somehow oppose the largesse 
that the American taxpayers have put behind PEPFAR and other 
HIV efforts--I am all for it, I think we need more money 
directed to HIV/AIDS.
    But, in the absence of sufficient health systems, of real 
training of people who know how do to health management, and 
corral these meager, weak resources, and fragile 
infrastructures as wisely as possible, what we're going to end 
up doing, and we're already seeing it in some countries, is see 
an increase in child death. An increase in maternal mortality, 
even as we're saving millions of people suffering from HIV/AIDS 
and malaria. Because we're just skewing the programs the way we 
want that money spent.
    So, finally, my main message is, we really need to step 
back and think--how do you fund systems management? We're not 
going to instantly, overnight, get 4 million healthcare 
workers, it's impossible. We do need to be grossly increasing 
the amount of money we put into healthcare worker training, but 
we're not going to fill that gap overnight.

                           PREPARED STATEMENT

    What we need to do is think, how do you train those people 
who are on the ground, in the skill set that is about managing 
meager resources, and doing it wisely to save all lives? Lift 
all boats at once, not just those targeted disease-specific 
boats.
    [The statement follows:]

                  Prepared Statement of Laurie Garrett

    Senator Leahy, Distinguished Members of the Senate Appropriations 
Subcommittee on State, Foreign Operations and Related Programs, and 
Committee Staff: It is a distinct honor to be invited to address you 
today on the subject of global health priorities. I would especially 
like to thank the Committee for expressing interest in this matter. I 
recognize that few of you have constituents clamoring for your 
attention regarding the general health needs of people living far away, 
in desperately poor countries. These are not electoral make-and-break 
issues. It is, therefore, all the more laudable that you are devoting 
time today to their consideration. Again, I thank you.
    My esteemed colleagues preceding me today have done an excellent 
job in describing exactly who is currently under-served by U.S. foreign 
aid and investment, as well as the generous philanthropic, private 
support of the American people. I will not reiterate. I will build on 
their comments, highlighting some critical fault lines in current 
global health funding and directions, and offering some suggestions for 
fresh directions for the Committee's consideration.
    Some of the basic principles, and data, I will mention are 
delineated in a piece I authored for Foreign Affairs \1\ earlier this 
year.
---------------------------------------------------------------------------
    \1\ Garrett, L., ``Do No Harm: The Challenge of Global Health,'' 
Foreign Affairs Jan/Feb 2007, pp 14-38.
---------------------------------------------------------------------------
 age of generosity commences: still not enough, but rapidly increasing
    We are in an age of fantastic generosity. Globalization has brought 
the plights of the world into every living room, and onto every 
computer. As the world public's response to the 2005 Tsunami 
illustrated this internet-driven sense of the immediacy of 
catastrophe--even in places as remote as Aceh, Indonesia--spawns 
remarkable outpourings of finances, donations and goodwill. As little 
as 6 years ago global health commitments totaled a few hundred million 
dollars: Today--combining all government and private sources--we see 
donations exceeding $18 billion. This is not enough, but it constitutes 
a dramatic, even astounding, increase in generosity, realized over a 
short period of time.
    But there are dangers in throwing billions of dollars about in 
emotionally-driven responses to news events, and disease-specific 
campaigns that capture the collective imagination of the wealthy world 
citizenry.
    First, let's be blunt: most of this generosity reflects our 
interests: causes we care about, our national security, and our moral 
concerns.
    Second, for obvious political and, in the case of the private donor 
sector, self-promotion reasons, we want bragging rights. We want to be 
able to say that X amount of money, after 2 years, saved Y amount of 
lives. Most of the health-related legislation signed by President Bush 
and created by the House and Senate is rife with short term, mandatory 
timelines. In order to achieve measurable health targets in 1 or 2 
years, we necessarily have to set extremely narrow, pinpointed goals. 
And on the ground, to achieve such goals, U.S. supported programs must 
corral all available resources, funneling them into one channel of 
health.

               TREATMENT, YES: BUT NOT WITHOUT PREVENTION

    Let me give you an example. About a year ago I was in a small town 
in Haiti. The people in this town were overwhelmed with infectious 
diseases. Their illnesses swamped the beleaguered clinics, where long 
lines of mothers and children stood in the tropical sun for hours on 
end, waiting to see a doctor. The children's growth was stunted; 
mothers couldn't produce enough milk to feed their babies; long-
infected teenagers fought to keep their eyes open in class. In the 
parking lot of the town's main hospital sat two rusted-out, broken 
USAID jeeps, the American insignias clearly evident. Though American 
charities were helping to subsidize the medical training and services 
in the hospital, nobody--no Haitian government agency and no foreign 
donor, looked at this town and asked the obvious question: ``Why are so 
many people sick with dysentery, typhoid fever, and intestinal 
problems? Why are so many children in this town dying before they hit 
their fifth birthdays?''
    The answer: Water. The colonial-era water filtration and pumping 
system had long ago broken down. For about $200,000 the system could be 
fixed, children would drink safe water, and the disease and death rate 
would plummet. But no donor chose to take on that water problem. 
Instead, at the cost of far more lives, and dollars, the donors--
including USAID--funded treatment of entirely preventable diseases, and 
supported the operation of a very busy morgue.
    The emphasis my colleagues placed on maternal and child health is 
wise. What is killing babies and toddlers? The lack of essential public 
health services: clean water, mosquito control, basic nutrition, 
healthy moms.
    What is killing their moms? The lack of medical systems: No safe C-
sections, no sterile equipment for episiotomies, no prenatal care.
    Public health systems keep babies and children alive. Medical 
delivery systems keep their moms alive.
    Systems: Not individual, disease-specific programs--health systems 
are the key. Those targeted programs, such as PEPFAR (the President's 
Emergency Plan for AIDS Relief), are terrific, but without functioning 
public health and medical systems in place, PEPFAR and its like are 
just big band-aids that barely cover gaping wounds.
    We--Americans and the wealthy world, generally--have given, and 
given, and given for decades. Yet the gap between longest and shortest 
lived societies has widened, now a full five decades long. And despite 
mountains of foreign aid from the OECD nations, basic health markers 
such as life expectancy and child survival have barely budged over the 
last 60 years in any sub-Saharan African country--except, thanks to 
HIV, to go backwards in a few.

               GOING BACKWARDS ON HALF A TRILLION DOLLARS

    Senators, your counterparts in the Canadian Senate recently issued 
a startling report, entitled, ``Overcoming 40 Years of Failure: A New 
Road Map for sub-Saharan Africa.'' The report estimates that over the 
last 45 years the United States, Canada and the rest of the wealthy 
world has spent more than half a trillion dollars in aid and investment 
in sub-Saharan Africa. Yet the World Bank Office in Nairobi estimates, 
``that in 1948 Africa had a 7.5 percent share of world trade; in 2004 
that share had decreased to 2.6 percent. A single percentage decrease 
represents United States $70 billion.''
    ``Africa is diverging from the rest of the world at the rate of 5 
percent per capita income each year,'' The Canadian Senate report 
concludes.\2\
---------------------------------------------------------------------------
    \2\ Canadian Report by the Standing Senate Committee on Foreign 
Affairs and International Trade, ``Overcoming 40 Years of Failure: A 
New Roadmap for sub-Saharan Africa,'' Feb 2007.
---------------------------------------------------------------------------
    Even in parts of the world we have credited as economic success 
stories--where the Asian Tiger roars, and the Latin miracle twinkles--
health remains a striking challenge. The world nervously watches the 
spread of H5N1 influenza--``bird flu''--in Asia, largely in the same 
locations that featured SARS in 2003. Yellow fever, dengue, and malaria 
have all returned to Latin America. Indeed, Jamaica is at this moment 
battling the first malaria outbreak on that Caribbean island in more 
than 60 years, spiraling out of control right in the capital city. That 
is a public health failure. And as the previous speakers told you, 
maternal health is going backwards in much of the poor world--women are 
dying in childbirth in many of these countries at a far greater rate 
than they were half a century ago. Recent United Nations findings on 
maternal mortality show that a woman living in sub-Saharan Africa has a 
1 in 16 chance of dying in pregnancy or childbirth. This compares with 
a 1 in 2,800 risk for a woman from a developed region, and a more than 
1:28,000 risk for a mother in Scandinavia.
    Every effort to battle diseases--from bird flu to HIV--comes up 
against the same set of problems. Congress has, over the last 3 years, 
approved some $8 billion of spending--about 5 percent of it overseas--
to make Americans safer in the face of threatened pandemic influenza. 
But in the big picture the danger has over that time only increased, 
both because of mutations in the evolving H5N1 virus, and because 
quick-fix approaches to disease surveillance and control won't work in 
countries that have no adequate systems of public health and medical 
care.
    Even the Bush administration's laudable PEPFAR program, which 
started out with a fairly minimal mission of providing prevention, care 
and treatment for a single disease, now finds itself forced to build 
medical delivery systems simply to get anti-HIV drugs to the patients 
who need them.
    A just-published critique of the Global Fund to Fight AIDS, 
Tuberculosis and Malaria \3\ charges that unless the Fund starts to 
directly underwrite the salaries of healthcare workers, including 
minimally-educated community providers, the effort will become nothing 
more than ``medicines without doctors,'' an unsustainable program for 
tossing out drugs without providing any actual healthcare.
---------------------------------------------------------------------------
    \3\ Ooms, G., Van Damme, W., and Temmerman, M., ``Medicines without 
Doctors: Why the Global Fund Must Fund Slaries of Health Workers to 
Expand AIDS Treatment,'' PLoS Medicine 4:0001-0004, 2007.
---------------------------------------------------------------------------
                   the world needs healthcare workers
    The world is desperately short of health professionals, and the 
severity of that gap promises to increase sharply in coming years. The 
World Health Organization estimates the shortage breaks down currently 
as follows: \4\
---------------------------------------------------------------------------
    \4\ World Health Organization, ``The global shortage of health 
workers and its impact.'' Fact sheet No. 302, April 2006. http://
www.who.int/mediacentre/factsheets/fs302/en/index.html
---------------------------------------------------------------------------
  --In 57 countries the deficit is labeled by WHO as ``severe'';
  --The world needs, immediately, 2.4 million medical service 
        providers;
  --1.9 million laboratory workers, health managers, and 
        administrators;
  --A total of 4.3 million healthcare workers are needed at this 
        moment.
    Sub-Saharan Africa faces the greatest challenges. While it has 11 
percent of the world's population and 24 percent of the global burden 
of disease, it has only 3 percent of the world's health workers.\5\
---------------------------------------------------------------------------
    \5\ ibid.
---------------------------------------------------------------------------
    The World Health Organization says:

    ``There is a direct relationship between the ratio of health 
workers to population and survival of women during childbirth and 
children in early infancy. As the number of health workers declines, 
survival declines proportionately.''

    This is going to get much worse. Why? Because the wealthy world is 
aging, therefore requiring more health attention. At the same time, 
wealthy nations are trying to reduce rapidly inflating health costs by 
holding down salaries, and increasing work loads, making the practices 
of nursing and medicine less attractive. Unless radical changes are put 
in place swiftly in the United States and other wealthy nations the gap 
will soon become catastrophic. Studies show that the United States will 
in 13 years face a shortage of 800,000 nurses and 200,000 doctors.
    How are the United States and other wealthy nations filling that 
gap? By siphoning off doctors and nurses from the poor world. We are 
guilty of bolstering our healthcare systems by weakening those of 
poorer nations.
    Here is an example: due to healthcare worker shortages, 43 percent 
of Ghana's hospitals and clinics are unable to provide child 
immunizations and 77 percent cannot provide 24-hour obstetric services 
for women in labor. So the children die of common diseases, like 
measles, and the mothers die in childbirth. In all of Ghana there are 
only 2,500 physicians. Meanwhile, in New York City, alone, there are 
600 licensed Ghanaian physicians.\6\
---------------------------------------------------------------------------
    \6\ Krestev, N., ``World: Maternal-Mortality Numbers Still 
Climbing,'' Radio Free Europe July 2006. http://www.rferl.org/
featuresarticle/2006/07/10d24de4-cc8d-459c-9eed629ee1bccc4c.html
---------------------------------------------------------------------------
    There are a number of bills pending in both the House and Senate 
that seek, in various ways, to increase domestic education and staffing 
of healthcare workers, and bolster training in poor countries. Though 
this committee deals with foreign operations, it is vital that you 
concern yourself with the progress of measures that would decrease the 
drive to drain the health brain power of the poor world by enhancing 
education and incentives here in the United States. In the House, for 
example, H.R. 410, the United States Physician Shortage Elimination Act 
of 2007, seeks to create incentives for physicians to serve in under-
allocated areas of America.
    Senate Bill 805, sponsored by Sen. Richard Durbin, is the ``African 
Health Capacity Investment Act of 2007.'' It seeks to amend the Foreign 
Assistance Act of 1961 to provide funding for medical training, and 
retention of healthcare staff in sub-Saharan African countries. I urge 
the Senate to pass S.805.
Fund Programs for Systems Development
    But let's be clear: Even if we put the brakes on the brain drain 
this instant, and the United States of America no longer imported 
foreign doctors, nurses, and lab technicians, there would still be a 
crisis. And even if Senator Durbin's bill passed, fully funded, there 
would still be a crisis.
    We are in an ugly mess. If we want to do the right thing, and get 
millions more people in poor countries on anti-HIV medications, our 
U.S. tax dollars have to be put to use skewing health services towards 
AIDS, and away from general maternal health and child survival. Why: 
Because there aren't enough healthcare workers to do both.
    If we want to spend U.S. taxpayer dollars--as we should--on 
campaigns to wipe out malaria-carrying mosquitoes and get children 
under insect-barrier nets at night, then the public health workers who 
will implement such programs have to come from somewhere. Perhaps there 
will be fewer of them trying to clean the children's drinking water or 
teaching teenagers how to avoid getting infected with HIV. Why? Because 
there aren't enough trained public health experts.
    The only way American tax dollars can save lives, across the 
board--without robbing healthcare workers from one disease area to 
implement disease combat in another area--is if we start funding 
systems management. The expertise for disease prevention and treatment 
is sparse: the talent pool, along with their supplies and patient 
loads, must be carefully managed. Novel incentive systems to defy 
corruption and bring quality health to vast constituencies must be put 
in place.
    At the request of Prime Minister Tony Blair, this question of the 
relationship between wealthy world priorities, and the health--or the 
lack thereof--in Africa was studied by Lord Nigel Crisp. His recently-
released report \7\ concludes that single-disease-specific programs can 
damage other health interests. He calls for direct funding of systems 
development and management, with far longer-term commitments than had 
been the norm for the UK. The Crisp recommendations are now being 
implemented.
---------------------------------------------------------------------------
    \7\ Lord Nigel Crisp. ``Global health partnerships: the UK 
contribution to health in developing countries:'' February 2007. http:/
/www.dh.gov.uk/en/Publicationsandstatistics/Publications/
PublicationsPolicyAndGuidance/DH_065374
---------------------------------------------------------------------------
    But what about the United States? Well, we do have a health systems 
management program nested inside USAID. It is working to 
professionalize health management in poor countries. It's budget? Just 
over $3 million.

             FISCAL YEAR 2008 BUDGET: INTERNATIONAL AFFAIRS

    As you look over the White House fiscal year 2008 budget requests--
for a total Foreign Operations request of $20.3 billion--please pay 
close attention to the following:
  --More than half of all funding for Africa will focus on 8 strategic 
        states.
  --Overall health spending in designated African countries would more 
        than double compared to fiscal year 2006 actual spending.
    Of the nearly $4 billion requested for health in Africa, $3.4 
billion would go for HIV/AIDS in 12 countries (under the Global HIV/
AIDS Initiative or GHAI, formerly known as PEPFAR). The remaining $700 
million would be spent on the President's Malaria Initiative, 
Tuberculosis and a host of modest child survival and health 
initiatives.
  --Nearly all programs are heavily ear-marked, with little or no 
        monies designated for general health threats or health systems 
        management and support. Health management and personnel 
        training is not stipulated clearly in any budget lines, either 
        under disease-specific programs, nor in overall global health 
        budgets.
  --Only $34 million is requested for water systems, sanitation, or 
        general public health threats.
  --Under the Global War on Terror 2007 supplemental the President 
        requests $161 million, in additional to the general budget $100 
        million, for pandemic influenza surveillance and control, 
        through USAID. The supplemental request is listed under Child 
        Survival and Health Programs.
    I do not believe that we are guilty of over-spending in any global 
health initiative. Rather, we are guilty of under-valuing the necessity 
of building genuine, well-managed public health and medical systems. 
The paltry $3 million now spent on USAID's Management Sciences for 
Health program should increase dramatically, reflecting this gap. 
Further, current caps \8\ on human resources development and training 
that exist for PEPFAR funds should be lifted, for training of 
indigenous--not American NGO or FBO--personnel.
---------------------------------------------------------------------------
    \8\ Under PEPFAR, spending to train local healthcare workers cannot 
exceed $1 million per country per year. That is absurd.
---------------------------------------------------------------------------
                           WHAT IS THE GOAL?

    I think the appropriate goals for U.S. foreign aid in support of 
global health ought to be twofold:
  --Build sustainable infrastructures in poor countries that shift the 
        paradigm towards fantastic improvements in maternal health, 
        child survival and overall extension of life expectancy.
  --And, second, ensure the safety and security of the American people 
        by lowering the global disease burden, both in terms of 
        infectious threat and detrimental impact on nations' and global 
        GDP and economic growth.
    The current channels of spending, though in the billions of 
dollars, will not accomplish either of these goals.
    Systems and infrastructure aren't sexy, cannot be built in short 
funding cycles, and are tough to brag about to constituents. But 
without viable systems of medical delivery and public health 
infrastructures all we will manage to do with our billions of dollars 
is save some lives, at the expense of others; achieve short term 
targets without fundamentally leaving anything in place that allows 
nations ultimate dignity and self-reliance.
    Let me close with this final story. During the 1960s, at the height 
of the Cold War, the global community committed to the astonishing goal 
of completely eradicating smallpox. The virus had killed more people 
during the first six decades of the 20th Century than all wars, 
combined. In order to accomplish this remarkable feat the World Health 
Organization and our Centers for Disease Control set up an 
unprecedented worldwide infrastructure of community health workers, 
public health advocates, disease detectives, laboratories, vaccine 
manufacturing, specialized infectious diseases clinics and hospitals 
and international-scale leadership and management. It was a 
breathtaking scale of effort. And it worked. By the end of the 1970s 
smallpox was eradicated.
    But then a tragic, inconceivable mistake was made: The entire 
worldwide smallpox infrastructure was simply shut down. Unable to find 
funding, or international interest, the infrastructure that defeated 
smallpox was, itself, eradicated at precisely the same time as a new 
scourge emerged: HIV. Since 1981 AIDS has killed more people, in 25 
years, than smallpox did in the 20th Century.
    As the late, great Kurt Vonnegut would say ``So it goes.''
    Thank you for your time, attention, and concern.

    Senator Leahy. I was discussing your testimony with my wife 
who is a registered nurse, now retired, except for children and 
grandchildren, she's traveled with me to a number of places 
around the world where we've used the Leahy War Victims Fund. 
She's been in some of these places, and she said our first-year 
nurse's training 40 years ago was more advanced than what they 
had available. We've brought thousands of sterile disposable 
gloves and needles.
    We're not trying to build the Mayo Clinic in these places. 
We're not talking about major surgery, we're talking about the 
preventive measures that we take for granted.
    I'm glad you raised the brain drain. I worry, also, though, 
that we don't have the basic--very, very basic--infrastructure. 
Where I see medications that are supposed to be refrigerated, 
there's no ability or knowledge of doing it. A pill a day for 
20 days, but, well, why not take 20 today and get it over with, 
and that kind of thing.
    Dr. Daulaire, as I said before, you and I have been friends 
for decades, and I'm delighted you're here. I'm delighted the 
Global Health Council is based in Vermont. There's some days 
when I'm down here I'm envious of you being back home.
    Please go ahead, sir.

STATEMENT OF DR. NILS DAULAIRE, PRESIDENT, GLOBAL 
            HEALTH COUNCIL
    Dr. Daulaire. Thank you, Senator Leahy, in turn I'm 
delighted to be one of your enthusiastic constituents, as are 
our staff, headquartered in Vermont, some of whom are Senator 
Gregg's constituents as well, right across the river.
    But I'm here today, not as a Vermonter, but as the head of 
the Global Health Council, an organization representing health 
professionals and service organizations working in more than 
100 countries. This is the issue of the moment, and I'm more 
delighted than I can tell you that you are hosting this hearing 
today.
    As you well know, I'm a doctor and a scientist, I've worked 
in the field for over 3 decades, and I believe deeply, as Dr. 
Gayle mentioned before, that what we do in global health has to 
be evidence-based. So, both in the submitted testimony and what 
I'm going to talk about over the next few minutes, we have hard 
facts to back up everything that we're talking about.
    I'd like to make five points--first, this is a huge issue; 
second, we have done an enormous amount, we, the United States, 
to improve the situation, and we know what to do; third, over 
the last 10 years, our investments have lagged; fourth, we can 
make a world of difference with modest additional investments, 
starting this year; and fifth, this would be good, not only for 
the women and children of the world, but it would be good for 
America.
    So, let me take those five points in order. We've already 
heard quite a number of the statistics, let me just put one 
chart up here--this is a huge issue. In many of the countries 
where I've personally worked, 1 out of 5 children do not 
survive to their fifth birthday. Take a classroom of 16 
adolescent girls, one of those girls is not going to make it 
through her fertile years, because of a death due to pregnancy 
or childbirth, and 1 out of 4 regnancies around the world is 
unintended.
    These are staggering statistics, when we consider our own 
lives and our own children and our own families, and they're 
simply unacceptable. Sitting in the Dirksen Building, I'm 
reminded that he once said, ``A million here, a million there, 
pretty soon you're talking about real money.'' In this case, 
you're talking about real lives. You've heard the lives--over 
10 million child deaths, over half a million women dying in 
pregnancy and childbirth--and as well, more than 200 million 
women living around the world with an unmet need for family 
planning.
    Some people have asked, why does the Global Health Council 
concern itself about family planning? That's a population 
thing, not a health thing. But, family planning is 
fundamentally a health intervention. It prevents abortion--I 
don't need to make that argument with you, sir, you've been 
clear on that, and you understand that well--but in addition, 
we know from the data that it saves the lives of young 
children, the older siblings. A child born more than 3 years 
after the prior birth has a one-third lower chance of dying 
than a child born within 2 years.
    Children born to teen mothers have a 30 percent higher rate 
of infant and child mortality than do children born to older 
mothers, so--family planning saves mothers' lives, and it saves 
childrens' lives.
    But this is not only about death, but also about lives. I 
have to say that, in addition to the ones dying, there are 40 
million children living stunted lives physically and 
intellectually each year. There's more than 20 million women 
who suffer lifelong consequences of complicated deliveries, and 
there are 60 million women a year making agonizing choices 
about pregnancies that they did not intend.
    The second issue, we've learned a lot, and we know what to 
do. We've talked about that already, and Dr. Hill, I think, 
made the case beautifully, that this has been an area of 
enormous scientific growth and operation growth, but it didn't 
just happen. It happened because of considerable U.S. 
Government investments in maternal and child health, and in 
family planning. Investments led to knowledge, led to 
application, and led to millions of lives saved.
    Why have our investments lagged over the past decade? We 
have this chart up here that your staff prepared, let me take 
those bottom lines that you can barely see, and show you that 
in maternal and child health in nominal dollars, the line has 
been more or less flat. Adjusted for inflation, we're actually 
spending 22 percent less than we were 10 years ago, and that's 
in a world that has 19 percent more children.
    In family planning, the situation is also very sobering. 
Again, adjusted for inflation, our investment in the past 10 
years has declined by 14 percent, and that's in a world with 30 
percent more women in need of family planning services.
    So, this is critical in terms of making an important change 
in the delivery of services. What do we need today? What U.S. 
leadership is called for? Well, analysis has shown that it 
would take $5.1 billion of global investment, not just United 
States, to save 6 million children's lives, the figure that Dr. 
Hill pointed to before. Another $3.9 billion to save, to 
provide family planning services for 200 million women, so 
we're talking about a global need of $9 billion in which the 
United States fair share would be about $1.6 billion for child 
health, $2 billion for maternal health, and about $1.3 billion 
for family planning.
    Now, as much as our community would love to have that 
investment made this year, we recognize that you have to deal 
with a difficult appropriations process. So, I'm going to tell 
you what you can buy for every $100 million that this 
committee, in its wisdom, decides to invest in maternal and 
child health and family planning.
    If you invest $100 million in child health and survival, 
you will save 113,000 to 200,000 lives every year. Nearly a 
million children will be provided with the 16 essential 
interventions that programs like CARE and others carry out.
    If you invest $100 million in mothers, you will prevent 
12,000 maternal deaths, 15,000 newborn deaths, you'll provide 4 
million women with basic, essential care, and 140,000 women 
will be treated for life-threatening conditions.
    Last but certainly not least, if you invest $100 million in 
family planning, there will be another 3.5 million additional 
family planning users, 2.1 million fewer unintended 
pregnancies, fewer infant and maternal deaths, and not 
incidentally, 825,000 fewer abortions around the world.
    Senator Leahy. So, as you're talking about that chart, the 
amount of money--it's a large amount of money--but its almost 
as much as we had spent by Tuesday morning of this week in 
Iraq.
    Dr. Daulaire. There we go.
    Senator Leahy. Not to put too fine a point on it.
    Dr. Daulaire. I----
    Senator Leahy. Or to indicate my feelings on that, but 
really, starting Sunday morning, we spent more than that by 
Tuesday noon in Iraq. We did last week, and the week before, 
and the week before, and we've been there for 5 years, longer 
than we were in World War II.
    Dr. Daulaire. Mr. Chairman, this is indeed a matter of 
making decisions about national priorities.
    Let me wrap up--Laurie Garrett has talked about the 
importance for health systems. What builds health systems 
capacity is the delivery of routine services on a daily basis, 
and what does that the most effectively and efficiently is 
maternal and child health services, and family planning, 
because those children and those mothers come through the door 
every single day. You can build other programs on top of that 
infrastructure, but that is the core of daily activities that 
is essential for infrastructure.
    Finally, I think it's self-evident, I'm preaching to the 
converted here, but this would be good for America, not only 
because healthy families lead to more stable societies, less 
turmoil, and fragmentation in the world, but because the United 
States desperately needs a more positive face overseas. United 
States programs invested in maternal and child health and 
family planning have been among the most effective and 
appreciated around the world.
    Senator, I know your children, you know mine, I know your 
wife, you know mine--we would not tolerate these levels of 
risks in our own family, and this is our family writ large. 
Women and children are at the center of global health and it's 
time for us to take action.

                           PREPARED STATEMENT

    I call on you and your committee to boldly re-establish 
that commitment, with real dollars measured in the hundreds of 
millions. Thank you very much.
    [The statement follows:]

                Prepared Statement of Dr. Nils Daulaire

    Chairman Leahy, Ranking Member Gregg and members of the 
subcommittee, thank you for inviting me to testify before you today on 
Maternal and Child Health, Reproductive Health and Family Planning. I 
am Dr. Nils Daulaire, President and CEO of the Global Health Council, 
the world's largest membership alliance of health professionals and 
service organizations working to save lives and improve health 
throughout the world.
    Before I begin my remarks, let me thank you, Chairman Leahy, for 
your service to our home State of Vermont and your longstanding 
commitment to global health. You have been a proponent and champion of 
U.S. investment in global health for more than 30 years. Long before 
PEPFAR, the Global Fund, PMI and other welcome global health 
initiatives, you fought for basic health services in developing 
countries, committed to meeting the needs of the poor and most 
vulnerable. I applaud you, Chairman Leahy and you, Senator Gregg, for 
your bipartisan collaboration, recognizing that saving lives knows no 
party lines. On behalf of the Council's 350 member organizations 
working in over 100 countries across the globe, and the millions whose 
lives are improved by U.S. Government investments, we thank you.
    The Global Health Council's members include non-profit 
organizations, schools of public health and medicine, research 
institutions, associations, foundations, businesses and concerned 
global citizens who work in global health--delivering programs, 
building capacity, developing new tools and technologies and evaluating 
impact to improve health among the poor of the developing world. Our 
members work in a wide array of areas, including child and maternal 
health, family planning, HIV/AIDS, other infectious diseases, water and 
sanitation, primary health care and health systems strengthening. The 
members of the Council share a commitment to alleviating the great 
health disparities that affect the world's most vulnerable people. The 
Council serves its members and the broader community of global health 
stakeholders by making sure they have the information and resources 
they need to fulfill this commitment and by serving as their collective 
voice.
    It has been my privilege to be part of the global health movement 
for over 30 years, and much of my career has been spent as a physician 
and program manager in some of the world's poorest countries. Working 
in countries such as Nepal, Mali and Haiti, I have had the good fortune 
to participate in the development and introduction of some important 
child survival interventions, notably in treating childhood pneumonia 
and Vitamin A deficiency. I have also had the honor of serving in 
Government as a senior policy advisor in USAID. My remarks today derive 
from these different perspectives and experiences, as well as the 
evidence and experience of our membership.

                      THE WORLD'S WOMEN & CHILDREN

    The link between the health of the world's women and children is 
well-established, as is the link between their health and the well-
being of the larger community. Because of these connections, we must 
view the challenges, interventions and investments as contributing to a 
continuum of care that has mutually reinforcing benefits from the 
individual all the way through global society.

Child Health
    Today, as every other day, nearly 30,000 children under age five 
will die--1 every 3 seconds. In many countries, 1 of every 5 children 
born won't live to see their fifth birthday. If death rates of this 
magnitude were happening to the youngest and most vulnerable here in 
the United States, we would declare a state of national emergency. It 
is happening, perhaps not in our backyard, but in our world, and we 
must do more.
    This year, more than 10 million children under 5 will die, mostly 
from preventable and treatable conditions--about the same as the total 
number of American children under 5 living east of the Mississippi 
River. Almost 4 million of these deaths will occur during the first 
month of life. Two million children will die from pneumonia; 1.8 
million from diarrhea; nearly another million from malaria and almost 
half a million from measles. Virtually all of these deaths can be 
prevented--easily and cheaply.
    As American parents, we take for granted that our kids will live 
and thrive. We recall when a skilled medical provider coached us 
through the stages of labor. We remember when our babies were whisked 
away to be dressed with head caps and swaddled to keep them warm. We 
have all taken our children in for their immunizations to protect them 
against measles, diphtheria, pertussis, tetanus and polio, diseases 
which, as a result, are today practically unknown in our country. If my 
daughter developed diarrhea, she was hydrated and her risks were very 
low. If my son developed pneumonia, rapid cure was ensured through 
antibiotics. These are all simple, basic practices that kept our 
children alive, and we are blessed to be able to take them for granted.
    In the developing world, however, too many parents live with the 
very real fear that death will take their children. The interventions 
that I have named are neither difficult to administer nor expensive. 
The cost of some, such as oral rehydration salts, vitamin A supplements 
and even antibiotics, are measured in cents, not dollars. Breastfeeding 
and kangaroo care, where mothers hold newborn babies to their breasts 
to keep them warm, cost nothing at all beyond educating parents. Yet 
children are still dying because these basic interventions are not 
reaching them. I couldn't imagine that expectation when my children 
were born. No parent should have to.

Maternal Health
    In the United States and other developed nations, the risk of death 
from complications of pregnancy and childbirth is extremely low. 
Although the risk of a woman in a developed country dying is about 1 in 
2,800, the lifetime risk of sub-Saharan African women dying from 
complications in pregnancy or childbirth is 1 in 16. Over half a 
million women die each year from pregnancy-related causes, and up to 20 
million develop long-term physical disabilities each year because of 
complications or poor management of pregnancy or childbirth. Almost 4 
million newborn deaths are closely linked to poor maternal health care, 
especially the absence of a trained provider during and immediately 
after birth. And each year, more than 1 million children are left 
motherless.

Reproductive Health/Family Planning
    Notwithstanding the progress in making family planning services 
available, over 200 million women still have an unmet need for family 
planning. These are women who are at risk of becoming pregnant, who 
wish to delay or end childbearing and yet do not have effective access 
to family planning. This is a denial of the basic right of every woman 
to decide if and when she will become pregnant. It is utterly 
meaningless to declare support for the human rights of women and yet 
fail to provide them with the information, services and commodities 
that will allow them to make a free, informed and safe decision about 
whether and when to become pregnant. Women cannot fulfill their 
potential or assert their rightful place in economies and societies 
unless they have such access. The decline in United States support for 
family planning flies in the face of our stated national commitment to 
overcoming the second class status of women in much of the world.
    What is less well understood but equally important is that family 
planning is essential to protecting the health of mothers and their 
children. Family planning helps young women delay or space pregnancies. 
Family planning helps all women avoid high risk pregnancies; 
approximately 215,000 maternal deaths will be averted this year alone 
thanks to the family planning that is available.
    Debate over abortion continues to create stark political divides. 
Yet, there is one thing we can agree upon--family planning reduces 
recourse to abortion by enabling women to avoid unintended pregnancies. 
Every year, there are more than 46 million abortions. 68,000 will also 
end in the death of the mother. Increasing access to family planning is 
the surest path to decreasing the number of abortions.
    Speaking as a physician who has devoted years to improving 
children's health worldwide, let me make this clear: family planning is 
also critical to saving children's lives. Closely spaced births and 
births to young mothers dramatically raise the risk that the infant 
will die. A child born less than 2 years after a sibling is 67 percent 
more likely to die than a child born after a 3 year interval. The child 
of a teenage mother is 30 percent more likely to die than that of a 
woman aged 20 to 29. Between 20 percent and 40 percent of all infant 
deaths could be prevented if all women had access to family planning.

Lives, Not Just Deaths
    I should point out that the issues of maternal and child health as 
well as reproductive health are not limited to averting deaths. They 
are also cause for diminished lives. For every woman who dies during 
pregnancy, childbirth or immediately following, another 30 suffer 
debilitating life-long consequences. Each year, nearly 40 million 
children who suffer early childhood illnesses but do not die become 
physically or mentally impaired. All of this contributes to the cycle 
of poverty and the failure of poor countries to develop.

                 U.S. INVESTMENTS--PROGRESS UNDERMINED

    The United States is a tremendously important force in global 
health. Its decisions about priorities, resource allocation, policies 
and technical leadership have profound consequences--that is the 
privilege and burden of our country's unique role. It is widely 
acknowledged that the United States has made very important and 
enduring contributions to global health. Yet today, U.S. global health 
policy is marked by two trends that are in stark opposition and 
mutually inconsistent. On the one hand we see the rapid expansion of 
U.S. programs in HIV and malaria; on the other we witness the neglect 
of maternal health, child health and family planning. This makes no 
sense.

Contradictory Trends
    The U.S. Government (USG) investment in global health has grown and 
evolved dramatically in just a decade. In fiscal year 1997, USG 
spending on global health sat just below $1 billion. Ten years later, 
global health spending is well over $5 billion from the foreign 
operations budget alone, with additional investments from the 
Department of Health and Human Services and the Department of Defense. 
However, the devil is in the details.
    Most of the exponential growth in global health spending over the 
past decade is due to USG investments in HIV/AIDS--over $14 billion 
since the advent of the PEPFAR, the President's emergency program for 
AIDS relief--an important commitment that the Council applauds. More 
recently, the President Malaria Initiative (PMI) has joined PEPFAR as a 
priority program of this administration, with a $1.2 billion pledge 
over 5 years. PEPFAR and PMI speak to the USG's generosity and ability 
to make a difference and, through these programs, many lives are being 
saved. The USG deserves tremendous credit for its global leadership.
    But the U.S. Government has not seen fit to increase in a similar 
way its historic leadership in maternal and child health and family 
planning. Once the investment in AIDS and malaria is subtracted from 
current spending totals, investments in child health, maternal health, 
family planning and the remaining infectious diseases remain at about 
$1 billion, roughly where they were a decade ago. There has been level 
funding in most program areas and cuts in others, which means a 
decrease in programming power once adjusted for inflation and the 
increase of the number of people in need. This is most notable in the 
areas of child health and reproductive health and family planning 
which, when adjusted for inflation, have declined 22 percent and 14 
percent, respectively, over the past decade. To this must be added the 
impact of a 19 percent increase in the number children under five and a 
30 percent increase in the number of reproductive age women in the 43 
least developed nations. So while the dollars have gone down, the need 
has gone up. Reduced investment translates into lives--millions lost 
unnecessarily.

Complements not Contradictions
    Let me say again, the Council enthusiastically applauds the growth 
in spending for AIDS and malaria and the leadership President Bush and 
the Congress have shown in these areas. But while funding flows through 
independent and issue-specific channels, these health threats do not 
occur in isolation. The same communities where individuals are living 
with AIDS are also those in which non-HIV infected women are at very 
high risk of dying during child birth from lack of family planning and 
basic obstetric care. The same young children who now sleep under bed 
nets to guard against malaria are no less likely to die from diarrhea 
or pneumonia. We have confused the laudable objective of fighting 
disease with the fundamental goal of saving and bettering lives, and 
our investment is undermined by an excessively narrow perspective. 
Fortunately, relatively modest increases in USG investment in these 
neglected areas can save millions of lives through simple, cost-
effective interventions.
    That is the good news--solutions are within easy reach at low cost. 
In the past 30 years, thanks to the investments and efforts that have 
been undertaken, the child mortality rate in the poorest parts of the 
world has declined by 40 percent. Because of family planning efforts, 
birth rates have also declined by 40 percent. What an incredible 
moment: For all of human history, people have lived with the 
expectation that many of their children will die young and that women 
will endure one pregnancy after another, regardless of the impact on 
their health and survival. The 40 percent decline in birth and death 
rates is a stunning change. The advent of simple, inexpensive vaccines, 
antibiotics, oral rehydration salts, anti-malarials, micronutrients and 
contraceptives have radically changed expectations and reality in many 
parts of the world. What a tragedy it would be not to finish a job so 
well begun.
    This progress makes the choice not to increase our investment in 
women and children intolerable. Allowing women and children to die from 
easily preventable causes is just that--a choice. We are at a loss to 
understand how this administration, so generous in the response to HIV/
AIDS and malaria, now proposes substantial cuts in maternal and child 
health and family planning.

                     IMPROVING HEALTH, SAVING LIVES

    As I have described, U.S. support for basic maternal health, child 
health and family planning services has been declining. This must be 
reversed. The United States must reassert its historic and essential 
leadership in saving the lives of women and children. Providing these 
basic interventions for women and children is the cornerstone for 
securing improved health and is at the heart of building sustainable 
public health systems. The record is clear. Every time the United 
States has approached a major global health problem with tenacity and 
at the requisite scale, our country has had a tremendous positive 
impact.
    On the scale of global need, the amount needed to achieve important 
gains in child health and family planning is manageable. Six million 
children could be saved every year if the global budget for child 
health were increased by $5.1 billion. Providing essential obstetric 
care to 75 percent of women in 75 countries would cost an additional 
$6.1 billion; 200 million women with an unmet need for family planning 
could receive these services for an additional $3.9 billion per year. 
So the math is simple. If--from all sources: United States, other 
donors, developing nations--the world devoted an additional $15 billion 
per year, 6 million children would be saved annually, most women would 
have maternal health care and 200 million more women would have access 
to family planning. I urge this committee and the Congress to move the 
United States into the same leadership role on family planning, 
maternal and child health that it has shown in AIDS and malaria.

                   MODEST INVESTMENTS, MAXIMUM IMPACT

    To illustrate the potential impact of a heightened U.S. commitment, 
I'd like to reflect on what even a modest ramp-up in investments could 
return. The U.S. share of the additional global investment needed to 
reduce child mortality is roughly $1.6 billion. The United States 
should add $2 billion per year to its spending on maternal health. The 
United States should increase its contribution to family planning by 
$1.3 billion per year. We have a long way to go. However, we can take 
modest steps and still see great gains. The projections I share with 
you are based on solid scientific analyses by the Council and others.
Investment Scale-Up
    Every $100 million in attacking the most common causes of child 
death with the most cost-effective interventions would have the 
following impacts:
  --At least 113,000, and perhaps as many as 200,000, young children's 
        lives saved
  --Over 812,000 children provided with 16 essential interventions, at 
        an average cost of just over $12 per child
    Every $100 million devoted to maternal health programs would:
  --Avert nearly 12,000 maternal deaths
  --Avert more than 15,000 newborn deaths
  --Provide basic and essential care for 4 million women
  --Treat 140,000 women with life-threatening conditions
  --Treat an additional 880,000 women with serious pregnancy and 
        childbirth-related conditions
    Every $100 million invested in family planning would have the 
following impacts:
  --3.6 million more family planning users
  --2.1 million unintended pregnancies avoided
  --825,000 abortions prevented
  --970,000 fewer births
  --70,000 fewer infant deaths
  --4,000 maternal deaths averted
    These are remarkable outcomes for relatively moderate additional 
outlays. Each increment of $100 million would yield proportionate 
gains, the virtuous cycle writ large. We therefore urge this committee 
to approve a significant increase in the budgets for maternal and child 
health and family planning with investments on par with the other 
global health priorities.

                  BUILDING CAPACITY WHILE SAVING LIVES

    There is the misperception in some quarters that U.S. assistance 
for maternal and child health has been an example of charity or created 
dependency. This is far from the truth. Improving health is not merely 
a matter of delivering pills and vaccines, though pills and vaccines 
are essential. It's about improving health equity by putting in place 
sustainable systems for delivering essential care. Improving health 
means supporting educational programs to foster new attitudes and 
behaviors; building community leadership and organizations committed to 
improved health; strengthening the capacity of health providers and 
institutions; better measurement of what programs accomplish; and, 
adopting better health policies and health financing schemes. The 
United States role has been to strengthen the capacity of national 
health systems to deliver essential maternal and child health care. 
Achieving long term sustained change requires patience and sustained 
investment, but the record of building capacity while achieving gains 
in health outcomes is clear.
    Another invaluable U.S. contribution has been to invest in 
technical leadership and research and development, areas where the 
United States has historically excelled. These core functions support 
the development of new technologies and innovative means of delivering 
services, which have enduring impact. The overall decline in resources 
has seriously affected these core functions, a consequence exacerbated 
by the declining percentage of available resources devoted to technical 
leadership and research and development. I am greatly concerned that 
the technical leadership role of the United States has been starved of 
resources and I urge the committee to be sure it is adequately funded.

                          IN THE U.S. INTEREST

    The United States has a compelling national interest in saving the 
lives of the most vulnerable women and children. The stated goal of 
U.S. foreign assistance is ``To help build and sustain democratic, 
well-governed states that respond to the needs of their people, reduce 
widespread poverty and conduct themselves responsibly in the 
international system.'' There is no more dramatic marker of this goal 
than saving the lives of millions of women and children.
    Poor maternal and child health indicators are viewed by many as 
evidence of the failure of governments to provide basic services. 
Conversely, alleviating the burden of disease among women and children 
is clear evidence of improving governance through concrete, specific 
gains. Even low income societies can achieve dramatic gains by 
providing widespread access to essential services and information. 
Improving access to basic health care for women and children is an 
exercise in good governance, meets a basic need, redresses pervasive 
inequities and creates a model for other essential services.
    Poor maternal and child health also brings economic ruin to 
families and households. What truly marks poor households is 
vulnerability. A childhood illness or complications from pregnancy 
force a poor family into excruciating choices, when they must choose 
between buying seeds or paying for basic health care. Preventable 
illness and death can tip a poor family over into destitution as they 
divest themselves of meager savings and borrow money to pay for health 
care or funerals. Efforts to alleviate poverty must address this 
underlying cause of household vulnerability.
    Mr. Chairman, it is no secret that the international reputation of 
the United States is at low point. Multiple surveys reveal the 
widespread negative perceptions of our country. One could argue whether 
these perceptions are justified, but there is no arguing with the 
urgent need for effective public diplomacy. But public diplomacy is 
more than words and promises, it is deeds. The most powerful statement 
our country could make is to save the lives of the world's most 
vulnerable women and children. This is an enormous opportunity for 
constructive engagement with much of the world. Most importantly, a 
renewed commitment to saving women and children will express the values 
of a decent and generous American people, who invariably support 
effective efforts to alleviate needless suffering.

                            A CALL TO ACTION

    Chairman Leahy, Senator Gregg, members of the subcommittee and 
colleagues, my most fundamental message to you today is of hope and 
possibility. We know how to save millions of women and children through 
simple, inexpensive means. We know what works. We know how to deliver 
the interventions. We know what they will cost and we know what will 
happen once these services are provided: lives will be saved; 
communities strengthened; futures built and countries developed.
    The responsibility for improving maternal and child health does not 
rest principally with the United States. That responsibility for 
meeting basic needs rests with national governments. Non-governmental 
organizations, faith communities, multilateral institutions and other 
donors all have a role to play. As I speak before you today, global 
partners are gathered in Tanzania under the invitation of the 
Partnership for Maternal, Newborn and Child Health. An increasing 
global commitment guarantees that the United States is not in this 
alone. But there is no substitute for U.S. leadership or for active 
U.S. partnership in a global compact for women and children.
    Mr. Chairman, we need a bold commitment on the part of the U.S. 
Government and the American people--a commitment to the world's most 
vulnerable families so that they may enjoy the same expectation we have 
for our children's survival, planned pregnancies and mothers' safe 
deliveries. We simply must decide that this is the right thing to do in 
partnership with other governments and the communities in need. 
Relatively modest yet sustained increases in resources will make a 
significant difference in the lives of millions of women and children. 
And this clear commitment to the well being of families also will make 
a significant difference in popular perceptions of the role of the 
United States abroad.
    I appeal to you to boldly reestablish that commitment with real 
dollars, measured in the hundreds of millions. It's time to act.
    Thank you for your time and for hosting this hearing. I look 
forward to addressing any questions you have, and to working with you 
to continue to save and improve lives.

    Senator Leahy. Dr. Hill, let's go into this a little bit. 
The Millennium Development Goals. I read that one of the goals 
is to reduce by two-thirds the mortality rate among children 
under 5 by the year 2015. That's 8 years from now. You pointed 
out a half a million women die in pregnancy and childbirth each 
year. That's one per minute. Ninety nine percent of those are 
in the poorest countries. Another one of the Millennium 
Development Goals is to reduce by three-quarters the maternal 
mortality rate by the year 2015.
    The United States has affirmed these Millennium Development 
Goals--how does the fiscal year 2008 budget request, which 
doesn't increase resources for either child health, maternal 
and reproductive health, fit into a strategy to reduce child 
death by one-half, and maternal deaths by two-thirds by 2015, 
realizing as Dr. Daulaire, and others, have pointed out, the 
world's population is increasing?
    Dr. Hill. You raise important issues, and it's very clear 
that you don't make the kind of progress towards reaching those 
MDG goals as you would like without sufficient funds.
    One of my problems, of course, is that I wear a very 
partisan global health hat, and I tend to view things as my 
colleagues on this committee do, thinking about what we could 
do with money and do with more money. Yet, I must acknowledge 
that we're part of a bigger budget process. That process is 
trying to limit resources that they're willing to ask Congress 
for, to make very tough decisions, and get at the same table at 
the same time all of these different sectors--peace and 
security, economic growth, and democracy.
    Senator Leahy. What you're saying is that you've lost the 
OMB battles.
    Dr. Hill. We've won some battles. I doubt if there's any 
part of the budget process that is fully satisfied with the end 
product. But there are a lot of tradeoffs. I do have to 
acknowledge that, as has been said by my colleagues, malaria 
and HIV have huge increases, avian influenza is in the budget 
at $100 million, and you folks are considering a $161 million 
supplemental. I know that overall health money being spent and 
being asked for by the Congress is more than in the past. But, 
it is certainly true that the way that it is prioritized within 
the health portfolio has left these two units upon which we're 
testifying today with less money than they have had in previous 
requests or appropriations. Those are very difficult tradeoffs.
    Senator Leahy. But, on these tradeoffs, for example, the 
World Bank has 54 countries designated low-income countries, 
and USAID has programs in many of these.
    Let me give you an example. In the fiscal year 2008 budget, 
where some of these tradeoffs are, there's an increase in funds 
for Liberia, and I strongly support that.
    Dr. Hill. Right.
    Senator Leahy. But, Mali, which also has similar problems, 
receives less. So, is this robbing Peter to pay Paul?
    Dr. Hill. I think you have pointed out an issue that's come 
up in this first year of the new system, which is problematic, 
and it's been noticed, and we're going to address it in two 
ways.
    As you know, the budget was put together by country teams, 
looking at and trying to prioritize within their countries. But 
when you look at the final product, you've got some inequities 
where some countries with greater need had less money than was 
being spent in the countries that needed the money, but not as 
much. Therefore, I think we're going to have to look at these 
2008 appropriations by country, and make some adjustments, but 
that's only part of the answer.
    The second part of the answer is to ask the question, what 
can you do about the process for 2009 that would make fewer 
adjustments necessary? The answer seems to be this--to ask the 
three pillar bureaus at USAID to look globally at big issues 
and give some input to the Office of the Director of Foreign 
Assistance and say: ``If you have to spend X amount of dollars 
on, say, child and maternal health, this is the priority of the 
countries you ought to spend it in.'' That will affect the 
amount that they set for the country team to consider. They 
will say to the country team: ``Be aware that we are setting 
this amount,'' partly keeping in mind that they have an unusual 
global need in this area. So, that may help us some.
    Senator Leahy. May help some, but you still have a 
limited----
    Dr. Hill. A limited pot.
    Senator Leahy. Yes.
    Dr. Hill. Now, there's one other thing I should say, and 
that is that it's probably inaccurate to describe the work in 
HIV or malaria, not suggesting you did this, but some might 
conclude this, that there's no connection to these other 
interventions. Eighty-five percent of the malaria deaths are to 
children under 5, so if we succeed there, it will actually help 
in child survival as well.
    Senator Leahy. But, it's not 85 percent of the children. 
For example, we've--I understand that USAID has cut funding for 
the oral rehydration salt program, which stops diarrhea----
    Dr. Hill. Right.
    Senator Leahy [continuing]. I mean, that doesn't seem 
right. Should the HIV/AIDS and malaria initiatives, which I 
strongly support, should they be the foundation of our global 
health strategy?
    Dr. Hill. I think it's fair to ask questions about how a 
pot of money for health ought to be divided up. I can tell you 
the experts at USAID and elsewhere strongly disagree with each 
other from time to time about what those priorities ought to 
be, measuring how many people will die in a particular 
intervention. The experts don't always agree, so it's always a 
tough process, even among the health experts to decide, with 
limited money, where you'll get the most bang for your buck.
    On HIV, the argument often goes, if that gets out of 
control, you get a lot more parents dying. This fact that a 
parent is alive is a huge factor in whether a child lives, and 
the quality of their life, so they argue that you don't have 
the children to work with if you fail, so these are the kinds 
of arguments----
    Senator Leahy. I understand.
    Dr. Hill [continuing]. Of these people.
    Senator Leahy. I've visited a number of these countries, 
and I've encouraged improvements in HIV/AIDS programs, but, I 
worry that Secretary Rice spoke of the U.S. health strategy as 
primarily being implemented through the HIV/AIDS and malaria 
initiatives, and there is much more to public health than those 
two diseases.
    Dr. Gayle, how would you respond on that?
    Dr. Gayle. Yeah, well, I think, you know, people have made 
the, several points about how we have to look at this in a much 
more integrated fashion. So, for instance, if we do a much more 
comprehensive approach in our HIV work that really looks at, 
what are some of the underlying reasons why some people are 
more at risk than others? Women, particularly who oftentimes 
are at risk for HIV because of sex, gender-based violence, or 
lack of economic opportunities. If we address some of these 
underlying causes as well, I think we will go a much longer way 
towards helping strengthen health and the root causes of poor 
health to begin with.
    So, I think, first and foremost, it's looking at these 
things in a much more integrated fashion. We do HIV testing in 
the context of reproductive health programs, and treat other 
sexually transmitted diseases for women who come for 
reproductive health services. I think we can do this in a way 
that supports building a much broader, and more comprehensive 
approach to poor health and poor nations.
    But we can't do it only by focusing on specialized 
programs. We have to do it in a way that looks at both the root 
causes, what are some of the things that are in common, 
including access to services, a strong health infrastructure, 
and do it in a way that recognizes that we can't let go of our 
core competency in programs that save the lives of children and 
women and families around the world, while we're continuing to 
focus on these other programs. It has to be integrated, or else 
in the long run, we're not doing service for HIV, malaria or 
any of the other issues, if we don't do it in a way that builds 
the platform upon which we can make health better overall.
    Senator Leahy. Ms. Garrett, do you want to add to that, and 
then I'm going to ask Dr. Daulaire the same question.
    Ms. Garrett. I think if we have two strategic targets for 
our global health/foreign aid, they would be to create 
sustainable infrastructures that can address a broad range of 
disease issues, and not be too narrowly focused, and that they 
would--in the process--ensure the safety and security of the 
American people by lowering the disease threat burden external 
to the United States. I think that we can accomplish both, but 
that the way we're going about it right now, we will fail to 
accomplish either goal.
    It is appropriate that we elevate the level of funding 
directed to H5N1, or Avian flu. That is an elevated risk, and I 
do very strongly believe that the odds are reasonably high, 
that this particular bird flu strain may make, what we now 
know, is only two amino acid changes necessary in its entire 
genome to turn into a rapid human to human transmitter.
    It is appropriate that we very heavily address concerns 
about HIV and that we have this PEPFAR, or now GHAI 
infrastructure in place to deal with specifically HIV. But, 
they--each one of them comes up against the same identical 
problem. If you talk to the people dealing with flu, and we've 
put out--I think our total expenditure now is if the fiscal 
year 2008 are approved, is going to top $8 billion, domestic 
mostly. But, if you look at the flu problem, and you talk to 
those people, they all say, you know, ``Our problem is that we 
can't find human cases of flu on the ground fast enough because 
there isn't a health infrastructure. There aren't people there 
watching, and there aren't places for the patients to go.''
    Senator Leahy. You also have some countries that don't want 
the information to come out, and you don't want----
    Ms. Garrett. Well, that's a separate issue, transparency is 
obviously a huge problem. HIV tells us the story of the lack of 
transparency, because country after country after country 
denied that they had an HIV problem, or then said, ``Oh, it's 
only foreigners,'' or ``It's only homosexuals,'' or it's only 
this or that, until they had a generalized threat.
    But I don't think that--and I know that this is going to 
come up when you hit the appropriation on the PEPFAR funding--I 
don't think that the PEPFAR infrastructure can be scaled up to 
become ``the'' infrastructure we're all looking for. I'd be 
happy to go through all the reasons why, it's a very long 
story, but bottom line is, it is an infrastructure that is 
primarily designed to address the health needs of a small 
population of adults, ranging between roughly 15 and 35 years 
of age. It is not--though it has a pediatric component--it is 
not a child health program. Though it deals with women of 
pregnancy age, it is not a maternal health program.
    In fact, you have this odd possibility that as you enhance 
PEPFAR, a woman can get Nevirapine to prevent her from 
transmitting HIV to her child, but the next time she's 
pregnant, she will die in childbirth, because she can't get a 
cesarean section.
    Senator Leahy. Dr. Daulaire?
    Dr. Daulaire. Well, let me first endorse what Laurie 
Garrett just said. There is no question that these programs for 
HIV/AIDS and malaria are, have an impact on the health of 
children and the survival of children, and of some women, but 
they are not the first and primary route for making a change in 
terms of their lives. They are, in a sense, necessary, but not 
sufficient.
    I think the question here that we often get trapped into in 
the social sector in international development, is run a first 
assumptions. If we had accepted the assumption in 2001 that the 
cap on U.S. Government spending in global health was going to 
be, as it was then, about $1 billion, we would be having 
arguments today about whether we could possibly do anything at 
all with HIV.
    You've made the case that we spend lots of money on things 
that we consider to be important National priorities, so the 
argument made that, by Secretary Rice, that this addresses the 
issues of child health and maternal health do not hold water. 
They certainly are supportive of children's health and women's 
health, the kinds of programs that we're talking about today 
are the ones that are fundamentally important to make this 
change.
    Senator Leahy. Let me ask about some of those fundamental 
things. We keep going back to this question of safe water, 
especially for child and maternal health. Now--and you've 
spoken, Dr. Gayle, about CARE and the broad things it does, all 
the various aspects, you're basically saying there's no magic 
bullet, it's everything.
    What has been the impact of USAID's Safe Water and 
Sanitation Programs?
    Dr. Gayle. Thank you, and I don't have the specific numbers 
offhand, clearly there has been a major impact. We've been very 
supportive of the Safe Water Act in Senator Simon's name that 
we feel really ought to be strengthened and supported even 
more. Clearly, having safe water where a sixth of our 
population today does not have access to clean and safe water, 
means that not only will basic hygiene not be available for 
much of our world population, but it also means that things 
like diarrheal diseases are only going to continue to be 
prevalent.
    I've been in village after village in our work, where I've 
seen what it means to a family to have clean, safe water, where 
not only does it cut down the diarrheal diseases, and the 
under-5 mortality, but it means that children can go to school 
for the first time in their lives, and start to think about a 
different kind of future for themselves and for their families 
and communities.
    So, yeah, I think the basic ability to supply clean and 
safe water, while some don't think of it as a health 
intervention, is one of the most basic interventions, and is 
something we feel is one of those cornerstones upon which a 
health--looking at improving health is critically important, 
and needs to be build upon. We think that there is more that 
needs to be done, and it is one of those areas that gets second 
shrift, because it isn't seen as one of the visible issues that 
is currently on the front lines.
    I would just say, with some of the concerns around climate 
change, we think that the issues of clean and safe water are 
only going to become more and more urgent, and particularly for 
the poor, who will be facing more erratic climate conditions, 
more drought affecting agricultural productivity and nutrition, 
et cetera. So, this issue of safe water, clean and safe water, 
is a critical one.
    Senator Leahy. Dr. Hill, and I might say, when I ask some 
of these questions, I'll be the first also to say that USAID 
has done some tremendous things around the world, and I'm just 
trying to figure out how to make it even better. What do you 
say about the importance of clean water?
    Dr. Hill. We agree with Dr. Gayle, that those who insist on 
separating water projects from health miss the point. For 
example, we have a three-part response to the question of small 
kids who die from diarrhea, and the first part of the strategy 
has to do with point-of-use water projects, second, the 
sanitation message about washing your hands; and third, dealing 
with feces. Much of this has to do with water; so we view the 
water projects as integral to what we need to do to have a big 
impact on under-5 mortality.
    Senator Leahy. Ms. Garrett, you talked about direct funding 
for systems development and management, and you say USAID is 
doing that, but they're doing it on a budget of $3 million a 
year. Do you want to address that? I'm going to follow up with 
another question, but go ahead.
    Ms. Garrett. I keep forgetting to push the button, so 
sorry. Yeah, we, if you were a CEO of a major corporation, and 
the revenue for your corporation suddenly jumped, from say, 
$800 million to, say, $18 billion. You wouldn't want to imagine 
that your $800 million management infrastructure was up to 
snuff to handle $18 billion appropriately.
    You would be even more concerned about that jump, if you 
knew that you had almost no health personnel to execute this 
giant new corporate venture. Worse yet, it's projected that by 
2013, we will have a deficit here in the United States of 
800,000 nurses, and 200,000 doctors. I, you know, I want to say 
a little on the side here, that I know that we're here dealing 
with foreign relations, but if there's one place where I feel 
that there is a need to see a conversation between--
conversation between foreign operations and domestic--it is on 
this healthcare issue, healthcare resources issue.
    Senator Dick Durbin has a bill that would try to rapidly 
increase the number of healthcare workers we're training in 
developing countries----
    Senator Leahy. In fact, Senator Durbin was going to be here 
but he was not able to because of what's happening on the 
floor.
    Ms. Garrett. Understood.
    Senator Leahy. He's a whip, and you're talking about his 
African Health Capacity Investment Act----
    Ms. Garrett. Exactly.
    Senator Leahy. I'm co-sponsoring that and we've all touched 
on this a bit. As doctors and nurses leave for better paying 
jobs, and I think of our own country when I see the ads for 
nurses. Bringing them here from other countries to make up for 
our failure as a Nation compounds the problem.
     To go back to my earlier comment, I'm not suggesting the 
Mayo Clinic in these countries, but I am asking why can't we 
have nurse practitioners? Why can't we have people who have at 
least basic skills, and the kind of infrastructure to handle 
basic health needs.
    Ms. Garrett. Right.
    Senator Leahy. There are certain things we do almost 
unconsciously, for hygene, but they need to be taught. How do 
we do this?
    Ms. Garrett. Well, I'm so glad you're asking that, because 
it goes back to your original question to me, how do we get to 
reasonably managed health systems?
    As I was saying, I really think there needs to be a 
conversation between your counterparts dealing with domestic 
health funding, and international on this question. Because if 
we reach the point where we are trying to suck away from the 
poor world 200,000 doctors, to offset our deficit--I'm not even 
sure there are 200,000 out there--but if we go after everything 
we can get, sure, we might be able to deal with our health 
problem, but at the expense of killing people in poor 
countries.
    So, I see that----
    Senator Leahy. Is there a way we can do both? To take care 
of our health problem and also help take care of theirs?
    Ms. Garrett. Well, actually, as it turns out, with the 
nursing crisis and the physician crisis here, in terms of our 
really mediocre level of domestic production of our own 
indigenous personnel, so that we don't need to suck the talent 
away from the poor world, it turns out the disincentives are 
less about pay, salaries at the, once you are a professional, 
than they are about access to the actual training.
    We've had bills come consistently before this body and the 
House, requesting subsidies for State support of nursing 
training and physician training, and they have consistently 
failed to even get out of committee.
    One of the biggest problems that we have right now in 
nursing training is that a typical nurse earns more as a 
practicing nurse than she can earn as a Professor of Nursing. 
Most nursing training is done by land grant and State-supported 
institutions, they are underfunded, and their faculty are 
underpaid. Most of the States, a State like Michigan, for 
example, which has quite a number of nursing schools, as you 
know, Michigan is a hard-hit State right now. Its economy is in 
deep trouble. They cannot afford to even match the salary level 
that a nurse can make as a nurse, versus as a professor, 
without Federal support.
    We need to really say, I think, in no uncertain terms, that 
the foreign operation side of the Senate is saying to the 
domestic operations side, ``Unless you create the incentives 
for us to produce sufficient healthcare personnel, 
domestically, so that we do not need to absorb the talent from 
the outside, we're in an immoral position.''
    Senator Leahy. Dr. Daulaire, Dr. Gayle and Dr. Hill on 
this?
    Dr. Daulaire. Senator Leahy, there's two sides to this 
question, there's the push side, and there's the pull side. And 
the pull side is what goes on here in the United States in 
terms of our healthcare deficits, and in Europe for that 
matter.
    I think it's appropriate for this Committee to particularly 
focus its attention on the push side--why is it that healthcare 
workers are leaving, or not getting trained to begin with? 
There are a number of different issues here. One is very often 
the wrong kinds of people are being trained in these countries. 
As a physician myself I hate to say it, but what the world does 
not need more of is lots more doctors, what the world needs 
lots more of is nurses, paramedics and auxiliary health workers 
who can address the healthcare needs at the communities where 
they're taking place. My own experience in the field has 
reinforced this many times over. So, that needs to be a focus 
in terms of both National priorities and donor assistance from 
the United States.
    Second, if the United States in its donor-assisted 
programs, HIV/AIDS, malaria, TB and all of the rest, if it 
simply recognizes the fact that there has to be a health 
systems overlay, you don't just say, ``Well, you do the health 
system, and you train the people, and then we'll give you the 
money or the drugs for specific interventions,'' there has to 
be incorporated into the framework of international assistance 
in healthcare. Third, on a very practical basis, in Africa 
where this crisis is at its worst, recently a group of African 
leaders got together and established a 15 percent target--they 
decided it themselves--of their national budgets to be used for 
their health systems. We need to encourage and reinforce this. 
This is not just a United States problem, but we can help by 
providing incentives through our international assistance for 
those countries that are actually moving forward on getting to 
that 15 percent, which, I would note, I believe no African 
country has currently reached.
    Senator Leahy. Dr. Gayle?
    Dr. Gayle. Yeah, just to basically support, I think, the 
issue--in addition to thinking about how we can make sure that 
we're not being a drain on the workforce in poor countries, but 
also that we look at what are the needs? That we are very, that 
we reinforce the kinds of health workers that will have the 
greatest impact on the lives of people in poor countries.
    As Nils said, it's not necessarily doctors or even 
sophisticated nurses, it really is, developing a core of people 
who are the auxiliary health workers, on the ground people who 
come from those communities, and understand those communities, 
who are really, the cornerstone of health interventions. By 
supporting the interventions, they are much more focused on the 
preventative side of health services, the public health 
approaches, I think we will get a lot--much more bang for the 
buck than by supporting tertiary care focus and technology 
fixes that oftentimes lead to short-term fixes, but not looking 
at the longer-term impact on lives.
    We also would like to endorse the Durbin workforce bill, 
and be happy to help in any way as that continues to move 
forward, and think about what are the best ways in which to 
build that kind of health capacity on the ground that meets the 
needs of people where they are.
    Senator Leahy. Senator Durbin and I feel very strongly, I'm 
following his leadership on it, but we feel very strongly about 
that.
    Dr. Hill?
    Dr. Hill. Three quick points--there is one piece of good 
news here. When I travel to Africa or talk to doctors here who 
came from Africa, I've been pleased to find that the 
overwhelming majority did not come here primarily because they 
would get a higher salary. They often report that they came 
here because they had a chance to work in the field they were 
trained in, and they didn't have the chance at home. It is 
generally only a secondary motive--that is they did have the 
chance, they couldn't feed their family and do it.
    Which leads me, and leads us, to the conclusion that we 
need to focus as Nils said, Dr. Daulaire said, on making sure 
that out there in the field the systems improve, so they can 
hold onto the people that are trained.
    There is also a second point that addresses some of the 
points that Dr. Garrett was bringing up about infrastructure 
and health systems, because it's all related. I think as good 
as the CBJ may be in terms of communicating some things, at 2 
inches thick you would think it could communicate a lot, but 
there's an awful lot it doesn't communicate.
    There aren't a lot of projects. There's not a category for 
infrastructure or health systems, et cetera. But as a matter of 
fact, at USAID--and at PEPFAR too--there's a strong sense that 
these issues that have been raised simply have to be dealt 
with. The surge is a big problem, and they know that we have to 
work on systems.
    But the way it tends to get done is that it is a component 
within a project that might be HIV or malaria or tuberculosis 
or contraceptive health or whatever it is, and any good program 
is going to have a component to it that specifically deals with 
this issue.
    Now, there are two questions that Ambassador Tobias always 
asks at a review of programs. One, ``Show me how this 
correlates with the work of other donors, so I know it's not 
duplicative.'' Number two, ``Show me how this is going to 
produce sustainability,'' which means it has to get at the 
issue of health systems, et cetera. So, we're aware this is a 
problem.
    The third simple point is that we are trying to ramp up, 
within all of the specific interventions, a component that will 
address precisely the question about what can you leave in 
place there that will allow them to do this work when we are 
gone.
    Senator Leahy. You know, in the article Challenge of Global 
Health, that Ms. Garrett wrote in Foreign Affairs, she quoted a 
Zambian doctor who said maternal death is the biggest challenge 
in strengthening health systems, if we get maternal health 
services to perform then we're nearly perfecting the entire 
health system.
    Without going into great detail, let me start, Dr. Hill, 
with you. Would you agree with that?
    Dr. Hill. Sorry, that there's a health systems problem in 
Zambia? Is that----
    Senator Leahy. No, that maternal death is the biggest 
challenge in strengthening health systems. If we can get 
maternal health services to perform, we're nearly perfecting 
the entire health system--that's what a doctor in Zambia said.
    Dr. Hill. Yes, my health experts would probably disagree 
and have a big debate about that. It is certainly a critical 
component, and one of the most important. Whether it's the very 
most important, I don't think I'd be prepared to say, but it is 
a lynchpin, a critical piece of the puzzle.
    The problem with a lot of this is that--however you decide 
to prioritize, the bottom line is, if you're not basically 
doing them all, just the top ones, whatever you choose is going 
to be undermined by what you didn't do. So, you almost have to 
find a way to take the top three, four or five, and find a way 
to do them, and to do them as well as you can, or you're going 
to undermine your successes wherever you did work.
    Senator Leahy. Which goes back to my prior 
oversimplification, my concern about robbing Peter to pay Paul, 
and making them all work.
    Dr. Gayle, how would you----
    Dr. Gayle. I wouldn't add a lot to that, only to say that 
while it may not be the thing that can fix the overall system, 
it is something that we know we can do a lot about, there's a 
lot of examples of making a difference, and I think it is 
totally unacceptable that today with all that we know and all 
that we can do that we continue to let 500 million women die 
every year from maternal mortality--something that ought to be 
a normal part of life, and that we continue to have 150 times 
greater mortality rates in poor countries, than we have here. 
So, it is one of those issues that we can do something about, 
that would strengthen the infrastructure.
    I would just go back to the point, the chart that Nils 
Daulaire showed earlier, when we look at, and the point that 
you made--when we look at talking about $100 million and what 
that does in terms of saving lives--$100 million is a small 
amount of money for a huge return in lives saved.
    So, I think, again it is a choice of where do we put our 
resources, what do we want to be known for as a Nation, where 
do we want to show our leadership, and start making some of 
those choices?
    When I headed the program for USAID program for, or Global 
AIDS Program, we at that time had $250 million in our total 
program. You know, we are now in the billions of dollars. It is 
possible, with the right kind of leadership and the right kind 
of commitment to take the cap off and stop making unnecessary 
limitations for things that we know can make a huge difference 
in people's lives around the world, and put us back in the 
global world as a compassionate Nation that does care about 
these things.
    Senator Leahy. You talk about the $100 million. It's just 
about noon, we spent that much today in Iraq.
    Whether one is for or against the war, just so we 
understand where the money is being spent.
    Ms. Garrett, did you agree with the Zambian doctor you 
quoted?
    Ms. Garrett. I did. I think that we use the phrase 
``canaries in the coal mine'' to refer to what is the marker of 
a potential risk or threat.
    To me, the big canary in the coal mine for whether or not 
you have a public health infrastructure is dying children under 
5, and a big canary in the coal mine for whether or not you 
have a functioning health delivery system is dying mothers in 
childbirth, and childbirth-associated deaths.
    I'll give you an example from a few years ago, when I was 
in a rural clinic in Zambia, probably about an hour's drive 
from Lusaka. A woman came in with two children, one strapped to 
her back, and one trying to walk at her side. She had had to 
walk for 2 days to get to this clinic, and was doing so because 
the baby on her back was terribly sick. But, along the way the 
child became sick as well, the one that was ambulatory, and she 
ended up, for the last mile or so, carrying both children.
    When she staggered in, the doctor felt that the larger 
child looked like the more crisis case, so she left her baby 
with me, on a straw mat on the floor, and went in to see the 
doctor with the larger child. As I held the baby, it died in my 
arms, and its cause of death was measles--completely 
preventable. The larger child died of malaria, and the mother 
broke out sobbing, describing how hard it had been for her to 
give birth both times, and how frightening it was, the prospect 
of what she would have to go through just to have two children 
to replace the two she had just lost.
    To me, that anecdote has lived with me my entire 
professional life, it has been a guiding anecdote. I can't 
think of any better way to look at what we're trying to do with 
U.S. foreign aid than to focus on how we could save both of 
those babies, and make it safe for that mother to give birth to 
future children.
    Senator Leahy. Have both the mother and the child live.
    Dr. Daulaire. The question that you asked, Senator Leahy 
is, I think, a very important one, and it underlines some of 
the challenges that we have in addressing all of these issues 
in a substantive way.
    I can certainly create for you a model in which maternal 
mortality could be dramatically reduced in which other major 
causes of illness and death probably wouldn't be affected. You 
can design a health delivery system that focuses on that. So, 
the point is that you should not confuse cause and effect. A 
well-functioning medical care delivery system will reduce 
maternal deaths, but a maternal death-reducing system will not 
necessarily be a good medical system, and I reinforce what 
Laurie Garrett just said about keeping some distinction between 
public health and medical care.
    On the other hand, an awful lot of children who die around 
the world, die not only because they lack preventive services, 
but because they don't have access to the basic care that would 
get them antibiotics for their pneumonia, that would get them 
treatment for their malaria, where you actually need a trained 
healthcare provider, so there's a mix in all of these. I think, 
though, that the bottom line is, if we made the kinds of 
investments that each of our panelists has been talking about, 
it is a reasonable presumption that we would see dramatic 
reductions in both child death and maternal deaths.
    Senator Leahy. Thank you. I want to thank each of you for 
being here. Some of the questions I asked may have seemed self-
evident, but I'm also trying to prepare a record for other 
Senators.
    I don't want to leave the impression that I simply feel 
that more money cures all things. there are very dedicated men 
and women who are out in the world, from the United States as 
well as a whole lot of other countries. Some very dedicated men 
and women from those countries, that are trying to make a 
difference. Sometimes in areas with no infrastructure, or in 
the midst of civil war.
    I think of one African country where I went with my wife 
where we were using the Leahy War Victims Fund. She had helped 
the nurses to bathe and care for a boy who was probably 10 
years old, with terribly distorted limbs. As she was bathing 
him, she didn't see a mark on him, she asked why, they said he 
had polio. She asked the obvious question, ``Why polio?'' She 
knew that we'd sent polio vaccine to that country, making it 
available? They said the people who would do the polio 
immunization could not get to his village because there were so 
many landmines around, they couldn't.
    I mention that only because too often--and I think Dr. Hill 
you were trying to point this out, there is no magic thing that 
we can do, but we should start with the health needs of women 
and children.

                   ADDITIONAL SUBCOMMITTEE QUESTIONS

    There will be some additional questions which will be 
submitted for your response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the witnesses for response subsequent to the 
hearing:]

                Questions submitted to Dr. Kent R. Hill

               Questions Submitted by Senator Tom Harkin

                           POLIO ERADICATION

    Question. Polio Eradication efforts are clearly working as we have 
seen the number of countries with indigenous polio drop to four, 2 
billion children have been immunized, 5 million have been spared 
disability and over 250,000 deaths have been averted from polio. 
However, until the world is polio-free, every child, even those in the 
United States, is at risk.
    In fiscal year 2007, both the House and Senate included $32 million 
for polio eradication in their respective Foreign Operations 
Appropriations bills.
    What amount is included for polio in your fiscal year 2007 
projections?
    Answer. USAID intends to provide $31,680,000 for polio eradication 
in fiscal year 2007, which meets the House and Senate report level 
minus a 1 percent rescission.
    Question. What is included for polio in your fiscal year 2008 
budget submission?
    Answer. The administration will fund polio eradication but specific 
funding levels are still under consideration.
                                 ______
                                 
            Question Submitted by Senator Richard J. Durbin

                           MATERNAL MORTALITY

    Question. The statistics are devastating--1 in 6 women in Angola or 
Afghanistan is likely to die from the complications of pregnancy or 
childbirth. UNFPA has a strong track record in this area, but the 
administration has refused to provide the funding for them that 
Congress has allocated. Women giving birth alone without access to the 
most basic care or life-saving drugs that could prevent post-partum 
hemorrhage should not be a hallmark of the 21st century, but in too 
many countries it is all too common. What are the most effective ways 
to reduce maternal mortality?
    Answer. Maternal mortality can be reduced in two major ways: (1) 
reduce the number of high-risk and unintended pregnancies and (2) 
address the life-threatening consequences of pregnancy, which can 
include hemorrhage, infection, eclampsia, obstructed labor, and unsafe 
abortion. By promoting healthy timing and spacing of births, reducing 
unintended pregnancy, and reducing abortion, voluntary family planning 
is one of the most effective ways to decrease the number of maternal 
deaths. Once a woman becomes pregnant, USAID's strategy focuses on 
high-impact interventions. These include active management of the third 
stage of labor to address post partum hemorrhage; tetanus toxoid 
immunization during pregnancy, clean delivery practices, and treatment 
by antibiotics to address infection; administration of magnesium 
sulfate for eclampsia; monitoring the duration of labor and taking 
action in the event of prolonged labor; and provision of post abortion 
care. The over-arching strategy to deliver these and other maternal 
interventions (such as nutritional support and intermittent presumptive 
treatment for malaria to address indirect causes of maternal death) is 
to increase women's access to skilled attendance at birth, emergency 
obstetric capability to deal with complications, antenatal care and 
post-partum care, and family planning information and services. 
Essential to successful maternal care programs are reduction of 
financial barriers for families, appropriate deployment and retention 
of skilled frontline workers, and institutionalization of quality 
improvement systems. USAID has a very strong track record in maternal 
mortality reduction, including demonstration of effective approaches in 
community mobilization and behavior change, policy formulation, 
financing of maternity services, effective life-saving skills training, 
quality improvement, and contribution to reduction of maternal 
mortality by 20-50 percent within 10 years in 10 countries.
                                 ______
                                 
               Question Submitted by Senator Patty Murray

          HEALTHTECH AND THE CHILD SURVIVAL AND HEALTH ACCOUNT

    Question. Under current funding levels, successful programs such as 
HealthTech have been cut to the skeletal remains. The administration's 
proposed budget calls for further cuts to the Child Survival and Health 
account, which funds HealthTech. These cuts are proposed while the 
administration comes to the Hill and touts HealthTech's successes such 
as the UNIJECT injection device and thccine Vial Monitor. The Senate 
budget resolution recognizes how important these programs are, and has 
added additional funding. That being said, please explain how further 
reductions could inhibit USAID's ability to fund such proven programs 
with demonstrable successes at the full obligated level?
    Answer. Reduction in funds to HealthTech is not due to Agency 
funding cuts, but due to completion of certain activities. Further, 
sufficient money is already obligated to HealthTech for current needs. 
USAID is currently funding HealthTech to help develop several 
technologies--including antibiotics in UniJect and newborn 
resuscitation devices--which will improve the health of impoverished 
people.
    In this and other key health investments, USAID focuses its 
programs and efforts on the highest impact activities, works closely 
with other donors, and continues public-private collaborations to help 
fill gaps. By these means, we expect to meet our objectives with 
requested Child Survival and Health account levels.
                                 ______
                                 
                  Question Submitted to Laurie Garrett
                Question Submitted by Richard J. Durbin

                  AFRICAN HEALTH CAPACITY/BRAIN DRAIN

    Question. The issue of health capacity is critical to addressing 
all of the problems raised today. The whole world, including the United 
Stats is experiencing a shortage of health personnel, but in Africa the 
shortage is far more dire. The math is devastatingly clear: as you 
testified, ``As the number of health workers declines, survival 
decreases.''
    Along with Senator Coleman, Senator Leahy, and others, I have 
introduced legislation to authorize a concentrated effort to help 
Africa build the health capacity that it so desperately needs, from 
personnel--doctors, nurses, and community health workers--to 
infrastructure. Africa needs both health systems and the ability to 
train and retain personnel. Our legislation is also part of an effort 
to combat the brain drain of health professionals, including the need 
to train more nurses here in the United States so that we are not 
dependent on the poorest countries in the world to supply our health 
workforce. Ethiopia has 3 physicians per 100,000 people but there are 
more Ethiopian physicians in Chicago than in all of Ethiopia (Tobias).
    What are the most effective ways to build health capacity AND fight 
this brain drain? This is an enormous problem--where can a U.S. 
contribution add the most value?
    Answer. Thank you very much for posing this critically important 
question. I am, of course, well aware of your important initiative, and 
praised it in my testimony, and during Sen. Leahy's questioning. When 
you initiated the process of drafting this bill there were few 
analogous efforts going on in the world, and the U.S. leadership in 
this area was desperately needed.
    I am happy to report that several potentially blockbuster efforts 
are underway, augmenting your efforts in this area. I will try to 
briefly describe the status of this situation, and suggest some efforts 
the United States can, and should, make.
    First of all, in the last few months there has been a striking 
sense of global recognition of this problem. Recognizing a problem, and 
understanding its roots and nuances, is always the first step. Two real 
heroes in this aspect of the situation are Mary Robinson and Tim Evans. 
Robinson, the former President of Ireland and former head of the U.N. 
Commission on Human Rights, is now heading an international group that 
is trying to find ways to slow the exodus of health care workers from 
poor countries to the rich, without violating their individual human 
rights. Her group is meeting as I write these words in Geneva, in 
tandem with the 59th World Health Assembly.
    Dr. Tim Evans, a leading Canadian health expert, now holds a top 
position in the office of WHO Director-General Margaret Chan. Together 
with Harvard's Dr. Lincoln Chen, Evans authored the groundbreaking 
analysis of the global health care workers situation, publishing 2 
years ago, that estimated current deficits at 4.3 million. Evans' high 
level position in WHO's new leadership signals Chan's appreciation of 
the dire severity of the situation, reflected in her marvelous remarks 
at the opening of the Health Assembly this week. Chan is clearly the 
sort of Director General the global health community has been waiting 
for, and I have no doubt that she will take this health crisis issue by 
the horns.
    On an entirely different front, the Prime Minister of Norway 
instigated a high-level meeting of foreign ministers, which convened in 
Oslo earlier this spring. The goal of the meeting was to better 
understand the links between national security and health, and the 
elevate discussion and action in the arena far beyond mere financial 
commitments. There is a growing recognition, as I outlined in my 
Foreign Affairs piece in January, that simply throwing billions of 
dollars at targeted global health problems, without any structural 
framework or support for public health systems development, will kill 
more people than are saved. (The one-page Oslo Ministerial Declaration 
is attached below.) The Oslo Summit promised a series of actionable 
steps.
    The first of those steps will be launched this September in New 
York, during the U.N. General Assembly: ``A Business Plan to Accelerate 
Progress Towards MDG 4 and 5''. It's not a pretty title, but the 
concept is important. The Plan recognizes that the real victims of 
health care worker and health system deficits are mothers and children, 
and seeks to create an out-put based business strategy for investment 
in developing country health systems. The Oslo declaration estimates 
that 10.5 million mothers and children die annually from preventable 
causes, nearly all of them directly resulting from lack of sufficient 
medical care or basic public health services, such as water filtration 
and sewage treatment.
    The Oslo group seeks to find business solutions to the crisis, 
creating better management of available personnel and resources, 
linking standards of care to financial rewards for providers, and 
moving the global community away from single disease targets for 
support and financial aid.
    Secretary General Ban ki-Moon is also interested in finding ways to 
move the entire U.N. system towards a health systems approach for 
achievement of the MDGs (Millennium Development Goals), hoping to bring 
the health targets of various agencies into greater harmony.
    Angela Merkel has signaled that she wants the G-8 to look at this 
issue in its upcoming Summit in Germany. Merkel has also instructed 
Germany's current leaders of the EU to examine EU foreign aid to global 
health, with an aim of building sustainable health systems.
    Meanwhile, the World Bank and its IFC are moving in a very 
different direction--at least, for now, under Wolfowitz's imperiled 
leadership. Thought the IFC recognizes the crisis in healthcare workers 
and paucity of health systems, it is not interested in building local 
capacity. Rather, it has announced a $200 million program that would 
bring massive healthcare corporations from the wealthy world into poor 
countries, providing fee-for-service healthcare delivery to the 
nations' elites. The notion is that quality care for the elites will 
have a trickle-down effect, setting a standard that the entire Ministry 
of Health operation will strive to achieve for the population, as a 
whole.
    As my tone may reveal, I do not accept this thesis. I was in Moscow 
when the U.S. Government built such an elite care facility inside the 
Kremlin Hospital, specifically to ensure that Boris Yeltsin received 
state-of-the-art cardiac care without having to leave Russian soil. The 
fantastically expensive effort was described in precisely the 
``trickle-down'' terms now used by IFC. But in the years following 
construction of the elite facility, the Russian healthcare system 
deteriorated further, life expectancy for Russian men spiraled 
downward, drug resistant TB and HIV spread across the region, the live 
birth rate reached an all-time low for Russia and the overall health 
status of the country plummeted: So much for ``trickle-down''.
    Here is the problem with how the United States funds these issues 
(to be followed by some suggested solutions):
    (1.) Nearly the entire foreign aid budget for health and 
development is earmarked for disease-specific programs. Under the 
President's fiscal year 2008 State Department ``Strategic Framework'' 
funding is further funneled according to global political exigencies, 
targeting specific countries that the Administration believes play 
crucial roles in maintaining regional stability or in the War on 
Terrorism. Funding does not reflect on-the-ground needs.
    (2.) The Administration (and many AIDS activists) argues that 
PEPFAR has created a health infrastructure in the 15 targeted countries 
that may now be solely for provision of HIV-related services, but can 
serve as a template for all health needs. In debates over 
reauthorization of PEPFAR this argument will be made. PEPFAR has become 
sensitized to the negative impact the massive AIDS-specific health 
program is having on other health services in targeted countries, and 
hopes to convince Congress to reauthorize PEPFAR, giving it more money, 
and a larger mandate.
    (3.) The United States is not now engaged in the multilateral 
efforts to address the healthcare worker and health systems crisis, 
such as Mary Robinson's plans or the Oslo Declaration. As you well 
know, the Bush Administration has not played on the global health stage 
in partnership with other wealthy nations, and has set moral standards 
for execution of health programs (e.g. sexual abstinence, faith-based 
solutions, etc.) We are not part of the global efforts to solve these 
problems.
    (4.) Overall, the U.S. foreign aid budget shares with other wealthy 
nations the problem of having been designed as a massive charity 
program. We have failed to invest in health, though we consistently use 
the term, ``invest''. Therefore, nothing is sustainable. There are no 
local profit centers, no genuine stakeholders.
    (5.) The Republican-controlled Senate, under the leadership of 
surgeon Bill Frist, favored solutions to the healthcare worker and 
health systems crises that flowed from the fundamentally charitable 
view of U.S. foreign aid. Frist introduced bills that would underwrite 
the costs of faith-based and medical societies-run programs that 
dropped American doctors (and maybe nurses) into foreign countries for 
short time periods, during which they would theoretically perform 
surgeries, and supplement the services of indigenous healthcare 
workers. Criticized as ``Safari Medicine,'' such vacation programs for 
American doctors tend to do more good for the Americans than for those 
they seek to serve, opening their eyes to the needs of the poor. 
Successes are limited to a handful of healthcare needs that are truly 
amenable to one-stop interventions, such as removal of cataracts, heart 
surgery, or limb replacement. Even acute humanitarian care 
interventions suffer if the health professionals limit their 
participation to time periods too short to allow them to learn some 
basic elements of the local language and culture.
    (6.) There is no linkage in our government currently between the 
dire healthcare worker situation overseas and our shortages of doctors, 
nurses, lab technicians and other health professionals domestically. 
Government functions as if the two issues were entirely unrelated. 
There is no official recognition that American companies and hospitals 
actively recruit doctors and nurses from poor and middle income 
countries to offset our gaps in training of domestic personnel. 
Institutionally, the federal agencies and Congressional committees that 
have oversight of the domestic and overseas issues share no lines of 
communication, whatsoever.

                               SOLUTIONS

    (1.) A joint session should be convened of the Senate Foreign 
Relations Subcommittee on Foreign Operations and the Senate Committee 
on Health, Education, Labor and Pensions. This should be a well-
orchestrated, and well-publicized full day joint session, aimed at 
revealing:
    a. Twenty year forecast on U.S. healthcare worker needs and 
shortfalls for all health professionals.
    b. Twenty year forecast on developing country healthcare worker 
needs and shortfalls for all health professionals.
    c. Recruitment and immigration trends of foreign healthcare 
workers, filling United States needs, and estimated damage done in home 
countries.
    d. Policies enacted by other wealthy countries to address brain 
drain.
    e. Reasons the United States is currently unable to fulfill its 
domestic healthcare worker needs through training and employment of 
Americans.
    f. Identification of legal instruments and budget initiatives that 
could be enacted by the House and Senate to radically enhance both the 
training of Americans and their conditions of employment, domestically.
    g. Identification of legal instruments and budget initiatives that 
could be enacted by the House and Senate to provide incentives to poor 
country healthcare workers for remaining in-country, based on the 
identified reasons for their departures to rich countries. (For many 
doctors, dentists, pharmacists, technicians and nurses, money is not 
the primary driver: The lack of coordinated health systems, reliable 
supply chains of medical equipment and drugs, lack of meritocracy 
within Ministries of Health and general political conditions rank far 
higher as reasons for immigration.)
    (2.) As a result of above Joint Session, corrective bills should be 
forwarded that seek not only bipartisan support, but also support that 
bridges the gap between domestic and foreign committee and agency foci.
    (3.) The Senate should push the State Department to radically 
increase its currently mere $3 million commitment to training in 
overseas health systems management. Even if your healthcare workers 
bill is passed, and fully funded, a surge in the numbers of community 
healthcare workers will have little positive impact if these 
individuals are not managed properly within an overall system of public 
health and clinical care.
    (4.) Attention should be given to the remarkable successes of BRAC, 
the Bangladeshi micro-financing program that has deployed vast networks 
of paid, trained community healthcare workers to villages in pursuit of 
cholera, tuberculosis, failures in child immunization and maternal 
health. BRAC has proven that community healthcare workers, including 
semi-literate individuals, can save thousands of lives if they are (1.) 
given a finite and clear mission to accomplish, backed by adequate 
training, and (2.) paid for their work at a rewarding scale, linked to 
success, and (3.) are part of a transparent, well-organized health 
system, in this case independent of the government.
    (5.) The foreign aid budget needs to move away from charity, 
towards support of business models and financial incentives of health. 
America cannot afford to put 20 million people on anti-retrovirals for 
HIV care, and foot the bill for their continued treatment for the next 
30-to-40 years. Even if we were, as a Nation of taxpayers, interested 
in underwriting the healthcare needs of the world, we could not afford 
to do so. Therefore, we have no choice but to move away from the 
charity model of foreign aid, towards a model that provides incentives 
for creation of local business solutions. This should not follow the 
apparent IFC model of providing support to foreign health corporations, 
to go into poor countries, and extract profits from their health needs. 
Rather, the Senate should look to the BRAC model and consider how 
providing low-interest seeds can lead to the blossoming of genuine, 
sustained health businesses in poor countries.
    (6.) The Senate should put pressure on HHS to radically speed up 
approval of appointments of federal employees for overseas health 
positions. Currently the majority of CDC overseas positions, and 
deployment of health personnel from other agencies within HHS, is mired 
in Secretary Leavitt's office, pending political litmus tests aimed, 
apparently, at finding scientists, experts and physicians who meet the 
Bush Administration's moral and political standards. At the very time 
when the world is, as a community, trying to hammer out radically new 
approaches to these health crises, America's voice on the world stage 
is diminishing. This should stop, immediately.
    (7.) When considering large initiatives for healthcare worker 
training, such as is envisioned in your bill, the Senate should also 
imagine the toolkit that these workers will draw from. With what 
supplies will these new healthcare workers execute their efforts? No 
doubt supplies will, in early days, also require outside support. To 
minimize such costs and build in incentives for performance standards 
and sustained commitment to maintaining community health practices we 
have favored exploration of franchise models, a la MacDonald's: Each 
community health worker, after some identified set of training and work 
excellence have been achieved, is given very low interest micro-finance 
loans for purchase of his or her own franchise, which would include a 
physical clinic and basic tools and supplies. All of the franchises 
would be overseen by the hub of the network, monitored closely for 
performance quality; volume of services provided and inventory needs.
    Senator, we are at your service for any further clarifications, 
brainstorming or information needs you may require. We are honored to 
be of service.

OSLO MINISTERIAL DECLARATION: GLOBAL HEALTH--A PRESSING FOREIGN POLICY 
                           ISSUE OF OUR TIME

    Under their initiative on Global Health and Foreign Policy, 
launched in September 2006 in New York, the Ministers of Foreign 
Affairs of Brazil, France, Indonesia, Norway, Senegal, South Africa and 
Thailand issued the following statement in Oslo on 20 March 2007:
    In today's era of globalisation and interdependence there is an 
urgent need to broaden the scope of foreign policy. Together, we face a 
number of pressing challenges that require concerted responses and 
collaborative efforts. We must encourage new ideas, seek and develop 
new partnerships and mechanisms, and create new paradigms of 
cooperation.
    We believe that health is one of the most important, yet still 
broadly neglected, long-term foreign policy issues of our time. Life 
and health are our most precious assets. There is a growing awareness 
that investment in health is fundamental to economic growth and 
development. It is generally acknowledged that threats to health may 
compromise a country's stability and security.
    We believe that health as a foreign policy issue needs a stronger 
strategic focus on the international agenda. We have therefore agreed 
to make ``impact on health'' a point of departure and a defining lens 
that each of our countries will use to examine key elements of foreign 
policy and development strategies, and to engage in a dialogue on how 
to deal with policy options from this perspective.
    As Ministers of Foreign Affairs, we will work to:
  --increase awareness of our common vulnerability in the face of 
        health threats by bringing health issues more strongly into the 
        arenas for foreign policy discussions and decisions, in order 
        to strengthen our commitment to concerted action at the global 
        level;
  --build bilateral, regional and multilateral cooperation for global 
        health security by strengthening the case for collaboration and 
        brokering broad agreement, accountability and action;
  --reinforce health as a key element in strategies for development and 
        for fighting poverty, in order to reach the Millennium 
        Development Goals;
  --ensure that a higher priority is given to health in dealing with 
        trade issues and in conforming to the Doha principles, 
        affirming the right of each country to make full use of TRIPS 
        flexibilities in order to ensure universal access to medicines;
  --strengthen the place of health measures in conflict and crisis 
        management and reconstruction efforts.
    For this purpose, we have prepared a first set of actionable steps 
for raising the priority of health in foreign policy in an Agenda for 
Action. We pledge to pursue these issues in our respective regional 
settings and in relevant international bodies. We invite Ministers of 
Foreign Affairs from all regions to join us in further exploring ways 
and means to achieve our objectives.

   NEW INITIATIVE SEEKS PRACTICAL SOLUTIONS TO TACKLE HEALTH WORKER 
                               MIGRATION

    Geneva.--The health worker migration policy initiative held its 
first meeting today at the headquarters of the World Health 
Organization (WHO) in Geneva. The initiative, led by Mary Robinson, 
President of Realizing Rights: the Ethical Globalization Initiative, 
and Dr. Francis Omaswa, Executive Director of the Global Health 
Workforce Alliance (GHWA), is aimed at finding practical solutions to 
the worsening problem of health worker migration from developing to 
developed countries.
    WHO Director-General Dr. Margaret Chan said, ``International 
migration of health personnel is a key challenge for health systems in 
developing countries.'' The new initiative has a Technical Working 
Group housed at WHO.
    The Health Worker Migration Policy Initiative is made up of two 
groups that will work closely together over the coming months to 
develop recommendations. The Migration Technical Working Group, which 
is being coordinated by WHO, brings together the International 
Organization for Migration, the International Labour Organization, 
professional associations, experts and academics.
    The Health Worker Global Policy Advisory Council, under the 
leadership of Mary Robinson and Francis Omaswa and with Realizing 
Rights serving as its Secretariat, is made up of senior figures from 
developed and developing countries, who will develop a roadmap and a 
framework for a global code of practice for health worker migration and 
seek high-level political backing for its recommendations.
    A recent study has shown that the number of foreign-trained doctors 
has tripled in several OECD countries over the past three decades. The 
number of foreign-trained doctors from countries with chronic shortages 
of health workers is relatively small (less than 10 percent of the 
workforce) in developed countries. However, for some African countries, 
the migration of a few dozen doctors can mean losing more than 30 
percent of their workforce, even as basic health needs remain unmet.
    Other health professions are also affected by this phenomenon. The 
study showed that in Swaziland, 60 to 80 nurses migrate to the United 
Kingdom each year, while fewer than 90 graduate from Swazi schools. 
GHWA partner and member Save the Children UK estimates that the United 
Kingdom saved <brit-pound>65 million in training costs between 1998 and 
2005 by recruiting Ghanaian health workers.
    Mary Robinson summarized the need for urgent action: ``We cannot 
stand alone as individual countries continue to address their own 
increased needs for health workers without looking beyond their shores 
to the situation these migrating workers have left behind in their 
homelands. We cannot continue to shake our heads and bemoan the 
devastating brain drain from some of the neediest countries on the 
planet without forcing ourselves to search for--and actively promote--
practical solutions that protect both the right of individuals to seek 
employment through migration and the right to health for all people.''
    One of the initiative's first priorities will be to support WHO in 
drafting a framework for an International Code of Practice on Health 
Worker Migration, as called for by a resolution of the World Health 
Assembly in 2004. This framework will promote ethical recruitment, the 
protection of migrant health workers' rights and remedies for 
addressing the economic and social impact of health worker migration in 
developing countries. The Code of Practice will be the first of its 
kind on a global scale for migration.
    The initiative will also promote good practices and strategies to 
enable countries to increase supply and retain their health workers 
more effectively. The new tools and policy recommendations developed by 
the initiative will support better management of migration through 
North-South collaboration.
    Dr Francis Omaswa emphasized the importance of addressing both the 
``push'' and ``pull'' factors simultaneously. ``Health workers are a 
valued and scarce resource. Demand is increasing worldwide, but not 
enough are being trained--in the developed or the developing world. 
Developing countries must prioritize health and health workers, with 
better working conditions and incentives so its workforce can stay and 
be more efficient, while developed countries must train more of their 
youth and try to be self-sufficient.''
    The Health Worker Migration Policy Initiative is due to make 
initial policy recommendations by the end of 2008. Its operations are 
co-funded and coordinated by Realizing Rights, the Global Health 
Workforce Alliance, and the MacArthur Foundation.

              HEALTH WORKER GLOBAL POLICY ADVISORY COUNCIL

    Co-Chairs: Hon. Mary Robinson, President, Realizing Rights
    Dr. Francis Omaswa, Executive Director, GHWA

                                MEMBERS

    Hon. Major Courage Quarshie, Minister of Health, Ghana; Hon. Erik 
Solheim, Minister of International Development, Norway; Hon. Patricia 
Aragon Sto Tomas, Minister of Labor and Employment, the Philippines; 
Hon. Rosie Winterton, Minister of State for Health Services, United 
Kingdom; Dr. Lincoln Chen, Director, Global Equities Initiative, 
Harvard University; Dr. Anders Nordstrom, Assistant Director General, 
Health Systems and Services, WHO; Ms. Janet Hatcher Roberts, Director, 
Migration Health Department, IOM; Mr. Ibrahim Awad Director, 
International Migration Programme, ILO; Lord Nigel Crisp, co-Chair, 
GHWA Task Force on Scaling up Education & Training; Dr. Percy Mahlati, 
Director of Human Resources, Ministry of Health, South Africa; Huguette 
Labelle, Chancellor, University of Ottawa; Dr. Titilola Banjoko, 
Managing Director, Africa Recruit; Prof. Ruairi Brugha, Head, 
Department of Epidemiology & Public Health, Ireland; Ms. Sharan Burrow, 
President, International Confederation of Free Trade Unions; Ms. Ann 
Keeling, Director, Social Transformation Programs Division, 
Commonwealth Secretariat; Mr. Markos Kyprianou, Director General, 
Health & Consumer Protection, European Commission; Mr. Peter Scherer, 
Directorate for Employment, Labour and Social Affairs, OECD; Prof. Anna 
Maslin, Nursing Officer, International Nursing & Midwifery Health 
Professions Leadership Team, Department of Health, United Kingdom; Dr. 
Mary Pittman, President, Health Research & Education Trust, American 
Hospitals Association; and Dr. Jean Yan, Chief Scientist for Nursing & 
Midwifery, WHO, chair of the Migration Technical Working Group.
        health worker global policy advisory council secretariat
    Ms Peggy Clark, Managing Director, Realizing Rights
    Dr. Ita Lynch, Health Advisor, Realizing Rights

                          SUBCOMMITTEE RECESS

    Senator Leahy. So, I thank you all very much for being 
here. The subcommittee will stand in recess.
    [Whereupon, at noon, Wednesday, April 18, the subcommittee 
was recessed, to reconvenne at 10:30 a.m., Thursay, May 10.]


  STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2008

                              ----------                              


                         THURSDAY, MAY 10, 2007

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:25 a.m., in room SD-106, Dirksen 
Senate Office Building, Hon. Patrick J. Leahy (chairman) 
presiding.
    Present: Senators Leahy, Landrieu, Gregg, Bennett, Bond, 
and Alexander.

                          DEPARTMENT OF STATE

                        Office of the Secretary

STATEMENT OF HON. CONDOLEEZZA RICE, SECRETARY

             OPENING STATEMENT OF SENATOR PATRICK J. LEAHY

    Senator Leahy. First I apologize to the Secretary and to 
others for the delay. As you could probably see, we had votes 
on, and Senator Gregg, Senator Bennett, and I were there.
    Madam Secretary, of course, it is good to have you here to 
discuss the administration's fiscal year 2008 budget. I have a 
lot to cover, and we are starting late.
    We've discussed this before. Whenever--wherever I go these 
days--and I travel various places outside of the country--not 
as much as you do--but I'm invariably asked, ``What does the 
United States do to repair the damage, as seen in many 
countries to our international reputation as a nation that has 
historically stood for the rule of law, including international 
peace, international law, defending the fundamental rights of 
people everywhere, regardless of race, religion, ethnicity, or 
nationality, something that makes us proud--all of us proud, as 
Americans, but which is not the view of so many of those 
countries that were united behind us the day after 9/11?'' When 
you see the policies of this administration, from Iraq to 
Guantanamo, we've turned strong allies into reluctant partners, 
friends into antagonists. According to surveys, many people, 
particularly in Muslim countries, now see America as a greater 
threat than the religious extremists. These are the people who 
have incited hatred and violence. I think this should alarm us, 
it should stir us to action. Those who hold these views, I 
believe, are horribly mistaken. But we're not doing enough to 
convince them otherwise. While some may argue that taking 
unpopular stands is a price of leadership, I reject that as a 
justification for the damage we've needlessly caused to a proud 
and principled reputation that took the founding of our Nation 
and a civil war and two world wars, and the lives of countless 
American patriots, to forge and fortify and defend.
    But where I go--and I look from the Pacific Rim to the 
Middle East, from Darfur to South America--our image, our 
influence, are waning sharply in the face of growing 
challenges. That concerns me greatly, as an American. I'm sure 
it does you. Once again, we've learned the painful lesson that 
military might is no substitute for effective policies that 
rally support and cooperation from the international community.
    Transformational diplomacy is a lofty slogan for what 
amounts to adding new positions at posts that have been 
understaffed for years. I welcome that. But, beyond that, I see 
little in this budget that offers confidence that the 
administration is prepared to devote the resources necessary to 
successfully exert America's influence in such a complex world.
    Senator Gregg and I will work together, as we have. We're 
not only neighbors across the Connecticut River, but we've 
worked very closely together in a bipartisan effort on so many 
of these foreign policy issues. We'll do our best to fund 
President Bush's request, and to incorporate the meritorious 
suggestions of Senators. But I'm afraid we're going to fall 
short of what this country is capable of, but, more 
importantly, what this country should do.
    Now, we want you to succeed. I can speak for every Senator 
here, Democratic or Republican. We want you to succeed in the 
time you have left, particularly in the Middle East, where so 
much is at stake. But much time has been wasted, goodwill has 
been squandered.
    I will go the Middle East in the next few weeks, and I'm 
going to be interested in what kind of a message we can bring 
them.
    The White House has not only favored a ``my way or the 
highway'' unilateralism in its dealings with the world, but, 
unfortunately, unlike past administrations, Democratic and 
Republican, it has often treated those members not of the 
President's party in Congress the same way. That was 
unnecessary, it was ineffective, and the American people and 
our national interests in the world have paid a high price for 
it.
    Now, we may have our disagreements, but you, Madam 
Secretary, and your staff, have always been accessible in 
wanting to discuss ways that we can work together. People would 
probably be surprised at the number of times you and I are on 
the telephone or meeting in person. I appreciate that. I hope 
we can do more in the months ahead. This is a critical time for 
the United States.
    Senator Gregg.

                OPENING STATEMENT OF SENATOR JUDD GREGG

    Senator Gregg. Thank you, Mr. Chairman. Thank you for 
holding this hearing.
    Thank you, Madam Secretary, for being with us today. You 
keep such a hectic schedule. I don't know how you do it, and we 
appreciate your taking the time to be here.
    I know the Senator didn't mean to imply this, but I think 
it's important for us to reinforce the fact that defending 
liberty and promoting liberty around the world is not a 
mistake, it's a purpose and a cause of our Nation, has been and 
always should be, that we, as a nation, understand that freedom 
is something that comes at a dear price, and we're willing to 
pay that price. Our efforts around the world have been to 
promote freedom and to give people who haven't had the 
opportunities that we have had as a Nation, maybe, the chance 
to see the light of freedom. Have we done it correctly at all 
times? No. But have we done it with good purposes? Absolutely 
yes. I would hope that we would always view our foreign policy 
in that nature.
    In addition, the chairman asked, and rightly asked, how we 
can create better relations around the world, because that 
should be one of our causes and our goals. I would say one of 
the best ways to do it is to have the Secretary of State we 
have. You do an exceptional job. I greatly admire your efforts. 
I think when you travel across the globe, as you do on a 
regular basis, you bring a face of America that is proud, 
intelligent, thoughtful, and respected, and, as a result, you, 
yourself, personify the great strengths of our Nation and 
present so well across the world that we're very lucky to have 
you serving us.
    So, I thank you for being here today, and I appreciate your 
service.
    Senator Leahy. Thank you.
    Secretary Rice, please go ahead. Of course, your full 
statement will be placed in the record, but I would like to 
have the time--your time is precious, and I'd like to have the 
time available for questions.
    Go ahead.

              SUMMMARY STATEMENT OF HON. CONDOLEEZZA RICE

    Secretary Rice. Thank you very much. Thank you, Mr. 
Chairman. Thank you, ranking member Gregg, members of the 
subcommittee.
    Mr. Chairman, I will place the full statement into the 
record so that we might have full time for exchange. I'll just 
start with a few comments.
    I appreciate, again, the opportunity to address this 
committee about the challenges and the opportunities that we 
face in the United States, and that the United States faces in 
the world today. I look forward to working with you, with 
Members of Congress from both sides of the aisle, so that we 
can ensure that America's diplomacy, and the courageous 
individuals who undertake it, have the necessary resources to 
protect our national security, to advance our democratic 
ideals, and to improve people's lives throughout the world.
    With these duties, we also reaffirm our responsibility to 
the American people, and that is a responsibility to be the 
best possible stewards of their hard-earned dollars.
    President Bush's fiscal year 2008 international affairs 
budget request for the Department of State, USAID, and other 
Foreign Affairs agencies totals $36.2 billion. In addition, the 
administration is requesting $3.3 billion in war supplemental 
funding in fiscal year 2008, $1.37 billion of that would be for 
foreign assistance, and $1.93 billion for State Department 
operations. It's principally to support emergency requirements 
in Iraq and Afghanistan.
    This request represents a fundamental investment in our 
national security----
    Senator Leahy. Madam Secretary?
    Secretary Rice. Yes?
    Senator Leahy. If you could withhold a moment.
    Secretary Rice. Yes.
    Senator Leahy. People who are in this room are here as 
guests of the Senate. Obviously, you have a right to express 
opinions, but when you stand up, in a way, you block others who 
have stood in line. A lot of people have stood in line for 
hours for these hearings. We want--they are televised, but we 
want people to be able to see the hearings. But when you stand 
up, you're blocking people behind you, and I think that's 
unnecessary. You can make your point. I realize there are 
people here who disagree with the war in Iraq, disagree, 
perhaps, with what's being said, but I would make it very clear 
I will not countenance, in any way, people being blocked from 
being able to watch this, nor will I countenance, in any way, 
disturbances. Just so we all understand.
    Secretary Rice, please continue.
    Secretary Rice. Thank you, Chairman.
    America remains engaged in a global war on terrorism, which 
is a war of a totally new and different kind. We face a long 
confrontation in which military strength is important, but not 
sufficient. The defining feature of our world today is its 
interdependence. The security of the American people depends on 
the stability and the success of foreign societies. If 
governments cannot, or choose not to, meet their 
responsibilities as sovereign states, nations around the globe 
are threatened by the resulting chaos and disorder.
    The President believes that the defense of our country 
depends on close integration of our multilateral diplomacy, our 
development efforts, and our support for human rights and 
democratic institutions. That is why President Bush's budget 
designates the Department of State as a national security 
agency. We must recognize that our Foreign Service, our civil 
service, and Foreign Service nationals are performing a vital 
national security role, often in difficult and dangerous posts, 
far away from friends and families, and, in many cases, 
shoulder to shoulder on the front lines with our men and women 
in uniform.
    We are asking our civilians to do far more than just manage 
an existing international order. We are charging them with 
helping foreign citizens and their governments to transform 
their countries, to move them toward peace and freedom, 
prosperity, and social justice.
    This is the national security mission of our Department of 
State which we've referred to as transformational diplomacy. To 
succeed in this critical work for the American people, we are 
making important changes to our Department's organizations, 
both in terms of roles--the roles our people are playing and 
how we are structuring our foreign assistance programs.

                           PREPARED STATEMENT

    We believe strongly that this is a challenging time for 
America, for our goals of promoting democracy, and for the 
resultant peace that it would bring. But I can tell you that I 
am very, very proud to lead the men and women of the Department 
of State. They are great patriots. They're doing hard jobs. I 
look forward to being before you to talk about the resources 
that they need to do their job well.
    Thank you very much.
    [The statement follows:]

                 Prepared Statement of Condoleezza Rice

    Mr. Chairman, ranking member Gregg, members of the subcommittee: 
Thank you for this chance once again to address the Committee about the 
many challenges and opportunities facing the United States today. I 
look forward to continue working with Congress, closely and across 
party lines, to ensure that America's diplomacy, and the courageous 
individuals who undertake it, have the necessary resources to protect 
our national security, advance our democratic ideals, and improve 
people's lives throughout the world. With these duties we also reaffirm 
our responsibility to the American people: to be the best possible 
stewards of their hard-earned dollars.
    President Bush's fiscal year 2008 International Affairs Budget 
request for the Department of State, USAID, and other foreign affairs 
agencies totals $36.2 billion. In addition, the Administration is 
requesting $3.3 billion in war supplemental funding in fiscal year 
2008--$1.37 billion for foreign assistance and $1.93 billion for State 
Department operations--to support emergency requirements in Iraq and 
Afghanistan.
    This request represents a fundamental investment in our national 
security. More than 5 years after the September 11 attacks, America 
remains engaged in a global war on terrorism, which is a war of a 
totally new and different kind. We face a long confrontation, in which 
military strength is important to our success, but is not sufficient. 
The defining feature of our world today is its interdependence. The 
security of the American people depends on the stability and the 
success of foreign societies. If governments cannot, or choose not, to 
meet their responsibilities as sovereign states, nations around the 
globe are threatened by the resulting chaos and disorder. The President 
believes that the defense of our country depends on the close 
integration of our multilateral diplomacy, our development efforts, and 
our support for human rights and democratic institutions. That is why 
President Bush's budget designates the State Department as a national 
security agency.
    We must recognize that our Foreign Service, our Civil Service, and 
our Foreign Service Nationals are performing a vital national security 
role--often in difficult and dangerous posts, far away from friends and 
families, and in many cases, shoulder to shoulder with our men and 
women in uniform. We are asking our civilians to do far more than just 
manage an existing international order; we are charging them with 
helping foreign citizens and their governments to transform their 
countries--to move them toward peace, freedom, prosperity, and social 
justice.
    This is the national security mission of our State Department 
today, which we have referred to as transformational diplomacy. To 
succeed in this critical work for the American people, we are making 
important changes to our department's organization--both in terms of 
the roles our people are playing and how we are structuring our foreign 
assistance programs. This is the foundation of our budget, and I would 
like to briefly review these important changes.

                   TRANSFORMING THE STATE DEPARTMENT

    With the support of Congress, we are moving our people off the 
front lines of the last century, in the capitals of Europe and here in 
Washington, and into the critical posts of this new century--in Asia, 
in Africa, in the Middle East, and here in the Americas. Last year, we 
reprogrammed 200 positions for this purpose; we are set to reposition 
80 more. At the same time, we are moving our people out of our 
embassies and into the field, so they can engage and work not only with 
governments but with the people of the nations in which they serve. We 
are making every necessary change--giving our diplomatic corps better 
training, better tools and technology, and more language skills--to 
empower them to meet this challenge.
    We realize that resources are tight, so in all that we do, we seek 
to be good stewards of the taxpayers' money. Last year, I created the 
position of Director of United States Foreign Assistance. On Monday, 
the White House announced it has designated Henrietta Fore as Acting 
Administrator of USAID, with the intent to nominate. I also have named 
Undersecretary Fore as Acting Director of Foreign Assistance. Our goal 
is the strategic alignment of our foreign assistance and our foreign 
policy goals.
    The main idea that I want to stress is this: Our new approach to 
foreign assistance ensures an efficient, effective, and strategic use 
of the American taxpayer's money. We adopted a country-based approach 
to achieve this. We asked our experts at State and USAID to allocate 
foreign assistance resources to activities that help countries most 
effectively develop their institutions in order to take care of their 
people and reduce widespread poverty. The adjustments you may see in 
one program are justified by what we have determined are greater needs 
elsewhere, and only after the trade offs have been thoroughly analyzed, 
in order to make the best use of our limited resources.
    As a result of this process, resources for the three objectives 
supporting long-term development--Governing Justly and Democratically, 
Investing in People, and Economic Growth--have increased by 
approximately $100 million in this year's request from fiscal year 2006 
levels. You will note some differences, however, in the structure of 
the request. For example, there is a shift in resources from the 
Development Assistance (DA) account to the Economic Support Fund (ESF) 
account. This shift represents our attempt to better justify our 
request by rationalizing the use of these two different accounts for 
different types of countries. The increase in ESF and decrease in DA 
should not be interpreted as a decrease for activities to support the 
poor and invest in development.
    With the performance and accountability measures we are putting in 
place, we aim to ensure that we are providing the necessary tools and 
the right incentives for host governments to secure the conditions 
necessary for their citizens to reach their full potential. This 
furthers our goal of helping developing nations to ``graduate'' from 
our assistance, not to grow dependent on it.

                         EMPOWERING OUR PEOPLE

    We are moving ahead on these initiatives with our existing 
authority. There are steps that need to be taken, and we are taking 
them. But we must do more, and to do it, we need additional resources. 
For this, we need the continued support of the Congress. That is why we 
are requesting $7.2 billion for State Department operations.
    As we transform our existing positions to serve new purposes, we 
must also create new positions that advance our strategic objective of 
getting more Americans onto the diplomatic frontlines of the 21st 
century. This year, we are requesting an increase of $125 million to 
create 254 new positions in critical spots like India, China, 
Indonesia, Venezuela, Nigeria, South Africa, and Lebanon. This funding 
will also enable us to establish new American Presence Posts, 
reflecting our goal of moving more of our diplomats into the regions 
and provinces of our host countries. This increase includes 57 
positions and $15 million for the Office of the Coordinator for 
Reconstruction and Stabilization. I should add here that I am grateful 
for the authority provided in the supplemental appropriation to 
transfer up to $50 million to create a Civilian Reserve Corps. These 
funds will allow us to develop a deployable cadre of civilians who will 
be able to respond quickly to a crises and stabilization missions 
overseas
    Our Department's new and evolving mission, which is vital to our 
national security, requires an increased investment in our people. Our 
people need the latest technology and the best training, in leadership 
and language skills. This budget meets those demands, including $905 
million for information technology. We must also continue to improve 
our security in a dangerous world. This budget allocates $965 million 
to strengthen security for our posts, our people, and our information 
systems worldwide, including the creation of 52 additional positions 
for security professionals.
    At the same time, we must continue to modernize and improve our 
facilities around the world. We seek $1.6 billion to address the major 
physical security and rehabilitation needs of our embassies and 
consulates worldwide so we can protect the men and women serving in our 
posts. In the fourth year of Capital Security Cost Sharing, other U.S. 
Government agencies with personnel abroad will contribute $362 million 
for the construction of new, secure diplomatic facilities.
    To continue filling the ranks of the Foreign Service with our 
Nation's best talent, we intend to revamp the pay scale for our 
diplomatic corps. State Department personnel are increasingly expected 
to serve in what we call ``hardship posts,'' which now comprise nearly 
20 percent of all department positions. We must fairly compensate our 
men and women serving abroad in difficult locations, often far away 
from their families, and we must rectify a growing disparity between 
basic salary levels for employees in the United States and overseas. 
Our budget request includes $35 million to begin a transition to a 
performance-based pay system and a global rate of pay.
    The State Department mission also extends to defending our borders 
and protecting our homeland. We must remain a welcoming nation for 
tourists, students, and businesspeople, while at the same time 
increasing our security against terrorists and criminals who would 
exploit our open society to do us harm. For this purpose, our budget 
includes $1.3 billion for the Border Security Program, and we seek to 
add 122 consular positions to address rising passport and visa demands. 
As good stewards of taxpayer dollars, we are using revenues from visa, 
passport surcharge, and visa fraud fees to fund improvements in our 
border security. In coordination with the Department of Homeland 
Security, we seek to fulfill the President's vision of secure borders 
and open doors.
    Finally, we are requesting $1.35 billion to meet our commitments to 
international organizations such as the United Nations. Over the past 
year we have seen how important it is for the United States to provide 
principled leadership in institutions of multilateral diplomacy. 
Through the United Nations, we helped to negotiate a key resolution 
that ended a month of war in Lebanon and Israel, which was launched by 
the leaders of Hezbollah. We rallied the international community to 
oppose Iran and North Korea's nuclear weapons ambitions with Chapter 7 
Security Council resolutions. And we worked to ease the suffering of 
the people of Darfur and to provide for a peacekeeping force there. 
International organizations are essential to our Nation's foreign 
policy goals, and deserve our continued support.

                  SECURING PEACE, SUPPORTING DEMOCRACY

    I have discussed the steps we are taking to support our people. Let 
me turn now to the purposes of our foreign assistance.
    Our highest priority is to defend the American people and homeland 
by doing our part in the global war on terrorism. To succeed, we need 
the continued support of key partners--our historic allies in Europe, 
Asia, and the Americas, but also in key developing countries, which 
have the will, but not the means, to fight terrorism. The fiscal year 
2008 request includes $186 million for Indonesia, $2.4 billion for 
Israel, $544 million for Kenya, and $515 million for Jordan. Our 
assistance helps those countries, and many others, to enforce their 
laws, secure their borders, gather and share intelligence, and take 
action against terrorists on their own or with us. This request also 
devotes $785 million to Pakistan to lead that country in a moderate and 
modern direction, to gain control of the border areas, and to advance 
prosperity there. Specifically, this request includes $90 million to 
support President Musharraf's 5-year development plan for the federally 
administered tribal areas.
    Across the Broader Middle East, we also look to new partners in 
embattled young democracies, who are working courageously to turn the 
tide against violent extremism in their countries. In the past several 
years, the efforts of reformers and responsible leaders have changed 
the strategic context of the region. We have offered critical support 
for civil society groups seeking political openness, economic 
opportunity, education reform, and the empowerment of women. We will 
continue to support these important reform initiatives.
    Democratic institutions in places like Iraq, Afghanistan, Lebanon, 
and the Palestinian territories are facing serious threats. They are 
under siege from violent extremists and their state supporters in the 
region. The Taliban in Afghanistan, Hamas in the Palestinian 
territories, Hezbollah in Lebanon, violent extremists in Iraq--all of 
these groups struck damaging blows last year to the cause of peace and 
freedom in the Broader Middle East. This year we must turn the tide, 
and we aim to do just that with a comprehensive strategy to help 
reformers and responsible leaders show their people that democracy can 
deliver the security, prosperity, opportunity, and dignity that they 
seek.
    In Afghanistan, we support the efforts of the new democratic 
government in Kabul to lead the nation toward freedom and prosperity. 
To achieve that goal, we have taken a hard look at our overall policy 
and adopted an effective counterinsurgency strategy--a complete 
approach that integrates military efforts with political support, 
counter-narcotics programs, development priorities, and regional 
diplomacy. There is a comprehensive, ongoing ``offensive,'' which is 
being run by the Afghanistan Government.
    Our goal is to help the Afghan Government improve the quality of 
life for its people by extending security, providing good governance, 
and opening up new economic opportunities. Along with these goals, 
President Karzai has demonstrated his determination to lead a serious 
counter-narcotics effort, but he needs our assistance. We are 
increasing our funding in this key area, along with additional funding 
for reconstruction, local economic development, and law and order. The 
base budget request of $1.4 billion for fiscal year 2008 aims to 
stimulate economic growth, establish peace and security, create jobs, 
provide essential education and health care, promote human rights, 
especially women's rights, strengthen accountability and transparency, 
and extend the reach of the democratic state.
    To achieve these broad objectives, we will continue to build roads 
and electricity grids, and support agricultural development. Working 
through Provincial Reconstruction Teams, or PRTs, and in concert with 
the Afghan government, we will build government and justice centers at 
the provincial level. We will train government personnel, and we will 
help meet local needs for markets, schools, clinics, and other vital 
services. Most importantly, we will integrate all of these efforts to 
advance our overall strategic objective of empowering Afghanistan's 
democratic government.
    In Iraq, President Bush has adopted a strategy in recognition that 
the current level of sectarian violence is unacceptable. There is a 
strong military component to this strategy, but success in Iraq depends 
on more than military efforts alone. It requires robust political, 
economic, and diplomatic measures. Our military operations must be 
fully integrated with our civilian and diplomatic efforts to advance 
the strategy of ``clear, hold, and build.'' The State Department is 
playing its role in this mission. We are strengthening, indeed surging, 
our civilian efforts. To do so, we are requesting $1.4 billion in 
fiscal year 2008 in the base budget and the fiscal year 2008 
supplemental request to fund our assistance efforts in Iraq.
    The main focus of our support will continue to shift toward helping 
the Iraqi Government expand its reach, its relevance, and its resources 
beyond Baghdad. We will help local leaders improve their capacity to 
govern and deliver public services. Our economic efforts will be 
targeted to local needs, with proven strategies of success, like micro-
credit programs.
    Expanding our PRT presence will also enable us to diversify our 
assistance across Iraq. Iraq has a federal government. Much of the 
street-level authority, and much of the opportunity for positive change 
in Iraq, lies outside Baghdad, in local and provincial governments, 
with party leaders and tribal chiefs. By actively supporting these 
provincial groups and structures, we expand our chances of success in 
Iraq. Our PRTs have had success working at the local level in towns 
like Mosul, Tikrit, and Tal Afar. Now we will invest in other parts of 
Iraq, like Anbar province, where local leaders are showing their desire 
and building their capacity to confront violent extremists.
    In Lebanon, we are requesting approximately $60 million in fiscal 
year 2008 to complement what we requested in the fiscal year 2007 
Supplemental to support the Lebanese people's aspirations for peace, 
stability, and economic development. In November 2006, we signed a 
Trade and Investment Framework Agreement to help support Lebanon's 
development through enhanced bilateral economic ties. I made a 
significant pledge of $770 million in January at the Lebanon Donors' 
Conference, which raised $7.6 billion to support the Lebanese people 
and their democratically-elected government. Our assistance will 
support the Lebanese government's own ambitious reform program, which 
demonstrates its commitment to reducing its debt and achieving economic 
and financial stability. I continue to keep your concerns in mind 
regarding direct budget support and let me reassure you, the money 
supports the economic reform plan endorsed by the international 
financial institutions and benchmark goals supported by us.
    As we take steps in the reconstruction and development effort, we 
must not lose sight of the need to implement fully U.N. Security 
Council resolutions related to Lebanon, in particular Resolution 1701. 
We commend the Lebanese Government for deploying the Lebanese armed 
forces to the south of its country for the first time in almost 40 
years, and we applaud the international community for its successful 
deployment of the enhanced UNIFIL forces to help Lebanon secure its 
sovereignty. Much more work remains to be done, however, to ensure 
Lebanon's sovereignty is not undermined by regional actors like Syria 
and Iran and to address the threat of terrorist groups like Hezbollah. 
I look forward to continuing to work with the UN and our other 
international partners on further steps to implement Resolution 1701.
    In the Palestinian territories, President Abbas's desire to support 
a better life for his people and to make peace with Israel is being 
blocked by the radical leaders of Hamas. One year after this group's 
legitimate election, the international community continues to stand 
together in its insistence that Hamas meet the conditions set out by 
the Quartet: recognize Israel, renounce violence, and accept all 
previous agreements and obligations, including the Roadmap. Peace 
between Israel and the Palestinians will be possible only with a 
Palestinian government that recognizes Israel's right to exist and 
renounces terrorism. We will judge the Palestinian government by its 
words and by its actions.
    For fiscal year 2008, we are requesting $77 million to help meet 
Palestinian humanitarian needs, including emergency food, health and 
educational assistance, programs to strengthen democracy and good 
governance, and support private sector development in the West Bank and 
Gaza. These bilateral funds are in addition to the funds requested for 
the U.N. Relief and Works Agency for Palestine Refugees in the Near 
East (UNRWA). There is a battle in this region between moderates and 
extremists. These funds will not go to Hamas or any other terrorist 
organization, but will bolster moderate forces in the Palestinian 
territories.
    For Iran, the President has requested $109 million in funding, 
including $20 million for VOA's Persian service, $8.1 million for Radio 
Farda, $5.5 million for consular affairs, and $75 million in Economic 
Support Funds for civil society and human rights projects in Iran. 
These funds will allow us to continue with a wide range of democracy, 
educational, and cultural programs, as well as to improve the free-flow 
of information to the Iranian people. We must continue to make clear 
that while we differ fundamentally with the current government of Iran, 
and we seek friendship with the Iranian people.
    The hard work of democracy does not end with one free election; 
that is only the beginning. Lasting democratic reform must also 
encompass an independent media, free political parties, limits on state 
authority, and protections for human rights. We are funding programs in 
all of these fields of democratic reform. To support democratic 
transitions, the budget provides $1.4 billion for programs that foster 
rule of law and human rights, good governance, political competition 
and consensus-building and civil society.
    As we work to expand freedom and prosperity, we must champion these 
ideals through our public diplomacy and vital educational and cultural 
exchanges, for which we are requesting funding of $855 million. Public 
diplomacy is a vital component of our national security strategy. We 
seek to reach out to the peoples of the world in respect and 
partnership, to explain our policies and to express the power of our 
ideals--freedom and equality, prosperity and justice. Public diplomacy 
is no longer the job of our experts alone; it is the responsibility of 
every member of the State Department family, and we are mobilizing the 
private sector and the American people to help.
    People-to-people exchanges are also a vital component of our 
national security strategy. Many exchange participants report that they 
are ``forever changed'' by their direct involvement with the American 
people. Last year, the total number of student and exchange visas 
reached an all-time high of 591,000. We want to expand on this success, 
working in partnership with the private sector wherever we can.
    We seek $668 million for the Broadcasting Board of Governors, to 
support radio, television, and internet broadcasting worldwide, 
including in North Korea, Iran, and Cuba.

                       MEETING GLOBAL CHALLENGES

    We face a major challenge in the proliferation of weapons of mass 
destruction and the materials to produce them. The fiscal year 2008 
budget supports our key multilateral counter-proliferation activities--
including the Proliferation Security Initiative, the G-8 Global 
Partnership, the Global Initiative to Combat Nuclear Terror, and U.N. 
Security Council Resolution 1540. The budget also supports our efforts 
to strengthen the global non-proliferation regime, by rallying the 
international community to hold governments accountable for these 
actions which violate their responsibilities.
    As the President said in his State of the Union address, we are 
committed to addressing ``the serious challenge of global climate 
change.'' Our approach is rooted in pragmatism and partnership. One of 
our principal initiatives is the Asia-Pacific Partnership on Clean 
Development and Climate, which we launched in concert with Australia, 
South Korea, Japan, India, and China. Together, these countries 
represent more than half of the world's economy, a large share of the 
world's emissions, and a growing demand for energy that is vital to 
economic development. The Partnership, for which we request $30 million 
for fiscal year 2008, is accelerating investment and opening markets 
for cleaner, more efficient technologies, goods, and services, while 
fostering sustainable economic growth and poverty reduction.
    In Colombia, we are requesting $506.468 million in the fiscal year 
2008 budget to sustain our commitment to counter narcotics and demand 
reduction. During his visit to Bogata on March 11, President Bush 
reaffirmed to President Uribe the importance of helping Colombia finish 
the job. With Congress's bipartisan support, the United States has 
helped the Colombian people to protect their democracy from drug 
traffickers, restore security to large parts of the country, protect 
human rights, and begin a far reaching reform of its judicial system. 
The gains have been impressive. Colombia has come back from the brink 
to become a partner. We are confident that, with Congressional support 
for our fiscal year 2008 budget request and approval of the Colombia 
free trade agreement, these hard won gains will be just the beginning 
of Colombia's dramatic transformation.
    Critical challenges remain. President Uribe is addressing these 
issues aggressively and decisively, continuing the fight against drug 
traffickers, but also focusing on winning the peace through economic 
and social development, consolidation of democratic institutions, and 
respect for human rights. In response, we have designed an assistance 
strategy that will help President Uribe and the Colombian people 
achieve the security and prosperity they have worked so hard to make 
possible. We want to improve the lives of Colombians while reducing the 
impact of narco-terrorism on the United States and the region.
    I know that there are questions about the relative mix of ``hard'' 
and ``soft'' spending in our fiscal year 2008 budget request. We know 
that without security it is impossible to promote socioeconomic 
development. Our plan is to invest now in the Colombians' capabilities, 
as we gradually turn over responsibility for the counternarcotics 
programs to them. I also know that recent concerns of paramilitary ties 
to Colombian government and military figures are a serious matter. The 
Colombian Government's commitment to seeking the truth and insisting on 
justice deserves our support. I believe strongly that we need to 
recognize President Uribe's leadership and the extraordinary commitment 
of the Colombian people.
    We face another potentially deadly challenge in the threat of 
pandemic disease. The fiscal year 2008 budget request of $100 million 
supports our global strategy and partnership to address avian influenza 
outbreaks and to support prevention strategies worldwide.
    The fiscal year 2008 budget also advances the goals of the 
President's historic Emergency Plan for AIDS Relief. Thanks to the 
strong bipartisan support that this program has received from Congress, 
the Emergency Plan now supports treatment for more than 822,000 people 
in the 15 countries that are home to over half of the world's infected 
population. This year we are requesting a total of $5.4 billion for the 
Emergency Plan, including funds requested by the Department of Health 
and Human Services. This includes $4.1 billion for prevention, 
treatment, and care in the 15 focus countries. We are also seeking an 
additional $1.2 billion for bilateral programs in other countries, for 
HIV/AIDS research, for multilateral programs worldwide, and for 
tuberculosis programs.
    No less significant is President's Malaria Initiative, which has 
supported prevention and treatment for millions of people in fifteen 
African countries--Angola, Tanzania, Uganda, Malawi, Mozambique, 
Senegal, Rwanda, Benin, Ghana, Madagascar, Kenya, Zambia, Liberia, 
Mali, and Ethiopia. The fiscal year 2008 budget dedicates $300 million 
to fund our commitments under this Initiative, as well as $88 million 
for other ongoing global efforts to fight malaria.
    helping developing countries and the most vulnerable populations
    Global partnerships are essential to meeting the global challenges 
that I have just described. But many weak and poorly governed states do 
not have the capacity to fulfill their responsibilities as sovereign 
states. Our experience on September 11 showed us that weak and poorly 
governed states can pose not just humanitarian challenges, but national 
security threats. Hopelessness and oppression contribute to extremism 
and instability. Helping developing states to transform themselves--to 
govern justly, to advance economic freedom, to combat poverty, and to 
invest in their people--is a strategic imperative.
    The United States is a compassionate Nation, and we are moved to 
action when tragedy strikes, and when innocent people are in desperate 
need. The fiscal year 2008 budget provides more than $2 billion for the 
protection of refugees and for basic needs like food, water, and 
medicine for vulnerable populations. One of the major recipients is 
Sudan, for which we are requesting a total of $359 million for 
humanitarian assistance, as well as additional funding for Sudanese 
refugees in neighboring countries. We are continuing our support for 
victims of war and genocide, especially the internally displaced people 
in Darfur and the refugees in eastern Chad.
    We will continue to invest in the people of the world's poorest 
countries. Basic education is a critical part of this investment. The 
fiscal year 2008 request for resources to support basic education 
programs is $535 million.
    In addition to direct support for the world's most vulnerable 
populations, we seek to support the development of sound economies and 
political structures to raise people out of poverty. On this front, our 
flagship initiative is the Millennium Challenge Corporation (MCC). 
Since 2004, the MCC has signed development compacts with eleven 
countries, worth a total of $3 billion. MCC works with transforming 
countries that meet standards of progress for governing justly, 
advancing economic liberty, and investing in their people. The compacts 
are designed and managed by recipient countries themselves, reinforcing 
their ownership in the fight against poverty. These resources 
complement and amplify the impact of our investments in other foreign 
assistance accounts.
    For a country to unlock the potential of its people to increase 
productivity, create jobs, and combat poverty, it must integrate its 
economy into regional and global trade networks. The President remains 
committed to achieving a successful outcome to the World Trade 
Organization's Doha Development Agenda--one that opens markets, expand 
trade, and strengthens a rules-based system. As a part of the 
President's robust trade agenda, we have negotiated ten free trade 
agreements (FTAs) with 16 countries worldwide, and Congress has already 
approved agreements with 12 of these countries. We have signed FTAs 
with Colombia, Peru, Panama and South Korea. We look to Congress to 
support these important agreements.
    Mr. Chairman, members of the subcommittee: The State Department has 
assumed substantial new national security responsibilities in the war 
on terrorism. We are the lead agency on a majority of the tasks in the 
Administration's National Counterterrorism Strategy. Using our existing 
authorities, we are taking steps to reshape the State Department to 
play a forward-leaning role in advancing freedom and prosperity around 
the world.
    In this challenging time, the men and women of American diplomacy 
are doing all that we are asking of them--and more. They are nobly 
answering the call to service and shouldering their responsibilities. I 
ask you to provide the resources we need to play our part.

    Senator Leahy. Thank you, Madam Secretary.
    You and I have discussed the resignation of the 
administrator and director of foreign assistance of USAID, last 
week. Then, as you told me--and we chatted--that the 
President's going to nominate Henrietta Fore as USAID 
administrator. She'll also be designated as director of foreign 
assistance. I see these, really, as full-time jobs. Why would 
you combine--why would you combine these two positions? Before 
you answer, the reason I ask the question, Ambassador Tobias 
made a number of reforms, as he told us when he testified, but 
I'm having a hard time discerning their impact. I want to have 
more--better coordination on foreign assistance, but I've 
always felt--and I've said this with both Republican and 
Democratic administrations, USAID has to remain autonomous. So, 
why combine these two? Will they have control over their 
budget?
    Secretary Rice. Well, thank you, Senator.
    First of all, let me just note that I have great respect 
for USAID and its special mission, and for the men and women of 
USAID and the important job that they do out on the front 
lines. I think that--I hope that they would tell you that I've 
been very supportive of their mission and of their development. 
I do believe that, since about 80 percent of our foreign 
assistance--U.S. Government foreign assistance comes from 
Department of State and USAID budgets, that this is a time when 
we need to make certain that we have an integrated picture of 
what we are doing with those resources in order to promote 
certain goals, in order to make certain that programs are being 
well delivered. That's the reason for the dual-hatting of the 
director of foreign assistance.
    Senator Leahy. But does that mean that have control over 
their budget, or not?
    Secretary Rice. Well, in fact, it rests with me, 
ultimately. I am the one that has to represent to you, and 
through you to the American people, that the resources that are 
being given to USAID and to the Department of State are being 
well used. I am in a stronger position, with a director of 
foreign assistance who also is USAID administrator, to make 
certain that when a budget comes to me, which I then recommend 
to the President, which is then recommended to you, that we are 
using the resources well, that there is not duplication, that 
we are able to fill gaps where they may be, and that we are 
respecting both missions.
    Senator Leahy. But the reason I ask--I mean, we were 
somewhat disappointed in this committee--by ``we,'' I say a 
number of the Senators, both sides of the aisle, with 
Ambassador Tobias's testimony when he came here, trying to get 
any specificity about what was happening. I'm curious--I notice 
this seems to be getting down in the weeds, but there's USAID 
budget personnel shifted to the F Bureau at the State 
Department, the Office of Director of Foreign Assistance. Do 
they stay there, or do they go back to USAID? Is this----
    Secretary Rice. They are USAID, they are, in effect, 
secunded to the Department to work on budget matters. But I 
would ask you, Senator, to think about it from my point of 
view, as Secretary. I'm charged with the authorization to 
assure, really, that the resources are being used in an 
appropriate way. And----
    Senator Leahy. Well, no, I understand that. But you also--
when the director is there, they're carrying out that 
direction. As I said, we were--many of us were concerned when 
the former director was before us, there were a lot of glowing 
slogans, but every time we asked a question, specifics, we 
didn't get the answers. Now, he may have been distracted by 
other matters at the time, but it was a--it was a concern. I 
think you should tell the new director she should be prepared 
to come up here to, at the very least, brief Senator Gregg and 
myself on some of these specifics.
    Let me switch to a different area. Now, having said, over 
and over again, that we don't want to be seen as an occupying 
force in Iraq, we're building the largest embassy that we have, 
probably the largest in the world, in Baghdad. It just seems to 
grow and grow and grow. The 2007 supplemental, I'm noticing, it 
provides the funds for most of the expansion you propose for 
the Provincial Reconstruction Teams. We agree that we should 
focus our aid locally, not in Baghdad, but we have 1,000 
Americans at the Embassy in Baghdad. You have the contractors 
and local staff, that comes to 4,000.
    The 2000 supplemental required you to submit a plan for the 
U.S. mission in Iraq, for the growing size and costs. I--you 
know, we have a deviation from the plan that we'd agreed to. 
Staffing has increased by over 30 percent in just 2 years. We 
have the largest embassy in the world. We have countries where 
we do a great deal of trade and where we have to be concerned 
about intellectual property piracy, everything else, and we 
don't--we can't seem to get the staffing there. Can we review 
who we really need, and send the rest of the people home?
    Secretary Rice. Well, thank you, Senator. In fact, 
Ambassador Crocker, as you know, has just--virtually just 
arrived in Iraq, has been out there a little over a month, and 
he has asked, and we have sent, Ambassador Pat Kennedy to go 
out and to assess the staffing and housing requirements for the 
Baghdad Embassy compound. We do believe that the embassy 
compound was right-sized at the time that it was presented to 
Congress. There have been some additional issues since that 
time, including the extension of the special IG for Iraq. And 
we have to be able to deal with those people. We have a 
security situation in which we are not able to house people in 
hotels when they're visiting. We have a number of shorter-term 
TDY staff that are out at the embassy. And, in fact, we have, 
as you know, a kind of surge in the personnel to be able to 
deal with--to provide the diplomatic and political surge----
    Senator Leahy. No, I understand that, Madam Secretary, but 
I look at China. We have enormous trade issues with China. We 
have a country that is stealing us blind in ignoring our 
copyright laws and counterfeit--everything from counterfeit 
food and drugs to stealing our intellectual property, whether 
it's computer programs to movies to--and we're talking about 
billions of dollars, to say nothing about the health problems 
we've seen very recently, where people have died here, and in 
other countries, because of the fraudulent food additives and 
so on. But our Embassy in Baghdad is much larger than our 
Embassy in Beijing. What I'm saying is, if there are people we 
don't need, why don't we just send `em home?
    Secretary Rice. We are going to make that assessment, 
Senator. I agree with you that there may be--because of the way 
that the embassy came into being--in effect, coming on the 
heels of the Coalition Provisional Authority--because there 
have been a lot of needs that I would characterize as shorter-
term--meaning, not in the long-term steady state of how the 
embassy will be staffed. We're going to make exactly that 
assessment, and we will make certain that we have only the 
people out there that we would need.
    I would just note, Senator, that we are, in the case of 
China and a couple of other embassies where we believe that the 
needs have grown--we have, in fact, redeployed people out of 
places in Europe to China and places like that, where we 
believe that we need greater staffing. So, we're trying to 
remain flexible in making certain that we're well staffed in 
these extremely important posts.
    But I will definitely get a report back to you once 
Ambassador Kennedy has done his work.
    Senator Leahy. Can I--when I come back on my time--my time 
is up--I'm going to want to talk about the Western Hemisphere 
Travel Initiative. I--it would be nice if we allowed Canadians 
and Americans to travel back and forth across each other's 
borders. So, that's an issue we'll go into. Bothers me greatly 
what's being done.
    Senator Gregg.
    Senator Gregg. Thank you, Mr. Chairman.
    I want to echo the chairman's concerns about the size of 
the embassy also. Ironically, I chaired the subcommittee when 
the embassy decision was made, and I, at that time, had fairly 
serious concerns, and it was downscaled as a result of some of 
those concerns. But I remain skeptical of the need for this 
level. I understand that the security needs require that so 
much more be concentrated in the embassy than in most 
embassies, but, still, this is a huge facility, and it does 
have serious issues, I think, of right-sizing.
    But, on another subject, I recently had the chance to 
travel to South America, and I recently had the chance to meet 
with the President of Colombia. I would be interested in your 
assessment of the situation in South America, especially 
relative to Colombia and our relationship with Colombia and 
Venezuela, because it appears to me to be a region where we've 
got some friends and we've got some people who don't like us 
that much, and we should be with our friends.
    Secretary Rice. Well, thank you. In fact, the President, 
Senator Gregg, if you remember, was recently in Latin America, 
and visited Colombia during that time, visited Bogata. The fact 
that he was able to go to Bogata says something about how far 
Colombia has come in a relatively short period of time.
    We do have a challenge in Latin America. We have a 
challenge, because those who have been democratically elected 
are trying to deliver for their people, and trying to remain 
allies of the United States. There are those, like Venezuela, 
that would challenge just about everything about American 
interests and policy, including free markets, including 
nationalizing industry, and they're a real challenge to free 
markets, open economies, and to democracy in Latin America. It 
makes it even more important that states like Colombia, which 
are trying to do the right things, in terms of democracy and 
open economies and free trade, be supported by the United 
States.
    In the year that President Uribe came to power, I think 
it's fair to say that Colombia was on the brink of failure, on 
the brink of being a failed state. It was, after all, a country 
where large portions of the territory were uncontrolled by the 
government, where terrorists were able to prevent the police or 
the army from even coming into those areas, where bombings in 
Bogata, where security for the population was something that 
was very difficult, almost impossible, for the government to 
deliver. Through a very strong campaign against terrorism, 
President Uribe has begun to deliver some security to his 
people. I think it's why he was reelected by such large margin.
    They also are going after paramilitaries from the other 
side of the political spectrum. He ordered paramilitary leaders 
to surrender in August of 2006. Fifteen of the 24 top leaders 
did. They've been going after the others. Frankly, the 
independent judiciary and the supreme court has been bringing 
people to account for what has happened in Colombia over the 
last years.
    So, I think, while it is not by any means perfect, and we 
continue to have a dialogue with Colombia about the need for 
human rights protection, the need for labor protections, the 
need for continuing to prosecute the paramilitaries, this is 
really a case of a democratically-elected leader that has been 
able to bring his country back from the precipice of being a 
failed state. Just imagine what South America, with the 
challenge of someone like Hugo Chavez, would be without strong 
allies like Colombia in the Andean region.
    Senator Gregg. Thank you. It's represented by some that 
Chavez and the Venezuelan Government is basically protecting, 
or at least not extraditing, narcoterrorists back to Colombia, 
members of FARC. Is that the view of the State Department, that 
that's an accurate representation?
    Secretary Rice. There are cases that the Colombian 
Government has raised, I think, with the Venezuelans, 
concerning who may be continuing to live in, or operate in, 
Venezuela. We just hope that all of Colombia's neighbors will 
not harbor, in any fashion, people who ought to be brought to 
justice.
    Senator Gregg. On another subject, you recently had an 
opportunity to meet with representatives of Syria. As we look 
at the Middle East, obviously Syria has, for years, been a 
funder of terrorism and terrorist groups. There seems to be a 
mutation, however, of the terrorist cadre in that the more 
structured terrorists, such as Hamas and Hezbollah, now find 
themselves with the most distant groups, such as al Qaeda, that 
are not as orchestrated, potentially, or at least funded. And 
so, I'm interested in your view of where Syria now--what 
Syria's role now is in the area of funding, supporting, and 
promoting terrorism in the traditional struggle relative to 
Israel and in the struggle in Iraq.
    Secretary Rice. Syria continues to be a major funder of 
terrorism, major harborer of those elements of the Palestinian 
political elite, for instance, who are opposed to a two-state 
solution, who are the ones who continue to be--to perpetrate 
violence in the Palestinian territories, and to attempt to do 
it in Israel. So, in terms of Middle East peace, the Syrians 
are a real problem for leaders like Mahmoud Abbas, who want to 
take a different course toward a two-state solution.
    When it comes to Iraq, we are very concerned about the 
foreign fighters that are transiting the Syrian border, and 
are, therefore, doing great harm to innocent Iraqis and to our 
forces. That was the focus of the conversation that I had with 
the Syrian Foreign Minister. It was about Iraq. This was not a 
conversation about U.S./Syrian relations. This was about what 
Syria needs to do to stem the tide of those foreign fighters 
and to help the Iraqis to secure their borders.
    Then, finally, as to Lebanon--there, Syria and its allies 
continue, on a daily basis really, to threaten the stability of 
the democratically-elected government of Fouad Siniora, to 
resist the establishment of an international tribunal. Despite 
the fact that that tribunal is established by the United 
Nations, their allies continue to try to block the convening of 
that tribunal. Syria needs to allow that tribunal to go 
forward, because people need to answer for what happened to 
former Prime Minister Rafik Hariri, and we need to see who was 
behind it. So, Syria is a significant problem, not just for 
American policy in the Middle East, but for democratic forces 
that are trying to take hold in the Middle East. One point that 
I made to my Syrian counterpart is that we should talk about 
Iraq, and we should talk about what we can do to help the 
Iraqis, but U.S./Syrian relations would depend on a great deal 
more.
    Senator Gregg. I appreciate that. The logical follow-up 
question is, How should we engage Syria, and how does Israel 
view Syria?
    Secretary Rice. Well, I'll not try to speak for the 
Israelis, except to say that their statements are consistent in 
public and in private, with--what they say in public and what 
they've said to us in private. Obviously everyone would like to 
see peace between Israel and Syria. If it were possible, I 
think everybody would jump at the chance. But Syrian behavior 
is such that, particularly in the support that it gives to 
elements of Hamas that are preventing a two-state solution, 
it's not exhibited an attitude that suggests that it's ready 
for, or intending to try and pursue peace.
    As to how we deal with Syria, we had this--have had this 
limited discussion with them on Iraq, because we want all of 
Iraq's neighbors to help Iraq. It makes only good sense if the 
neighbors believe what they're saying, which is that a stable 
Iraq is in their interest, then they need to behave that way, 
and that was the message to Syria. But, beyond that, we've been 
very clear that there is nothing to be done that does not allow 
that tribunal to take place in Lebanon, and that does not stop 
support for the Palestinian organizations that are engaged in 
terrorism.
    Senator Gregg. Thank you.
    Senator Leahy. Thank you, Senator Gregg.
    Before I go to Senator Landrieu, I'd note Colombia has been 
in the top four or five of countries receiving foreign aid from 
the United States. I have been either chairman or ranking 
member during that whole time, both with President Uribe and 
his predecessor, and have voted for that. But, before we put 
too rosy a picture on it--and I'll come back to this later--
there are 30,000 individuals who went through the 
demobilization ceremonies. Only 2,700 of them applied for 
reduced sentences under the Justice and Peace Law. The rest 
have received government benefits without confessing their 
crime or turning over their illegal assets.
    The government's lost track of 5,000 of them. The 
Organization of American States say new illegal groups have 
been formed in 23 of Colombia's 32 departments. We've heard of 
the extensive paramilitary infiltration of Colombia's political 
system, including the president's former director of 
intelligence--that was uncovered by the supreme court, the 
inspector general, and, as you know, by some of our own people.
    Senator Landrieu.
    Senator Landrieu. Thank you, Mr. Chairman.
    I have a full statement for the record I'd like to submit.
    Senator Leahy. Without objection, it will be included.
    Senator Landrieu. Thank you.
    [The statement follows:]

             Prepared Statement of Senator Mary L. Landrieu

    Mr. Chairman, Senator Gregg, on September 15, 2005, President Bush 
stated that ``This government will learn from the lessons of Hurricane 
Katrina. We are going to review every action and make necessary changes 
so that we are better prepared for any challenge of nature, or act of 
evil men, that could threaten our people.'' Unfortunately, time and 
time again, Madame Secretary, we are constantly reminded of how this 
administration has failed to take every action and failed to make the 
necessary changes so that we are better prepared for tomorrow's next 
Hurricane Katrina. The recent Category 5 tornado that ripped through 
Kansas this past weekend, and the recent report by the Washington Post 
on the mishandlings of foreign aid offered in response to Hurricanes 
Katrina and Rita, both tragically demonstrate my point.
    During Hurricane Katrina, the National Guard equipment and members 
were stretched too thin--and continue to be stretched too thin to this 
day. When Katrina hit the Gulf on August 29, 2005, the Louisiana 
National Guard only had roughly 40 percent of equipment on hand and 
more than half of our Guardsmen were deployed in support of the war in 
Iraq. Here we are one-year, 8 months and 13 days later (approximately 
620 days) and Kansas Governor Kathleen Sebelius is reporting that, 50 
percent of our her trucks are in Iraq and Afghanistan and she is 
missing numerous Humvees, which move people. Unfortunately, Governor 
Sebelius is unable to borrow the necessary equipment from other states, 
like Gulf States did during Katrina, as they are also operating under 
extreme equipment shortages.
    Due to the amount of equipment being left in Iraq and Afghanistan, 
16 percent of the Kansas National Guard's equipment will not return to 
Kansas. In fact, there is a chance the amount of equipment left 
overseas will double. Louisiana's National Guard is also experiencing 
the same war fatigue, with only 33 percent of necessary equipment 
currently on hand. If all was returned from Iraq and Afghanistan, it 
would still only increase on hand availability to 44 percent. While it 
may seem the recent tragedy in Kansas may be out of scope for the basis 
of this hearing, I assure you, Madame Secretary, it is not.
    Recently, the Washington Post reported on the administration's 
turning away of nearly $1 billion of foreign aid offered in response to 
Hurricanes Katrina and Rita and the devastating failure of the federal 
levee system that followed. I was already aware that the administration 
cast aside warnings and recommendations from its own experts, dragged 
its heels on response, and drove our long-term recovery straight into a 
morass of bureaucracy. Another curtain has been pulled back and exposed 
an additional example of the seemingly endless incompetence that has 
been the trademark of this Administration's response to the hurricanes 
and the devastating failure of the federal levee system. While the 
State Department has acknowledged that mistakes were made in the 
handling of foreign donations, due to an absent implementation plan for 
the management of foreign aid, no changes have been made to the 
International Cooperation Response Index to the National Response Plan. 
In addition, no significant permanent changes have yet to be made to 
the National Response Plan itself.
    Inadequate planning on how to manage foreign aid, more specifically 
material assistance, kept valuable resources from being accepted, 
allocated and distributed. One-hundred fifty-one nations, international 
organizations and political entities offered assistance, totaling $854 
million, not including material/in-kind assistance. Of the $854 
million, $454 million was cash; $400 million was oil, which was to be 
sold for cash. To date, only $126.4 million has been accepted, numerous 
material/in-kind donations were turned away, and the $400 million in 
oil was never accepted or sold.
    For example, on September 5, 2005 FEMA received an offer from 
Switzerland to send relief supplies. However, the offer was not fully 
vetted by FEMA until September 14, 2005. With the delay and FEMA not 
being able to quickly unload and repackage the supplies into smaller 
quantities in a timely matter, the Swiss government had to cancel the 
entire shipment. Not only were donating countries victims of an 
unresponsive and ill-prepared administration, they were also thwarted 
by bureaucratic red tape. During the height of rescue and relief 
missions, a German company offered a $3 million integrated satellite 
and cellular telephone system, which is capable of handling 5,000 calls 
at once. With virtually all communications systems down in the Gulf, 
this device could have potentially saved many lives had it been 
delivered earlier. For five days, the people of Louisiana and 
Mississippi were without this key system until a written deployment 
order was issued from USNORTHCOM.
    In the administration's February 2006 report, The Federal Response 
to Hurricane Katrina: Lessons Learned, a total of nine recommendations 
were made on how to improve the management of offers of foreign 
assistance and inquiries regarding affected foreign nationals. One of 
the requirements directs DOS to lead the revision of the International 
Coordination Support Annex to the National Response Plan, to clarify 
the responsibilities of DOS, DOD, DHS, and other agencies in response 
to domestic incidents. Other recommendations direct that prior to June 
1, 2006, DOS and DHS should lead interagency efforts to:
    1. Quickly develop procedures to review, reject or accept any 
offers of international assistance
    2. Create a list of anticipated needs for foreign assistance and a 
list of items that cannot be accepted, and
    3. Develop an interagency process to determine appropriate and 
timely uses of cash donations and how to communicate to donors on how 
funds were used.
    I hope that today we can get to the bottom of how this 
Administration could turn away an outstretched hand in a time of such 
desperate need. Madame Secretary, I would like an update from you by 
May 31, 2007. I want to know where DOS is on completing the nine 
recommendations, if they were done timely, and when final amendments 
may be made to the International Coordination Support Annex to the 
National Response Plan. I need to know what works and what does not. 
Louisiana and the Gulf Coast deserve better. America deserves better.
    In the fiscal year 2008 Budget, the President has requested $36.2 
billion in Department of State, USAID and other foreign agencies. This 
is a 22 percent increase from fiscal year 2007, and only 1.2 percent of 
our total annual budget. These funds are in addition to the $3.3 
billion requested for the fiscal year 2008 Emergency Supplemental for 
foreign assistance and State Department operations. While this budget 
request contains sufficient funding for many programs, such as Global 
AIDS and the Millennium Challenge Corporation (MCC), the global 
challenges facing us today are greater than ever.
    While we have made progress over the last few years in increasing 
the amount of foreign assistance funding, continued investment in 
international affairs programs are critical to building global 
stability. By increasing the International Affairs Budget, we have a 
better chance of achieving our national security goals and of promoting 
economic prosperity and our humanitarian values. Therefore it is 
critical that we continue to increase U.S. foreign assistance and pass 
a total budget of $38.5 billion for State and Foreign Operations and 
$1.3 billion in international agricultural assistance in fiscal year 
2008.
    In the many war torn and conflict areas, such as Afghanistan, Iraq, 
Uganda and many others around the globe, thousands of children continue 
to suffer. Every day 30,000 children under 5-years-old die from 
preventable diseases, 77 million children wake up without a chance to 
go to school, and 200 million go to bed without enough to eat. 
Unfortunately, the Budget only calls for $345.6 million in maternal, 
newborn and child survival programs--this is a decrease from last 
year's level.
    The Budget also calls for $535 million for basic education 
programs. While this is an increase over the current levels, it falls 
short of the real global need. By transferring the bulk of global 
education funding from Development Assistance account to the Economic 
Support Fund account, there is a possibility the number of countries 
receiving basic education assistance, particularly Africa and Latin 
America, could decline. Additionally, this change could impede lasting 
and transformational change in those regions. While I do appreciate and 
support the changes underway at USAID, I do believe we need to study, 
closely, the real impact of each change. Currently, 42 countries 
receive basic education from the DA account, 14 in Africa, 15 in Asia/
Near East, 5 in Europe/Eurasia and 8 in Latin America and the 
Caribbean, and we do not want to jeopardize, only improve, the 
education in these countries.
    According to Save the Children, nearly half of 6 year-olds in 
Uganda do not enroll in school. On average, 64 percent do not complete 
five years of school, and in Pader district, primary school completion 
is just 26 percent. Across Uganda more boys enroll than girls. Early 
marriage and pregnancy and fear for their lives, causes frequent drop 
outs or keeps them from attending all together. Only 45 percent of 
girls enroll in grade one, but only 32 percent complete primary school. 
Around 46 percent of teachers are untrained and class sizes can grow to 
over 200 children.
    It is vital that we recruit, train and deploy teachers in under-
resourced areas, including female teachers to help increase enrollment 
and completion among girls. By building community support for education 
and investing in the community, we are able to help reduce the amount 
of child from being abducted. More than 30,000 children have been taken 
from their homes and abducted by the LRA. These children often become 
soldiers or sex slaves. Currently, 6,000 to 10,000 children walk miles 
from their rural homes every night to sleep in town centers, in order 
to avoid violence and abduction. These children are known as ``night 
commuters''. Last year as many as 35,000 children would leave their 
homes every night.
    Much like Uganda, Afghanistan struggles to rebuild their community 
and to find a was to redevelop essential skills in the country. 
Although Taliban control ended in 2001, and despite reconstruction 
efforts, Afghanistan is deeply poor with chronic malnutrition, 
lawlessness and frequent violence against children. Girls are still 
excluded from many activities. Half of Afghan children between 7 and 12 
attend school, but only a third are girls. Attendance is often low, due 
to the inadequate school facilities for girls and the limited number of 
female teachers. Roughly 60 percent of girls aged 7 to 13 are out of 
school and in some rural areas around 92 percent of girls are out of 
school. Only 27 percent of teachers are females, but most are in urban 
areas, and fewer than 15 percent of teachers have a teaching degree. 
Clearly you can see from these startling statistics, Madame Secretary, 
that it is very important that ensure our education funding is not 
jeopardized, but improved in a way that allows the number of countries 
and the amounts received to grow.
    As I stated above, in Afghanistan and Iraq children continue to be 
victims of: poor health care, limited and inaccessible education 
systems, and innocents of the ongoing wars. In Uganda children are 
forced to be child soldiers and young girls into becoming ``wives''. 
Madame Secretary, this is unacceptable. I know these problems cannot be 
solved overnight and not by diplomatic measures alone, which is why we 
must continue providing these countries with adequate aid assistance 
and improve intercountry adoption policies around the globe.
    As the Democratic Chair of the Congressional Coalition on Adoption 
and a proud adoptive parent myself, I truly understand the benefits and 
joys adoption brings to a family and the children being adopted. 
Although, over 20,000 children are adopted every year internationally 
by U.S. citizens, improvements can and must be made to intercountry 
adoption policies around the globe. For example, adoption by foreign 
citizens remains close in Romania and Cambodia to this day. Russia, 
although open for adoption by foreign citizens, passed an NGO law in 
May, which requires U.S. based adoption service providers be both 
registered and accredited by the Ministry of Education (MOE). Unless an 
agency complies with both they are unable to assist in any way in 
placing children. As of the end of April, no U.S. agencies had been 
successfully accredited by the MOE. Madame Secretary, all children, 
regardless of race, ethnicity, gender or disability, deserve a 
permanent and loving home. We can do better at providing these children 
with loving homes, better health care and education, and the basic 
right to food.
    Mr. Chairman, I look forward to hearing the testimony from 
Secretary Rice today and hope that she is ready to honestly and openly 
answer any questions this committee may ask.
    Thank you, Mr. Chairman.

    Senator Landrieu. Madam Secretary, be assured the people of 
Louisiana and Mississippi and the gulf coast understand the 
focus of yours and the administration on Iraq, Afghanistan, and 
other places in the world, where it's important to focus, 
because they are great challenges. But there was an incident 
that occurred in this country that was of international focus 
and importance over 18 months ago, and that was when two storms 
battered the gulf coast, which is America's energy coast, and 
the Federal levee system collapsed, flooding an area seven 
times the size of Manhattan, destroying 250,000 homes and 
20,000 businesses. Nothing like it has ever been seen in the 
United States outside of the Civil War.
    Last week, the Washington Post reported that the 
administration turned away nearly $1 billion in foreign aid. 
The State Department has acknowledged that mistakes were made 
in the handling of foreign donations due to the absence of an 
implementation plan for the management of such aid. To date, it 
is my understanding that no changes have been made to the 
International Cooperation Response Index or to the National 
Response Plan.
    In addition, no significant permanent changes have yet been 
made to the National Response Plan itself. One hundred and 
fifty-one nations, international organizations, and political 
entities offered assistance totaling $854 million, not 
including material in kind. Of the $854 million, $454 million 
was cash, $400 million was oil, which has yet to be sold for 
cash. To date, only $126.4 million has been received, numerous 
materials in kind were turned away, and $400 million in oil, as 
I said, was never accepted or sold, we don't know where those 
barrels of oil are.
    On September 5, for example, because I'm going to get to my 
question in a minute, an offer from Switzerland to send relief 
supplies was sent. The offer was not fully vetted by FEMA until 
September 14. With the delay in FEMA not being able to act 
quickly to unload and repackage the supplies, the Swiss 
Government canceled their entire shipment.
    Another example--and there are dozens; I will submit them 
for the record--a German company offered 3 million integrated 
satellite and cellular telephone systems, which is capable of 
handling 5,000 calls at once. With virtually every 
communication system collapsed in the Gulf of Mexico, where our 
own military was reduced to runners, the way we used to use 
them in wars of the past, we turned this communication 
equipment away until USNORTHCOM demanded that they be received.
    I want to, Mr. Chairman, get to my question, which is--in 
just one second. But, for the record, this was reported by the 
Washington Post, and it is upsetting that, in the first 
paragraph, a memo from Karen Hughes says, ``Echo chamber 
message,'' in quote. That is a public-relation term, as 
according to the Washington Post, for talking points designed 
to be repeated again and again. This was the directive, 
``Assure the scores of countries that have pledged or donated 
aid that their aid was,'' quote, `practical help and moral 
support,' and highlight the concrete benefits hurricane victims 
are receiving.''
    Madam Secretary, the people that I represent were not able 
to take advantage of this aid, because there obviously is some 
major problems with how we receive aid for them when they're in 
their most desperate hours of need. I don't know what we have 
done to correct it.
    [The information follows:]

             [The Washington Post, Sunday, April 29, 2007]

                       CORRECTION TO THIS ARTICLE

    An April 30 Page One article on foreign aid after Hurricane Katrina 
incorrectly said that a consortium led by the United Methodist 
Committee on Relief had provided social services to 45,000 individual 
disaster victims up to that point, less than half the 100,000 victims 
it promised to help. The group has provided services to 49,709 
families, not individuals, short of its goal of 100,000 families.
             Most Katrina Aid From Overseas Went Unclaimed

  (By John Solomon and Spencer S. Hsu, Washington Post Staff Writers)

    As the winds and water of Hurricane Katrina were receding, 
presidential confidante Karen Hughes sent a cable from her State. 
Department office to U.S. ambassadors worldwide.
    Titled ``Echo-Chamber Message''--a public relations term for 
talking points designed to be repeated again and again--the Sept. 7, 
2005, directive was unmistakable: Assure the scores of countries that 
had pledged or donated aid at the height of the disaster that their 
largesse had provided Americans ``practical help and moral support'' 
and ``highlight the concrete benefits hurricane victims are 
receiving.''
    Many of the U.S. diplomats who received the message, however, were 
beginning to witness a more embarrassing reality. They knew the U.S. 
Government was turning down many allies' offers of manpower, supplies 
and expertise worth untold millions of dollars. Eventually the United 
States also would fail to collect most of the unprecedented outpouring 
of international cash assistance for Katrina's victims.
    Allies offered $854 million in cash and in oil that was to be sold 
for cash. But only $40 million has been used so far for disaster 
victims or reconstruction, according to U.S. officials and contractors. 
Most of the aid went uncollected, including $400 million worth of oil. 
Some offers were withdrawn or redirected to private groups such as the 
Red Cross. The rest has been delayed by red tape and bureaucratic 
limits on how it can he spent.
    In addition, valuable supplies and services--such as cellphone 
systems, medicine and cruise ships--were delayed or declined because 
the government could not handle them. In some cases, supplies were 
wasted.
    The struggle to apply foreign aid in the aftermath of the 
hurricane, which has cost U.S. taxpayers more than $125 billion so far, 
is another reminder of the Federal Government's difficulty leading the 
recovery. Reports of Government waste and delays or denials of 
assistance have surfaced repeatedly since hurricanes Katrina and Rita 
struck in 2005.
    Administration officials acknowledged in February 2006 that they 
were ill prepared to coordinate and distribute foreign aid and that 
only about half the $126 million received had been put to use. Now, 20 
months after Katrina, newly released documents and interviews make 
clear the magnitude of the troubles.
    More than 10,000 pages of cables, telegraphs and e-mails from U.S. 
diplomats around the globe--released piecemeal since last fall under 
the Freedom of Information Act--provide a fuller account of problems 
that, at times, mystified generous allies and left U.S. representatives 
at a loss for an explanation. The documents were obtained by Citizens 
for Responsibility and Ethics in Washington, a public interest group, 
which provided them to The Washington Post.
    In one exchange, State Department officials anguished over whether 
to tell Italy that its shipments of medicine, gauze and other medical 
supplies spoiled in the elements for weeks after Katrina's landfall on 
Aug. 29, 2005, and were destroyed. ``Tell them we blew it,'' one 
disgusted official wrote. But she hedged: ``The flip side is just to 
dispose of it and not come clean. I could be persuaded.''
    In another instance, the Department of Homeland Security accepted 
an offer from Greece on Sept. 3, 2005, to dispatch two cruise ships 
that could be used free as hotels or hospitals for displaced residents. 
The deal was rescinded Sept. 15 after it became clear a ship would not 
arrive before Oct. 10. The U.S. eventually paid $249 million to use 
Carnival Cruise Lines vessels.
    And while television sets worldwide showed images of New Orleans 
residents begging to be rescued from rooftops as floodwaters rose, U.S. 
officials turned down countless offers of allied troops and search-and-
rescue teams. The most common responses: ``sent letter of thanks'' and 
``will keep offer on hand,'' the new documents show.
    Overall, the United States declined 54 of 77 recorded aid offers 
from three of its staunchest allies: Canada, Britain and Israel, 
according to a 40-page State Department table of the offers that had 
been received as of January 2006. ``There is a lack of accountability 
in where the money comes in and where it goes,'' said Melanie Sloan, 
executive director of the public interest group, which called for an 
investigation into the fate of foreign aid offers. She added: ``It's 
clear that they're trying to hide their ineptitude, incompetence and 
malfeasance.''
    In a statement, State Department spokesman Tom Casey said that the 
U.S. Government sincerely appreciated support from around the world and 
that Katrina had proved to be ``a unique event in many ways.''
    ``As we continue our planning for the future, we will draw on the 
lessons learned from this experience to ensure that we make the best 
use of any possible foreign assistance that might be offered,'' Casey 
said.
    Representatives of foreign countries declined to criticize the U.S. 
response to their aid offers, though some redirected their gifts.
    Of $454 million in cash that was pledged by more than 150 countries 
and foreign organizations, only $126 million from 40 donors was 
actually received. The biggest gifts were from the United Arab 
Emirates, $100 million; China and Bahrain, $5 million each; South 
Korea, $3.8 million; and Taiwan, $2 million.
    Bader Bin Saeed, spokesman for the Emirates Embassy in Washington, 
said that in future disasters, ``the UAE would not hesitate to help 
other countries, whether the United States or any other state, in 
humanitarian efforts.''
    Kuwait, which made the largest offer, pledged $100 million in cash 
and $400 million in oil. But the Kuwaitis eventually gave their money 
to two private groups: $25 million to the Bush-Clinton Katrina Fund, a 
project of the former presidents, and another $25 million to the 
American Red Cross in February 2006. They still plan to contribute 
another $50 million, said the Kuwaiti ambassador to the United States, 
Salem Abdullah al-Jaber al-Sabah.
    ``It was based on my government's assessment of the fastest way to 
get money to the people that needed it,'' he said. ``The Red Cross was 
on the ground and action-oriented.''
    In the White House's February 2006 Katrina report, U.S. officials 
said Kuwait's $400 million oil donation was to be sold for cash. Sabah 
said it was an in-kind pledge made when it appeared that U.S. refining 
capacity was devastated and that the American public would need fuel.
    ``We have to see what we have to do with that. When you pledge 
something in-kind, your intention is to give it in-kind. I do not think 
now the American people arc in need of $400 million of fuel and fuel 
products,'' he said.
    Of the $126 million in cash that has been received, most has not 
yet been used. More than $60 million was set aside in March 2006 to 
rebuild schools, colleges and universities, but so far, only $10.4 
million has been taken by schools.
    Half the $60 million was awarded last fall to 14 Louisiana and 
Mississippi colleges, but five have not started to claim the money. 
Only Dillard University in Louisiana and Mississippi Gulf Coast 
Community College have tapped their full awards, worth $6 million, U.S. 
Education Department officials said Friday.
    Another $30 million was sent to Orleans, St. Bernard and 
Plaquemines parishes in Louisiana and to the state-run Recovery School 
District in New Orleans to build libraries, laboratories and other 
facilities for 130 public schools.
    But none of that money has been used yet, said Meg Casper, 
spokeswoman for the Louisiana Department of Education. Allocations were 
just approved by the state board last week, she said, ``so the money 
should start to flow.''
    The first concrete program officials announced in October 2005--a 
$66 million contract to a consortium of 10 faith-based and charity 
groups to provide social services to displaced families--so far has 
assisted less than half the 100,000 victims it promised to help, the 
project director said.
    The group, led by the United Methodist Committee on Relief, has 
spent $30 million of the money it was given to aid about 45,000 
evacuees. Senate investigators are questioning some terms in the 
contract proposal, including a provision to pay consultants for 450 
days to train volunteers for the work the committee was paid to do.
    Jim Cox, the program director, said that the project is ``right on 
track'' but that its strategy of relying on volunteers foundered 
because of burnout and high turnover. He acknowledged that more people 
need help than are receiving it and said the program will be extended 
to March to use available funds.
    ``The resources aren't there, but these resources certainly are 
coming,'' Cox said.

    Senator Landrieu. But I also want to put in the record an 
e-mail that was received when the request was made for--an 
open-issue request. It reads, from, one, Kathleen Algaron, ``We 
need to come clean with the Italians, tell them we blew it, or 
deeply appreciate and regret handling of this, and let them 
know about the disposal. The flip side is just to dispose of it 
and not come clean. I'm willing to be persuaded either way.''
    [The information follows:]

                            Norman, Alain G

From: Yu, Alan K.
Sent: Wednesday, October 05, 2005 3:44 PM
To: Volker, Kurt D; Allegrone, Kathleen H; Sterling, Adam H
    Cc: EUR-WE-Italy-DL; Cook, Nerissa J; Norman, Alain G; McCarthy, 
Deborah A; Harris, Michelle F.
Subject: RE: Italian Meds for Katrina--Houston, we've got a problem . . .

    All--
    I spoke to a Washington FDA official. He thought our request was 
reasonable, but will need to check on what FDA personnel remain in 
Little Rock and ensure his higher-ups are okay (he didn't anticipate 
problems). He will tell me tomorrow.
    Who pays to dispose: he thought it would be FEMA--possession is 
nine-tenths . . . . We're not there yet, though; we need to get the FDA 
inspection above and then take it up with the Italians.
    Let me know when we plan to do this, so I can get my annual leave 
request in.
    Alan
                                 ______
                                 
From: Volker, Kurt D
Sent: Wednesday, October 05, 2005 2:45 PM
To: Allegrone, Kathleen H; Sterling, Adam H
Cc: Yu, Alan K; EUR-WE-Italy-DL
Subject: RE: Italian Meds for Katrina--Houston, we've got a problem ... 

    I think ``crisis situation, second hurricane, etc.'' sounds 
reasonable enough (barely) and definitely come clean, rather than try 
to conceal--never works.
                                 ______
                                 
From: Allegrone, Kathleen H
Sent: Wednesday, October 05, 2005 12:30 PM
To: Volker, Kurt D; Sterling, Adam H
Cc: Yu, Alan K; EUR-WE-Itaty-DL
Subject: Italian Meds for Katrina--Houston, we've got a problem . . .
    Alan tells me that FDA officials believe the Italian meds are 
totally unusable--by others. They were exposed to the elements and 
heat; even the gauze etc wouldn't be worth it.
    Elan is going to go back to be sure someone really eye-balled the 
stuff. He's also going to check on disposal (and who pays--whatever . . 
.)
    Then, I think (and Elan agrees) that we need to come clean with the 
Italians; tell them we blew it; deeply appreciate and regret handling 
of this; and let them know about disposal.
    The flip side is just to dispose of it and not come clean. I'm 
willing to be persuaded, but . . .
    Thoughts?
FW: Request to UK on MRE data
    I think asking the UK is insulting and will require that we fund 
travel for them to send a Vet to AK to review storage practices before 
they issue a certificate. If we have in house folks with training, I 
recommend that the DOS ask DOD for assistance. It is very likely that 
there is a vet with the required training at Little Rock AFB. . . .
    I left you a voice mail and an e-mail on the unclass side. I was 
out of office on Friday for a meeting at RAF Mildenhall.
    Call me and we can discuss further.
    Rob
                                 ______
                                 
From: Donegan, James F (POL)
Sent: Thursday, January 05, 2006 5:17 PM
To: Letourneau, Robert M
Subject: FW: Request to UK on MRE data
    Rob--can you look into getting a certificate per Bill's suggestion?
    Thanks
    Jim
                                 ______
                                 
From: Meara, William R
Sent: Wednesday, January 04, 2006 1:35 PM
To: Donegan, James E (POL)
Cc: Tokola, Mark A; Bonilla, Jean A; Clark, Sandra E
Subject: RE: Request to UK on MRE data
    Jim:
    This thing keeps coming back at us, While this is an ECON issue, 
the desk seems bound and determined to talk only to POL about it. 
That's fine--I won't fight you about who covers the soon-to-be rancid 
UK MREs in Arkansas!
    A month or so ago the desk asked us to check to see if the Brits 
had any objection to us giving these MREs to third parties. MOD told 
ODC that they were washing their hands of the MREs, and didn't care 
what we did with them.
    If you do want to try to get the Brits to give us the kind of 
certificate that the desk is discussing, my suggestion would be to 
route the request through [Deleted] in ODC--he has been the Embassy's 
main point of contact with MOD on this issue.
    Another option might be to try to do this through the Embassy's 
Foreign Agricultural Service office. But I think this is really an MOD 
issue. . .
    Bill
                                 ______
                                 
From: Donegan, James E (POL)
Sent: Friday, December 30, 2005 3:24 PM
To: Donegan, James E (POL.); Evans, Trevor J; Tokola, Mark A
Cc: Johnson, David T; Meara, William R; Skinner, Charles B
Subject: RE: Request to UK on MRE data
    Angela's request for a vet certificate comes out of an interagency 
meeting held yesterday in DC. Apparently the Georgian MOD has made a 
request for the MREs to distribute to their own troops. There has also 
been a similar request from the OSCE border monitors in Georgia. The 
feeling in the interagency was that a vet certificate would help move, 
even seal, these possibilities.
    Also in play but less likely is a request from two U.S. NGOs for 
the MREs to distribute to ``a basket of countries.'' Possible but less 
likely that the vet certificate would clinch the deal for this option.
                                 ______
                                 
From: Donegan, James E (POL)
Sent: Friday, December 30, 2005 8:22 AM
To: Evans, Trevor J; Tokola, Mark A
Cc: Johnson, David T
Subject: FW: Request to UK on MRE data
    Know any Vets?
    PS I have asked Washington to research the veracity of a Sun report 
yesterday that these things are ``rotting'' in a warehouse somewhere in 
the States.
                                 ______
                                 
From: Cervetti, Angela M
Sent: Thursday, December 29, 2005 10:24 PM
To: Donegan, James E (POL)
Subject: FW: Request to UK on MRE data
    In Charles' absence . . .
                                 ______
                                 
From: Cervetti, Angela M
Sent: Thursday, December 29, 2005 5:19 PM
To: Skinner, Charles B; Bonilla, Jean A
Cc: O'Malley, Michael E; Nolan, Edwin R; Roy, Kenneth M
Subject: FW: Request to UK on MRE data
    Jean, Charles,
    The MRE saga continues. Below is an e-mail from PGI asking us to 
ask post to approach the Brits for a veterinarian certificate stating 
that the meat products are fit for human consumption. Alan Yu from PGI 
seems to remember you already said that it would be very difficult and 
that the USDA should inspect the MREs and issue its own certificate. 
The problem is USDA said it does not inspect/certify non-American 
foods.
    There are some options that opened up for disposition but the 
general sense is that having papers from the Brits saying the meat 
won't poison anybody would help the process along.
    What are your thoughts?
    Angela

    Senator Landrieu. I want to know where the Department of 
State is in implementing the nine recommendations, and when 
final amendments have been made at International Cooperation 
Support Annex to the National Response Plan, if that's been 
done to date.
    Secretary Rice. We are in the process, Senator, of doing 
precisely that. I do want to note, though, that this was an 
unprecedented event. As you noted, it was an unprecedented 
event for the United States. It was also unprecedented for the 
United States to receive offers of help at the level that we 
received the offers of help. The State Department was the 
agency that took in the offers of help. We tried, then, to 
coordinate with FEMA and those on the front lines to understand 
what help could be used and what help could not be used.
    We accepted donations from 122 countries and organizations, 
$126 million in monetary donations. In fact, we ended up 
encouraging a lot of countries to give to private 
organizations, like the Clinton-Bush effort, because, frankly, 
it was difficult for us to use a lot of what was suggested.
    Senator Landrieu. I understand that, and my time is up. But 
I just want to, on the record, say that $1 billion, 
approximately, was offered; we've received $126 million. There 
was a lot of money left on the table. The people of the gulf 
coast deserve to have a better system. But, more than just the 
people of the gulf coast, this country deserves to have a 
better system in the event that this happens again.
    So, I want a specific answer, if you don't mind. When do 
you think these recommendations that have been made will be 
accepted, either presented to this committee or to the 
Congress, for adoption?
    Secretary Rice. Senator, I will get back to you with an 
update on where we are, by letter, in response to your 
question.
    But, if I may, I just want to note that, in fact, because 
it's important for our partners to know that a lot of their 
donations were used, and used well, for the people--$66 million 
to finance social service management for Katrina, $60 million 
to the Department of Education.
    Just one final point, if I may. Yes, we had to turn down 
some donations--medical equipment, a lot was in kind, for 
instance, for medical personnel who would not have been 
licensed in our country to practice; food, which didn't meet 
certain standards.
    Senator Landrieu. I understand that. Not to----
    Secretary Rice. So----
    Senator Landrieu [continuing]. Interrupt--Mr. Chairman, I 
don't mean to be disrespectful, but I have a list here that I 
would like to submit. It is not just food and diapers and 
bottles that were rejected, it was generators and communication 
systems, and, you know, medical supplies, and medical 
personnel.
    We still, just this week, have been able--now, this is not 
completely the Federal Government's fault--to finally get one 
mental-health bed in the New Orleans region. One.
    So, I suggest we have a major problem----
    Senator Leahy. Without objection, the----
    Senator Landrieu. I'm going to put this in the record. I 
thank the Chairman----
    Senator Leahy. Without objection, it will----
    Senator Landrieu [continuing]. For his----
    Senator Leahy [continuing]. Be included in the record.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Secretary Rice. Senator, I will get back to you with an 
answer----
    Senator Landrieu. Thank you.
    Secretary Rice [continuing]. To your question about the----
    Senator Landrieu. Thank you.
    Secretary Rice [continuing]. Various recommendations.
    [The information follows:]

                         United States Department of State,
                                     Washington, DC, July 16, 2007.
Mary L. Landrieu, Chairman,
Subcommittee on Disaster Recovery, Committee on Homeland Security and 
        Governmental Affairs, United States Senate.
    Dear Madam Chairman: Per my June 28 letter to you, enclosed is 
additional information responding to the specific questions outlined in 
your June 14 letter. We expect to convey to you shortly information 
concerning the full set of assistance offers from the international 
community that you also requested in that letter. I hope you find this 
additional information useful.
            Sincerely,
                                        Jeffrey T. Bergner,
                           Assistant Secretary Legislative Affairs.

Enclosure:

    Question. To the extent that the Department of State is designated 
as the lead agency responsible, what is the status of implementation of 
recommendations 89 through 97 of the White House report, ``The Federal 
Response to Hurricane Katrina: Lessons Learned?''
    Answer. Below are the nine recommendations from the Katrina Lessons 
Learned exercise and the status of each recommendation:
    Recommendation #89.--DOS should lead the revision of the 
International Coordination Support Annex (ICSA) to the National 
Response Plan (NRP), clarifying responsibilities of Department of State 
(DOS), Department of Homeland Security (DHS), Department of Defense 
(DOD), and other supporting agencies in response to domestic incidents. 
This revision should begin immediately.
    Status.--Completed. A State Department-led interagency group 
completed the first revision of the ICSA in February 2007 in 
consultation with the Homeland Security Council. The revisions clarify 
expanded roles and responsibilities of USG agencies in managing the 
international aspects of a domestic incident. The group also included 
representatives from the Departments of Homeland Security, Defense, 
Health and Human Services, Agriculture, and Transportation, and the 
Agency for International Development.
    Recommendation #90.--DOS and DHS should lead an interagency effort 
that will quickly develop procedures to review, accept or reject any 
offers of international assistance for a domestic catastrophic 
incident.
    Status.--Completed. An interagency group consisting of the 
Department of State, USAID/Office of Foreign Disaster Assistance (AID), 
DHS/FEMA, DOD, and the American Red Cross (ARC) has developed a system 
for managing international assistance during a domestic disaster. The 
system outlines policies and procedures to systematically manage offers 
of, or United States requests for, international material assistance 
during a United States domestic disaster. It also specifies the roles 
and responsibilities of participant agencies, provides standard 
operating procedures for managing offers of foreign assistance and 
domestic requests for foreign resources, and outlines the process for 
receiving and distributing international assistance that is accepted by 
the U.S. Government. The procedures and arrangements detailed in the 
manual were formally approved in 2007, but the core procedures were 
informally in place among participants by June 1, 2006.
    Recommendation #91.--DHS should lead an interagency effort to 
create and routinely update a prioritized list of anticipated disaster 
needs for foreign assistance and a list of items that cannot be 
accepted.
    Status.--Completed. The interagency has established procedures for 
coordinating with USG regulatory agencies for the entry, handling, and 
use of foreign resources during a disaster. Regulatory agencies provide 
technical advice and review offers of international assistance prior to 
FEMA acceptance. The procedures include guidance on acceptable and 
unacceptable items to assist the Department of State in communicating 
with the international community.
    Recommendation #92.--DOS should establish an interagency process 
to: determine appropriate uses of international cash donations; to 
ensure timely use of these funds in a transparent and accountable 
manner; to meet internal Federal government accounting requirements; 
and to communicate to donors how their funds were used.
    Status.--Completed. Procedures have been established to manage the 
receipt, distribution, and use of foreign cash donations made during a 
domestic disaster. FEMA has pre-identified response needs likely to 
arise soon after a domestic disaster for which cash donations could be 
quickly utilized, with the understanding that certain donations may be 
directed to longer term disaster recovery projects. An interagency 
Working Group will be convened as necessary to address fund management 
issues and make recommendations on funding longer term disaster 
recovery projects.
    Recommendation #93.--Public and Diplomatic Communications during 
domestic emergencies should both encourage cash donations--preferably 
to recognized nonprofit voluntary organizations with relevant 
experience--and emphasize that donations of equipment or personnel 
should address disaster needs.
    Status.--Completed. As was done during Katrina, the State 
Department provides instructions to all U.S. diplomatic missions abroad 
advising them to encourage foreign entities wishing to assist to make 
cash donations directly to appropriate NGOs rather than the USG.
    Recommendation #94.--The Department of State and the Department of 
Homeland Security should jointly develop procedures to ensure that the 
needs of foreign missions are included in domestic plans for tracking 
inquiries regarding persons who are unaccounted for in a disaster zone.
    Status.--Completed. The Department of State has worked with DHS/
FEMA and the ARC to ensure that, during a domestic disaster, the USG 
honors its international obligations under the Vienna Convention on 
Consular Relations. Although the USG is not required to track down and 
find missing foreign nationals during a disaster in the United States, 
under the Convention it is obligated to assist foreign missions in 
obtaining ``appropriate consular access'' to their nationals.
    The Department of State's Office of Public Affairs has designated 
personnel to work with DHS/FEMA during domestic emergencies. These 
personnel will be part of FEMA's information operation from the outset 
of a major domestic crisis, in order to ensure efficient handling of 
queries from and consistent messaging to foreign missions and foreign 
media.
    The Department of State's Office of Foreign Missions and the ARC 
provided briefings for foreign missions in Washington, DC on how 
foreign missions can best utilize the ARC's missing persons' registry 
to locate missing foreign nationals in the United States.
    Recommendation #95.--DHS and DOS should revise the NRP to include 
DOD and Department of Agriculture (USDA)-Food Safety Inspection Service 
as cooperating agencies to the International Coordination Support 
Annex. Including DOD more directly in foreign assistance management 
would leverage existing relationships with partner military 
establishments and help to ensure that staging areas for the acceptance 
of foreign aid are preplanned and quickly available.
    Status.--Completed. The revised ICS Annex to the NRP includes both 
DOD and USDA as cooperating agencies. Within the system developed for 
managing international assistance during a domestic disaster, 
regulatory agencies such as the USDA provide technical advice and 
review offers of international assistance prior to FEMA acceptance.
    Recommendation #96.--DHS should include DOS and foreign assistance 
management in domestic interagency training and exercise events. 
Inclusion in the new National Exercise Program (NEP) should occur 
before the end of fiscal year 2006.
    Status.--We refer you to DHS regarding its training and exercise 
events. We understand DHS is developing an international assistance 
training module for use in future exercises. DHS can provide more 
detailed information.
    Recommendation #97.--DHS should provide daily disaster response 
situational updates through the Secretary of State to all Chiefs of 
Mission or Charges d'Affaires. These updates should improve situational 
awareness and provide information to address host government concerns 
or questions.
    Status.--DHS has assured State it will provide appropriate updates 
to inform U.S. Missions overseas and, by extension, foreign 
governments.
    Question. If any recommendations were not implemented by the 
deadlines identified in the report, why were they not?
    Answer. Those recommendations involving other agencies and 
departments required extensive interagency coordination. We placed a 
premium on ensuring that our improvements in response to the 
modifications were developed in concert with other agencies. 
Additionally, fulfilling the recommendations linked to revision of the 
National Response Plan hinged on a timetable established by the 
Homeland Security Council.
    However, it is important to distinguish between the practical 
elements of the recommendations and the final, formal conclusion of 
each. Many of the professionals charged with fulfilling the 
recommendations had first-hand experience with the ad hoc arrangements 
employed in responding to Katrina. By the beginning of the 2006 
hurricane season, all of the major elements of the recommendations--
especially those suggesting improvements to assistance management--had 
been agreed informally and would have been employed had circumstances 
required.
    Question. What additional resources are needed to complete 
implementation of any as-of-yet unaddressed recommendations?
    Answer. All of the recommendations in the Federal Katrina Lessons 
Learned report have been addressed at this time.
    Question Specifically, when do you expect an amendment to the 
International Coordination Support Annex to the National Response Plan 
be complete and amended? What else must be addressed to satisfy that 
goal?
    Answer. An interagency group completed the first revision of the 
International Coordination and Support Annex in February 2007 and 
provided the revision to the Homeland Security Council. The 
International Coordination Support Annex, along with all other revised 
annexes, will be released for general comment in the near future. The 
revisions clarify expanded roles and responsibilities of USG agencies 
in managing the international aspects of a domestic incident.
    The group included representatives from the Departments of State, 
Homeland Security, Defense, Health and Human Services, Agriculture, and 
Transportation, and the Agency for International Development. Within 
the Department of State, we continue to ensure that relevant bureaus 
are familiar with the changes to the National Response Plan. However, 
the current NRP is in effect if an incident of national significance 
occurs prior to the NRP being finalized and formally approved by the 
Administration and NRP signatories.
    DHS is finalizing revisions to the entire National Response Plan 
and then the document will be circulated to the interagency community 
for comment prior to release to the general public for comment.
    Question. Of foreign assistance accepted following Hurricanes 
Katrina and Rita, how much has actually been distributed and used to 
date?
    Answer. The United States Government received $126 million of 
donations directly from foreign governments, political entities and 
individuals. All of these funds have been allocated.
    On October 20, 2005, the State Department transferred $66 million 
to FEMA. FEMA subsequently awarded a $66 million grant to the United 
Methodist Committee of Relief (UMCOR). UMCOR established Katrina Aid 
Today (KAT), a consortium of nine nongovernmental organizations, to 
provide case management services to individuals and families affected 
by Hurricane Katrina. This program filled a gap in the services 
available to victims under federally- or state-funded programs. FEMA 
has advised the Department that KAT has utilized $33 million of the 
funds to help over 149,000 people determine their specific needs and 
identify resources to help them overcome this tragedy. KAT has 
indicated to FEMA that it expects to provide similar services to 
additional people by March 2008 with the remaining funds available 
under this grant.
    On date March 17, 2006, the State Department transferred $60 
million to the Department of Education for subsequent donation to 
institutions of higher education and K-12 schools. The Department of 
Education has advised the State Department that it allocated these 
funds as follows:
    DoEd distributed $5 million to the Greater New Orleans Educational 
Foundation for the planning and implementation of a long range strategy 
for K-12 educational services.
    DoEd awarded grants totaling $30 million available to 14 Higher 
Education institutions in Louisiana and Mississippi. These institutions 
have been able to draw on those funds according to their own 
reconstruction timetables. We understand that as of April 27, 2007, 
some institutions had utilized their entire grants; others were still 
drawing on the available funds as they proceed with their 
rehabilitation plans.
    DoEd asked the Louisiana DoEd to develop a program to award grants 
totaling $25 million. On April 19, 2007, the Louisiana Board of 
Education approved grants of $190,000 each to 130 private and public 
schools. The current award period for use of these funds runs until 
November 30, 2007. Funds would be available on a year to year basis 
until all funds have been expended.
    The United States Government received over 5 million pounds in 
material contributions and relief supplies from 50 foreign governments 
and international organizations. The vast bulk of these supplies was 
transferred to FEMA upon arrival and was utilized for disaster relief. 
FEMA indicates that by April 4, 2006 all material donations were put 
into FEMA pipelines to determine disposition of resource based on 
disaster needs. Foreign governments also donated the use of highly 
specialized equipment, notably high-volume, high-pressure pumps and the 
services of personnel expert in their use. These services were utilized 
for up to 6 weeks after the storm's landfall.
    Question. As we understand the Department's Katrina task force has 
been disbanded, what process exists today to accommodate offers from 
foreign governments seeking to assist the ongoing recovery and 
rebuilding efforts along the Gulf Coast?
    Answer. The Department's crisis management system has functioned 
very well over the years; we have used it to manage an average of 13 
crises every year. This system was used to coordinate the evacuation of 
almost 15,000 American citizens from Lebanon in the midst of active 
hostilities, the largest evacuation of American citizens via primarily 
commercial assets in 60 years.
    The Department utilized this ``Task Force'' approach to support the 
Department of Homeland Security and FEMA during the immediate response 
to Hurricane Katrina. Once the immediate, acute phase of the crisis 
passed, the Department disbanded the Katrina task force. However, a 
core group of professionals with relevant expertise and with experience 
during the crisis, working under the overall direction of the 
Department's Executive Secretary, continued to address a wide range of 
Katrina-related issues, including managing ongoing operational 
coordination with FEMA and contributing to internal and USG-wide 
lessons learned' exercises.
    Should foreign governments wish to provide additional resources to 
assist .Katrina's victims directly to the U.S. Government, the 
Executive Secretary would ensure that appropriate experts at DHS and 
FEMA are engaged to ensure the foreign government's offer is promptly 
evaluated and responded to. As during the acute phase of the crisis, 
the Department would not itself evaluate the merits of a specific 
offer, but would instead assist the relevant experts at DHS and FEMA in 
soliciting sufficient information regarding the foreign government's 
offer to permit an informed decision by DHS and FEMA on whether to 
accept or decline the offer.
    Question. What additional steps is the Department of State pursuing 
to better manage foreign assistance following a domestic disaster, what 
is the status of implementing these actions and what additional 
resources are needed to complete this effort?
    Answer. The Department, together with partners at DHS/FEMA, AID, 
the Department of Defense and other Federal Departments, has developed 
detailed procedures to manage the solicitation, receipt, distribution, 
and use of foreign cash and in-kind donations prompted by a domestic 
disaster. These procedures have been agreed by all parties, are in 
place and would be used should a subsequent domestic disaster prompt 
offers of assistance from our international friends and allies.
    With respect to cash donations, FEMA has pre-identified response 
needs likely to arise soon after a domestic disaster for which cash 
donations could be quickly utilized, with the understanding that 
certain donations may be directed to longer term disaster recovery 
projects. An interagency Working Group would be convened as necessary 
to address fund management issues and make recommendations on funding 
longer term disaster recovery projects.
    The in-kind donation management system includes detailed procedures 
for coordinating with USG regulatory agencies for the entry, handling, 
and use of foreign resources during a disaster. Regulatory agencies 
provide technical advice and review offers of international assistance 
prior to FEMA acceptance. The procedures include guidance on acceptable 
and unacceptable items to assist the Department of State in 
communicating with the international community,
    Q#8: The U.S. Agency for International Development (USAID) has 
effectively managed the direction of billions of dollars in U.S. 
assistance to victims of and responders to international disasters such 
as the South Asia Tsunami and Central Asia Earthquakes. How is USAID's 
experience being applied to better manage aid following disasters here 
at home? What barriers exist to better leveraging USAID's knowledge and 
resources in this way, and what would be needed to more effectively 
draw on this expertise and infrastructure?
    Answer. USAID's role in domestic response operations is described 
in the National Response Plan (NRP), to which USAID is a signatory. The 
role described in the NRP relates to vetting, processing, and managing 
logistics for offers of foreign assistance.
    The USAID role described in the NRP is based on USAID's expertise 
in disaster logistics and its experience with, and contacts in, the 
international disaster response community. However, USAID does have 
other expertise which may be called upon for domestic response 
operations. Such skills include camp management, response planning, 
technical issues, economic recovery, reconstruction, and education. In 
addition, USAID stockpiles disaster commodities in the U.S. and around 
the world. This expertise and these commodities are available to FEMA 
for domestic operations.
    Due to the ongoing, close working relationship between FEMA and 
USAID's Office of Foreign Disaster Assistance (OFDA), FEMA is aware of 
these capacities at USAID. During Hurricane Katrina, in fact, some of 
these capacities were requested by FEMA--commodities, planners, 
translators, logisticians. In addition, FEMA has requested that USAID/
OFDA work with them in advance to establish agreements by which such 
assistance may be quickly requested and provided during a disaster--
this process is currently underway.
    USAID funding authorities prevent the Agency from expending 
resources for domestic activities. The International Disaster and 
Famine Account (IDFA) is legislated to fund only international 
disasters and famine. Nonetheless, during a domestic response 
operation, this funding issue is addressed through a FEMA Mission 
Assignment (MA) to USAID. The FEMA MA provides a funding source for 
USAID to carry out domestic operations under FEMA's legal authority. 
However, there is a significant barrier related to USAID preparations 
for domesticoperations. FEMA generally cannot provide an MA to USAID in 
the absence of an active disaster response operation. The result is 
that USAID cannot dedicate staff time or resources to preparing for its 
role in domestic response operations. For obvious reasons, preparation 
and training is critical to USAID's ability to respond to a disaster. 
This constraint is a serious one. USAID has not yet determined how to 
address this problem.
    Question. What other internal investigations, if any, have been 
conducted by the Department of State into its handling of foreign 
assistance following the 2005 hurricanes, and what is the status of 
those reviews?
    Answer. Hurricane Katrina was an unprecedented disaster that 
presented unique challenges to domestic agencies and foreign 
governments trying to assist. The State Department, working with other 
agencies, responded to foreign offers of assistance as quickly and 
flexibly as circumstances permitted.
    The State Department has participated in extensive interagency 
lessons learned reviews and exercises that addressed problems 
identified during Hurricane Katrina. As a result, the U.S. Government 
has developed significantly improved policies, procedures, and plans 
for managing international assistance for future domestic disasters.
    The Homeland Security Council (MSC) led an after action review of 
the U.S. Government response to Katrina, including how we handled 
offers of assistance from foreign governments. The HSC and key 
agencies, including the State Department, reviewed the response, both 
what went well and what we can do better, and updated the National 
Response Plan to guide agency actions if another major disaster were to 
strike the United States. The State Department, USAID, FEMA, the 
Defense Department and others contributed to the update.
    The Department also cooperated fully with the Government 
Accountability Office when it reviewed the handling of foreign 
assistance in response to Hurricane Katrina (GAO-06-460, April 2006). 
In its report, the GAO recognized that ``although DOS's procedures were 
ad hoc, they did ensure the proper recording of international cash 
donations that have been received to date, and [GAO was] able to 
reconcile the funds received with those held in the designated DOS 
account at Treasury.''
    The Executive Secretariat's Operations Center conducted a lessons 
learned exercise shortly after the acute phase of the Katrina crisis, 
as it does after every major crisis, to assess the Department's 
performance and to incorporate adjustments and refinements to 
procedures in order to improve our response to subsequent crises. The 
results of this exercise informed the subsequent, broader USG 
assessment and ensured the Department was better prepared to respond to
    similar situations, as early as the 2006 hurricane season, even 
before a formal set of agreed procedures were finalized through the 
interagency process.
    Question. What was communicated to foreign governments regarding 
assistance that went unused, or offers of assistance that were not 
accepted?
    Answer. For every offer of assistance, the Department, on behalf of 
the U.S. Government, accepted, politely declined the assistance, or 
referred the party offering to an alternative recipient (i.e., American 
Red Cross).
    The Department conveyed this information to the offering 
governments as soon as its partners at FEMA had evaluated the offer of 
assistance and determined whether or not it would address an unmet need 
before similar commodities or services could be identified and sourced 
within the United States.

                         United States Department of State,
                                     Washington, DC, June 28, 2007.
Hon. Mary L. Landrieu, Chairman,
Subcommittee on Disaster Recovery, Committee on Homeland Security and 
        Governmental Affairs, United States Senate.
    Dear Madam Chairman: Thank you for your letter of June 14 
concerning the State Department's performance in responding to 
Hurricane Katrina. I welcome the opportunity to provide additional 
information and to correct some of the persistent inaccuracies reported 
in the media concerning the receipt of foreign assistance following 
Hurricane Katrina.
    Hurricane Katrina presented an unprecedented challenge; the 
Department's efforts in response also were unprecedented. Over 500 
Department employees voltuiteered to help coordinate the outpouring of 
support and assistance from our friends and allies around the world. 
Many of them deployed into the region to work on the ground in the 
relief effort, including a group of Vietnamese speakers who worked 
closely with ethnic Vietnamese residents along the Gulf Coast. These 
volunteers were motivated by a rare opportunity to help their fellow 
citizens here in the United States, just as they and their colleagues 
help American citizens every day overseas.
    Your letter asked whether the Department is better prepared now to 
execute its responsibilities in responding to domestic emergencies. The 
answer is, unequivocally, yes. The State Department learned valuable 
lessons regarding how best to manage and integrate international 
assistance offers into the federal response to a domestic emergency. 
Working with other parts of the federal government, we have 
incorporated those lessons into our planning and have developed and 
implemented detailed procedures to manage international offers of 
financial and material assistance. The basic elements of these systems 
were in place for the 2006 hurricane season; the final, detailed 
versions are now in place for the 2007 season.
    As noted in our June 19 reply to your questions for the record 
following Secretary Rice's appropriations testimony, the State 
Department completed revisions to the International Support Annex of 
the National Response Plan in February 2007, The revised annex will be 
incorporated in the global revision of the National Response Plan 
currently in progress.
    I also would like to take this opportunity to clarify inaccuracies 
in the public accounts of the Department's performance to which your 
letter refers.
    First, the Department from the outset encouraged foreign 
governments and individuals to assist victims in the most efficient, 
effective way possible: through financial contributions to 
nongovernmental organizations expert in disaster response and recovery. 
An informal tally (we cannot require foreign governments to report 
donations to U.S. NGOs) indicates approximately $220 million in 
donations initially pledged to the USG was provided directly to the Red 
Cross, Bush-Clinton Katrina Fund and other NGOs.
    Some governments wish to contribute directly to the United States 
government, and from those governments we received a total of $126 
million. As the Secretary said in her testimony, these funds have been 
allocated (via FEMA and the Department of Education) to nongovernmental 
organizations, institutions of higher education and, via the Louisiana 
Department of Education, to 130 K-12 schools. The funds are being used 
to rebuild or restock laboratories and libraries, improve school 
physical plants and help over 148,000 individuals deterniine their 
needs and plan for their futures as they continue to recover from this 
tragedy.
    A second inaccuracy is that the U.S. Government rejected or ignored 
substantial quantities of materiel and other in-kind assistance offered 
by foreign governments. The State Department's main objective 
throughout the Katrina crisis was to act as the intermediary for 
foreign offers of assistance to the U.S. Government, so that the 
Department of Homeland Security and other federal agencies could best 
help the victims of Hurricane Katrina. With respect to material 
assistance, that meant efficiently conveying all offers to departments 
and agencies charged with responding to the hurricane and coordinating 
the U.S. Government's response to offers of foreign assistance made by 
foreign governments. All offers were conveyed promptly to the Federal 
Emergency Management Agency, which, working with USAID's Office of 
Foreign Disaster Assistance, then decided which commodities could he 
utilized quickly and efficiently.
    Public accounts of the Department's performance imply that all the 
foreign assistance offered was actually needed or could be used. In 
fact, seasoned disaster logisticians evaluated the commodities and 
services offered, and accepted only those that made sense given all of 
the normal considerations during a disaster--cost and time of 
transport, storage, processing and other factors. Moreover, much of 
what was offered, including foodstuffs, medical supplies and services 
of expert personnel, could not be accepted due to federal or state 
health, safety and licensing standards. Some of the equipment, notably 
generators, was not compatible with U.S. systems.
    More detailed responses to the additional specific questions and 
requests included in your letter will be provided in the next week. I 
hope you find this information useful.
            Sincerely,
                                        Jeffrey T. Bergner,
                           Assistant Secretary Legislative Affairs.

    Senator Leahy. Thank you, Senator Landrieu, Secretary Rice.
    Senator Bennett.
    Senator Bennett. Thank you very much, Mr. Chairman.
    Madam Secretary, as you know, I go to Europe quite often, 
and was there just a few weeks ago, participating in the 
Brussels Forum of the German Marshall Fund. It's an interesting 
thing to go back to Europe from time to time, as I'm sure you 
know. Last year, when I was there, they said to me, ``The war 
over the war is over. We don't want to talk about Iraq, we want 
to talk about Russia.'' The Russians had cut off the gas supply 
to Ukraine, and were making similar kinds of statements about 
Georgia, and the Europeans, at least the ones with whom I 
spoke, were very nervous.
    This year, I had a briefing with Secretary--or with 
Ambassador Boyden Gray and Tori Newland and Sam Fox, and they 
all talked about Russia and the concern that is there with 
respect to the turn that President Putin may be taking, a turn 
away from the kind of cooperation and admiration that was there 
fairly early in President Putin's administration and President 
Bush's administration. Can you give us a sense of where the 
Russian relationship is?
    Secretary Rice. Thank you, Senator, I can.
    As with any relationship, it's complicated, any big 
relationship. I would say, on some major strategic global 
issues, we are cooperating pretty well--on North Korea; we've 
had good cooperation on Iran, it's why we have the two Security 
Council resolutions. The President and President Putin have 
done work on global nuclear terrorism. We've done work on 
trying to--we're doing work on trying to modernize the Non-
Proliferation Treaty, to include, for instance, fuel assurances 
for countries that don't do what Iran is doing, in enriching 
and reprocessing. So, on many things, we're--we've done very 
well.
    But the fact is that on some others it's been a difficult 
period. The Russians, I think, do not accept fully that our 
relations with countries that are their neighbors, that were 
once a part of the Soviet Union, are quite honestly simply good 
relations between independent states and the United States, 
that we've tried to convince the Russians that the emergence of 
democracies on their borders, whether it's Georgia or Ukraine, 
would not be a problem, and that of course we're going to have 
good and sound relations with those countries, and we're going 
to continue to.
    It's even more difficult when one looks at what is 
happening domestically in Russia, where I think it's fair to 
say that there has been a turning back from some of the reforms 
that led to the decentralization of power out to the Kremlin, a 
strong legislature, strong free press, a--an independent 
judiciary. I think everybody around the world, in Europe, in 
the United States, is very concerned about the internal course 
that Russia has taken in recent years.
    That said, we continue to have that discussion. One of the 
advantages of President Bush's very good personal relationship 
with President Putin is he can raise those issues, and we can 
talk about them. We very much hope that there will be free--
truly free and fair elections as Russia moves forward with 
presidential and parliamentary elections next year. But it is 
the concentration of power in the Kremlin that has been 
troubling.
    Finally, we have been pressing, along with Europeans and 
others, that there be no sense that Russia uses its great 
natural resources as a political weapon rather than in 
commercial--a commercial way. So, the--it's a complicated 
situation, but I would say, on a number of issues, we've worked 
together very well; and it's a big and important power, and 
we'll continue to try to work with the Russians.
    Senator Bennett. Thank you. As you know, I've always been a 
strong supporter of microenterprise, microcredit. I simply 
can't let your appearance here pass without mentioning it one 
more time and just keeping it on the radar screen. I'm happy 
that the State Department, during the time that I've been on 
this subcommittee, has significantly increased microcredit 
every year, which means I can take credit for it.
    Secretary Rice. Absolutely.
    Senator Bennett. As long as it happened on my watch, I did 
it. Whether I had anything to do with it, in fact, or not, 
doesn't make any difference----
    Secretary Rice. Of course you did----
    Senator Bennett [continuing]. When you're on the campaign--
--
    Secretary Rice [continuing]. Senator.
    Senator Bennett [continuing]. Trail.
    Now, moving to another issue, let's talk about China. As I 
look at China, I think they have tremendous internal problems 
and long-term challenges, demographic challenges of nature, the 
likes of which no other country has. Maybe India. But in the 
short term, they are committed to short-term economic growth. 
If you worry about American CEOs concentrating on next 
quarter's numbers, you--they don't hold a candle to the 
Chinese.
    We're expanding our consular activities in China. We're 
doing what we can to increase the Embassy in China. Give me a--
give us an overview of where you think things are going with 
the Chinese.
    Secretary Rice. Well, I would start by saying what I said 
about Russia, also a very complex relationship. With these big 
countries, there tend to be good things and bad things, puts 
and takes. Again, on some of the global issues, we're doing 
very well. We are--with the Chinese, I think the way we've 
worked, now, on North Korea is very effective and quite 
remarkable, given China's history with North Korea. Similarly, 
we are, again, working well together in the United Nations on 
Iran. I wish that we could have a somewhat stronger Chinese 
role on Sudan.
    I think that that would be very helpful, and we've 
encouraged the Chinese to be much more active with the Sudanese 
to get them to accept the U.N. forces. That's one of the most 
important things that they can do. They say they will. There's 
some evidence of that. But that's very important.
    I think when you look at the total picture, though, you 
recognize that this is a country in the midst of a huge and 
major transition. Our goal has to be to help make that 
transition one that ultimately makes China a more stabilizing 
force in international politics than a destabilizing force. On 
the positive side of that, the integration of China into the 
international economic system, I think, will help, although 
we've had to hold China accountable for some of its WTO 
responsibilities that we think it, frankly, hasn't fully met; 
for instance, the efforts of--on intellectual property-right 
protection, which I find perhaps one of the most important 
things we can do is get countries to protect property rights.
    Similarly, on the currency issue, Secretary Paulson has 
worked very hard on that issue. So, China has to do things to 
show that this huge economy is not going to operate outside of 
the rules of the international economy. We spend a good deal of 
time on that.
    On human rights and religious freedom, there is certainly a 
lot of work to do. We've been concerned about the direction of, 
particularly, religious freedom. This is something that we 
bring up with our colleagues.
    Finally, I would just note that when it comes to the issues 
related to Chinese security, we--Secretary Gates and others--
have spoken to our concerns about transparency in Chinese 
military activities, because there is a rather outsized buildup 
of Chinese military activity.
    All of that said, it's our responsibility to try to make 
China--as Bob Zoellick once said, when he was Deputy 
Secretary--a stakeholder, a responsible stakeholder, in 
international affairs, because China is going to be 
influential. There's no doubt about that. Our policies have to 
be aimed at making it a--an influential power in a positive 
sense, not in a negative one.
    Senator Bennett. Thank you.
    Senator Leahy. Thank you, Senator Bennett. I do appreciate 
the Senator from Utah taking credit on the microcredit idea. 
Whenever I travel, I say it was a tall, bald Senator with 
glasses.
    Then I let people decide which of the two of us I'm talking 
about.
    Senator Alexander?
    Senator Alexander. Thank you, Mr. Chairman.
    Madam Secretary, welcome.
    My late friend Alex Haley used to say, ``Find the good and 
praise it.'' I have an--I'd like to do that, in one case here, 
in terms of the State Department. My staff in Tennessee has 
reported to me that the State Department has handled the new 
passport requirements very well, along with the increase in 
passport applications, and they sent me a number of examples, 
which--I won't read them all, but, for example--I will take one 
or two--on April 17, Kathy Smith, of Kingsport, contacted us 
about assistance with a passport. She was terminally ill and 
needed to go overseas for treatment. Her passport was pulled 
out of a stack of 32,000, and was FedEx'd to her within a few 
days.
    On April 19, Linda Hayes contacted our office. She's from 
Nashville. She had a plane ticket for a week later, to go see a 
brother who had a stroke, who couldn't be moved. Within 3 days, 
she had her passport.
    Our caseworkers say that in dealing with the passport 
office, even with the new requirements, it's always, ``Let's 
see how we could help.'' They especially pointed out the fact 
that, after Katrina, since we, in Tennessee, deal the New 
Orleans passport office, that instead of complaining about 
their circumstances down there, that they really--said they 
really didn't hear a word about that, that they found ways to 
deal with the problems, even though they had to move out and go 
to other offices and do different things.
    So, I just wanted to say that to you, and hope that you 
would pass it on to your passport office, and let them know we 
appreciate that very much.
    Secretary Rice. Thank you very much, Senator. I will pass 
it on. They'll greatly appreciate it. They've worked very hard, 
and I'm very proud of the job they've done.
    Senator Alexander. I also wanted to ask you a question and 
make a comment about the Iraq Study Group report, the work that 
former Secretary Baker and Lee Hamilton did recently. The 
President's talked about it recently in favorable terms. Just 
the other day, I noticed he had some nice things to say about 
the work of the report. As I look at the work we do here, it 
seems ironic that we, the oldest democracy, are busy lecturing 
Baghdad about--an infant democracy--about coming up with a 
political solution to what we do in Iraq, when we can't come up 
with one here, and that we ought to work a little harder to try 
to find a way to say to our troops and to the Middle East and 
to the world that we're united in the United States in our 
mission in Iraq, and we ought to work harder to find out what 
that might be.
    I've noticed that since the Iraq Study Group report was 
announced, in December, that both the administration and the 
Democratic majority seem to be using more and more elements of 
it in their different positions. For example, the 
administration has acted on recommendations by increasing the 
number of troops embedded with Iraqi forces. It's used 
milestones to help chart progress. It's even begun meeting with 
neighbors, even in meetings that might include Iran and Syria. 
The President's National Security Advisor has cited the fact 
that the Iraq Study Group said, on page 73, that a surge could 
be a part of a strategy, based upon that Iraq Study Group. On 
the other side, the Democratic Members of Congress have used 
milestones, they've limited the role of the United States in 
some of their proposals to training, equipping, and 
counterterrorism, they've used as their deadline the goal, not 
the deadline, that the Iraq Study Group mentioned, which was 
the early part of March.
    So, I wanted to let you know that later today Senator 
Salazar, of Colorado, and I are going to introduce a piece of 
legislation that would encourage the President to develop a 
plan based upon the recommendations of the Iraq Study Group. 
We're not going to introduce it today, we're going to wait 
until after--after the Congress has dealt with the current Iraq 
funding discussions.
    We know this is not the only plan that one could come up 
with about how we go forward in Iraq, but my purpose in 
bringing it up to you is to say to you, a little bit in 
advance, that we hope, at least from my point of view, that 
this is considered as a friendly gesture, as an option that the 
President could still consider, to embrace it, and that the 
advantage of it is that it doesn't come from the President, it 
comes from outside the President, and that it's not a sign of 
presidential weakness to say, ``Here's a good idea that seems 
to have bipartisan support. I accept it. I based my plan upon 
it. I ask you to accept it.'' The reason I like that is because 
I believe we have a long-term interest in Iraq, and I'm afraid 
that, if we don't get broader support for the President's 
strategy, that we won't be able to see that all the way through 
to the end.
    So, I hope that you and the President and others in the 
White House will consider what Senator Salazar and I are 
offering today as an option for the President. It won't be 
acted on in the next week or 2 or 3 or 4. Perhaps the President 
could embrace it, and there might be
    Democrats and Republicans in the Senate that could come 
behind it, support it, and provide the kind of bipartisan 
consensus that, so far, has seemed to elude us.
    Secretary Rice. Thank you very much, Senator.
    Senator Alexander. Thank you.
    Senator Leahy. Thank you.
    Senator Bond.

                STATEMENT OF SENATOR CHRISTOPHER S. BOND

    Senator Bond. Thank you very much, Mr. Chairman.
    I'm pleased to welcome the Secretary today, here. I was 
pleased to learn that the State Department has been designated 
a national security agency, and the importance of our 
diplomatic efforts in the war on terror, which, make no 
mistake, is an existential threat to our peace and security 
here. I--while I strongly support our military efforts, I 
believe that the diplomatic efforts of the State Department are 
a critical element in trying to protect us from the war. I 
would just comment, as a member of the Senate Intelligence 
Committee, which studied extensively--solid 2 years--on the 
prewar intelligence of Iraq, I want to congratulate you and 
other members of the administration--you, in a previous 
position--who used intelligence that may not have been totally 
accurate, but we found was truthfully reported both by the 
officials in the administration and those of us in Congress who 
overwhelmingly supported our efforts. We know, according to 
David Kay's report, that--from the Iraqi Survey Group--that 
Iraq was a far more dangerous place even than we knew.
    But I want to change and ask you about another area that we 
had the opportunity to discuss a couple of weeks ago, and 
that's southeast Asia. You have recognized, as I think any 
student does, of that area, that this is a critical area, 
sometimes called the second front in the war on terror, but of 
great strategic importance, and Indonesia is the keystone.
    We appreciate the support for Indonesia. I am concerned 
about the $50 million cut in the rest of the East Asia Pacific, 
and I'm going to ask this committee to restore that. also, I 
would ask you why we have not been able to create a U.S. 
Ambassador to ASEAN, reflecting our interest and our commitment 
to that area. This is critical. Your visits there are vital, 
but appointing a full-time Ambassador seems to me to make great 
sense. Could you comment on that?
    Secretary Rice. Well, thank you very much.
    First of all, on the region, I agree with you completely 
about the importance of the region. The President was, of 
course, there. I will be there in the Philippines for the 
meetings of the Asian Regional Forum in the summer. We have 
meet, several times, at both the ministerial and at the head-
of-state level, with the ASEAN countries. We're very actively 
engaged there, and--English-language training--and I've got New 
America's Corners--American Corners going into various places. 
Obviously it's a critical place in the war on terror. It's also 
a critical place because a place like Indonesia, which is a 
multiethnic, multireligious emerging democracy, can be a very 
important force for tolerance in the world. So, I could not 
agree with you more about the issues.
    It's a very interesting point, about somebody for ASEAN, 
and we'll take it under advisement, Senator. We've just 
recently appointed an Ambassador to the African Union, for 
instance. Of course, have one to the Organization of American 
States.
    Senator Bond. I hope you'll----
    Secretary Rice. Let me take it----
    Senator Bond [continuing]. What ASEAN----
    Secretary Rice [continuing]. Back, and we'll take it under 
advisement. It's an----
    Senator Bond. Let me----
    Secretary Rice [continuing]. Interesting idea.
    Senator Bond. Let me follow up on the Philippines. In 
Mindanao, the U.S. Institute of Peace has been facilitating a 
peace process between MILF and the Philippine Government; seems 
to be the best hope for getting that under control. I wrote to 
Ambassador Negroponte. Apparently, funding is being cut off for 
the U.S. Institute of Peace on this effort. Do you know why? 
Can this be restored? Because it is critical for that region.
    Secretary Rice. Well, we have very active programs in 
Mindanao. As a matter of fact, Karen Hughes was, herself, there 
to talk with our people. I'll have to check on the----
    Senator Bond. But the U.S. Institute----
    Secretary Rice [continuing]. Specific program----
    Senator Bond [continuing]. For Peace is the critical one 
bringing those----
    Secretary Rice. I'll check on the specific program, 
Senator. I'm not----
    Senator Bond. All right.
    Secretary Rice. I will get back to you with an----
    Senator Bond. Speaking----
    Secretary Rice [continuing]. Answer.
    [The information follows:]

                             The Deputy Secretary of State,
                                     Washington, DC, June 18, 2007.
Hon. Christopher S. Bond,
U.S. Senate.
    Dear Senator Bond: Thank you for your letter concerning the 
expiration of the United States Institute of Peace's (USIP) $3 million 
grant for its work in the Philippines. I share your view of the 
importance of supporting the peace process between the Philippine 
government and the Moro Islamic Liberation Front (MILF) as part of a 
multi-faceted approach in upholding U.S. interests in Southeast Asia.
    Since receiving the grant in 2003, USIP has achieved useful results 
in building understanding and support for the peace process, 
particularly through its seminars on ancestral domain. Nonetheless, the 
original rationale for USIP's grant no longer exists. In 2003, we 
believed the USIP could fill a key niche and were concerned that direct 
U.S. involvement in the peace process would be seen as interference by 
the parties. The situation has changed since then. Most importantly, 
the U.S. Embassy in Manila has increasingly been directly involved in 
the peace process, opening a dialogue with MILF leaders and actively 
engaging with Philippine officials on the peace process. Both parties 
support this increased and direct U.S. engagement.
    Although the Department of State would welcome the opportunity to 
continue to cooperate with USIP, it is our belief that the best use of 
scarce U.S. resources is in direct support of the reintegration of 
former combatants and other assistance projects. Should the Department 
decide in the future to seek technical assistance along the lines USIP 
has been providing, USIP will of course be invited to bid on any such 
proposal.
            Sincerely,
                                                John D. Negroponte.

    Senator Bond. Speaking of public diplomacy, we see the 
Chinese expanding and setting up throughout the world, 
throughout that region and elsewhere, the Confucius Centers, 
nonprofit public institutes promoting Chinese language and 
culture, local Chinese teaching.
    At the same time, we are closing, and, because of security 
reasons, barricading American centers because of the 9/11 
security setbacks, in Riyadh--they've been closed throughout 
the world. We're hearing where American centers, the access to 
American literature and books has to be behind great security 
barriers which prevent our--at least giving our culture an 
opportunity to be heard and understood. What can we do to--
given the security situation, is there anything this committee 
can do to help you if we--to find a way to make our libraries 
and our resources available to people in the world who, I would 
hope, have a legitimate question in learning about America and 
what we're doing?
    Secretary Rice. Well, we have put forth a very active plan. 
It starts with funding in the supplemental. Karen Hughes has 
about 15 countries, pilot countries, for--very high important 
countries in the war on terror for English-language camps, for 
English-language-focused programs. We believe that people will 
want their kids to learn to speak English, and that's one of 
our best ways to get in. So, it would be helpful to have the 
full funding for that.
    It's also the case that--I mentioned American Corners--they 
are exactly as you talk about, and we have a number of them. 
I'm--I--let's see, it's 10 in Indonesia, 14 in the Philippines, 
6 in Malaysia. They're around the world.
    We're also using virtual posts, virtual presence posts, 
because there are places where you can get on the Internet and, 
in effect, be like a post.
    Senator Bond. Well, I know, the Internet's very important. 
But, in many of these American centers, the security 
requirements are so great that the traffic has fallen off 
significantly. That's what we like to help.
    But one, just, quick question. We've discussed the IMET 
programs, International Military and Education Training. This 
is an area that I believe is very important. I would think that 
you would agree that this is one area where it is important 
that we continue to offer fledgling democracies and allies the 
access to our training. Is that----
    Secretary Rice. Yes, I'm very big supporter of the IMET 
programs, and we're trying to expand them and extend them into 
places where they don't currently exist, because being able to 
have our military engaged with other militaries really 
sometimes gives us a generational advantage down the road. We 
have a couple of cases where people have gone----
    Senator Bond. Right.
    Secretary Rice [continuing]. On to be president, so it's a 
good thing.
    Senator Bond. Yeah. Well, I--like SBY.
    Secretary Rice. Yes.
    Senator Bond. Final question. I--public diplomacy's very 
important. State Department is hindered by security concerns. 
Right now, this weekend, I was in Baghdad, and saw what the 
U.S. military is doing to repair and reopen the largest mosque, 
providing information, they're engaging local clerics and 
building relationships, they've established a women's council, 
helping local governments. The military is in a better--is in 
the position for security, but what we can do to help you get 
public diplomacy over the hurdles of security?
    Secretary Rice. Well, in places like Afghanistan and Iraq, 
it helps us to be able, through our Provincial Reconstruction 
Teams, to effectively embed with the military, and to provide 
protection in that way. In the case of Iraq, these new 
Provincial Reconstruction Teams that we have, we embed at the 
brigade command team level, and it allows us to be out with 
them. We have very good relations. I just got a very good 
letter from one of the heads of the civil affairs in the 
military, talking about how a couple of our officers who were 
really culturally sensitive were able to help when they go into 
a place, and they need to deal with women's affairs or--so, I 
think that's really our comparative advantage. We've got people 
who can embed. Sometimes they aren't people who have been in 
the Middle East or--but they've been in other conflict areas. 
So, having our officers in these Provincial Reconstruction 
Teams, out with the military, we think is one way to deal 
simultaneously with the security situation and to bring to bear 
our best assets.
    Senator Bond. Thank you very much, Madam Secretary. We are 
very grateful for your outstanding efforts, and wish you well.
    Secretary Rice. Thank you.
    Senator Bond. Thank you, Mr. Chairman.
    Senator Leahy. Thank you.
    Madam Secretary, let me ask you just a couple of questions 
about the Western Hemisphere Travel Initiative. I believe it's 
referred to as ``witty'' [WHTI], or, as a lot of our business 
and tourism industry call it, ``witless.'' It is, for those of 
us who live, as my wife and I do, less than an hour's drive 
from the Canadian border, and we see so many--so much of our 
business, our tourism, even families going back and forth 
across that border, and have, for generations, easily--here's 
what seems to have happened. Last week, the National Institute 
of Standards and Technology certified the ``vicinity read'' 
technology is appropriate for use in the so-called PASS Card as 
part of WHTI. I'm somewhat concerned that DHS has rushed that 
through and has overridden some technology concerns--just so 
they can use it at 39 of our busiest ports, it won't be 
necessary at the other 80 low-volume ports. But the State 
Department is going to have to pay to produce a card with a 
technology that's inconsistent with what's used in passports.
    Actually with security, it's inconsistent with our 
standards of security in this country, for privacy, just so 
somebody can pass through 39 ports out of 119, and do it 
faster. Even though, in my own State of Vermont, and Senator 
Gregg's State of New Hampshire, you wouldn't need it to cross 
some of the small crossing points, but you're still going to 
have to buy it. Out of the 39 ports of entry which you and DHS 
have agreed to upgrade for this, I believe 22 are on the 
southern border.
    What's the cost to the State Department to create the PASS 
Card and fully implement it?
    Secretary Rice. Senator, I'm not sure that I can give you a 
cost figure. I will get back to you with the specific cost 
figure.
    Senator Leahy. Well----
    Secretary Rice. But let me just say, we had a legal 
requirement----
    Senator Leahy. Well, the reason I ask, the administration 
wants to begin requiring a passport or a PASS Card within a 
year or----
    Secretary Rice. Yes.
    Senator Leahy [continuing]. Two of next year.
    Secretary Rice. Yes.
    Senator Leahy. Senator Stevens and I had passed 
legislation, which the administration has ignored, to push that 
back to June 2009----
    Secretary Rice. I'll----
    Senator Leahy [continuing]. For something that's going to 
be done within a year. I'd kind of like to know how much it's 
going to cost.
    Secretary Rice. I'll have to get you the specific number.
    [The information follows:]

    The passport card is adjudicated and issued by the Department of 
State. The year to date cost for the passport card initiative totals 
approximately $31 million. This includes $283,000 for initial passport 
card testing in fiscal year 2007 and $30.8 million for additional 
passport card testing, card stock and card printers in fiscal year 
2008, the first fiscal year in which we are accepting applications and 
printing cards. Our cost estimate for fiscal year 2009 is $34.5 
million, and for fiscal year 2010 is $43 million.

    Secretary Rice. But let me just say, Senator, we had a 
legal requirement, which was to have a verifiable way to--for 
people coming across the two borders--we were responding to the 
legal----
    Senator Leahy. I mean--whoa, whoa, whoa, whoa, whoa. Your 
reaction to this legal requirement is something that was 
slipped into a bill at the request of the administration 
without any hearings----
    Secretary Rice. No.
    Senator Leahy [continuing]. And nobody's come up to ask 
us--nobody's asked me, as chairman of the Judiciary Committee. 
Nobody's asked us here. Nobody's asked others. But we don't 
know what the cost is. We don't know how we're going to do it 
by June 2008. We know you've given us to June 2009 to work it 
out, but, ``The heck with that, we're going to do it by June 
2008, if it kills us, or all of you.''
    Secretary Rice. Senator, let me----
    Senator Leahy. Or hundreds of billions of dollars worth of 
trade and traffic across the U.S./Canadian border.
    Secretary Rice. Let me assure you, Senator, I believe the 
cost is known. I don't have the number at my fingertips----
    Senator Leahy. All right.
    Secretary Rice [continuing]. Right here. But the question 
of getting this done in 2008, we think it can be done in 2008. 
We believe that--I've talked with the people who are doing 
the--who have to oversee the validation of the technology. They 
believe that that validation of the technology can be done in 
time to make this PASS Card available. We've worked with DHS on 
publishing the rules, so that there can be comment about the 
rules for the Western Hemisphere Travel Initiative.
    Senator Leahy. When are they going to do that?
    Secretary Rice. The rule will be published--we're working 
now on some language concerning some issues that would be 
particularly, I would think, of interest to you, concerning how 
we would deal with the parental notification, so that we don't 
have the trafficking of children, for instance, across borders.
    Senator Leahy. Well, that raises a point. I mean, we've 
seen what happens when we rush into things and people screw up. 
An example I use, like TSA, where Senator Kennedy, stopped 10 
times or so, getting on a plane, because he's on a terrorist 
watch list. Now, I know all of us Irish look alike, but Ted's 
been taking that plane for years. Even the President called him 
to apologize. He said, ``Well, you know, I appreciate that, Mr. 
President. Just get me off the darn list.'' The President said, 
``I don't have that power.'' We've had a year-old child told to 
get a passport, because they're listed as a 45-year-old 
terrorist. Without making my usual comments for those of us who 
went to Catholic grade schools and high schools, we have 
Catholic nuns who are on that watch list. Now, we have 
differing views about whether it should be or not, but I 
suspect the ones who are on the watch list should not be. 
Department of Homeland Security has screwed up so badly in so 
many areas. I mean, why should we have any confidence that, in 
a year from now, when they don't even have the systems in 
place, they're going to do it right?
    Secretary Rice. Well, Senator, we've had very good 
cooperation with the Department, but the Department--the 
Department of Homeland Security actually is charged with 
determining the requirements. We then implement those 
requirements. The legislation----
    Senator Leahy. But the PASS Card won't be compatible with 
the computers that you use, for example, to read passports. 
Does that mean you have to have--are we going to get a bill for 
a whole second set of computers at every border crossing?
    Secretary Rice. Senator, the reason that we went to the 
PASS Card was that there was concern that if we required a 
passport of every American trying to travel across that border, 
that it would--the expense would be too great. As you note, 
there are people who go back and forth for hockey games or 
for----
    Senator Leahy. What's the PASS Card going to----
    Secretary Rice [continuing]. For whatever. So, the----
    Senator Leahy. What's the PASS Card going to cost?
    Secretary Rice. So, the PASS Card is a cheap alternative--
--
    Senator Leahy. What does it cost?
    Secretary Rice [continuing]. To the--I think, about--do we 
know the number? Thirty-five dollars or something like that, 
I've read? We'll get back to you with the exact number.
    Senator Leahy. Well, $35 is----
    Secretary Rice. But it--don't think that----
    Senator Leahy. A family of five----
    Secretary Rice. Senator----
    Senator Leahy [continuing]. Going shopping, ``Hey, guys''--
--
    Secretary Rice. Senator, don't get that----
    Senator Leahy [continuing]. ``Let's''----
    Secretary Rice [continuing]. Number in your head, because--
--
    Senator Leahy. Where do you get it?
    Secretary Rice. I----
    Senator Leahy. Where would you get it?
    Secretary Rice. Where would we get----
    Senator Leahy. This PASS Card.
    Secretary Rice. Where would you get the PASS Card? The same 
way you get any other card, through the United States 
Government. You apply for it, and you'll get it. But it's a 
cheaper----
    Senator Leahy. So, we have----
    Secretary Rice [continuing]. Alternative.
    Senator Leahy [continuing]. The efficiency of the United 
States Government standing behind us on this.
    [The information follows:]

    For first-time applicants, the card costs $45 for adult and $35 for 
children. For adults who already have a passport book, they may apply 
for the card as a passport renewal and pay only $20. The passport card 
has the same validity period as a passport book: 10 years for an adult, 
5 for children 15 and younger.

    Secretary Rice. Well, Senator, I'm not going to speak for 
the efficiency of the United States Government, but I will 
speak for the fact that this has been on the books--this law 
has been on the books, not since last year--we did have an 
extension from the time at which the legislation was made----
    Senator Leahy. Senator Stevens and I wrote that.
    Secretary Rice. We appreciate it very much. But we think we 
can meet this in 2008. We've worked with our Canadian 
counterparts, we've worked with our Mexican counterparts. The 
need for identification for air travel went, really, very 
smoothly. We've worked even with those in the Caribbean who had 
concerns about what might happen to their tourist industry if 
this did not go well.
    So, I think we have some record of having delivered, and we 
believe that we can validate----
    Senator Leahy. But the air traffic----
    Secretary Rice [continuing]. The technology and get it 
done.
    Senator Leahy [continuing]. Or the Caribbean traffic is a 
little bit different than the hundreds of thousands of people 
who go back across the border every single day, everything from 
going over to have lunch to doing business. I mean, you've 
encouraged the Canadians to apply for the NEXUS card, because 
they're interoperable with PASS. Is that correct?
    Secretary Rice. That's correct.
    Senator Leahy. But doesn't that require a background check?
    Secretary Rice. It will--that requires a background check, 
but----
    Senator Leahy. You know, I--I'm going to Ireland and--
Italy, briefly, at the end of this month. I can just see, if I 
had to go there, if they called me up and said, ``Well, we've 
got to do a background check on you before you go.'' I'd say, 
``The heck with that.''
    Secretary Rice. Senator, it's----
    Senator Leahy. I mean, how do we do background checks on--
--
    Secretary Rice. So, look at----
    Senator Leahy [continuing]. Canadians?
    Secretary Rice [continuing]. Fingerprints, look for--look 
in records to see if there's a problem. But I--but, Senator, 
let me just say, I really----
    Senator Leahy. Like----
    Secretary Rice [continuing]. Do believe----
    Senator Leahy [continuing]. Like Mahar?
    Secretary Rice. I believe we can get this done if we put 
the right resources to it. We believe we can get it done. DHS--
we are working very well with them. We did have a delay in 
determining which technology to use. That's now out for 
comment. The people who are working on this issue tell me we 
can validate the technology and have it ready to go by 2008. We 
think we ought to try to get this----
    Senator Leahy. So, in----
    Secretary Rice [continuing]. Requirement fulfilled.
    Senator Leahy [continuing]. In June 2008, none of our 
businesses, none of--nobody else is going to have to worry 
about having these PASS Cards for----
    Secretary Rice. Senator, I'm not going to----
    Senator Leahy. You're a very----
    Secretary Rice [continuing]. Comment on what we----
    Senator Leahy [continuing]. Optimistic person, Madam 
Secretary. You know, I----
    Secretary Rice. I am, Senator.
    Senator Leahy. I----
    Secretary Rice. I'm not going to tell you that there 
won't----
    Senator Leahy. I belong to----
    Secretary Rice [continuing]. Be problems.
    Senator Leahy [continuing]. A faith that believes in 
miracles, but even miracles----
    Secretary Rice. Senator, I understand, and we've worked 
very hard with our Canadian counterparts, we've worked very 
hard with our Mexican counterparts, but we have a legal 
requirement, and we're trying to meet it. We're trying to meet 
it in a way that is going to make us safer on the border, but 
doesn't hold people up who need to get back and forth.
    Senator Leahy. Madam Secretary, you say we have a legal 
requirement. Nobody from this administration has asked anybody 
up here to do anything to modify or change the requirement the 
administration slipped into a law, or was slipped in at their 
request. Makes me think of other things that have been done 
like that, one that allows for the easy firing of attorneys--of 
U.S. attorneys, for example. The--these are things--saying a 
legal requirement, with all due respect, is a bit of a copout, 
because you could ask for changes, if you want. Obviously, 
you've heard from the U.S. Chamber of Commerce and others, with 
their concern. I think there are justifiable concerns on this. 
I also am concerned about a signal we send to a country that 
has been a great friend, it becomes almost cliche to speak of 
the longest unguarded frontier in the world, but it is true--a 
friend and ally and supporter, our biggest trading partner, I 
believe. I believe it still is. We should talk some more about 
this.
    If Senator Gregg will allow me, I'm just going to mention a 
couple of quick things, then I'll yield to you whatever amount 
of time you want.
    Much of your written testimony is devoted to Iraq, 
Afghanistan, and the Middle East, and, at the very end, you--
and I understand the importance of those--at the very end, you 
mention other developing nations and vulnerable populations.
    In Nepal, a country where years of fighting has cost 
thousands of lives, there's a chance to end the Maoist 
insurgency, replace feudalism with democracy. But you propose 
to cut our aid.
    Democratic Republic of the Congo, a huge country, with 
every conceivable problem one can think of, has had its first 
elections in 40 years. I think it's going to influence central 
Africa for the next 20 years. Yet, we're proposing to cut their 
aid.
    Vietnam, a country of 80 million people, seeking closer 
ties, and the President went there last year, but, with the 
exception of HIV and AIDS, proposes to cut our aid. I've seen 
what even a little aid can help, the Leahy War Victims Fund 
that is used there.
    Congress has worked hard to increase funding for global 
environmental programs, protect forests in the Amazon, central 
Africa, where they're being destroyed, but you propose slashing 
funding for these programs and downgrading USAID's Mission in 
Brazil, the most populous country in the hemisphere, after the 
U.S. USAID's budget--operating budget is cut. I mean, I'm just 
worried. It seems like there's this huge vacuum cleaner in Iraq 
and Afghanistan and I can debate what works and what doesn't 
work there, sucking up all this money, and these other places 
are going to create either problems or opportunities for us for 
the next generation, but we're cutting back our money.
    Secretary Rice. Senator, this administration has almost 
tripled official development assistance since the President 
came to power. We have quadrupled assistance for Africa, and 
doubled assistance for Latin America. You can look at any given 
year, and whether we think there are specific programs that 
need funding or not in a particular place--and, in Brazil, for 
instance, yes, we have moved to a different kind of 
relationship with Brazil, which is a large and increasingly 
prospering country, where we're engaged in more partnerships 
with Brazil than direct foreign assistance. But the numbers 
really do speak for themselves when you look at the commitment 
of foreign assistance by this President to the--to development.
    Senator Leahy. I've publicly praised the President----
    Secretary Rice. We appreciate----
    Senator Leahy [continuing]. As you know----
    Secretary Rice [continuing]. That.
    Senator Leahy [continuing]. On a number of areas, where he 
has, and where I have supported him. But the main increases are 
in AIDS and in the Millennium Challenge, and we still have 
questions that have been asked by both Republicans and 
Democrats, what the Millennium Challenge has accomplished.
    The point is, in a number of these very specific areas, 
where we could be helpful, we've had private philanthropists 
who have given more money, whether it's been the Gates 
Foundation or others. AIDS has been our biggest increase, and 
that's--you've had strong bipartisan support for money there. 
We're also doing things, as you know, in the Judiciary 
Committee to make it more possible to change our patent laws 
and copyright laws and what not, to move drugs into these areas 
at a much lower cost, both to us and to the receiving 
countries, who are all working together on these.
    But I worry about--whether it's Congo, Darfur, all these 
others--so----
    Secretary Rice. Well, Senator, we're putting--in Africa--
for instance, in Latin America, the doubling of aid is not MCC 
aid. That's less MCC aid. We really have put a great deal of 
financial--of foreign assistance into these places. Yes, 
sometimes a place will--like Brazil, will, in a sense, change 
the kind--we will change the kind of relationship that we have 
with a Brazil. But if you look at the amount of money that is 
going into the Great Lakes region, the amount of money in 
Africa, the amount of money that is going into Liberia, the 
amount of money that is going into countries in Latin America, 
this administration, thanks to the support of the Congress, has 
been extraordinarily generous.
    We are trying to make better use of the resources, to go 
back to a point that we talked about early on, by being certain 
that the USAID and the State Department funds can create a 
total picture of what's going into any particular country. But 
the increases that I'm talking about are not in MCC--for 
instance, for Latin America.
    Senator Leahy. Secretary Rice, I've gone over my time, and 
you and I should probably chat about this a little bit further. 
You've--as I said, you've always been available, when I've----
    Secretary Rice. Certainly. Anytime.
    Senator Leahy [continuing]. When I've called, and we will 
talk.
    Senator Gregg?
    Senator Gregg. Thank you, Mr. Chairman.
    I wish to join you in your skepticism about the border 
cards crossing into Canada. Before I had the good fortune to 
become ranking member of this subcommittee, I was chairman of 
the Homeland Security Subcommittee, and this was a major issue. 
I think the jury's out on this technology. The responsibility 
for it is also--there's no clear line of responsibility, in my 
opinion. So, we've--we're going to need to--I'm very concerned 
that we're going to see a replication of the event when we 
stood up TSA, and it was basically, as the chairman alluded to, 
a real disruption in traffic, commercial traffic and 
individuals' traffic and in the lifestyle of Americans and 
Canadians.
    So, we should do this through demonstration exercises. We 
should not just say, ``x date, we're going to move to this 
program.'' We should try a demonstration exercise here, a 
demonstration exercise there, and work our way up to the 
Freedom Bridge in Detroit before we suddenly arrive there one 
day and say, ``This is the way it has to be.'' So, I do hope 
we'll come at that in a different way. I don't--it's not really 
your responsibility, but you're drawn into the exercise.
    On another subject, I'd be interested in your thoughts on 
what's happening in Turkey. This is a key country for us. 
They've always been a very strong ally. They're somebody we 
rely on in the region for stability. Yet, they appear to be 
going through, as many of those states are in that region, a 
resurgence of religious movement that was inconsistent with 
their, certainly, 20th century history. What do you see 
happening there? What should be our role? Obviously, it's 
internal domestic event, but what should----
    Secretary Rice. Well, I think our role has to be to stand 
for the democratic processes there, the constitutional 
processes. The government that was elected by the people there 
has actually been a government that's been dedicated to pulling 
Turkey west toward Europe. It has been the policy of that 
government, even though it is led by leadership from the AKP 
Party, which has Islamist--Islamic roots--it has been trying to 
integrate into Europe. It's been changing its laws to try to 
become consistent with European Union requirements for laws on 
individual and religious freedom and other issues of that kind. 
So, I think it's very important that we just--that we support 
their democratic processes. They are going to have new 
elections, and to stand for those elections to take place in 
the way that we would expect elections to take place in any 
democracy will be very important.
    But I think the history of the last few years has been of a 
good relationship with Turkey, probably stronger support, for 
instance, for Turkey--from Turkey for the new democracy in Iraq 
than one might have expected, given the history of Turkey in 
Iraq. Good support for policies in Afghanistan. And, of course, 
they're a strong NATO member.
    But, again, I would just note that the last few years have 
actually not been years in which one could say that Turkey was 
pulling away from its European traditions, but, I think, trying 
to move more actively toward it, which is why we've also been 
very supportive of Turkey's efforts to European Union 
accession.
    Senator Gregg. Wouldn't one of the potential consequences, 
which would be fairly dramatic and unfortunate, of leaving Iraq 
precipitously and having a breakdown in the stability, to the 
extent we can maintain it in Iraq, wouldn't it be that there 
would be a huge pressure relative to the Kurdish relationships 
with Turkey and, potentially, a very significant military 
concern there?
    Secretary Rice. Absolutely. Because Iraq sits as it does on 
the fault lines between Shi'a and Sunni, and with Kurds to the 
north, I think if you had a vacuum there, you would see that 
there--it would be pretty irresistible for Iraq's neighbors to 
try and secure their interests by meddling in Iraq's affairs.
    Now, if you have a Iraq that's able to manage its affairs, 
then I think those neighbors will be more likely to simply 
cooperate with that stable government. That was very much the 
message, Senator, when I was at Sharm el Sheikh for the 
neighbors conference, that the Iraqis need, very much, to 
pursue urgently their national reconciliation and to bring the 
various groups together, but the neighbors need to allow them 
the space in which to do that; the neighbors need to be devoted 
to helping stabilize Iraq, not destabilize it; and the 
neighbors need to have, kind of, rules of the road, which is 
really what Sharm el Sheikh was about, about they're going to 
deal with a democratic and sovereign government in Iraq. 
Because I think if we were to leave precipitously, we would 
encourage not just chaos in Iraq, but we would encourage chaos 
in the region, as well.
    Senator Gregg. On another subject, and then I'll--I know 
the Senator wants to move on--but independent of the issue of 
leadership right now, which is obviously in flux, for a variety 
of reasons, at the World Bank, do you believe the World Bank 
should be taking a different tack than what it's been taking in 
the last 20 years, that it should no longer--that it should 
restructure itself and refocus itself relative to poverty and 
alleviating poverty and addressing nations and--how it 
prioritizes nations, and how it prioritizes regions that it 
focuses on?
    Secretary Rice. Well, we've had a very good working 
relationship with the World Bank, under the leadership of Paul 
Wolfowitz, and, before that, under the leadership of Jim 
Wolfensohn. I do think that the World Bank has been--has had an 
important anticorruption agenda. That's extremely important. I, 
myself, think that there needs to be discussion about how the 
World Bank's assets can best support what is a very changing--a 
changing profile of assistance to the developing world, where, 
for instance, we are learning that, in parts of the world, the 
biggest problem may be infrastructure development, issues like 
roads or electricity, and looking at that.
    I think, also, for the World Bank, the fact that there are 
a number of countries that have graduated should be considered 
to be a very good thing, and to perhaps look, as has been the 
case when we've looked at debt relief, to what we can do for 
the poorest of countries that are not capable of dealing with 
debt--that often was brought to them by dictators or bad 
regimes--than leaving young democratic regimes with 
overwhelming debt. So, for instance, we had a joint donors 
conference for Liberia, just a little while ago, in which 
their--first and foremost, their biggest concern is to get debt 
relief.
    So, I think there is an agenda out there for the World 
Bank, but, frankly, we are, in a sense, the World Bank, as 
well, since we're all members of the board and contributors, 
and it is a discussion that needs to go on, and needs to be, I 
think, accelerated among all of the big international financial 
institutions, because the landscape for development is 
changing.
    Senator Gregg. Well, I just think we need to put some 
pressure on them to reduce their overhead and to actually get 
the money to where the rubber hit the road, as versus have it 
used up in the people between the road and the rubber.
    Thank you, Mr. Chairman.
    Senator Leahy. Thank you.
    I will submit questions. But, you know, the Republican 
leader, Senator McConnell, and I have joined together for years 
on an amendment conditioning a portion of our aid to Serbia in 
its cooperation with the War Crimes Tribunal at the Hague, 
especially to transfer Ratko Mladic and Radovan Karadzic. The 
Serb army helped protect Mladic. He remains at large. They say 
that Karadzic is not in Serbia, but suggest he--they know where 
he is. I hope we'll continue to make clear to them that the 
United States will oppose their entry into NATO and other 
regional economic and security organizations until we find out 
what's going on. I'm going to ask you questions.
    I'll submit questions about Cuba, which is listed as a 
state sponsor of terrorism. Your report said they did attempt 
to track, block, or seize terrorist assets, and I want to know 
what evidence we do have of terrorist assets actually being 
there. They did not undertake counterterrorism efforts. I would 
hope that is not the criteria, by itself, to make somebody a 
state sponsor of terrorism because they don't undertake 
counterterrorist activities. We have an awful lot of friendly 
nations that don't even have the ability to do that, would be 
on the list otherwise.
    Then, your report says they continue to provide safe haven 
for members of Colombian rebel groups, but the Colombian 
Government says they've been a facilitator in talks between 
these groups and the Colombian Government. I just want to know 
which it is.
    I have questions on aid to Russia, because of a whole host 
of problems there that we don't have to go into.
    I've got a Middle East question about both the wall and the 
property held by Israeli settlements, and whether that's theirs 
or Palestinians'.
    Peacekeeping force in Darfur--as you can see, quite a few 
things. But I would hope you'll ask your staff to get back to 
us as quickly as possible on those questions.
    Secretary Rice. Of course, Senator, I will.
    Senator Leahy. Thank you.
    Madam Secretary, thank you very much. I suspect you and I 
will be on the phone a lot in the coming weeks.
    Secretary Rice. Anytime, Senator. I look forward to your 
call.
    Senator Leahy. Thank you.
    Secretary Rice. Thank you very much.

                    ADDITIONAL SUBMITTED STATEMENTS

    Senator Leahy. We have received statements from the 
Alliance for International Educational and Cultural Exchange 
and the United States Conference of Catholic Bishops and 
Catholic Relief Services that will be made a part of the record 
at this time.
    [The statements follow:]

 Prepared Statement of the Alliance for International Educational and 
   Cultural Exchange and the Association for International Practical 
                            Training (AIPT)

    As Chair of the Board of the Alliance for International Educational 
and Cultural Exchange, I appreciate the opportunity to submit testimony 
in strong support of the budget request of $486.4 million for the 
educational and cultural exchange programs administered by the 
Department of State's Bureau of Educational and Cultural Affairs (ECA) 
in fiscal year 2008. If additional funds are available, the Alliance 
urges an increase in the investment in State Department exchange 
programs to $500 million to further strengthen U.S. public diplomacy.
    The Alliance comprises 78 nongovernmental organizations, with 
nearly 8,000 staff and 1.25 million volunteers throughout the United 
States. Through its members, the Alliance supports the international 
interests of 3,300 American institutions of higher education. The 
Alliance is the leading policy voice of the U.S. exchange community. We 
look forward to continuing our productive working relationship with the 
subcommittee, and appreciate the opportunity to offer this testimony.
    U.S. ambassadors consistently rank exchange programs among the most 
useful catalysts for long-term political change and mutual 
understanding, and as our experiences since September 11, 2001, 
demonstrate clearly, we need public diplomacy and exchanges more now 
than ever. Poll after poll continues to indicate rising anti-
Americanism, even in nations we count among our closest allies. We must 
work to build trust and understanding for our people and our policy 
goals not just in the Muslim world--an effort that is of critical 
importance--but around the globe. To defeat terrorism and address other 
critical global issues, we will need the help of our friends and allies 
in every region of the world.
    The Alliance therefore urges the subcommittee to fund the 
Department of State's exchange budget at $486.4 million in fiscal year 
2008. If additional funds are available, we urge you to increase the 
allocation to $500 million in order to deepen the public diplomacy 
impact of these important programs and to sustain and strengthen the 
Department's core exchange programs worldwide while continuing to 
develop new and innovative proposals. A $500 million level of spending 
will allow robust funding for targeted, meaningful growth in every 
region of the world for the State Department's core exchange programs, 
provide additional resources for Islamic exchange, sustain funding for 
Eurasia and Eastern Europe, fund the administration's request for a new 
initiative for Latin America, and encourage the development of new and 
innovative programs worldwide, including the National Security Language 
Initiative (NSLI).

                         CORE EXCHANGE PROGRAMS

    The following data define the context for increased exchange 
program funding:
  --A recent BBC poll shows that just 29 percent of those polled in 25 
        countries feel the United States exerts a mainly positive 
        influence on the world, compared with 40 per cent 2 years ago. 
        We clearly are losing ground in world public opinion. Exchanges 
        are a proven--means to change that impression. (*BBC World 
        Service poll of 26,000 people in 25 countries--mostly non-Arab)
  --A Congressional Research Service review of 29 reports on public 
        diplomacy revealed that the most common recommendation of these 
        reports was to increase exchange funding.
  --State Department evaluations repeatedly show that foreign exchange 
        participants complete their programs in the United States with 
        enhanced positive impressions of the United States, its people, 
        and its values.
    The administration has requested $486.4 million in exchange program 
funding for fiscal year 2008. The Alliance urges the subcommittee to 
support the request, and if possible, to increase it to $500 million. A 
funding level of $500 million will allow for meaningful growth in the 
Department of State's time-tested exchange programs that remain at the 
core of our efforts to build mutual understanding and respect between 
the United States and critical nations around the world. These well-
established programs--Fulbright and other academic programs, 
International Visitor Leadership, and citizen exchanges--continue to 
demonstrate their relevance and effectiveness in a rapidly evolving 
world.
    The Fulbright Program has unique value in deepening mutual 
understanding between the United States and 150 countries. Visiting 
Fulbright students report the program's deep impact: 99 percent say the 
program increased their knowledge and understanding of the United 
States and its culture; 96 percent shared their Fulbright experiences 
in their home country through media or community activities; 89 percent 
report that their Fulbright experiences allowed them to assume 
leadership roles after their programs. U.S. Fulbright students strongly 
agree (97 percent) that the program strengthens bilateral 
relationships, and deepened their understanding of their host country 
(100 percent). By several indices, American Fulbright students say the 
program enhanced their leadership skills. Upon returning, U.S. 
Fulbright scholars make their campuses and communities more 
international: 73 percent have incorporated aspects of their Fulbright 
experience into courses and teaching methods. Visiting Fulbright 
scholars are also likely to incorporate their experiences in America 
into their professional lives at home: nearly two-thirds of those 
surveyed said that they ``broadened the international aspects of their 
teaching and research in general'' and ``became . . . a resource for 
their colleagues with regard to knowledge and skills learned.''
    Approximately 279,500 United States and foreign nationals have 
participated in the Fulbright Program since its inception over 50 years 
ago. The Fulbright Program awards approximately 8,000 new grants 
annually. In 2007, over 6,000 U.S. students and young professionals 
applied for 1,400 available Fulbright grants, demonstrating the desire 
of U.S. citizens to be internationally engaged. One hundred and fifty 
students will receive on-the-ground training in critical languages in 
advance of their research grants. Of over 2,000 incoming foreign 
students from 135 countries, 300 are teaching their native languages at 
U.S. colleges and universities. Other recent program changes include: 
the cutting-edge research conducted by New Century Scholars, which 
provides deep focus on a single global problem by leading scholars from 
around the world; global expansion of the Fulbright Language Teaching 
Assistants for U.S. Students; and enrichment programs throughout the 
United States exposing students from abroad to local communities 
throughout the United States.
    Other critical academic exchange programs include the Humphrey 
Fellowships Program, which provides powerful academic and professional 
training experiences for professionals in the developing world; 
Overseas Educational Advising, through which prospective foreign 
students receive reliable information about American higher education 
and professional assistance in the application process; the Gilman 
International Scholarship Program, which enables American students with 
financial need to study abroad; and English teaching and U.S. Studies 
programs, designed to enhance understanding of American society and 
values.
    The International Visitor Leadership (IVLP) program continues to be 
ranked by many U.S. ambassadors as their most effective program tool. 
This results-oriented program allows our embassies to address directly 
their highest priority objectives by bringing emerging foreign leaders 
to the United States for intensive, short-term visits with their 
professional counterparts. The program also exposes visitors to 
American society and values in homes and other informal settings.
    Thirty-three current heads of government and chiefs of state are 
alumni of the IVLP, including Prime Minister Tony Blair of the United 
Kingdom, President Hamid Karzai of Afghanistan, and Prime Minister Ehud 
Olmert of Israel. Georgian President Mikheil Saakashvili is an alumnus 
of the IVLP and Muskie programs, and many of his cabinet members either 
attended a university in the United States or participated in exchange 
programs. Saakashvili and his colleagues were among the leaders of the 
peaceful ``Rose Revolution'' in 2003 and Georgia's subsequent 
transition to democracy.
    According to State Department evaluations, IVLP alumni returned to 
their home countries with positive feelings about democratic values, 
overwhelmingly agreeing with the following statements: citizens should 
have equal rights (99 percent); rule of law is fundamental to democracy 
(99 percent); free and fair elections are cornerstones of democracy (98 
percent); individuals and organizations have the right to free speech 
(97 percent); and independent media are important (95 percent).
    Citizen exchanges continue to engage American citizens across the 
U.S. in productive international activities. In addition, these 
programs leverage their relatively modest federal dollars into 
significantly more funding through the participation of local 
communities, schools, businesses, and nongovernmental organizations. 
Increased funding for citizen exchanges would permit an expansion of 
these highly cost-effective activities, particularly in the critical 
area of capacity building in communities across the United States There 
is no doubt that the United States needs more ``citizen diplomats.''

                           REGIONAL PROGRAMS

    The Alliance strongly supports growth in exchanges world-wide. Both 
public opinion polling and the global nature of most current issues--
e.g., terrorism, the environment, public health--demand that we 
strengthen our public diplomacy in all world regions. In this brief 
testimony, however, we wish to draw attention to three particularly 
critical areas.
    While the need for exchanges is worldwide, increased engagement 
with the Islamic world is particularly critical as we seek to enhance 
our national security and build understanding, trust, and a sense of 
shared interests between the people of the Islamic world and the 
American people.
    The State Department has created a continuum of programs to reach 
out to Muslim participants, particularly diverse and underrepresented 
populations. The Department has instituted a very successful program of 
micro-scholarships to stimulate in-country English study by teenagers. 
In addition, the Youth Exchange and Study Program (YES), also known as 
the Cultural Bridges Program, brings high school students from the 
Islamic world to live with American families and attend American 
schools for an academic year. For the 2006-07 academic year, the 
program includes nearly 675 students from 25 countries, the West Bank 
and Gaza. We urge funding of $25 million for YES, which would allow the 
program to reach its long-term goal of 1,000 students.
    The Department has devised a variety of undergraduate exchanges 
including summer institutes, community college programs, and semester 
and year-long programs at four-year institutions, and expanded the 
Humphrey fellowships for the Muslim world. Under the National Security 
Language Initiative (NSLI), the Department has used summer institutes 
and existing programs such as Fulbright and Gilman to increase U.S. 
capacity in Arabic, Farsi, and Indic languages. The International 
Visitor Leadership Program has targeted ``key influencers'' in 
predominantly Muslim nations, bringing hundreds of clerics, 
journalists, and women and student leaders to the United States for 
programs emphasizing tolerance, interfaith dialogue, and diversity. 
These programs have had remarkable and consistent impact, and U.S. 
embassies would welcome many more if funding were available.
    We strongly support the Administration's initiative to focus 
additional exchanges on Latin America. The Bureau of Educational and 
Cultural Affairs (ECA) intends to apply its continuum approach to Latin 
America to reach out effectively to non-elite groups in this very 
important region. Program elements would include micro-scholarships for 
English language study, summer institutes for student leaders, an 
expanded Youth Ambassadors program, ``supplementary scholarships'' 
covering incidental and travel expenses to allow talented but needy 
students to accept financial aid offered by U.S. colleges and 
universities, and scholarships to attend U.S. community colleges.
    In addition, the Alliance supports continued funding for exchanges 
with the countries of Eurasia and Eastern Europe at no less than the 
fiscal year 2007 levels. Funding in this area of the world has 
dramatically declined in the last several years even as on-going 
transition and challenges to democratic change grab international 
headlines. The cuts for these programs have resulted in reductions of 
more than 50 per cent for some programs and the elimination of others.
    Exchange programs have provided sustained opportunities to expose 
future leaders to American civil society and values, and to foster 
personal and professional relationships between Americans and citizens 
of the region. We must continue to employ exchanges to engage with a 
broad range of future leaders in these critical nations. Elections in 
recent years in Ukraine and Georgia are a testament to the need to keep 
active programs in this region. The peaceful government transition in 
Georgia demonstrates the ongoing value of vibrant exchange programs in 
this region. As political change continues to occur, the Alliance urges 
sustained U.S. engagement throughout the region.
    Beyond the appropriations process, we wish to recognize and commend 
ECA for the creation of a new internship category within the Exchange 
Visitor Program. The opportunity for internships with U.S. companies, 
universities, and organizations will likely prove very attractive 
around the world, and will bring many students to the United States for 
substantive experiences at virtually no cost to the taxpayer. The State 
Department developed this creative regulatory package, now pending 
approval at OMB, in close consultation with the exchange community and 
private sector, and we believe the Department is to be commended for 
this initiative, which will enhance our public diplomacy with a new 
generation of leaders around the world.
    Thank you again for this opportunity to voice the Alliance's 
support for a robust appropriation for the educational and cultural 
exchange programs administered by the Department of State's Bureau of 
Educational and Cultural Affairs in fiscal year 2008. We look forward 
to working with the Subcommittee throughout the year ahead to ensure 
that the United States continues to vigorously support the traditional 
exchange programs that have proven their success for the past 50 years, 
while also developing new and innovative programs.
                                 ______
                                 
Prepared Statement of the United States Conference of Catholic Bishops 
                      and Catholic Relief Services

    The United States Conference of Catholic Bishops (USCCB) and 
Catholic Relief Services (CRS), the relief and development agency of 
the U.S. Catholic Bishops, thank the Subcommittee for the opportunity 
to present testimony on the fiscal year 2008 International Affairs 
appropriations process.
    Our Nation's commitment to foreign aid is particularly important at 
this time when our country's global role is a focus of intense 
discussion. We appreciate this opportunity to share the values 
contained within the Church's social teaching that underline our 
nation's moral responsibility to those in need around the world. In 
addition, our perspective is informed by the practical experience of 
the relief and development work of CRS in 99 countries throughout the 
world.

                          SPECIFIC PRIORITIES

    Our specific priorities for international affairs appropriations in 
fiscal year 2008 seek to uphold human life and human dignity, support 
the development of poor nations, foster peace and improve our national 
and global security. They include:
  --$3 billion for the Millennium Challenge Corporation (MCC);
  --$2 billion for Title II Food Aid;
  --$5.78 billion (including funding from Health and Human Services 
        appropriations) for morally and culturally responsible programs 
        to combat HIV/AIDS, malaria and tuberculosis, with particular 
        attention to Africa;
  --substantial funding for humanitarian needs in Iraq, in addition to 
        $2.1 billion for reconstruction;
  --$1.1 billion for reconstruction needs in Afghanistan;
  --priority funding for economic and social development in post-
        conflict countries transitioning towards better governance, 
        including: Haiti, Liberia, the Democratic Republic of Congo 
        (DRC), Sierra Leone (with substantial portions of the funding 
        channeled through proven partners in the NGO community), as 
        well as for continued implementation of the Comprehensive Peace 
        Agreement in Southern Sudan;
  --full funding for contributions to U.N. peacekeeping activities, 
        especially in Sudan, Lebanon, the DRC and Haiti;
  --an increased proportion of U.S. aid dedicated to social and 
        alternative agricultural development and to victim assistance 
        in Colombia, and strict human rights conditions on all U.S. 
        military aid to Colombia and the Philippines;
  --increased funding for the Migration and Refugee Assistance (MRA) 
        and Emergency Refugee and Migration Assistance (ERMA) accounts 
        to bring total funding to $1.135 billion and $90 million 
        respectively to meet the needs of an ever-increasing global 
        refugee population;
  --$1.06 billion for the International Development Association (IDA) 
        for debt cancellation and poverty reduction programs in the 
        world's poorest countries; and
  --at least $207 million for debt relief primarily for the DRC and 
        Liberia whose huge debt burdens create a major obstacle to the 
        efforts of their new democratically-elected governments to 
        restart economies ravaged by war.
    Mexico City Policy.--We reiterate our strong support for retaining 
the Mexico City policy, which prevents our foreign aid program from 
being misused to subsidize organizations that perform or promote 
abortions in developing nations. The Kemp-Kasten provision preventing 
the support of organizations involved in coercive population programs 
should also be retained. Under this provision, funding is denied to any 
organization determined by the President to be supporting or 
participating in the management of a program of coercive abortion or 
involuntary sterilization. To ensure that the President is free to make 
this determination the subcommittee should not earmark funds to the 
United Nations Population Fund (UNFPA), whose support for the coercive 
program in the People's Republic of China has rendered it ineligible 
for U.S. funds in recent years.

                   FOREIGN AID: OUR MORAL IMPERATIVE

    Solidarity with those in need expresses a common hope for a stable 
and peaceful world. Despite the effectiveness of many U.S. foreign aid 
programs, much more needs to be done to respond to this challenge. 
Before us there is an opportunity to use our nation's wealth and 
resources to uplift human life and dignity around the globe and to work 
for the common good.
    In this year's address to the Diplomatic Corps accredited to the 
Holy See, Pope Benedict XVI specifically focused on the level of 
international aid committed by the richer nations. He said, 
``[I]nitiatives have been undertaken to which the Holy See has not 
failed to pledge its support, at the same time reiterating that these 
projects must not supplant the commitment of developed countries to 
devote 0.7 percent of their gross domestic product to international 
aid.'' \1\
---------------------------------------------------------------------------
    \1\ Address of His Holiness Pope Benedict XVI to the Diplomatic 
Corps Accredited to the Holy See for the Traditional Exchange of New 
Year Greetings, January 8, 2007.
---------------------------------------------------------------------------
    Achieving authentic human development requires that the basic human 
needs of all are met; that social, cultural, economic and political 
rights are protected; and that all peoples participate in shaping their 
own future. Meeting these moral obligations will help our nation build 
a safer and more secure world. As the late beloved Pope John Paul II 
said: ``Development ultimately becomes a question of peace, because it 
helps to achieve what is good for others and for the human community as 
a whole.'' \2\
---------------------------------------------------------------------------
    \2\ Pope John Paul II, Development and Peace, January 1, 1987.
---------------------------------------------------------------------------
    Development is not just an aspiration but a right common to all 
people. It corresponds, then, to a duty imposed upon all of us, as 
peoples and nations, to collaborate in development, and in this, it is 
the responsibility of those who are stronger and richer to seek out, 
assist and empower those who are less so.
    This teaching informs the work of two agencies of the United States 
bishops: Migration and Refugee Services (MRS) and Catholic Relief 
Services (CRS). MRS works to address the needs of those who flee terror 
in their homeland and seek international protection, and helps settle 
one-quarter of the refugees who enter the United States each year. CRS 
works in 99 countries throughout the world, including more than 30 in 
Africa, and provides programs to address HIV/AIDS, health, education, 
building civil society, food security, agriculture, emergency relief 
and peace building. With 60 years of development experience, CRS knows 
firsthand both the tremendous needs and also the great potential of 
millions who live in poverty. CRS knows from experience how effective 
development programs can bring very real hope for prosperity and peace.
    With a greater awareness that our well-being as Americans is 
intrinsically linked to the well-being of those who live far from our 
shores, foreign aid is increasingly seen by many as capable of lifting 
up the weak and empowering people to realize their own dignity and 
destiny at the same time that it improves global security and peace.

           FOREIGN AID REFORM AND TRANSFORMATIONAL DIPLOMACY

    USCCB and CRS have repeatedly focused on the importance of the 
effectiveness of foreign aid programming with the Committee. We welcome 
efforts to promote coherence in foreign assistance through a country-
driven process that addresses duplication, complex delivery and 
procurement procedures and other inefficiencies. We acknowledge the 
relationship of development programs to broader strategic objectives, 
and have been monitoring the reform process closely since Secretary 
Rice's articulation of the doctrine of transformational diplomacy in 
January 2006. However, we have always maintained that the interests of 
poor and vulnerable people lie at the foundation of all foreign aid. We 
welcomed, therefore, the modified Framework for U.S. Foreign Assistance 
Programs that now includes the goal of ``reducing widespread poverty.''

Country-Focused, Objective-Based Framework: An Important First Step 
        Forward
    Now that poverty reduction has become an explicit goal of foreign 
aid, we look forward to programs that give priority to the needs of the 
poor and vulnerable even for countries with limited relationships with, 
or little strategic importance to, the United States. The adoption of a 
country-focused approach and framing aid programs in terms of specific 
objectives are welcome improvements. We hope that the categorization of 
countries in the Foreign Aid Framework will help identify more clearly 
the specific challenges to progress in reducing poverty, promoting 
human development and building security in troubled parts of our world. 
We thus believe the new assistance framework represents an important 
first step in foreign aid reform, a step we hope will be followed by 
broader and deeper reforms.

Concentration of Bilateral Aid in Too Few Countries
    We note that 40 percent of the entire bilateral aid program is 
concentrated in six countries important to U.S. strategic interests 
related to either the ``War on Terrorism'' or the ``War on Drugs.'' 
Only two of the six (Afghanistan and Pakistan) are classified by the 
World Bank as low income. While we strongly support reconstruction and 
peace-building in Iraq and Afghanistan, we believe that a greater share 
of foreign aid should be assigned particularly to the very poor among 
the more than 150 other developing countries. If U.S. strategic 
interests will continue to require a major injection of foreign aid 
resources into the six priority countries, and if poverty reduction is 
in fact to be a fundamental objective of U.S. foreign aid, this 
inevitably means that the overall foreign aid budget must be 
substantially increased.

Avoid Trade Offs in Funding
    With regard to the composition of country programs, we are pleased 
that there has been a substantial increase over fiscal year 2006 levels 
for activities related to the long-term development objectives:
    Governing Justly and Democratically, Investing in People and 
Economic Growth. At the same time we note that this increase is 
attributable almost entirely to increases in funding for combating HIV/
AIDS and other infectious diseases and for the Millennium Challenge 
Corporation. We support robust funding for these important initiatives, 
but we believe that a country-focused approach would require 
complementing HIV/AIDS funding with resources for other sectors. While 
HIV/AIDS funding for Africa, for example, is being increased, funding 
for basic education, safe water and economic growth on the continent 
actually decline from fiscal year 2006 levels.
    We support full funding of the Administration's request for $3 
billion for the MCC. Any reduction in funding would undermine the MCC 
as channel of support for well-governed countries through multi-year 
funding. Disruption in this program through insufficient funding would 
pose serious setbacks for countries that have worked hard to prepare 
eligibility, in many cases by enacting difficult policy reforms. The 
United States must continue to plays its part.
    At the same time, the MCC should not be funded at the expense of 
the large number of non-MCC low income countries with critical needs, 
including those emerging from conflict and moving towards better 
governance, such as Liberia, Haiti, the DRC and Sierra Leone. Funding 
for basic education and other sectors critical to poverty reduction 
should be increasing. At a minimum, the President's promise that MCC 
resources will be in addition to, and not in substitution for, other 
development and humanitarian funding should be kept.
Planning Cannot be Concentrated in Washington
    Finally, we are concerned by initial indications that the new 
process for determining priorities has resulted in decisions that are 
the byproduct of top-down decision making, as opposed to a truly 
country-driven process. Our counterparts at USAID missions have 
expressed frustration with the lack of meaningful participation in the 
planning process. We understand the abbreviated timeline involved this 
year, and the tremendous work done to coordinate this new process; but 
the decision to base program and budget decisions almost entirely on 
strategic priorities crafted at Headquarters risks failing to 
incorporate the rich expertise and experience developed in the field.
    A related concern is the absence of a clearly defined role for 
civil society. Adopting a country-needs focus highlights the need to 
take into account the experience and insight of local organizations 
closest to the reality that foreign aid is intended to impact. While 
the host government has the central role in designing and implementing 
a country's development policies and programs, close collaboration is 
needed also with civil society organizations, especially those who work 
on a daily basis with the poor and marginalized and are thus in a 
unique position to give voice to the needs of the weakest members of 
society. CRS, through its network of partners in 99 countries, has the 
ability, through direct relationships with target beneficiaries, to 
provide USAID missions with information about the needs of the people 
most directly affected.
    Experience both in Washington and in the field reveals an often 
deficient process of consultation. In the absence of close 
collaboration with civil society and governments in both planning and 
implementing foreign assistance programs, aid programs will fail to 
reach their goal of reducing widespread poverty. We urge you to ensure 
that robust consultation--especially with civil society--be not only 
mandated for foreign assistance programming, but meaningfully 
undertaken by U.S. Government agencies involved in the entire process.
                                 ______
                                 
   Prepared Statement of Hon. Douglas Bereuter, President, The Asia 
                               Foundation

    Mr. Chairman & Members of the Subcommittee: I will begin my 
testimony as President of the Asia Foundation, with a personal 
perspective which I thought the Members and staff may find interesting 
since I served 26 years in the U.S. House, 20 years on the Foreign 
Affairs Committee, led the Asia Pacific Subcommittee for 6 years, and 
also chaired the ``International Institutions'' Subcommittee of the 
Financial Services Committee. For fiscal year 2008, the Asia Foundation 
is requesting $18 million.
    When I announced I would not seek re-election to the 109th Congress 
I was unaware that the position of the presidency of The Asia 
Foundation would open, but I had long admired the work of the 
Foundation. In fact, I told my wife years earlier it was one of only 
two positions that would interest me after Congress. What I have found 
in my 2.5 years at the helm of the Foundation is what I hoped and 
expected to find: there is a strong commitment to Asian development and 
a pervasive sense of altruism among the Foundation's experienced and 
highly professional staff. Its long-term, on-the-ground presence 
through 17 Asian field offices and its work with and through literally 
hundreds of established and emerging Asian partner organizations make 
it highly knowledgeable, effective, and trusted by Asians. This 
experience base, coupled with a staff of more than 80 percent Asian 
nationals who have a sensitivity and understanding of the local 
context, makes us different from nearly all other nongovernmental 
development organizations. We do not bring in our development staff for 
work on a short-term basis and then leave. We are there for the long 
term and we are committed to building and sustaining the kinds of 
institutions and practices that enable Asians to replicate these 
successes and thereby help themselves after a funded project ends. In 
short, The Asia Foundation is the premier development organization 
focusing on Asia.
    Of perhaps particular interest to the Congress today is the fact we 
have been working with Muslims and Islamic civil and higher education 
organizations for more than 35 years. Generations of Asians know us 
from our education grants and exchange programs and through the more 
than 40 million English-language books we have provided in more than 20 
countries (920,000 last year alone). The result is that Asians respect, 
trust, and like the Foundation at a time when much of what they hear 
and think about our country is not very positive. In short, The Asia 
Foundation has an unmatched credibility. It is an irreplaceable 
American and international asset.
    My research has shown me that seven significant American task 
forces, commissions and blue-ribbon committees made policy 
recommendations to our country for the post-9/11 world. All recommended 
an accelerated and more effective public diplomacy program, especially 
for the Islamic world. All but one specifically suggested that the 
expertise of nongovernmental organizations and the private sector must 
be enlisted, suggesting explicitly or implying that effective public 
diplomacy was too important and nuanced to be the exclusive domain of 
the U.S. Government. Members of the subcommittee, much of what The Asia 
Foundation does properly may be categorized as public diplomacy. We 
don't advocate U.S. foreign policy; however, while pursuing effective 
development programs, our work and staff remind Asians of what they 
have liked most about America and Americans--that we are an innovative, 
opportunity-oriented country and people, with a respect for the rule of 
law, the freedom of expression, and an openness and expectation for 
citizen participation in a democratic society.
    It is instructive to review the Foundation's appropriations 
history. Although the Foundation has been in operation since 1954, The 
Asia Foundation Act, which was passed in 1983, provides for an annual 
appropriation from the Congress. That Act acknowledged the importance 
of stable funding for the Foundation and endorsed its ongoing value and 
contributions to U.S. interests in Asia. For a decade until 1995, the 
Foundation's annual appropriation was at least $15 million. In fiscal 
year 1996, during the government shutdown year, despite broad 
bipartisan support commending its work, the Foundation's appropriation 
was cut by two-thirds, to $5 million. The Foundation painfully was 
forced to sharply cut back its programs, but struggled to maintain 
nearly all of its most important asset, its field operation structure. 
Since that low point, the Committee, in support of the organization's 
mission, has gradually expanded funding for the Foundation to its 
current level of nearly $14 million. Past committee report language has 
commended our grant-making role in Asia, and the Foundation, at the 
Committee's encouragement, has expanded its programs in predominantly 
Muslim countries, including Afghanistan, Indonesia, and Pakistan. 
However, the Foundation has remained at a funding level below that of 
10 years ago, despite its important contributions in support of 
democracy and reform in Asia, the escalating costs of maintaining 
overseas offices, the impact of inflation, the less favorable currency 
exchange rates, and growing needs in the region.
    Despite a very positive attitude about the Foundation in the State 
Department, USAID, and especially among those U.S. ambassadors with 
deep Asian experience who often turn to our country representatives for 
information and advice, past and present administrations consistently 
have used previous year requests as the baseline for future requests, 
rather than the previous year Congressional appropriations. This has 
resulted in a low appropriation recommendation in the past and again 
for fiscal year 2008. We don't have nearly the U.S. funding base we 
once had--in either relative or absolute dollar terms. We have the 
experience, expertise, and office/staffing base to do so much more of 
great value to the United States and those Asians who need our help; we 
only need the resources to restore some of the funding base we once 
had. Our development counterparts in multilateral development 
organizations express their amazement at what we accomplish with what 
they regard as a paltry funding base. Therefore, I respectfully urge 
the Committee to sustain and increase its support for the vital work 
the Foundation is engaged in on behalf of the U.S. interests in this 
complex region. The Asia Foundation is requesting a modest increase 
back to an earlier appropriations level of $18 million.
    In making this request, we are very cognizant of the fiscal year 
2008 budgetary pressures on the Committee. However, an increase would 
enable The Asia Foundation to strengthen program investments it has 
begun in recent years with Congressional encouragement, notably in the 
areas of protecting women and children against trafficking; promoting 
women's rights; building democracy and critical government capacity in 
Afghanistan and East Timor; increasing tolerance in predominantly 
Muslim nations like Indonesia, Bangladesh and Pakistan; securing human 
rights in Cambodia, Sri Lanka, and Nepal; and strengthening good 
governance and civil society throughout Asia.

                           REGIONAL OVERVIEW

    The United States and Asia face new challenges and pressing needs, 
complicated by the war on terrorism and fragile democracies. More than 
ever, we must support political stability and economic reform, and give 
attention to countries where recent events have exacerbated bilateral 
relations, specifically in the new democracies of Asia and in countries 
with predominantly Muslim populations. Challenges to governance in 
Thailand, the Philippines, Mongolia, Indonesia, and Sri Lanka require 
different approaches than in countries struggling to achieve democracy, 
peace and stability, such as Afghanistan, Pakistan, Nepal and East 
Timor. Potential ties to regional terrorist networks threaten regional 
stability. Human rights abuses continue with impunity in parts of Asia. 
Even though women have made gains in many places, such as Cambodia, 
Thailand, Nepal and India, they still face economic and political 
inequities, and in the worst cases, are victims of trafficking and 
abuse.

       THE ASIA FOUNDATION'S MISSION, CAPABILITIES, AND APPROACH

    We are committed to the development of a peaceful, prosperous, 
just, and open Asia-Pacific region. Our core capabilities and primary 
program concentrations are central to U.S. interests in the region. 
They are as follows:
  --Democracy, human rights and the rule of law.--Strengthening 
        democratic and civil society institutions; encouraging an 
        active, informed and responsible nongovernmental sector; 
        advancing the rule of law; and building institutions to uphold 
        and protect human rights;
  --Economic Reform and Development.--Reducing barriers at the national 
        and regional level to the formation and productive functioning 
        of small business and entrepreneurship;
  --Women's Empowerment.--Encouraging women's participation in public 
        life; protecting women's rights and supporting advocacy 
        training; and prevention of trafficking and domestic violence, 
        including supportive efforts to protect and provide shelter to 
        victims;
  --Peaceful and Stable Regional Relations.--Promoting U.S.-Asian and 
        intra-Asian dialogue on security, regional economic 
        cooperation, law and human rights.
    While the Foundation does considerable development work directly 
with its own staff, the Foundation remains faithful to its primary 
focus on its grant-making role, steadily building institutions and 
strengthening Asian leadership for democratic societies. Foundation 
assistance provides training, technical assistance, and seed funding 
for new, local organizations, all aimed at promoting reform, building 
Asian capacity and strengthening U.S.-Asia relations. Foundation 
grantees can be found in every sector in Asia, leaders of government 
and industry and at the grassroots level, and in an increasingly 
diverse civil society. The Foundation is distinctive in this role, not 
only providing the technical assistance necessary, but also in 
providing grants that cover the nuts and bolts necessities to support 
that capacity-building effort. Urgent political and security needs in 
Asia have increased the need for experienced and credible American 
actors in the region. The Asia Foundation is a well recognized American 
organization, but its programs are grounded in Asia, helping to solve 
local problems in cooperation with Asian partners.

                                PROGRAMS

    The Asia Foundation makes over 800 grants per year, and facilitates 
programs, provides technical assistance and leverages funding from 
public and private donors, to increase program impact and 
sustainability. With additional funding in fiscal year 2008, the 
Foundation's expanded activities include:
    Legal Reform.--In Afghanistan technical assistance on policy and 
management operations for the Office of Administrative Affairs of the 
President, Council of Ministers Secretariat and Ministry of 
Parliamentary Liaison, Independent Election Commission, in East Timor 
access to justice programs and public consultation in lawmaking; in 
China legal aid services and worker rights education for migrant women 
workers; in Indonesia reform of the Supreme Court including civil 
society input into the reform process; in Nepal, supporting the new 
constituent assembly process, legal analysis of constitutional issues 
engaging citizens' groups, civic and voter education, and mediation 
programs in rural areas.
    Human Rights, Conflict and Islam.--In Cambodia, Sri Lanka and the 
Philippines, human rights monitoring, and documentation through new 
information technology networking; in Indonesia, the International 
Center for Islam and Pluralism (ICIP) a unique regional center in 
Jakarta for progressive Muslim scholarship, exchange, start-up 
activities and action plans of the Thailand Center for Muslim and 
Democratic Development (TCMD), the Philippine Council for Islam and 
Democracy (PCID) and Jamaah Islah Malaysia (JIM) and International 
Islamic University (IIU) in Malaysia, to support regional Southeast 
Asian networking and strengthening democracy under Islam; education 
reform in 1,000 schools including training on pluralism, human rights 
and civic education for 160 madrassa (day schools) teachers; curriculum 
reform for 800 pesantren (boarding schools), part of the Foundation's 
education reform of 625 Islamic schools nationwide, with over 215,000 
students; and in over 70 Islamic universities, for over 120,000 
students where the Foundation has pioneered civic education on the role 
of democracy; in Bangladesh, groundbreaking training programs in 
development practices for over 4,000 imams, expanding their 
understanding of their role in national development through exposure to 
USAID programs, and advancing public diplomacy with this critical 
leadership group.
    Civil Society.--In Afghanistan, support for the Ministry of Women's 
Affairs organizational strategic planning and communications strategies 
with regional Departments of Women's Affairs across the country, girl's 
education, and civic education; in Cambodia, human rights and legal 
services; in Indonesia, promote pluralism, tolerance and moderation by 
Muslim organizations, radio programs on religion and tolerance on 
community radio stations reaching 5 million listeners a week through 
radio talk shows and education reform.
    Women's Programs.--Region wide, with particular emphasis on 
Indonesia, Cambodia, Thailand, Vietnam and Mongolia, anti-trafficking 
program including prevention, services for victims, legal drafting and 
advocacy to support increased prosecutions; technical assistance and 
grants for services and advocacy for women victims of domestic 
violence; in Afghanistan, India, Pakistan, Bangladesh, Sri Lanka, 
Indonesia, Nepal, Thailand, and Malaysia projects to advance women's 
rights within Islam through analysis, public education and outreach; in 
Afghanistan donation of 10,000 books to the Ministry of Women's 
Affairs; in Cambodia and Afghanistan, support for scholarships for 
girls' education.
    Economic Reform.--In Indonesia, Vietnam, Nepal, Bangladesh, small 
and medium enterprise policy reform; in Indonesia and Vietnam pioneered 
economic performance rating tools for local governments; in Korea, 
Japan, China, Thailand and the Philippines, corporate governance reform 
and e-government efforts to counter corruption.
    International Relations.--In China, Vietnam and India, scholarships 
for young Ministry of Foreign Affairs leaders, exchange and study 
programs for Southeast Asian and American young leaders, and support 
for programs on cross-straits relations and Council for Security 
Cooperation in the Asia Pacific (CSCAP).
    A full listing of programs may be found on our website 
www.asiafoundation.org.

                               CONCLUSION

    The Asia Foundation is first and foremost a field-based, grant-
making organization, committed to maximizing program impact in Asia 
while keeping costs low, despite the growing challenge of providing 
security to field offices and protecting staff. If the Committee 
provides additional funding for Foundation programs in this fiscal 
year, we pledge to use those funds to expand programs that build 
democratic capacity, strengthen civil society, increase economic 
opportunity, protect women, and work with moderate Muslim groups as 
described above. The Foundation budget needs to grow in order to meet 
the growing challenges to American interests in the Asian region.
    Public funds are critical to our capacity to do more to advance 
American interests in Asia. The Foundation has expanded its private 
funding, but potential private donors need to be assured that the U.S. 
Government supports the Foundation's efforts, and private funds are 
always tied to specific projects. Only public funding provides the 
flexibility that allows the Foundation to maintain its field presence 
and respond quickly to new developments, as we did in supporting the 
Emergency Loya Jirga in Afghanistan, where we were the first U.S. 
organization on the ground in spring 2002.
    The increase in funding to $18 million that we seek is essential if 
the Foundation is to succeed in contributing to the development of 
stable, democratic and peaceful societies in Asia. I respectfully urge 
that the Committee sustain its support for the Asia Foundation, and 
demonstrate our shared commitment to addressing the challenges and 
opportunities in Asia today.

                   ADDITIONAL SUBCOMMITTEE QUESTIONS

    Senator Leahy. There will be some additional questions 
which will be submitted for your response in the record.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Patrick J. Leahy

    Question. The President's request significantly under-funds the 
United States assessed contribution to U.N. peacekeeping by projecting 
reduced costs for every mission except Sudan which is increased by only 
$10 million. This is completely unrealistic--in fact, some of these 
missions are not only being extended but the costs are going to 
increase.
    When this shortfall is added to approximately $50 million in fiscal 
year 2007 arrears, the United States could have a shortfall of at least 
$430 million owed to the United Nations. That is if the United States 
and the United Nations decide not to create any new missions in places 
that need assistance, like Somalia, Chad and the Central African 
Republic. The shortfall in fiscal year 2008 could grow to $850 million 
if this happens.
    The total fiscal year 2008 request for peacekeeping is $1.1 
billion, a decrease of $28 million from fiscal year 2007. This is 
likely to fall short of our actual 2008 dues in every mission. How did 
the Department formulate the budget request for the U.S. assessed 
contribution to U.N. peacekeeping missions? How do we avoid going 
further into arrears?
    Answer. The President's budget includes a request for $1.107 
billion for contributions to U.N. peacekeeping activities in fiscal 
year 2008. The exact requirements for U.N. peacekeeping funds for 
future years cannot be predicted, because the size and cost of U.N. 
peacekeeping missions depend on U.N. Security Council decisions based 
on conditions on the ground and U.N. General Assembly review of the 
financial implications associated with those decisions. Within the 
President's overall budget, our fiscal year 2008 request is based on 
our estimate of the requirements that take into account such relevant 
factors as uncertainties about the future size of missions, as well as 
the U.N. assessment rate and the 25 percent rate cap consistent with 
current law. The United States uses regular reviews to explore whether 
missions can be downsized or eliminated, and will continue to work with 
our partners and the United Nations to identify cost savings wherever 
possible. The request for fiscal year 2008 reflects assumptions that we 
will be able to reduce costs of many missions while maintaining the 
U.N.'s essential role in peacekeeping activities.

       U.S. ASSESSED CONTRIBUTIONS TO U.N. PEACEKEEPING MISSIONS

    Question In response to my question about U.S. assessed 
contributions to U.N. peacekeeping missions, you noted that ``the 
request for fiscal year 2008 reflects assumptions that we will be able 
to reduce costs of many missions.''
    Does the Department still believe that the budget request levels 
are realistic given the current situation in each country? Please 
provide a justification for and the assumptions underlying the proposed 
reduction in each mission?
    Answer. The fiscal year 2008 President's budget includes a request 
for $1.107 billion for contributions to U.N. peacekeeping activities. 
The exact requirements for U.N. peacekeeping funds for future years 
cannot always be predicted and the fiscal year 2008 request was our 
best estimate of the requirements. Based on the U.N. approved budget 
for existing missions for the 12 month period from July 1, 2007 through 
June 30, 2008, and preliminary estimates for the cost of the U.N.-AU 
Hybrid Mission in Darfur (UNAMID) to be assessed to member states 
during fiscal year 2008, fully funding our assessments in fiscal year 
2008 will be challenging. We are carefully reviewing these requirements 
and are having ongoing discussions with the United Nations regarding 
the Darfur costs as well as other U.N. mission costs for fiscal year 
2008.
    Question. Do you believe your fiscal year 2008 budget request 
contains sufficient funds to provide each U.S. embassy with the number 
of staff, equipment, vehicles and other resources necessary to 
effectively promote the myriad of U.S. foreign interests in each 
country?
    Answer. The fiscal year 2008 budget request, including the $230 
million in program increases requested for State Programs would provide 
the Department with the necessary resources to further our world-wide 
diplomatic efforts. These operating resources are critical in ensuring 
diplomats are properly trained and equipped--most notably with enhanced 
foreign language skills--in order to advance U.S. national security 
efforts overseas. Additionally, continued construction of secure 
buildings overseas requires Embassy Security, Construction and 
Maintenance resources which the President has requested to increase the 
near and long term security of U.S. personnel overseas.
    Question. Can you assure us that any foreign aid program 
implemented by the Department of Defense, whether humanitarian, 
reconstruction, train and equip, or other, will be subject to the prior 
concurrence of the Secretary of State?
    Answer. Under the direction of our Director of U.S. Foreign 
Assistance, and based on the President's policy priorities for foreign 
assistance as informed by consultations with the Department of Defense, 
we formulate and submit our budget for Foreign Military Financing (FMF) 
and International Military Education and Training (IMET) as part of the 
State Department's Foreign Operations budget request. Once approved by 
the Congress, this State Department funding is transferred to the 
Defense Department for actual execution.
    Select new Department of Defense authorities, coordinated closely 
with the Department of State, are an essential means of addressing 
rapidly evolving security challenges, particularly with respect to 
building the capacity of our global partners. The Secretary has 
expressed support for such select new authorities contingent upon the 
explicit preservation of her statutory role with respect to foreign 
assistance, through their exercise with the concurrence of the 
Secretary of State, and in practice through joint development 
procedures. Such new authorities should also be tailored toward the 
common goal of providing for closer integration of the administration's 
foreign assistance efforts, consistent with the Secretary's 
responsibility for the overall supervision and general direction of 
U.S. foreign assistance.
    We continue discussions with the Defense Department regarding this 
issue.
    Question. Please provide an accounting of funds appropriated for 
the Afghan Civilian Assistance Program, since its inception in 2002. 
Such an accounting should indicate the total amount obligated and 
disbursed, through which organization(s), for what types of activities. 
Please also provide your assessment of the merits of this program.
    Answer. Since 2002, funding obligations for the Afghan Civilian 
Assistance Program (ACAP) have totaled $8.6 million, of which $8.3 
million has been disbursed. In June 2007, an additional $4.5 million 
will be obligated for the program. The International Organization for 
Migration has implemented the Afghan Civilian Assistance Program since 
2002.
    Afghan Civilian Assistance Program provides direct assistance to 
Afghan civilians or their families wounded or killed either by 
Coalition/NATO forces or improvised explosive devices targeting those 
forces. The program also supports communities to rebuild public 
infrastructure damaged or destroyed by Coalition or NATO forces. 
Program activities have included infrastructure rehabilitation, 
vocational training, psycho-social care, and medical prostheses 
distribution.
    Afghan Civilian Assistance Program has been successful at providing 
rapid relief to civilian victims of war in Afghanistan. The program 
contributes to overall stabilization efforts in Afghanistan by 
redressing unintentional damage to civilian life and property, thereby 
reducing mistrust and resentment of military operations, the Afghan 
Government, and the international community.
    Question. Aside from the reduction in size of the Guatemalan Armed 
Forces, what actions have been taken to redefine the mission and reform 
the Armed Forces?
    Answer. The Guatemalan military has changed drastically since the 
days of the internal conflict. The size of the Guatemalan military has 
been reduced by two thirds since the 1996 Peace Accords and the 
military budget is under 0.38 percent of GDP, well below the level 
stipulated by the Peace Accords. The Guatemalan military abolished its 
territorial system of deployment and is now organized along functional, 
rather than geographical, lines. Many regional military bases were 
converted to civilian uses. The military developed a new military 
doctrine that eliminated internal security as a role of the military. 
The Guatemalan civil sector took part in the consultative process in 
formulating this new doctrine, as called for in the Peace Accords. The 
military's doctrine, training, and education all reflect the new limits 
on the Guatemalan military's roles to defense of sovereignty and 
territorial integrity. Military training now includes mandatory human 
rights training as an integral part of the military education system. 
During the last 10 years, there have been no credible reports of human 
rights abuses by Guatemalan military units. The Guatemalan military is 
responsive to civilian political authorities and earned significant 
international and Guatemalan public respect for its excellent work in 
support of Hurricane Stan disaster response and recovery efforts. As 
allowed under the 1996 Peace Accords,\1\ Guatemalan presidents over the 
last 10 years have deployed the military in joint patrols with the 
police in an effort to curb escalating and signficant street crime. The 
military also plays a critical role in providing air and naval support 
for counter-narcotics operations, including through participation in 
two ``Mayan Jaguar'' operations in 2006 with DOD's Joint Interagency 
Task Force South. The Guatemalan military has also earned the respect 
of the international community for its professional performance in 
peacekeeping operations in Haiti and the Democratic Republic of the 
Congo, deployments that were frequently praised at the U.N. during 
Guatemala's 2006 candidacy for a rotating UNSC seat.
---------------------------------------------------------------------------
    \1\ Article 45(a) of the Agreement on the Strengthening Civilian 
Power and Role of the Army in a Democratic Society, signed in Mexico on 
September 19, 1996.
---------------------------------------------------------------------------
    Question. Is the Embassy satisfied with the investigation and trial 
in the murder of Gilberto Soto in El Salvador? What progress has there 
been in solving this crime, and what efforts are currently underway?
    Answer. On February 17, 2006, a sentencing tribunal exonerated two 
of the three suspects in the murder of Mr. Soto. The third suspect was 
convicted and sentenced to 25 years in prison. While we believe that 
the police and prosecutors carried out a professional and thorough 
investigation, the Department did expressed disappointment at the 
decision to exonerate two of the suspects.
    The Embassy closely monitored all stages of the investigation and 
the trial itself. In addition, the Embassy established a hotline to 
collect additional information about the murder. Although the 
International Brotherhood of Teamsters offered a reward of $75,000 to 
anyone providing information that would solve the crime, no credible 
tips have been received to date. The case is still open, and the 
Embassy is willing to facilitate the participation of any witnesses who 
choose to come forward.
    Question. There are increasing concerns about the conduct of the 
Sri Lankan military. While it is fighting the Liberation Tigers of 
Tamil Eelam, an organization that has committed acts of terrorism 
against civilians, the military has also engaged in a pattern of 
violations of human rights. What amounts and what types of military 
equipment is the United States providing to Sri Lanka through the FMF 
program and through the FMS or other sales program?
    Answer. U.S. military assistance to Sri Lanka is largely focused on 
maritime activities to improve Sri Lankan armed forces capabilities to 
defend their territorial waters and interdict arms shipments to the 
Tamil Tigers, a designated Foreign Terrorist Organization. Our fiscal 
year 2007 Foreign Military Financing funding totals $890,000 and will 
be used primarily for providing equipment such as surveillance radars 
and communication linkages to the Sri Lankan armed forces. Our fiscal 
year 2007 International Military Education and Training funding totals 
$518,000 and will be used for professional military education to 
include the staff college and Non-Commissioned Officer academy, human 
rights, counter-terrorism, and maritime interdiction training. 
International Military Education and Training funding will also fund 
training to increase interoperability with U.S. forces. Foreign 
Military Financing disbursed in 2007 to date totals $310,000.
    All recipients of military assistance undergo Leahy human rights 
vetting in accordance with the provisions of the Leahy Amendment and 
the Department's policies and procedures for Leahy vetting.
    Question. In your response to this question, you noted that ``all 
recipients of military assistance undergo Leahy human rights vetting in 
accordance with provisions of the Leahy Amendment and the Department's 
policies and procedures for Leahy vetting.''
    What are the procedures for vetting Sri Lankan recipients of U.S. 
military assistance, consistent with the requirements of the Leahy 
Amendment? Which, if any, units of the Sri Lankan military have been 
credibly alleged to have committed gross violations of human rights, 
and are therefore ineligible to receive U.S. assistance?
    Answer. We look at Leahy requests on a case by case basis, using 
available information from a wide range of sources, including post 
reporting, intelligence reports, and publicly available information 
from human rights non-governmental organizations such as Human Rights 
Watch, the Asian Human Rights Commission and Amnesty International. As 
a practical matter, in the case of Sri Lanka, we normally vet 
individuals nominated for training.
    The Human Rights Officer in Embassy Colombo's political section 
takes the lead in vetting. The Consular Section, the Defense Attache, 
the Regional Security Office, and USAID also contribute to the vetting 
process. Each of these offices checks for evidence of gross human 
rights abuses by a proposed participant.
    To date in 2007, two Sri Lankan candidates were denied training. 
One was refused because there is a criminal case pending against him 
for human rights violations allegedly committed in 1997. The other was 
denied because of credible information received from a reliable source 
about his actions as the Military Intelligence Commander in Jaffna.
    We have given particularly close scrutiny to those individuals who 
have served in Jaffna or whose service records indicate they may have 
been in proximity to known, egregious human rights violations.
    Question. Why did you only request $300 million for a U.S. 
contribution to the Global Fund in fiscal year 2008, and why in the 
Labor, Health and Human Services budget which funds domestic programs, 
rather than through the State, Foreign Operations budget which funds 
contributions to international organizations?
    Answer. The Global Fund is an important part of the strategic plan 
that guides implementation of the President's Emergency Plan for AIDS 
Relief (Emergency Plan/PEPFAR). The U.S. Government (USG) share of 
total Global Fund contributions has held consistently at approximately 
30 percent. The USG initially made a 5-year pledge of $1 billion for 
the Global Fund in years 2004-2008. If the $300 million in the 
President's 2008 Budget is approved, the USG will have nearly tripled 
that commitment to the Global Fund by contributing about $2.5 billion.
    In order to provide adequate financial and human resources to 
complete the goals of PEPFAR as well as maintain U.S. leadership in the 
Global Fund, the President has spread the request for HIV/AIDS-related 
resources across the two appropriations bills (Foreign Operations and 
Labor-Health and Human Services).
    We consider this interagency approach in representing the United 
States on the Global Fund to be one of our coordination success 
stories. Through the Global Aids Coordinator, who has overall 
responsibility for ensuring that all statutory benchmarks have been met 
before any USG contribution is made, USAID, State, and HHS regularly 
meet and fully coordinate on all aspects of the Global Fund.
    The Department of Health and Human Services (HHS) was instrumental 
in the administration's efforts to establish the Global Fund and 
continues to have an active role on its Board. The National Institutes 
of Health (NIH) makes a significant contribution to global HIV/AIDS, 
TB, and Malaria activities. Requesting the USG contribution within NIH 
continues HHS' longstanding role in the advancement of the Global Fund.
    Question. How does the United States maintain leadership in the 
Global Fund, as you maintain, if we cut our contribution from $725 
million in fiscal year 2007 to $300 million in fiscal year 2008? Why 
does requesting the U.S. Government contribution within NIH, an agency 
focused on domestic health care, make more sense than within the 
Department of State, where the President's Global HIV/AIDS Initiative 
focuses on international HIV/AIDS?
    Answer. Although the United States continues to be the largest 
single source donor to the Global Fund, leadership is not determined by 
the size of contributions. The United States is one of only three 
donors to hold its own Board seat (the other two are Japan and Italy); 
the Board operates on a one seat, one vote basis. The U.S. Government's 
leadership is based on our pro-active involvement with the Fund at all 
levels, starting with chairmanship of key Board committees. Ambassador 
Mark Dybul, the U.S. Global AIDS Coordinator, currently chairs the 
Fund's Finance and Audit (FAC) Committee, while Dr. William Steiger, 
Special Assistant to the Secretary for International Affairs at the 
Department of Health and Human Services, chaired the powerful Policy 
and Strategy Committee from 2005-2007. The United States also holds 
regular committee seats on both the FAC and the PSC, and our 
representatives have served on a variety of ad hoc sub-committees, e.g. 
to identify a new Executive Director for the Fund, to shape a documents 
disclosure policy for the Office of the Inspector General, and to 
develop performance indicators to measure overall Fund progress.
    As mandated by Congress, the interagency Global Fund Core Group 
also works together with our U.S. Embassies and USAID Missions overseas 
to conduct a parallel review of new Global Fund grant applications, and 
the Global Fund Secretariat has commented more than once on the 
relevance and usefulness of insights gained during these reviews. The 
United States also conducts reviews of the Global Fund's Phase Two 
proposals, and frequently takes the lead in mobilizing Board opinion 
during this key stage in the Fund's performance-based process.
    Furthermore, the United States provides significant technical 
assistance (TA) to Global Fund grants. PEPFAR bilateral programs in 
both Focus and non-focus countries include such TA in their country 
operating budgets, in amounts ranging up to $1 million. Such TA is 
vital to the success of closely-coordinated programs in which PEPFAR 
and the Global Fund are often working together even at the site level. 
As part of this in-country coordination, U.S. Government 
representatives are well-represented on Global Fund Country 
Coordinating Mechanisms, including 59 percent of the CCMs that 
submitted round six grant proposals. U.S. country teams are also 
required to describe how they plan to coordinate with the Global Fund 
in their annual Country Operation Plans (COPs).
    Finally, the United States is authorized by Congress to use up to 5 
percent of the annual Global Fund appropriation to provide targeted, 
short-term technical assistance (TA) to Global Fund grants experiencing 
bottlenecks. Because of the success of this United States-provided TA 
in its first 2 years, the donor community is increasingly turning to 
the United States to provide leadership for global technical support 
efforts, including through the multilateral Global Implementation and 
Support Team (GIST).
    As mentioned in my previous response, in order to provide adequate 
financial and human resources to complete the goals of PEPFAR as well 
as maintain U.S. leadership in the Global Fund, the President has 
spread the request for HIV/AIDS-related resources across the two 
appropriations bills (Foreign Operations and Labor-Health and Human 
Services).
    We consider this interagency approach in representing the United 
States on the Global Fund to be one of our coordination success 
stories. Through the Global Aids Coordinator, who has overall 
responsibility for ensuring that all statutory benchmarks have been met 
before any USG contribution is made, USAID, State, and HHS regularly 
meet and fully coordinate on all aspects of the Global Fund.
    The Department of Health and Human Services (HHS) was instrumental 
in the administration's efforts to establish the Global Fund and 
continues to have an active role on its Board. The National Institutes 
of Health (NIH) makes a significant contribution to global HIV/AIDS, 
TB, and Malaria activities. Requesting the USG contribution within NIH 
continues HHS' longstanding role in the advancement of the Global Fund.
    Question. The fiscal year 2008 budget proposes to shift a 
significant amount of funding from Development Assistance to the 
Economic Support Fund. This would enable the Department to reallocate 
funds more easily, without the consent of Congress.
    Why do you need this added flexibility?
    Answer. In the fiscal year 2008 budget request, we sought to 
maximize the use of account authorities and establish clear priorities 
in support of effective implementation of foreign assistance programs. 
We, therefore, matched accounts with country circumstances and the 
priorities the county categories are designed to address.
    This means that, overall, funding for Development Assistance (DA), 
which has traditionally supported poor countries that demonstrate 
performance or a commitment to development, has been prioritized to 
Developing and Transforming countries. Economic Support Funds (ESF), 
which focus primarily on providing economic support under special 
economic, political, or security conditions, have been prioritized to 
support activities in the Rebuilding and Restrictive Country 
Categories.
    Under the Foreign Assistance Act of 1961, as amended, Congress 
established the Economic Support Fund to provide ``assistance to 
countries and organizations, on such terms and conditions as [the 
President] may determine, in order to promote economic and political 
stability.'' We are committed to working within current statutory 
authorities to use ESF and all other funds in a responsible, 
accountable manner that is consistent with the Secretary's 
transformational diplomacy goal and Congress' authorization.
    The intent in shifting funds from DA to ESF is to draw cleaner 
lines around their use, as identified by country characteristics. These 
cleaner lines allow us to justify to Congress why we have requested 
amounts for each account. The primary goal of this shift is not 
increased flexibility, and we will of course continue to notify 
Congress of significant shifts in country funding and to comply with 
any and all notification requirements. The primary rationale for using 
ESF rather than DA resources in Rebuilding Countries is that conditions 
in these countries are not stable and the primary reason for providing 
these funds contributes to objectives beyond their development impact. 
Therefore, in rebuilding countries, it is more appropriate to hold 
State and USAID accountable for the shorter-term results typically 
associated with ESF-funded programs rather than the medium to long term 
results expected from DA.
    Question. As you know I am concerned about the threats to 
scholars--university teachers, scientists, and other academics, in 
countries where they have been threatened and killed. This is 
particularly the case in Iraq today, where many have been assassinated, 
including officials at the Ministry of Education.
    The fiscal year 2007 supplemental appropriations bill includes some 
funding to resettle Iraqi scholars. I would appreciate it if someone in 
your office would stay in touch with me about the management and use of 
those funds.
    Answer. The plight of scholars in Iraq is a concern for us, 
particularly because the skills they possess will be vital in 
rebuilding the nation and recreating the institutions of a civil 
society. We are determining the best implementation policy for the 
currently appropriated funds for refugees in the fiscal year 2007 
Supplemental. These funds will be crucial to help ensure these scholars 
and others receive needed assistance and can return to Iraq when 
conditions permit. We will be happy to keep you informed as the program 
progresses.
    Question. It would be a serious mistake to reduce USAID's mission 
and bilateral assistance programs in Brazil, a country of over 170 
million people most of whom are impoverished which is facing immense 
environmental challenges of global importance. I strongly urge you not 
to do this and I would appreciate written justification for it and for 
any other USAID missions you plan to close or downgrade.
    Answer. The reduction in USAID's assistance programs in Brazil 
reflects the prioritization of U.S. global foreign policy goals against 
available resources and competing demands. Under the new Foreign 
Assistance Framework, Brazil's solid level of economic and democratic 
progress warrants only a small USAID development assistance program. In 
fiscal year 2008, USAID's program will focus on reducing tuberculosis 
in Brazil.
    The reduction in assistance from USAID does not signal a reduction 
in United States support for Brazil. While the fiscal year 2008 budget 
has diminished, significant resources have been leveraged from the 
private sector toward addressing issues such as renewable energy and 
social inequities. The U.S. mission is seeking to harness the energies 
of the private sector, including through a Chief Executive Officer 
forum, comprised of executives from both Brazil and the United States. 
We have developed a Corporate Social Responsibility (CSR) forum with 
the American Chamber of Commerce, the largest such entity in the world, 
to maximize our effectiveness in assisting those that are most in need 
of help in Brazil.
    This approach is consistent with the principles of Transformational 
Diplomacy which is rooted in partnership, and reflects the important 
position of Brazil in the Western Hemisphere as well as the world.
    Question. How much does the administration plan to allocate for 
environmental conservation activities in Brazil in fiscal year 2007, 
and for what purposes?
    Answer. In fiscal year 2007 USAID is providing a total of 
$9,269,000, which includes $4 million from the Amazon Basin 
Conservation Initiative, to support Brazil's conservation efforts in 
the Amazon. USAID is helping Brazil save its unique biodiversity while 
simultaneously reducing greenhouse gas emissions from deforestation. We 
are implementing activities that empower indigenous peoples'' 
organizations, promote environmental governance and support the 
sustainable management of natural resources. USAID supports efforts to 
create and disseminate information regarding public-private 
institutional alliances that are working to incorporate sustainable 
natural resource management practices and technologies into rural 
enterprises. Additionally, USAID assistance is helping the Government 
of Brazil consolidate forest conservation in both protected areas and 
productive landscapes.
    Question. Your budget would cut USAID's Operating budget from $641 
million in fiscal year 2007 to $609 million in fiscal year 2008. Your 
supplemental request for 2008 includes $61 million for USAID Operating 
Expenses, but that is for only Iraq and Afghanistan. The rest of the 
world gets shortchanged, again.
    If you ask anyone at USAID they will tell you that the agency's 
biggest weakness is the shrinking number of professional staff. Why 
have you cut USAID's Operating budget when we should be increasing it?
    Answer. The fiscal year 2008 USAID budget request is a reflection 
of the many competing demands on resources in the current budget 
environment. We believe the President has requested the amount 
necessary to accomplish the mission of the agency.
    USAID operates in some of the most difficult circumstances in the 
world and adequate resources are critical to implementing successful 
programs. USAID is currently reviewing its budget and structure to 
ensure that operations and staffing are appropriately funded to 
continue its mission and support our national security interests 
abroad. Specific attention is being paid to rationalizing the workforce 
as USAID needs appropriate staffing both in the field and in 
Washington. Programmatic and administrative resources must be allocated 
to ensure that operations are funded in a cost-effective manner, while 
preserving the integrity of USAID's mission.
    Question. In your response to this question, you recognize that 
USAID operates ``in some of the most difficult circumstances in the 
world and adequate resources are critical to implementing successful 
programs.''
    How do you explain the substantial reduction in funding for USAID's 
Operating Expenses from the President's fiscal year fiscal year 2007 
budget request compared to the budget request for fiscal year 2008, for 
expenses outside of Iraq and Afghanistan?
    Answer. The fiscal year 2008 Operating Expense (OE) request for 
expenses outside of Iraq and Afghanistan is 3 percent less than the 
fiscal year 2007 OE appropriation. At the time the President's budget 
was submitted, USAID expected to have implemented structural and 
operational reforms during fiscal year 2007 that would allow the Agency 
to effectively perform at the operating expense level requested for 
fiscal year 2008. The fiscal year 2008 OE budget request reflected a 
strategy of repositioning resources and restructuring operations around 
the world, including Washington. With that strategy in mind, the OE 
budget request was judged sufficient to carry out the mission of USAID.
    USAID is reviewing and refining its worldwide operations to better 
serve its mission. USAID will use all available authorities and 
resources in fiscal year 2008 to ensure that its programs are 
successful.
    Question. The Congress has consistently provided increased funding 
for international environmental programs, both to protect biodiversity 
and to promote energy conservation and efficiency. These programs have 
bipartisan support, from the Russian Far East to Central Africa to the 
Amazon.
    But your fiscal year 2008 budget would either eliminate completely 
or drastically reduce funding for environment programs everywhere. How 
do you explain this when forests, wildlife, water and other natural 
resources are being polluted or destroyed at a faster and faster pace 
on virtually every continent?
    Answer. Our strategy is to link healthy ecosystems to sustainable 
economies, good governance, and equitable and just societies. The 
fiscal year 2008 budget request includes $249 million for programs to 
protect natural resources, biodiversity, and support clean, productive 
environments. The decrease in resources to support the environment, 
down 17.5 percent from the fiscal year 2006 enacted level of $302 
million, is not a reflection of a lack of commitment but rather due to 
two changes. The first is the administration's decreased request for 
DA. The second is our new allocation process which is a more demand 
driven process from our Embassies and Missions.
    Countries were given their total budget number at the outset of the 
Operational Plan Process. In some cases, the total number was lower 
than last year or lower than their request. Under this year's more 
demand focused allocation process, many of our country teams either did 
not request funds for environment or they requested funds in smaller 
amounts than previously in order to maintain or increase programs in 
sectors which they judged to be more critical to their objectives. A 
few countries did identify environment as needing a higher priority and 
chose to request more funds in the environment than they had in 
previous years. Haiti, for example, had no funds budgeted for 
environment in fiscal year 2006 and requested $2.9 million for fiscal 
year 2008. As one of the most deforested countries in the world, 
Haiti's need to address environmental problems was identified this year 
by our country team as needing funding. The Near East and Asia region 
saw a small overall increase in their environment budget due to a $10 
million increase in Lebanon's and Jordan's water programs. The country 
teams in these two countries identified the need to address and fund 
water scarcity and poor quality issues as an important factor in 
maintaining stability and security.
    This year's demand-driven process illustrates how the Department of 
State and USAID jointly determined a country's need and drove the 
selection of funds into the various sectors; a process that we believe 
will produce more robust results in transformational diplomacy.
    Sustainable conservation programs should not only be demand-driven, 
but focus on host country ownership by being developed in partnership 
with local governments, institutions, and the private sector. To 
encourage this, we will undertake an innovative approach to facilitate 
private sector investment on environmental issues. Beginning in fiscal 
year 2007, we will look to the Development Credit Authority (DCA) to 
facilitate private sector investment through partial loan guarantees 
for partnerships in environmental sustainability for commercially 
viable ventures.
    The Development Credit Authority is a USAID partial credit 
guarantee mechanism that mobilizes private financing to achieve 
transformational development. By mobilizing private resources for 
market changing impact, USAID leverages an average of roughly $25 of 
private capital for each $1 invested by the USG. For example, in India, 
DCA raised nearly $23 million from the local capital market through a 
pooled municipal bond for water transmission and distribution networks 
in eight municipalities in Bangalore. The cost to the U.S. taxpayer for 
the loan guarantee was approximately $1 million.
    USAID can also provide DCA guarantees to engage private financial 
institutions in lending for steward projects led by communities. For 
example, a DCA guarantee can mobilize financing for community managed 
forestry concessions while encouraging the tree harvesting and 
marketing to be undertaken in a sustainable manner. Because the 
community is itself invested, the likelihood of the community working 
to make it sustainable is increased. Should such investments prove 
successful and profitable, our hope is that local financial 
institutions will look for similar investment opportunities without 
further credit guarantees from the USG foreign assistance budget. While 
this DCA experiment is not appropriate for most of the environmental 
programs needed by our partner countries, it illustrates an innovative 
and low cost approach to addressing the environment in those cases 
where facilitating such private sector ventures can be helpful 
additions.

            FUNDING FOR INTERNATIONAL ENVIRONMENTAL PROGRAMS

    Question. You responded to my question about cuts in funding for 
environmental conservation programs by saying that your new allocation 
process is ``much more demand driven'' from Embassies and Missions, and 
that you plan to look to the Development Credit Authority (DCA) ``to 
facilitate private sector investment in environmental sustainability 
for commercially viable ventures.''
    This suggests two things, first, our Embassies and Missions do not 
regard environmental conservation as a priority and are therefore not 
demanding the funds. Second, by putting so much reliance on the DCA and 
the private sector you appear to have a very limited approach to 
environmental conservation. Given the increasing threats to the 
environment and the implications this has for regional and global 
stability, how much do you expect to allocate through your demand 
driven approach, and in which countries?
    Answer. In my previous answer, I did not intend to give the 
impression that the administration does not place a priority on 
environmental conservation. To the contrary, the administration is 
committed to helping developing countries address critical 
environmental threats, including climate change and biodiversity, and 
to achieving economic growth and poverty reduction that is based on 
sustainable use of natural resources.
    President Bush's major new Climate Change Initiative, announced on 
May 31 in his speech to the Global Leadership Council, is one example 
of how we are working to address environmental problems. The Initiative 
is designed to rapidly reduce global greenhouse gas emissions by 
engaging major developing country partners, who account for a large and 
growing share of greenhouse gas emissions. The President's Climate 
Change Initiative will build on a number of existing global and 
regional programs, including the Asia-Pacific Partnership and the 
Methane to Markets initiative.
    In this and other key environmental areas, our Embassies and 
Missions are working with diverse government, private sector, and civil 
society partners in more than 40 countries--and we are applying a broad 
range of country-based and regional approaches--to improve 
environmental protection and conservation.
    Our new assistance process is also helping to address these issues. 
The After Action Review of the fiscal year 2008 budget process resulted 
in the adoption of Assistance Working Groups (AWGs). The AWGs are 
tasked with determining what approaches may be appropriate in a given 
country or region based on a holistic view of the critical development 
gaps and the perspective of the relevant host government(s). The 
purpose of the AWGs is to bring together expertise from across State 
and USAID to identify the most effective and efficient way to use USG 
foreign assistance to advance USG foreign policy priorities.
    In the fiscal year 2009 budget allocation process, to consider how 
economic growth programs and activities, including the environment, 
could be implemented to advance our foreign policy priorities, an 
economic growth AWG, co-chaired by Office of the Director of U.S. 
Foreign Assistance with State and USAID Functional Bureau leadership, 
was assembled. This AWG also considered other USG global, regional, and 
bilateral resources, such as fiscal year 2009 anticipated MCC 
allocations, and were encouraged to reach out to other implementing 
agencies with questions or a request for additional details. Taking 
into account this information and the Mission Strategic Plans from the 
field, the economic growth AWG provided program allocations to the 
program element and account level, and, where possible, attributed 
funds to specific countries and/or programs.
    In developing our foreign assistance budget in the constrained 
budget environment that is our reality, there are numerous competing 
demands in supporting development, including security and governance 
issues, and raging health crises. In setting our budgets, we are 
looking to address immediate problems in a sustainable way and to find 
the best opportunities to impact the lives of the most people. At the 
same time, we recognize that addressing stability and governance can 
achieve environmental results, as conflict, poverty and poor governance 
are significant contributors to environmental degradation in the 
developing world. The fiscal year 2008 budget request includes $249 
million for programs to protect natural resources, biodiversity, and 
support clean, productive environments although final allocations for 
fiscal year 2008 will be impacted by the fiscal year 2008 
appropriations bill. We anticipate that the heightened cooperation 
arising from the AWG process may well result in a fine tuning and 
perhaps even expansion of regional and country environmental programs 
in the fiscal year 2009 request which we are currently working on with 
the Office of Management and Budget.
    Question. I am leading a CODEL to the Middle East over Memorial Day 
recess, including to Israel and the West Bank. Since the beginning of 
this administration I and others have called for sustained, high level 
engagement with Israelis and Palestinians, but for the most part the 
administration's focus has been elsewhere. Your recent efforts are 
welcome, but it is very late in the game. In the past 6 years the 
situation has, if anything, become more intractable. We need to see 
real progress in resolving the key issues that underlie this conflict.
    When was the last suicide bombing for which Hamas was responsible?
    Which Palestinian faction(s) are responsible for recent rocket 
attacks against Israel?
    The Arab countries have proposed an initiative which offers Israel 
full recognition by the 22 members of the Arab League in exchange for 
Israel's withdrawal to its pre-1967 borders. Does the administration 
support this proposal? If not, what aspects of it does the 
administration not support?
    Who is responsible for recent rocket attacks from Gaza into Israel? 
In 2007, what if any acts of terrorism against Israeli targets are 
credibly attributable to Hamas?
    Answer. In his September 19, 2006, UNGA address, President Bush 
said that fulfilling his vision of two states--Israel and Palestine--
living side by side in peace and security, was one of his greatest 
priorities. Internationally, the Quartet--made up of the United States, 
EU, United Nations and Russia--has declared repeatedly the need to make 
progress toward peace in the Middle East.
    During my repeated trips to the region over recent months, I have 
emphasized the importance of continued bilateral discussions between 
Prime Minister Olmert and President Abbas both on day-to-day practical 
issues such as security, movement, and access, as well as on elements 
of a political horizon for Palestinian statehood. I traveled to the 
region on March 23rd to continue discussions with the parties as well 
as with our Arab partners in the region. This trip resulted in 
agreement by Olmert and Abbas to hold regular meetings addressing 
practical issues affecting the quality of life of Israelis and 
Palestinians, as well as beginning to discuss some of the 
characteristics of a future Palestinian state, such as governing 
institutions and economic relations with Israel. These discussions 
should build confidence between the parties and begin to lay the 
foundation for meaningful negotiations leading to the establishment of 
a Palestinian state, consistent with the Roadmap.
    The last suicide bombing for which Hamas was responsible took place 
on January 18, 2005 in Gaza, killing an Israeli security officer and 
injuring eight other soldiers and security agents. In March of this 
year, Hamas claimed responsibility for shooting an Israel Electric 
Corporation worker near the Karni/al-Mintar crossing between the Gaza 
Strip and Israel, moderately wounding him. According to press reports, 
that same month, Egyptian authorities detained an alleged would-be 
Hamas suicide bomber next to the Israeli border as he awaited 
instructions to carry out a terrorist attack inside Israel.
    Individuals linked to Hamas were involved in the September 21, 2005 
kidnapping and murder of an Israeli citizen in the West Bank. According 
to claims by Hamas, al-Aqsa Martyrs Brigade, and the Popular Resistance 
Committees (PRCs), a number of terrorist attacks were perpetrated by 
one or more organizations acting together, including the January 13, 
2005 truck bombing of the Karni/al-Mintar cargo crossing terminal on 
the Israeli-Gaza border, which killed six Israeli civilians and wounded 
another five.
    In November 2006, President Abbas and Prime Minister Olmert agreed 
to a ceasefire in Gaza. Following this announcement, Hamas stopped 
launching rocket attacks into Israel. No action was taken, however, by 
the forces of the Hamas-led Interior Ministry to stop rocket attacks 
launched against Israel by Palestinian Islamic Jihad (PIJ) and the al-
Aqsa Martyrs Brigade. Over recent weeks, as intra-Palestinian violence 
escalated, Hamas disavowed the ceasefire and Hamas and PIJ have been 
responsible for much of the recent spate of Qassam rocket attacks 
against Israel.
    The United States welcomes the Arab Peace Initiative, which 
provides a regional political horizon for Israel, complementing the 
efforts of the Quartet and of the parties themselves to advance towards 
peace.
    Question. According to recent press reports a current Israeli 
Government registry shows that more than 30 percent of property held by 
Israeli settlements in the West Bank is actually private Palestinian 
land. I have also read that the separation wall exacerbates this 
problem because in many places it does not follow the 1967 border and 
instead encroaches into the West Bank, cutting off villagers from their 
fields or access to water, and in some places dividing Palestinians 
from their neighbors. I've not heard anything from the administration 
on either of these issues. What is your position?
    Has the administration completed its review of Israel's use of 
cluster munitions in Lebanon last year, particularly during the final 3 
days of the conflict, and has it taken any action as a result of the 
findings of that review?
    Answer. The President stated in April 2005 that ``Israel has 
obligations under the roadmap. The roadmap clearly says no expansion of 
settlements. And we'll continue to work with Israel on their 
obligations. Israel should remove unauthorized outposts and meet its 
roadmap obligations regarding settlements in the West Bank.''
    The Government of Israel has legitimate defense needs to secure its 
border in response to attacks and infiltrations by those who commit 
suicide attacks against citizens. Our view remains that the barrier 
should be a security rather than a political barrier, should be 
temporary rather than permanent, and should therefore not prejudice any 
final status issues including final borders, and its route should be 
taken into account, consistent with security needs, its impact on 
Palestinians not engaged in terrorist activities.
    Regarding cluster munitions, the Department provided a report to 
Congress on this matter in January, and will continue to update the 
Senate Appropriations and Foreign Relations Committees staffs on this 
issue through additional briefings, including the results of the 
Government of Israel's ongoing internal investigation. As the contents 
of our agreements with Israel are classified, we are not in a position 
to provide further information in this letter.
    Question. Last year, when the White House announced that its survey 
indicated a slight rise in the price of cocaine in the United States 
over a period of 6 months, the State Department claimed it was proof 
that Plan Colombia was finally beginning to show the results we were 
promised. When this year's report was released and the survey showed 
that the price of cocaine had fallen to a new low, the administration 
said nothing.
    Since then, the only argument the administration makes that its 
counterdrug policy is working is that if the cocaine that has been 
seized or eradicated had made it to the United States, the drug problem 
would be worse. But that ignores the fact that the flow of cocaine is 
determined by the demand. There is no evidence that Plan Colombia, 
after $5 billion in U.S. aid, has made a dent in the availability or 
price of cocaine in this country.
    Your fiscal year 2008 budget request for Colombia is almost exactly 
the same amount for the same purposes as it has been for the past 5 
years. Isn't it time to evaluate why it isn't working, and try another 
approach?
    Answer. This question provides an important opportunity to examine 
and clarify what we are doing in Colombia and why we are doing it. The 
U.S. Government strategy against cocaine is based on the underlying 
principle of action against the early stages of drug production--to 
disrupt activities, eradicate crops and interrupt materials flow as 
much as possible in the source zones.
    A key goal of Plan Colombia's comprehensive approach, which 
encompassed our strategy plus the strengthening and expanding of 
government presence, eradicating and interdicting the drugs that fueled 
the conflict, and implementing alternative and social development 
programs, was to reduce significantly the supply of cocaine to the 
United States. Although these measures arrested, and temporarily 
reversed, the almost unfettered increase in coca cultivation that 
occurred through 2001, they did not permanently diminish the supply of 
cocaine to the degree necessary to increase its price significantly or 
reduce its purity on U.S. streets.
    Contrary to the assertion in the question, cocaine supply is not 
solely determined by demand. The supply of a substance as addictive and 
as aggressively marketed as cocaine itself influences the level of 
demand. Suppliers are in the business of expanding their market, and 
they use whatever means available to them. Also, one explanation for 
the reported lack of progress on price and purity could be that because 
U.S. cocaine use has steadily declined over the same period, it simply 
takes less product to meet market demand.
    We continue to believe that the removal of hundreds of metric tons 
of cocaine from the supply chain every year (approximately 500 MT in 
2006 alone) through United States-supported eradication and 
interdiction efforts has a very real and positive impact on cocaine 
availability, as well as a very real reduction in illicit drug 
finances. Conversely, because those eradication and interdiction 
efforts place the illicit drug industry under great pressure, abatement 
of those efforts would yield real and negative results.
    More broadly, we do not believe that the price and purity of 
cocaine in the United States should be the primary benchmark by which 
the success of foreign assistance to Colombia in general, and support 
for Plan Colombia in particular, is measured. Colombia's democratic 
security policy--and the paramilitary demobilization--has strengthened 
Colombia's democratic institutions, and led to substantial improvements 
in human rights protection. Murders are down almost 40 percent, from 
29,000 in 2002 to 17,300 in 2006. Colombia's aggregate homicide rate is 
at its lowest level since 1987. Kidnappings fell 75 percent over the 
same time period, from 2,885 to 687. Victims of massacres fell from 680 
in 2002 to a little over one third that amount in 2006. The dispersion 
and decentralization of the coca crop in Colombia is a reflection of 
the dispersion and weakening of the cartels and terrorists that once 
threatened to overrun the country.
    The improved security climate has promoted Colombians' freedom to 
travel, work, socialize, and invest. Economic growth has averaged over 
5 percent since 2002. Civil society and political parties operate more 
openly than ever before. The labor-affiliated National Unionist College 
reported that murders of unionists fell by over 60 percent between 2001 
and 2006. The number of human rights defenders killed or missing 
dropped from 17 to 4 over this same time period. Much of this 
improvement can be attributed to greater government control and 
participation, brought about by the improved security situation 
generated by our eradication and interdiction efforts.
    In most categories by which we can measure the success of our 
foreign assistance investment, Colombia is vastly improved over its 
pre-Plan Colombia days. Indeed, it is difficult to imagine another 
country in which U.S. foreign assistance has produced more impressive 
returns. Of course, many serious challenges remain, including bringing 
perpetrators of crimes against humanity to justice and providing 
alternative livelihood opportunities for those now compelled by 
coercion or economic circumstance to collaborate with drug traffickers 
or to engage in armed actions against the legitimate government. 
However, exclusively defining foreign assistance success in Colombia by 
the price and purity of cocaine in the United States, or by the number 
of hectares under coca cultivation, overlooks these broader successes.
    Moreover, eradication and interdiction are reasonable law 
enforcement efforts in their own right. Growing coca is illegal in 
Colombia. Transporting and processing coca, coca base, and cocaine are 
also illegal. The terrorist groups and others which these illegal 
activities fund are a threat to Colombia's democratic society.
    We are not advocating continuance of the status quo without 
critical review and development of more effective strategies. Indeed, 
we have been engaged with the Government of Colombia for over a year in 
developing a new strategy that would carry through fiscal year 2013 and 
that, subject to yearly Congressional approval, would shift funding to 
social programs and reduce by one third U.S. funding to law enforcement 
and military (``hard side'') programs. In the near term, we are looking 
for ways to strengthen the Prosecutor General's office and produce 
movement on longstanding cases. In addition, we are continually 
reviewing operational strategy and tactics to find more efficient and 
effective methods. A prime example is the change to our aerial 
eradication strategy in which we stay longer in the three primary 
growing areas, instead of trying to spray every major and minor growing 
area once a year. This new strategy is designed to directly address 
replanting and break the cultivation cycle.
    However, as long as illicit drug trafficking remains a highly 
profitable enterprise, this battle will require the full array of law 
enforcement, military, alternative development, social, judicial, and 
economic assistance. The fiscal year 2008 budget request is similar to 
fiscal year 2007 in part because it is necessary to maintain aviation 
asset availability to keep eradication apace (including manual 
eradication, which is also partially dependent on United States-
supported aviation assets).
    Aviation-intensive counternarcotics and counter-terrorism programs 
have filled a critical need in Colombia's war against drugs and 
terrorist groups. The Colombian Government has clearly stated that 
continued U.S. support for these programs remains critical, and that, 
for now, our proposed mix of U.S. assistance continues to reflect their 
most urgent needs.
    Question. You recently certified that the Colombian Government and 
military have met the human rights conditions in our law. According to 
information we have received from the United Nations, the Procuraduria, 
and the Colombian Commission of Jurists, extrajudicial killings by the 
Army rose sharply last year, to between 150-250 depending on the source 
of the information. Did the Embassy discuss these cases with the United 
Nations, the Procuraduria, or the Colombian Commission of Jurists prior 
to making the certification? If so, what conclusions did the Embassy 
reach as a result of those discussions? Why, given this negative trend, 
did you certify substantial progress? Has anyone been convicted of any 
of those crimes?
    The United Nations and the Colombian Commission of Jurists also 
estimate over 800 targeted killings by paramilitaries, despite the 
demobilization, last year. Has anyone been convicted of any of these 
crimes?
    What has the Embassy done to determine whether paramilitary 
commanders in the Itagui prison are continuing to engage in criminal 
activity? In light of recent revelations that they were apparently 
using cell phones to continue committing killings and other crimes, has 
the Colombian Government ordered the cell phones removed? Was the 
Colombian Government legally monitoring paramilitaries' calls?
    We are told that Mancuso has confessed that General Rito del Rio 
collaborated with the AUC, and that he told the AUC which areas of the 
country they could control. Is it true that President Uribe publicly 
praised Rito del Rio in a ceremony organized to honor del Rio after the 
United States revoked his visa and after he was fired from the Army? 
What is the Fiscalia doing to investigate the allegations against del 
Rio? What is the Fiscalia doing to investigate other members of the 
military named by Mancuso?
    Answer. The Embassy discussed the issue of alleged extrajudicial 
killings with the U.N. High Commissioner's Office on Human Rights, the 
Colombian Commission of Jurists (CCJ), and the Inspector General's 
Office (Procuraduria), as well as with the International Committee of 
the Red Cross (ICRC). The Embassy has also emphasized to the Prosecutor 
General's Office (Fiscalia), the Minister of Defense, the Armed Forces 
and Army Commanders, and the Procuraduria the need to investigate these 
cases in a rapid and thorough manner and to review military practices, 
training, and doctrine to prevent such cases from occurring.
    The CCJ provided the Embassy with information that showed 93 people 
were allegedly killed or disappeared by paramilitaries in the first 
half (Jan-July) of 2006. During the period June 2005 to July 2006, the 
CCJ reported 354 individuals were allegedly killed by paramilitaries, 
down from the 1,234 reported during the comparable period from June 
2003 to July 2004. The Fiscalia told us it currently has multiple cases 
open against former paramilitaries, but was not able to provide an 
exact nationwide figure. The Fiscalia also said there have been 
convictions over the past year, but that the Human Rights unit does not 
have centralized statistics on the exact number of convictions.
    The Fiscalia has 77 cases of extrajudicial killings open at the 
moment, with a total of 133 victims. According to the Fiscalia, there 
are 48 members of the military now in preventive detention in 
connection with these cases. The Procuraduria has since told the 
Embassy that 131 cases of alleged forced disappearance committed by the 
military have been reopened. We will continue to follow these cases.
    There is an ongoing investigation by a USG law enforcement agency, 
in cooperation with the Colombian authorities, of criminal activities 
allegedly being committed by former paramilitary commanders currently 
in Itagui prison. The Colombian government reports that paramilitary 
leaders held in Itagui--who have the formal status of negotiators in 
the paramilitary process--enjoy access to cell phones similar to that 
provided to ELN negotiators Francisco Galan and Juan Carlos Cuellar. 
Colombian law enforcement agencies are investigating the alleged 
involvement of paramilitary commanders in Itagui in criminal 
activities, but have not ordered the cell phones be removed. Colombian 
National Police Commander Oscar Naranjo has since told the Colombian 
Congress that the Police's monitoring of communications in Itagui was 
legal. The Fiscalia and the Procuraduria are reviewing the monitoring 
and will make a determination regarding its legality.
    According to the Fiscalia, currently there are no active 
investigations linked to Mancuso's testimony. In particular, General 
Rito Alejo del Rio is not presently under investigation by the 
Fiscalia. However, the Fiscalia plans to follow-up with Mancuso 
regarding his testimony that concerns General del Rio; it will make a 
decision on whether to reopen the case and undertake a formal 
investigation at that time.
    We understand that the Inspector General has reopened its 
investigation into General del Rio's actions while serving as commander 
of the 17th Brigade, as a result of disclosures from the paramilitary 
investigations. The reported praise of del Rio by President Uribe 
occurred at a dinner at the Hotel Tequendama in Bogata in May 1999. 
This was 2 months before the United States revoked his visa.
    Question. What will it take to get a U.N. peacekeeping force 
deployed of sufficient size to stop the genocide in Darfur? Is it just 
a question of how much international pressure the Sudanese Government 
can withstand? Where does that pressure need to come from? What is the 
administration doing, since past efforts have failed?
    Answer. The United States and the international community are 
firmly committed to resolving the crisis in Darfur and bringing 
sustainable peace to Sudan. Transition of the current African Union 
Mission in Sudan (AMIS) to a more robust United Nations/African Union 
(U.N./AU) hybrid peacekeeping operation remains a policy priority for 
the United States and its allies. However, President Bashir continues 
to defy his international obligations and reject the deployment of an 
U.N.-led hybrid force in spite of previously stated support for the 
Addis Ababa framework of a three-phased peacekeeping plan to Darfur.
    We believe that continued unified multilateral pressure from key 
players, including members of the U.N. Security Council, European 
Union, AU, and Arab League is required to convince the Government of 
Sudan (GoS) to accept the U.N./AU hybrid force with U.N. command and 
control structures that conform to U.N. standards. We continue to reach 
out to international partners in the United Nations and European Union 
to urge sustained pressure on Khartoum. We believe that all options 
must remain on the table. This includes possible multilateral and 
further bilateral sanctions.
    In preparation for the hybrid deployment, we are also working with 
the United Nations and our international partners to accelerate 
implementation of the Addis Ababa framework and to mobilize potential 
Troop Contributing Countries (TCCs) to contribute to a stronger Darfur 
peacekeeping mission. This includes U.S. logistical support for the 
United Nations Light Support Package to AMIS to bolster the current 
mission on the ground and facilitate transition to a robust hybrid 
operation as well as training and equipping of additional TCCs through 
the African Contingency Operations Training and Assistance (ACOTA) 
program.
    Question. Do we have any evidence of the existence of terrorist 
assets in Cuba?
    Your [U.S. State Department Country Report on Terrorism] report 
says Cuba did ``not undertake any counterterrorism efforts.'' Does that 
make them a state sponsor of terrorism? Your report says Cuba continued 
to provide ``safe haven'' for members of Colombian rebel groups. But 
according to the Colombian Government, Cuba has been acting as a 
facilitator for peace talks between the government and these groups. 
How does this make them a state sponsor of terrorism?
    Answer. Cuba has been on the State Sponsors of Terrorism list since 
1982. The decision to place Cuba on that list was originally based on 
Cuban support for terrorist insurgencies attempting to overthrow 
democratic governments in Latin America.
    Cuba has provided on-going safe haven to several U.S. designated 
terrorist organizations such as the FARC, ELN, and ETA. If Cuba were 
serious about fighting terrorism, it would renounce the support it 
offers to these terrorist groups, arrest members and seize their 
assets. The fact that the Cuban government allows the presence of these 
groups in Cuba is an indication that terrorist assets or support 
structures exist as well. Cuba's role in dialogue between Colombian 
terrorist organizations and the Colombian government does not discount 
the support it provides these terrorist organizations.
    Cuba also remains on the list since it continues to harbor 
fugitives from U.S. justice, including Joanne Chesimard, who escaped 
from prison after her conviction for the murder of a New Jersey State 
Trooper while a member of a domestic terrorist group. In addition, Cuba 
provides shelter to Victor Manuel Gerena, an FBI Top-Ten Most Wanted 
fugitive. Gerena, a member of the ``Macheteros'' terrorist group, 
participated in the 1983 armed robbery of an armored car that netted $7 
million.
    Question. Why are we backing a general who seized power in a coup 
and has used his position to weaken democracy and the rule of law in 
Pakistan, without clear benchmarks with which to measure progress on 
democracy and human rights?
    Answer. We have made it clear to the Pakistan Government that we 
expect Pakistan's upcoming national elections, which are likely to take 
place in late 2007 or early 2007, to be free and fair. In those 
elections, Pakistani voters will have the opportunity to select the 
government that will lead the country forward.
    We have also been clear to the Pakistan Government about our 
appreciation for the enduring, substantial support that President 
Musharraf has provided in the Global War on Terror--and we have been 
clear that we believe that his vision of ``enlightened moderation'' 
represents a positive future for Pakistan.
    During meetings in Islamabad in March 2006, President Musharraf and 
President Bush agreed the United States would support Pakistan as it 
builds strong and transparent democratic institutions and conducts free 
and fair elections to ensure sustainable democracy. We continue to 
support these goals.
    President Musharraf has stated that his plan remains the same--to 
move toward a civilian-controlled democracy. We have seen some positive 
progress in Pakistan in key areas such as electoral reform, women's 
rights, local governance, and--despite recent setbacks--freedom of the 
press.
    To take a few examples: in the area of election reform, Pakistan--
with USAID assistance--is assembling the highest-quality and most-
reliable electoral roll in its history, to be finished in time for the 
upcoming national elections. In the civil liberties arena, in December 
2006 President Musharraf signed the Women's Protection Act amending the 
Hudood Ordinance, marking a significant step toward improving the legal 
rights of women in Pakistan by allowing criminal courts (rather than 
religious courts) to try rape cases. The act marks the first time in 
nearly three decades that a Pakistani government has rolled back 
discriminatory laws that have stood virtually untouched since the time 
of General Zia-ul-Haq. In the area of local governance, the devolution 
reforms implemented by the Government have increased public access to 
local government, and government accountability.
    We have also seen, over the past 6 or 7 years, significant 
increases in the freedom of the Pakistani press and in the Pakistani 
public's access to reliable information and outspoken views in the 
media. We have made our views clear that this is a trend that must 
continue, and that cannot be set aside or reversed. We urge the 
Pakistan government to continue their progress by holding free and fair 
multi-party elections as scheduled in 2007 or early 2008 that meet 
international standards.
    As the President recently stated, ``We have a fundamental interest 
in the success of Pakistan as a moderate, stable, democratic Muslim 
nation.''
    Question. When Speaker Pelosi met recently with Syrian President 
Assad, the White House accused her of meddling in foreign policy and 
undermining the administration's efforts to isolate Syria. However, 
when other Members of Congress, including Republicans, met with Assad, 
the White House said nothing. And in Egypt recently you met with 
Syria's foreign minister in what were described as substantive and 
professional discussions. Is the administration's position that it is 
okay for Republicans to meet with the Syrians, but not Democrats? Or 
that it is okay for the administration, but not Congress?
    Answer. In an effort to ensure that the legislative and executive 
branches of the U.S. Government deliver the same message that Syria 
must change its behavior on a broad range of issues, the Department 
continues to advise against Congressional travel to Damascus. High-
level United States visits to Damascus are exploited by the Syrian 
regime to demonstrate a degree of legitimacy and international 
acceptance that Syria has not yet earned.
    The United States remains committed to maintaining peace and 
security in the region. To this end, we continue to review what tools 
are available to pressure the Syrian regime into changing its behavior.
    The Syrian Foreign Minister and the Secretary's discussion on the 
margins of the Expanded Iraq Neighbors' Conference meeting in Sharm el-
Sheikh was limited to Iraq. Moreover, the Secretary relayed to the 
Syrians that we have no desire to have bad relations with Syria. As the 
Secretary said, ``the Syrians clearly say that they believe that 
stability in Iraq is in their interest, but actions speak louder than 
words we will have to see how this develops.'' Before we can accept 
Syria into the international community, ``there need to be concrete 
steps that show that on the Iraqi issue, for instance, that there is 
actually going to be action.''
    Question. You have already heard many of us mention China this 
morning. China is our fastest growing competitor on every front, but 
the rule of law is often violated by Chinese authorities and civil 
society has few rights. The courts are not independent and there are 
almost no checks on government power.
    Each year, Senator McConnell when he was Chairman and I, as well as 
Senator Specter, have tried to increase our assistance for rule of law 
and justice programs in China. Yet each year, the administration 
proposes to cut these programs. For fiscal year 2008 you propose only 
$1.3 million. How can we have a meaningful impact on issues as 
important as these in a country of over 1.2 billion people with such a 
tiny amount of money?
    Answer. We share Congress' support for rule of law, public 
participation and civil society programs in China.
    We concur with your assessment and concerns that China's 
authoritarian system and a lack of judicial independence pose enormous 
challenges for reform. However, within these constraints, our China 
programs are working to foster judicial independence and legal reform; 
improve citizen access to legal services; increase the capacity of 
legal professionals; and help to produce better laws through public 
participation and strategic assistance from outside experts.
    We hope to have a long-term impact because these programs foster 
the growth of civil society both as a counterweight to the government 
and a provider of public services.
    A substantial amount of Governing Justly and Democratically 
programming in China is supported by funds from the Human Rights and 
Democracy Fund, administered by the Bureau of Democracy, Human Rights, 
and Labor (DRL). By the end of this fiscal year alone, DRL will have 
openly competed and awarded $19.8 million in 25 grants using fiscal 
year 2006 appropriated funds. While democracy and rule of law 
development are long-term efforts, programs have already produced 
concrete successes that are indicative of greater changes to come. For 
example, in the area of women's rights, provincial level stakeholders 
used DRL-supported technical assistance to advocate and win passage of 
refinements to workplace sexual harassment laws in six provinces--
including definitions and forms of sexual harassment that provide 
greater clarity than national law. DRL assistance is also helping to 
clarify judicial interpretations on sexual harassment claims. These 
clarifications and refinements will afford women greater protection 
from sexual harassment and form the foundation for future legal reform.
    For fiscal year 2008, DRL intends to dedicate $5 million out of the 
$35 million requested for the global Human Rights and Democracy Fund to 
programs in China. This figure is a product of the new Foreign 
Assistance Framework and the USG's prioritization of China as a country 
of high importance. DRL will continue to include rule of law issues in 
its competitive calls for proposals to support the best initiatives 
proposed by partners in the NGO and academic communities.
    Additionally, our Bureau for International Narcotics and Law 
Enforcement Affairs continues to use International Narcotics and Law 
Enforcement funds to support a Department of Justice Resident Legal 
Advisor (RLA). The RLA provides Chinese government officials, jurists, 
and academics with expertise on U.S. criminal law and procedure, and to 
promote long-term criminal justice reform in China consistent with 
international human rights. To this end, the RLA seeks to facilitate 
contacts between the United States and China, and introduce Chinese 
officials to U.S. justice sector values and practices.
    USAID also is carrying out significant rule of law programs in 
China through partnerships between United States and Chinese 
universities. In 2006, USAID provided $5 million, in line with the 
Congressional mandate, to university partnerships in the area of rule 
of law and the environment. A partnership between Vermont Law School 
and Sun Yat-sen University is strengthening environmental rule of law 
in China, focused on application and enforcement of environmental 
regulations. A consortium including the University of the Pacific 
McGeorge School of Law and American University's Washington College of 
Law with the South China University of Technology and Zhejiang Gongshan 
University focuses on the application of law in practice. Another 
premier college of law in China is expected to join the consortium in 
the coming year.
    In 2007, USAID will be providing another $2 million for rule of law 
and $3 million for environmental governance programs, and has requested 
another $5 million for fiscal year 2009.
    Question. You propose to cut our aid to Russia from $84 million in 
fiscal year 2007 to $52 million in fiscal year 2008. If this aid was 
for the Russian Government I would agree with that. But most is to 
support Russia's beleaguered democratic forces and for health and other 
programs to help the Russian people, who number over 140 million. So 
far, your efforts to strengthen democracy in Russia seem to have 
failed. What is your policy toward Russia today?
    By comparison, you propose $71 million for Ukraine with 46 million 
people and $35 million for Armenia with 3 million people. Given 
Russia's problems, why do you believe that $52 million is adequate?
    Answer. Our policy toward Russia is to cooperate when we can and to 
push back when we must. We work well and closely with Russia on 
counterterrorism, many non-proliferation issues, and nuclear issues. We 
have discussed our concerns over Russia's backsliding on democracy 
issues and relations with its neighbors.
    This decline in the request for Russia reflects, in part, Russia's 
high economic growth rates and the related decision to phase out 
economic reform assistance for Russia. fiscal year 2008 is the first 
year where no funds are budgeted for assistance in this area. Democracy 
programs in Russia remain a top U.S. priority, with particular focus on 
helping to strengthen civil society, democratic institutions, 
independent media, and the rule of law. As in previous years, over half 
of the Russia budget (in fiscal year 2008, approximately $26.2 million) 
will continue to be devoted to supporting efforts to promote democracy 
and rule of law.
    The reduced request for civil society programs this year is based 
on the expectation that support for democratic development will be 
bolstered by over $180 million recovered from previous activities: The 
U.S.-Russia Investment Fund (TUSRIF) will invest its profits in a new 
foundation that will give grants to support entrepreneurship, the rule 
of law and the free flow of information in Russia. Funds recovered 
through the settlement of a civil lawsuit against a USAID contractor 
will be programmed to bolster Russian civil society groups.
    Combating HIV/AIDS is also a priority, given that Russia has one of 
the fastest growing epidemics in the world. President Putin joined 
President Bush in recognizing HIV/AIDS as a threat to Russia's national 
security and has made fighting the disease a priority. As a result of 
programs in this area, United States and Russian lab specialists are 
working side by side to strengthen HIV/AIDS laboratory capacity in 
Russia and Africa. Funding in this area will increase to $11 million in 
fiscal year 2008. U.S. programs also support joint efforts with Russia 
to combat transnational threats such as organized crime, drug 
smuggling, trafficking in persons, cyber-crime, and terrorist 
financing.
    In the North Caucasus, the Russian Government's unwillingness to 
meet the needs of internally displaced persons exacerbates regional 
instability and creates an environment ripe for extremism. fiscal year 
2008 funding will also support conflict mitigation programs in the 
region as well as humanitarian assistance to help stem the spread of 
violence and promote health, sanitation, and community development.
    Question. Your fiscal year 2008 budget would cut aid for Guatemala, 
Honduras, and Nicaragua, three of the poorest countries in the 
hemisphere. Each of these countries is a source of illegal immigrants 
to the United States. Why does this make sense?
    Answer. The Americas are an important priority for the 
administration. Overall foreign assistance to the region has nearly 
doubled since the start of this administration, from $862 million in 
fiscal year 2001 to $1.5 billion in fiscal year 2008 (requested). This 
amount does not include MCA compacts.
    The traditional bilateral assistance programs for Guatemala, 
Honduras, and Nicaragua in fiscal year 2007 are reduced from their 
fiscal year 2006 levels. However, pending the final fiscal year 2007 
allocations, we expect that all three bilateral programs will be 
increased in fiscal year 2008. It is important to note that our 
bilateral programs do not reflect the totality of our assistance. For 
example, in fiscal year 2008, we requested $40 million for the regional 
CAFTA-DR TCB program focused on helping these economies take full 
advantage of the benefits of the CAFTA-DR Free Trade Agreement. USAID 
also administers several significant development programs focused on 
health, education, and environment throughout Central America. The 
Peace Corps is also very active with robust programs in all three 
countries.
    In addition to traditional foreign assistance programs, the United 
States contributes to the region through innovative mechanisms such as 
the Millennium Challenge Account (MCA) and debt relief programs. The 
Millennium Challenge Corporation (MCC) has approved five-year compacts 
for Nicaragua ($175 million) and Honduras ($215 million), and we are 
working closely with Guatemala to help them qualify for future MCA 
assistance.
    In his March 5 speech to the Hispanic Chamber of Commerce, the 
President announced several additional development initiatives for 
Latin America, including a $385 million expansion of a $100 million 
OPIC program that helps underwrite mortgages to families in the 
countries of Central America, and an agreement with the IDB to extend 
debt relief to the most highly indebted countries in the region 
(including Honduras and Nicaragua) by $3.4 billion. The latter would be 
in addition to an earlier agreement with the Group of 8 industrialized 
nations to reduce the debt of Latin America and Caribbean nations by 
$4.8 billion. That works out to about $110 for every man, woman, and 
child in these countries, monies that their government should use to 
invest in the education and health of their citizens.
    In 2006, the United States spent nearly $3 million and conducted 70 
medical readiness and training exercises, or MEDRETEs, in 18 countries 
throughout Central and South America and the Caribbean at an estimated 
cost of nearly $3 million. In 2007, we have already conducted 65, in 15 
countries, including activities in Guatemala, Honduras, and Nicaragua. 
Combined, the MEDRETEs provide medical care to more than 200,000 
individuals--in many cases the only professional medical care they will 
receive.
    Additionally, Health and Human Services Secretary Mike Leavitt and 
his Panamanian counterpart just inaugurated during the OAS General 
Assembly the ``Initiative for Health Diplomacy in the Americas,'' which 
is providing technical and financial resources from the U.S. Government 
and private-sector to improve health care for people in Central 
America. One of the main objectives of this initiative is to train 
community health workers and nurses from across Central America in 
providing basic preventive care and in responding to infectious disease 
outbreaks. We remain committed to assisting governments to address the 
needs of their peoples, and are now taking advantage of non-traditional 
ways to do so.
    Question. The Millennium Challenge Corporation was established in 
2003, and since then we have appropriated $5.9 billion for it. The MCC 
has signed 11 compacts to date and six more are projected in 2008. To 
date, $3 billion obligated and only $68 million has been disbursed to 
governments, much of which has not actually been used yet to purchase 
anything. What has actually been accomplished with the funds?
    Answer. Early year MCC disbursements have been admittedly modest, 
but we are working with MCC to match disbursements with expectations. 
During a typical 5-year Compact, MCC generally expects to disburse less 
than 8 percent of total funds during the first year, nearly 28 percent 
the second year, around 31 percent the third year, 22 percent the 
fourth year, and 11 percent during the final year as projects and 
related contracts are completed. This is consistent with large project 
implementation even in the private sector. While actual disbursements 
are modest at around $84 million, contracts and commitments 
(administrative reservations of funds not based on legally binding 
transactions or documents) are nearly double that amount. In 
Madagascar, MCC's first Compact partner country, 23 percent of the 
total Compact amount has been committed.
    MCC has every intention of using the entire amount obligated to 
each and every Compact and Threshold partner country, but in many cases 
MCC's high standards--on procurement processes, environmental and 
social impact mitigation, monitoring and evaluation--have slowed down 
the process. In some cases, disbursements are triggered only when 
conditions precedent, as spelled out in Compact and Threshold 
documents, are met. Indeed, we often remind countries that MCC should 
not be taken for granted, since continued engagement is conditional on 
good policy performance. That is one of the core principles of the 
Millennium Challenge Account, distinguishing it from foreign assistance 
policies of the past.
    However, MCC's high standards are not the only reason behind modest 
disbursements. In some cases, MCC overestimated country capacity or 
misjudged the political independence of the programs. MCC works with 
host countries as partners, but sometimes those partners are slow to 
establish key structures, have complex plans or government systems, or 
lack the full technical capacity to manage and implement the programs 
they propose.
    To address these problems, MCC is offering better guidance to 
partner countries and developing standard operating documents. MCC is 
also conducting up-front analysis of host country capacity and 
developing explicit capacity-building plans, which include specialized 
training. In addition, MCC is using 609(g) authority to provide pre-
Compact funds to establish systems and structures needed to get a 
Compact implemented. Finally, MCC is developing more realistic first-
year disbursement projections.
    To date, MCC has signed 11 Compacts worth a total value of $3 
billion. MCC expects that two more will be approved and signed within 
the coming weeks, another before the end of the fiscal year, and four 
more early in fiscal year 2008. MCC hopes to conclude another four 
later in fiscal year 2008. Indeed, the eight Compacts in the pipeline 
for fiscal year 2008 total roughly $3 billion, the amount the President 
put forward for MCC in his fiscal year 2008 budget request.
    As MCC Board Chair, I plan to follow-up with MCC on the issue of 
disbursements and budget pipelines to ensure that MCC budget requests 
are fully aligned with these realities and, just as importantly, so 
that partner country expectations regarding rewards for good policies 
and consequences for bad behavior are met. This will ensure that the 
MCC's positive multiplier effect will continue to influence host 
country actions and encourage constructive policy reforms within MCC 
partner countries and beyond.
    Question. For years, an amendment Senator McConnell and I wrote has 
conditioned a portion of our aid to Serbia on its cooperation with the 
war crimes tribunal at The Hague, including apprehending and 
transferring to The Hague former Bosnian Serb leaders Ratko Mladic and 
Radovan Karadzic.
    We know the Serb Army helped protect Mladic, and he remains at 
large. The Serbs say Karadzic is not in Serbia, but that suggests they 
know where he is. The Hague prosecutor says he is there. How is it 
possible that two of Europe's worse war criminals have escaped justice 
for so long? Can we count on you to make clear to the Serb authorities 
and to the European governments that the United States will oppose 
their entry into NATO and other regional economic and security 
organizations unless these men are turned over?
    Answer. We continue to make clear publicly and privately that 
Serbia needs to fully cooperate with the International Criminal 
Tribunal for the Former Yugoslavia before it can completely integrate 
into Euro-Atlantic institutions. While I am fully supportive of Serbia 
becoming part of a united Europe, whole, free, and at peace, and while 
many reforms have been successfully implemented, Serbia simply cannot 
complete its process of integration without several final changes. 
Fundamental to this is the full establishment of the rule of law, 
including the establishment of accountability for war criminals.
    Our policy has been a balanced one. By constructively engaging 
Serbia, encouraging integration, and offering some forms of assistance, 
we have increased our influence, given impetus to reformers within 
Serbia, and have moved our bilateral relationship forward. At the same 
time, we have made clear to the Serbian leadership that their ultimate 
goal of full integration and membership will not come to pass until 
they deal with this issue. This is a point we make in virtually every 
meeting we have with their political and military leadership. And we 
have consistently encouraged our European allies to do the same.
    Ensuring accountability for war criminals is a priority for this 
administration. In March of this year, we critically re-examined our 
efforts to secure the capture of the remaining ICTY fugitives in light 
of recent developments. I can assure you that I continue working to 
realize justice for the victims of atrocities in the Former Yugoslavia. 
As one example, we are currently working towards the establishment of 
mechanisms through which each of the five remaining ICTY fugitives will 
face justice even if their capture eludes us by the time the ICTY 
closes, currently scheduled for the end of 2010. This will send a clear 
signal that fugitives cannot out-wait justice.
    But we are not idly waiting for the remaining fugitives to turn 
themselves in. We are actively encouraging their apprehension. The 
State Department's Office of War Crimes Issues, in coordination with 
the Bureau of European and Eurasian Affairs, has been facilitating 
better cooperation among security services in the region in the 
handling of investigations of fugitives. To that effect, we have 
designated a regional liaison officer to assist war crimes cooperation.
    While it is a disappointment to me that Ratko Mladic and Radovan 
Karadzic remain at large, ultimately, responsibility lies with local 
authorities to apprehend those fugitives who are on their territory. We 
have seen progress recently, including, notably, the recent arrest of 
Zdravko Tolimir, one of the architects of the Srebrenica genocide, but 
we remain focused on the capture of Ratko Mladic and Radovan Karadzic.
    Question. In November 2006 an Indonesian court found Antonius 
Wamang guilty of leading an attack that left two Americans dead and 
eleven people wounded near the gold and copper mine of Freeport McMoRan 
in Timika, West Papua. The conviction of Wamang represents the success 
of years of diplomacy--only after years of pressure from your good 
offices did the Indonesian authorities bring anyone to justice for this 
assault on Americans. Six other men were charged in November as 
Wamang's accomplices. But questions remain about the evidence that 
links some of these men to the murders. Reverend Isak Onawame, a local 
human rights advocate who has met with congressional offices and State 
Department officials, helped convince Wamang to surrender. Reverend 
Onawame accompanied Wamang when he surrendered to FBI special agents in 
Timika. The FBI delivered Wamang, Onawame, and other men to the custody 
of Indonesian police officers. Alleged police mistreatment led to a 
``confession'' of involvement by Reverend Onawame: he told the 
interrogators that he supplied the attackers with rice. Onawame and 
others have since recounted their statements, saying that they were 
made under duress. Is the administration aware of any credible evidence 
linking Reverend Onawame to the murder of American citizens?
    According to the ballistics evidence, 13 guns were fired in the 
attack, including M-16's, yet only three shooters were accounted for. 
The police who conducted the initial investigation concluded the 
military was involved, but the case was taken away from them. Does the 
administration know who supplied the bullets? Does the administration 
have any idea who fired the 10 other guns? What effort is being made to 
find out?
    Answer. The Department also welcomed the conviction of Antonius 
Wamang and his accomplices. The defendants were afforded legal counsel 
and a public trial. It is our understanding that, while the FBI 
continues to pursue investigative leads, it typically does not disclose 
details regarding pending investigations. To the extent the Committee 
is seeking other information regarding this matter, we suggest the 
Committee seek this information from the FBI.
    Question. There have been several cases recently of domestic 
employees, such as housekeepers and gardeners, working at embassies in 
Washington being exploited and abused, their passports seized, and 
being detained against their will by foreign diplomats. I understand 
that in 2000 the State Department informed foreign embassies that visas 
for domestic staff would only be considered if the embassy has a 
contract with the staff person and steps have been taken to ensure they 
understand the terms.
    What is the role of the State Department in ensuring the fair 
treatment of domestic staff at foreign embassies located in the United 
States?
    How is the Department monitoring and enforcing the requirement that 
foreign embassies have a written and understood contract with domestic 
staff?
    Have any visas been denied because of a lack of such contracts, or 
because of prior violations?
    Has the State Department ever pressured a foreign government to 
waive the immunity of any diplomats when there was credible evident 
that they were involved in a serious crime? Could that be done in cases 
of abuse of embassy domestic employees?
    Answer. The State Department has implemented several measures to 
address complaints that diplomatic personnel exploit foreign domestic 
workers. The Department has issued periodic diplomatic notes to 
diplomatic missions containing model employment contracts and 
underscoring the importance of humane treatment of domestic staff. In 
particular, the Department requires that in order for a visa to be 
issued to a foreign domestic worker to come to the United States to 
work for diplomatic or consular personnel, or persons working for an 
international organization, the worker and employer must have agreed to 
a contract that provides fair terms of employment. The contract must be 
in the worker's language and must provide that the worker will be paid 
minimum or prevailing wage, whichever is higher. The contract must also 
have other provisions intended to ensure fair treatment of the worker, 
e.g, a requirement that the worker be given his or her passport. If a 
visa is issued, the issuing consular facility also gives the worker a 
brochure explaining some basic rights of persons in the United States; 
that brochure has a ``hotline'' telephone number that can be called if 
a worker suffers abuse.
    Following issuance of the contract requirement, the numbers of 
visas issued have dropped:
    Fiscal year 1999: A-3/2,279 G-5/1,737
    Fiscal year 2000: A-3/2,486 G-5/1,737
    Fiscal year 2001: A-3/2,228 G-5/1,645
    Fiscal year 2005: A-3/1,227 G-5/998
    Fiscal year 2006: A-3/1,017 G-5/940
    Although there may be several reasons for this, inquiries received 
from consular officers concerning issuance of these visas suggest that 
the contract requirement, coupled with instructions from the Department 
concerning treatment of these workers, has caused fewer visas to be 
issued.
    Recent complaints of abusive conditions that have been brought to 
the Department's attention have prompted Department offices to examine 
what additional steps may be appropriate. The Department plans to 
increase its efforts to obtain better compliance by embassy personnel 
with the registration requirement of the Vienna Convention on 
Diplomatic Relations and to draw to the attention of the diplomatic 
community the importance the Department and other U.S. agencies place 
on compliance with U.S. laws and fair treatment of these workers. 
Additionally, the Department is reviewing the visa issuance process for 
these workers.
    When potential cases of abuse arise, it is the Department's policy, 
stated in internal regulations (2 FAM 234), to request a waiver of 
immunity of a diplomat if a prosecutor informs the Department that 
``but for immunity'' the prosecutor would bring criminal charges 
against a diplomat. This rule is equally applicable to cases of abuse 
of domestic staff. It is important to underscore, however, that many 
members of the diplomatic community, e.g., most consular personnel and 
employees of international organizations, will likely not have immunity 
from either criminal prosecution or civil suit involving abuse of 
domestic staff, so that no waiver of immunity is required for criminal 
and civil actions.
    Question. I understand that when Deputy Secretary Negroponte was in 
Libya last month he raised the case of the Bulgarian nurses and 
Palestinian doctor who were re-sentenced to death last year for 
allegedly infecting children with HIV. Many scientists and physicians 
are concerned that the trial ignored evidence that the virus was spread 
through lack of safe hygiene in the hospital, which may deter other 
health professionals from working in the developing world where they 
might be subject to unfair prosecution. They believe it is important 
that the nurses and doctor not only be released but be exonerated.
    Is it the United States position that they should be exonerated? 
Did the Deputy Secretary ask that the Libyans exonerate them or just 
release them?
    Answer. Deputy Secretary Negroponte met with Libyan Foreign 
Minister Shalgam and other senior Libyan officials during his April 18-
19, 2007, visit to Tripoli. In each of these meetings, the Deputy 
Secretary called upon the Libyan government to find a way to release 
the five Bulgarian nurses and Palestinian doctor imprisoned on charges 
of deliberately infecting over 400 Libyan children with HIV. The U.S. 
Government, including President Bush, has repeatedly expressed its view 
that there is no evidence to suggest that the medical personnel 
conspired to infect the children.
    At the same time, we recognize the human tragedy posed by the 
infection of more than 400 children. The United States is working with 
the EU, UK, and Bulgaria, to help Libya provide necessary medical and 
psychological care to the children and their families.
    Question. There has been a continuing failure to achieve 
accountability for crimes against humanity committed in East Timor in 
1999. At the end of April 2007, Indonesian General Noer Muis 
participated in a joint military exercise with the U.S. Army in 
Indonesia. On February 24, 2003, Muis was indicted with other senior 
officers by the U.N.-backed serious crimes process in East Timor. 
General Muis was tried and convicted for crimes against humanity by 
Indonesia's Ad Hoc Human Rights Court in 2003 for his role in brutal 
attacks on East Timor's Dili Diocese, Bishop Belo's residence and the 
Suai Church massacre in September 1999. However, his conviction, like 
most involving Indonesian military officers, was overturned on appeal.
    Did the State Department know that the U.S. Army was collaborating 
with General Muis, an indicted human rights violator? What does this 
say about the Department's ability to effectively vet lesser known 
military officers to weed out human rights violators, as required by 
U.S. law? What if any steps have been taken to prevent the recurrence 
of a mistake like this?
    Answer. The State Department knows Indonesian General Noer Muis has 
been indicted for war crimes for his role in the events in East Timor 
in 1999. General Muis did not participate in the two-week tabletop 
exercise that was recently conducted in Indonesia by elements of the 
U.S. Pacific Command with members of the Indonesian First Infantry 
Division Strategic Reserve Command (KOSTRAD). Rather, as commander of 
the KOSTRAD, General Muis observed a portion of the exercise for a 
single day. KOSTRAD provided most of the 850 Indonesian soldiers who 
deployed to Lebanon last year as part of the U.N. Interim Force in 
Lebanon (UNIFIL) and is expected to deploy another battalion to Lebanon 
later this year to replace the current battalion. Such exercises serve 
to prepare the Indonesian military (TNI) for peacekeeping duties. It is 
manifestly in our national interest and the interests of the United 
Nations that Indonesia participate in this and other peacekeeping 
operations.
    As required by law, all foreign security force personnel involve in 
State Department-funded training and assistance are subjected to 
vetting for past human rights violations, and known human rights 
violators are not provided such training. In the past 3 years we have 
denied 122 Indonesian applicants training, DOD requests vetting when 
they deem it necessary to comply with their statute and State responds 
to their requests.
    Our interaction with the TNI necessarily means that American 
military and civilian personnel work with those in positions of 
authority. When, in the course of our duties, we must engage with TNI 
leaders with troubling human rights backgrounds, we limit that 
engagement to official business and do not engage in social activities. 
We do not, however, refuse to engage with such individuals in the 
ordinary course of official business nor to accord them the normal 
courtesy that is due official counterparts; such actions would be 
counterproductive. The Department and Embassy Jakarta are working with 
Pacific Command to ensure that in the future such engagement is not 
publicized in a manner that appears to imply USG assistance or support 
for individuals with suspect human rights backgrounds.
    The extraordinary democratic transformation of Indonesia is one of 
the world's great successes of the past 10 years. As integral elements 
of Indonesian society, the Indonesian military (TNI) must be part of 
this transformation. Our interaction with the TNI facilitates the 
adoption of democratic norms such as greater transparency, respect for 
human rights, civilian control, and builds capacity to address 
immediate threats such as terrorism and natural disasters. Indeed, 
these democratic principles are a key component of all training that we 
provide to TNI, after vetting to ensure that gross human rights 
violators are excluded. Our normalized relationship with the TNI is 
producing enormous dividends, both in terms of improving respect for 
human rights and in promoting regional stability. The TNI is out of 
politics, is under civilian leadership, has abolished the ``dual 
function'' role under which military leaders often held positions in 
local civilian government, and is moving to divest itself of business 
interests. Allegations of human rights abuses in Papua and elsewhere 
have fallen steadily.
    We continue on a regular basis to insist in all appropriate fora 
for accountability for past human rights abuses, including during the 
recent Indonesian-U.S. Strategic Dialogue talks conducted by DOD, in 
public remarks, and in meetings with the country's senior leaders. Our 
consistent message is that Indonesia's partners will have more 
confidence in the deep and genuine reforms the Indonesian military has 
undertaken and continues to undertake if credible steps are taken to 
address widespread perceptions that a culture of impunity continues to 
exist.
    Question. Last year on October 27, a young American journalist, 
Bradley Roland Will, was killed as he was filming a political 
demonstration in Oaxaca, Mexico.
    There are photographs and video footage of municipal officials 
including police officers in civilian clothes shooting at demonstrators 
with rifles and pistols, the same day that Bradley Will was shot. At 
least 2 others were killed and 23 were wounded that day. More than 20 
people were killed during the many months that the demonstrations took 
place, and some of those who were arrested were reportedly physically 
and sexually abused in the custody of state and federal police 
officers.
    My office has tried unsuccessfully to get any information from the 
Mexican Government about the killings of civilians in Oaxaca, including 
Bradley Will. Are you satisfied with the investigation of Bradley 
Will's murder? Have any of the municipal officials or police been 
charged with any of the killings of civilians? Is there any hope for a 
thorough, independent investigation into the police conduct in Oaxaca 
during the demonstrations last year?
    Answer. The U.S. Embassy in Mexico City and the Department of State 
have been monitoring the ongoing investigation into the death of Mr. 
Will from the beginning. Embassy officials, including U.S. Ambassador 
to Mexico Antonio Garza, have expressed the concerns and interests of 
the U.S. Government and of the Will family to the Mexican federal and 
Oaxacan state authorities and have offered assistance to ensure a 
complete and proper investigation. The Mexican Government has conducted 
an investigation into the conduct of law enforcement during last year's 
demonstrations, but to date has not filed any charges against local or 
municipal police. The investigation remains ongoing. At this time no 
one has been charged in Mr. Will's death. We hope the involvement of 
the federal Attorney General's Office will move this case forward. The 
Embassy will continue to express our interest in the case at the 
highest levels of the Mexican Government until it is completed.
    Question. In March 2003, Rachel Corrie, a young American woman, was 
run over by an Israeli bulldozer and killed as she was peacefully 
protesting the destruction of a Palestinian family's property. An 
investigation was conducted by the Israeli military, who concluded it 
was a tragic accident. However, the Israeli investigation, which was 
neither thorough nor independent, satisfied neither the State 
Department nor Ms. Corrie's family. As far as I know, there has been no 
follow up. What is being done to obtain a thorough, independent 
investigation of this case involving the death of an American citizen?
    Answer. The Government of Israel conducted two separate 
investigations, one by the Israeli Defense Forces and the other by the 
Military Advocate General's Office. While the second investigation was 
more thorough, we nonetheless made clear to the Government of Israel 
that the investigation failed to meet the standard of thoroughness we 
would expect in such a case. The Corrie family has informed us that 
they are pursuing legal options with the courts in Israel against the 
Israeli Defense Forces. We continue to maintain contact with the Corrie 
family regarding the death of their daughter.
    Question. Despite two separate investigations into the death of 
Rachel Corrie by the Government of Israel, you noted that the 
Government of Israel's investigation ``failed to meet the standard of 
thoroughness we would expect in such a case.''
    Given that this case involved the death of an American citizen, and 
the inadequacies of the investigation by the Government of Israel, what 
further action is the administration taking to obtain an investigation 
that is thorough and credible?
    Answer. The U.S. Government takes matters involving American 
citizens abroad very seriously. In late October, representatives from 
the Department of State met with the Corrie family, along with 
Congressman Baird, to discuss concerns that they have have with respect 
to the tragic death of Rachel Corrie.
    The U.S. Government continues to raise this issue with senior level 
officials in the Israeli Government. On her recent trip to Israel and 
the Palestinian territories, Assistant Secretary of State for Consular 
Affairs Maura Harty raised the issue of Rachel Corrie's death with her 
counterpart at the Israeli Ministry of Foreign Affairs, Mr. Yigal 
Tzarfati. Assistant Secretary Harty gave Mr. Tzarfati a letter 
reiterating the U.S. Government's request that a full and transparent 
investigation of the incident be conducted. She has asked the U.S. 
Embassy in Tel Aviv to follow up with the Government of Israel in 
obtaining a response to her inquiry.
    Question. The Senator Paul Simon Water for the Poor Act of 2005 
commits the United States to support international clean drinking water 
and sanitation. The act calls on the United States to increase support 
for sustainable drinking water supplies and adequate sanitation in 
countries with the greatest need where aid can be used most 
effectively. Yet the State Department's June 2006 ``Report to 
Congress'' showed that U.S. aid for drinking water and sanitation is 
overwhelmingly spent on short-term emergency relief efforts and in a 
few strategically important countries like Afghanistan. Only $24 
million, less than 10 percent of the total, was used for long-term 
development projects. What plans does the administration have to 
allocate increased funds to support long-term, sustainable drinking 
water and sanitation projects, as called for by the act?
    Answer. USAID's fiscal year 2005 Report to Congress showed actual 
obligations of $161 million for drinking water supply projects and 
related activities. Of this amount, $96 million was obligated in the 
International Disaster and Famine Assistance Account (IDFA). While some 
of the IDFA resources are used for short-term relief efforts, these 
funds are also used to establish permanent wells and sanitation 
facilities or other facilities necessary for the longer-term provision 
of water and sanitation services. All of the remaining resources were 
used for long-term sustainable activities regardless of the account.
    In fiscal year 2006 (this report will be delivered to Congress 
shortly) USAID increased total water and sanitation obligations to $203 
million. Of this amount, $86 million came from the IDFA account. USAID 
hopes to maintain this increase in fiscal year 2007.
    Most of the countries with the greatest need are located in Sub-
Saharan Africa. The attached spreadsheet shows that USAID non-IDFA 
funding for water and sanitation in Sub-Saharan Africa increased each 
year from 2002 thru 2006. Again, USAID hopes to maintain this upward 
trend in fiscal year 2007.

                                   2002-2006 USAID WATER OBLIGATIONS IN AFRICA
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                     Fiscal year
                                               -------------------------------------------------------   Total
                                                   2002       2003       2004       2005       2006
----------------------------------------------------------------------------------------------------------------
Water Supply and Sanitation (non-IDFA)........      8.758      9.785     15.385     19.444     22.544     75.916
IDFA-funded Water Supply and Sanitation.......     12.383     29.449     35.230     63.926     59.738    200.726
                                               -----------------------------------------------------------------
      Sub-Total--Water Supply Projects &           21.141     39.234     50.615     83.370     82.282    276.642
       Related Activities.....................
                                               =================================================================
Water Resources Management....................      6.151     14.227     14.452      9.615      4.227     48.672
Water Productivity............................      3.790     11.056     14.640     12.912      5.119     47.517
                                               -----------------------------------------------------------------
      Grand Total--All Water Funding               31.082     64.517     79.707    105.897     91.628    372.831
       Categories.............................
----------------------------------------------------------------------------------------------------------------

    Question. I am concerned about human rights in Ethiopia. Ethiopia 
is a strategic ally, but that should not prevent us from expressing our 
concern about the well-being of Ethiopia's restive and increasingly 
alienated majority populations. From the populous and economically rich 
Oromo region to the vast oil rich Ogaden region, economic and political 
tensions seem to be rising.
    The leaders of Ethiopia's most important opposition party are still 
in prison. What is the evidence against them?
    Answer. Between May 8, 2006 and November 29, 2006, the prosecution 
introduced one audio tape, 19 video tapes, 179 documents, and 54 
witnesses in support of the charges against opposition, civil society, 
and media leaders in Ethiopia's main trial of opposition leaders. This 
evidence described opposition party strategies and deliberations, 
speeches, rallies, press reports, and activities of the defendants. On 
April 9, 2007, upon reviewing the witnesses' testimony and evidence 
submitted, the court dismissed the charges against 25 defendants and 
dismissed all charges of treason and attempted genocide. The court 
found that the evidence submitted in support of the remaining charges 
against the remaining defendants warrants proceeding with the defense 
phase of the trial, which is expected to resume in June 2007. The U.S. 
Government continues to monitor every phase of the judicial 
proceedings.
    Question. Even as the Ethiopian military ends its occupation of 
Somalia, the ethnic Somali people of the Ogaden region feel they are 
oppressed and exploited by the government in Addis Ababa. The largest 
group in this diverse country is the Oromos, and they, along with other 
political groups, are losing patience with what they see as a 
repressive central government.
    We have spent a lot of money to help promote stability in the Horn 
of Africa. Can you assure us that the administration is standing up for 
democracy and human rights even when they are being threatened or 
violated by allies against terrorism like Ethiopia?
    Answer. Significant work remains to be done to strengthen 
democratic institutions and practices and to ensure for the protection 
of human rights in Ethiopia. While our annual Human Rights Report is 
the most public assessment of Ethiopia's performance in protecting the 
human and political rights of Ethiopians, democracy and human rights 
issues remain a permanent element in our bilateral dialogue with 
Ethiopian leaders and civil society.
    The United States has developed a strong partnership with Ethiopia 
to foster progress in these areas. While our foreign assistance 
contributes to capacity building efforts targeting the legislature, 
judicial independence, executive functions, and human rights awareness 
and protection, American diplomats in Ethiopia and Washington urge 
Ethiopian officials to create the environment where improvements in 
these sectors can continue.
    While significant work remains, the Government of Ethiopia has 
taken steps to improve respect for human rights and democratic 
practices following the setbacks in 2005. Through U.S. diplomatic and 
development engagements, we are contributing positively to this effort 
and will continue to encourage important reforms.
    Question. You noted that ``while significant work remains, the 
Government of Ethiopia has taken steps to improve respect for human 
rights and democratic practices following the setbacks in 2005.''
    How has the administration responded to recent reports by 
journalists and NGOs of widespread human rights abuses by Ethiopian 
security forces in the Ogaden region?
    Answer. We take very seriously any and all allegations of human 
rights abuse. Our Embassy staff in Addis Ababa is working to verify 
credible allegations to the extent possible. The Ethiopian Government 
has committed publicly to investigate such allegations.
    We will continue to insist that credible allegations be 
investigated and, where appropriate, that violators are punished. The 
Government of Ethiopia is working with Mr. Kassa, Chairman of the 
Ethiopian Human Rights Commission, to investigate allegations of abuse 
in the Ogaden. Mr. Kassa's team is in Jijiga, on the edge of the 
Ogaden, investigating reports. We are in close contact with the Human 
Rights Commission and will work with this and other groups on any human 
rights enquiry. The United Nations has called for an independent 
investigation of human rights abuses in the Ogaden.
    Question. With the G-8 summit coming up in June, some of our allies 
are focusing on global education. In particular, on May 2, 2007, the 
European Commission and the World Bank hosted a conference on basic 
education in Brussels, entitled ``Keeping our Promises on Education'', 
where they announced a number of new funding commitments to be carried 
forward to the G-8. Are any new U.S. commitments for education planned 
for the G-8 or otherwise along these lines?
    Answer. USG has increased its support for basic education five-
fold, from less than $100 million in fiscal year 2000 to more than $500 
million in fiscal year 2006, and in the same time period more than 
doubled the number of countries receiving basic education support from 
25 to more than 50.
    As a founding partner of the Education for All Fast Track 
Initiative, and signatory to the Paris Declaration on Aid 
Effectiveness, USG has in the past and will continue to align with 
other donors behind country-driven education plans and priorities to 
best meet the human capital needs for the sustainable development of 
each country.
    On May 31, 2007 President Bush called for Congress to fund $525 
million by 2010 or $173 million more a year in fiscal years 2008-2010 
for an estimated $638 million a year for basic education--a 37 percent 
increase over current spending and a 425 percent increase over fiscal 
year 2002 ($150 million) when the President's administration started. 
He also expanded his African Education Initiative, started in 2002, 
from $300 million to $600 million by 2010.
                                 ______
                                 
                Question Submitted by Senator Tom Harkin

    Question. Polio Eradication efforts are clearly working as we have 
seen the number of countries with indigenous polio drop to four, two 
billion children have been immunized, five million have been spared 
disability and over 250,000 deaths have been averted from polio. 
However, until the world is polio-free, every child, even those in the 
United States, is at risk.
    In fiscal year 2007, both the House and Senate included $32 million 
for polio eradication in their respective Foreign Operations 
Appropriations bills.
    A. What amount is included for polio in your fiscal year 2007 
projections?
    B. What is included for polio in your fiscal year 2008 budget 
submission?
    Answer. For fiscal year 2007, USAID intends to provide $31,680,000 
for polio eradication, which meets the House and Senate request level 
minus a 1 percent rescission.
    For fiscal year 2008, the administration will fund polio 
eradication but specific funding levels are still under consideration.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin

    Question. For the coming fiscal year, the President requested only 
$300 million for the Global Fund to Fight AIDS, Tuberculosis, and 
Malaria in his budget and all of that in Labor Health and Human 
Services rather than the Foreign Operations account. The Global Fund 
estimated need for the U.S. contribution is $1.3 billion. Why is the 
President continuing to lowball this important multilateral program 
that leverages U.S. contributions? Why did the President omit the 
Global Fund entirely from his Foreign Operations request and place the 
entire request in the Labor, Health and Human Services account?
    Answer. The Global Fund is an important part of the strategic plan 
that guides implementation of the President's Emergency Plan for AIDS 
Relief (Emergency Plan/PEPFAR). The U.S. Government (USG) share of 
total Global Fund contributions has held consistently at approximately 
30 percent. The USG initially made a 5-year pledge of $1 billion for 
the Global Fund in years 2004-2008. If the $300 million in the 
President's 2008 Budget is approved, the USG will have nearly tripled 
that commitment to the Global Fund by contributing about $2.5 billion.
    In order to provide adequate financial and human resources to 
complete the goals of PEPFAR as well as maintain U.S. leadership in the 
Global Fund, the President has spread the request for HIV/AIDS-related 
resources across the two appropriations bills (Foreign Operations and 
Labor-Health and Human Services).
    We consider this interagency approach in representing the United 
States on the Global Fund to be one of our coordination success 
stories. Through the Global Aids Coordinator, who has overall 
responsibility for ensuring that all statutory benchmarks have been met 
before any USG contribution is made, USAID, State, and HHS regularly 
meet and fully coordinate on all aspects of the Global Fund.
    The Department of Health and Human Services (HHS) was instrumental 
in the administration's efforts to establish the Global Fund and 
continues to have an active role on its Board. The National Institutes 
of Health (NIH) makes a significant contribution to global HIV/AIDS, 
TB, and Malaria activities. Requesting the USG contribution within NIH 
continues HHS' longstanding role in the advancement of the Global Fund.
    Question. When Beijing exercises its considerable influence, 
Khartoum appears to listen and we see progress such as the agreement to 
allow 3,000 peacekeepers. But then China provides assistance to build a 
new presidential palace and wants to develop expanded military 
cooperation in all areas. How do you evaluate China's role in Darfur?
    Answer. China has an important role to play in ending the genocide 
in Darfur. China's leverage is not absolute, but there is much that it 
can do. For example, China can do more to persuade Khartoum to accept 
the full deployment of the U.N./AU hybrid peacekeeping force under U.N. 
command structures, and to convince Khartoum to engage seriously in a 
peace process that involves all parties to the conflict. China's lead 
diplomat at the United Nations, Wang Guangya, helped broker the 
November agreement in Addis Ababa in which the Government of Sudan 
accepted, in principle, the three-phase deployment of the U.N./AU 
force. As you mention, China's diplomacy was likely influential in 
convincing President Bashir to accept the 3,000-person ``heavy support 
package'' (HSP) under phase two of the deployment. Perhaps most 
significantly, Beijing recently agreed to send a 275-person engineering 
unit as part of the HSP. Special Envoy Natsios, Deputy Secretary 
Negroponte, and Assistant Secretary Frazer have all had serious, in-
depth discussions on Sudan with the Chinese, as have I.
    President Bashir has reneged on a number of his commitments and 
continues to obstruct the full deployment of the U.N./AU force under 
phase three. Full deployment is the key, and we are committed to 
working with China and our other international partners to apply 
pressure on President Bashir to accept the full U.N./AU force 
unequivocally.
    China is not where we would like it to be on Darfur. The no-
interest loan to build a palace in Khartoum that you mention is one 
clear example. We have also communicated our serious concerns to China 
that weapons sold to the Government of Sudan have contributed to the 
violence in Darfur. At the same time, we do see movement in China's 
position and believe that Beijing has made a decision that it must join 
with the international community in insisting that the atrocities in 
Darfur must stop.
    Question. How is the Department of State addressing the 
geopolitical implications of global warming?
    Answer. We recognize the seriousness of global climate change and 
the importance of reducing greenhouse gas emissions, enhancing energy 
security and promoting sustainable development.
    Two years ago, G8 leaders agreed that tackling climate change, 
promoting clean energy and achieving sustainable development globally 
are serious and linked challenges. The President announced on May 31 
U.S. support to develop by the end of 2008 a new post-2012 framework on 
climate change based on the principles that climate change must be 
address by fostering both energy and economic security and by 
accelerating the development and deployment of transformational clean 
energy technology.
    Secure, reliable and affordable energy sources are fundamental to 
economic stability and development. One-third of the world's people 
lack access to modern energy services. This blocks their path to better 
health and prosperity.
    In consultation with our developing country partners, G8 leaders 
committed to reduce greenhouse gas emissions, improve the global 
environment, and enhance energy security in ways that promote human 
development.
    The United States plays an integral part in promoting the advanced 
energy technologies that are helping people, while protecting the 
global environment.
    The President has in place a comprehensive strategy to address 
climate change that incorporates incentives, mandatory programs, and 
international partnerships all that will help us meet the President's 
goal to reduce greenhouse gas intensity 18 percent by 2012. This policy 
is working as we are well on track to meet that goal. The U.S. 
Department of State supports the President's strategy in international 
fora and works closely with our international partners to implement 
innovative climate change partnerships.
    For example, we are working with Brazil to advance biofuels. We 
facilitated an agreement with China to install the largest coal mine 
methane power facility in the world. Through the Asia-Pacific 
Partnership for Clean Development and Climate, we are expanding 
investment and trade in cleaner energy technologies.
    Our development assistance program, through USAID, dedicates about 
$180 million a year to build resilience to climate variability and 
change in developing countries. Our efforts include analyzing data from 
Earth observations, developing decision support tools, and integrating 
climate information into development programs.
    All of these activities are part of a broader development agenda 
that encourages global collaboration to improve energy security, 
address greenhouse gasses and reduce air pollution, while ensuring 
continued economic growth. These activities aim to achieve a secure 
energy supply and a cleaner global environment.
    The most effective way to bolster security and stability, however, 
is to increase the capacity of states to govern legitimately and 
protect basic human freedoms. States that can govern effectively can 
best anticipate and manage change.
    Stresses associated with energy shortages or climate impacts may be 
among factors putting pressure on government capacity in this century, 
as might population growth, natural disasters, but absence of these 
stresses will not eliminate civil strife.
    Successful long-term development strategies must also focus upon 
education, rule of law, good governance, and the protection of human 
freedom and economic reforms. The State Department works with countries 
across the globe to promote this integrated development agenda and 
support countries in making choices that will provide strong and 
functioning institutions and policies, and promote just governance and 
rule of law. Such choices are a much more important determinant of 
peace and security independent of any specific climate or environmental 
impact.
    The United States has a long history of extending a helping hand so 
that people can live in democratic societies with strong and stable 
governance.
    The Millennium Challenge Corporation (MCC) is a global investment 
fund based on the principle that aid is most effective when it 
reinforces good governance, economic freedom and investments in people. 
Since its establishment in 2004, MCC has provided nearly $3 billion to 
11 countries to help them reduce poverty and stimulate economic growth.
    Around the world, the United States is promoting free and fair 
election processes, full participation of all citizens, civil 
societies, and media freedom. With our international partners, these 
efforts are strengthening governance and international security.
    The State Department will continue to promote the United States' 
leadership role of engaging with other nations on these issues of vital 
importance through our bilateral and regional initiatives and in 
appropriate multilateral fora, such as the G8 and the United Nations.
    Question. What about the anticipated consequences for health and 
development? Some of the most economically vulnerable and politically 
fragile countries are also those most at risk from global warming. What 
steps are you taking to assist adaptation EFFORTS?

                         HEALTH AND DEVELOPMENT

    Answer. On the potential health implications of climate change, 
impacts are difficult to discern due to adaptation and many non-
climatic drivers. In addition, research continues to focus on effects 
in high income countries, and there remain important gaps in 
information for the more vulnerable populations in low- and middle-
income countries.
    According to the Intergovernmental Panel on Climate Change (IPCC) 
Fourth Assessment Report, ``projected climate change-related exposures 
are likely to affect the health status of millions of people, 
particularly those with low adaptive capacity, through:
  --increases in malnutrition and consequent disorders, with 
        implications for child growth and development;
  --increased deaths, disease and injury due to heat waves, floods, 
        storms, fires and droughts;
  --increased burden of diarrhoeal disease;
  --increased frequency of cardio-respiratory diseases due to higher 
        concentrations of ground level ozone related to climate change; 
        and,
  --altered spatial distribution of some infectious disease vectors 
        (high confidence).
    ``Climate change is expected to have some mixed health effects, 
such as the decrease or increase of the range and transmission 
potential of malaria in Africa (high confidence). Studies in temperate 
areas have shown that climate change is projected to bring some 
benefits, such as fewer deaths from cold exposure. Overall it is 
expected that these benefits will be outweighed by the negative health 
effects of rising temperatures world-wide, especially in developing 
countries (high confidence). Most projections suggest modest changes in 
the burden of climate-sensitive health outcomes over the next few 
decades, with larger increases beginning mid-century. The balance of 
positive and negative health impacts will vary from one location to 
another, and will alter over time as temperatures continue to rise. 
Critically important will be factors that directly shape the health of 
populations such as education, health care, public health prevention 
and infrastructure and economic development (very high confidence).''

                          ASSISTING ADAPTATION

    Climate shapes a wide range of activities and decisions, from the 
types of crops grown to the design and construction of buildings, water 
delivery systems, and other infrastructure. In countries that are 
already at risk from food insecurity, ecosystem degradation, or weak 
institutional capacity, short- and long-term changes in the climate 
pose an additional challenge to sustainable development. A diverse, 
robust, and open economy can better withstand many types of 
disruptions, including those related to climate events.
    The United States collaborates with developing country partners in 
a broad range of activities designed to better understand climate and 
its implications for development and to build resilience to climate 
variability and change. These activities include analyzing data from 
Earth observations, developing decision support tools, and integrating 
climate information into development programs and projects.
    All of these activities assist countries in developing stronger 
institutional capacity and more flexible and resilient economies that 
have the capacity to address both the challenges and the opportunities 
presented by changing climatic conditions.
    In addition, the United States encourages all developing countries 
to establish their own national development plans with the view to 
create thriving, prosperous economies in recognition that successful 
growth must be predicated upon education, rule of law, good governance, 
the protection of human freedom and economic reforms. This successful 
and proven approach underpins our wide range of programs and activities 
that assist all developing countries through our trade policies, 
development assistance programs, and international environmental 
initiatives, as well as our support for such internationally-agreed 
strategies as the Doha Development Agenda, the Monterrey Consensus, the 
Johannesburg Plan of Implementation, and the Delhi Declaration.

                      MILLENNIUM DEVELOPMENT GOALS

    On the issue of whether climate change will negatively impact our 
ability to implement the Millennium Development Goals (MDG's), it is 
important to understand that the MDG's are set for 2015, while 
projected climate change impacts span a much larger time scale. 
According to the IPCC Working Group II Report (Chapter 20): ``The 
anthropogenic drivers of climate change, per se, affect MDG indicators 
directly in only two ways: in terms of energy use per dollar GDP and 
CO<INF>2</INF> emissions per capita. While climate change may, with 
high confidence, have the potential for substantial effects on aspects 
of sustainability that are important for the MDG's, the literature is 
less conclusive on whether the metrics themselves will be sensitive to 
either the effects of climate change or to progress concerning its 
drivers, especially in the near-term.''
                                 ______
                                 
            Questions Submitted by Senator Mary L. Landrieu

    Question. How could such valuable assistance be turned away in such 
a great time of need? What are your reasons for turning away the 
offered foreign aid? How did this happen?
    Answer. Katrina generated an unprecedented outpouring of assistance 
from allies and friends around the world. All of these offers of 
assistance were greatly appreciated, and, in fact, many of the offers 
were accepted and directed to hurricane recovery efforts. At the same 
time, not all offers of material and personnel assistance was or could 
be accepted for reasons set forth below. Moreover, as explained more 
fully below, not all offers of financial assistance were directed to 
the U.S. Government. With our encouragement, a considerable amount of 
financial assistance was donated directly to NGOs working in the 
affected areas. While some other pledges did not materialize, all 
financial assistance that was received by the U.S. Government was 
directed toward hurricane recovery efforts.
    The Department of State moved to support the Federal Emergency 
Management Agency (FEMA), the Department of Homeland Security (DHS) and 
other Federal partners that were leading in the response to the 
disaster. One of the Department's mandates is to help American citizens 
in trouble/need overseas. This was a unique opportunity to help 
American citizens within the United States. The State Department acted 
as an intermediary for foreign offers of assistance to the U.S. 
Government and worked with FEMA, USAID, and other agencies to respond 
to such requests and expedite delivery of assistance.
    We had two main objectives:
  --Provide all possible support requested by Federal partners.
  --Protect the American people by maintaining U.S. health and safety 
        standards as directed by Federal regulators.
    The U.S. Government encouraged foreign donors to direct their cash 
assistance to private organizations from the beginning, consistent with 
the consensus among aid professionals that cash assistance to relief 
organizations in the affected region was the best way for donors to 
help. The amount of cash actually donated to the U.S. Government from 
international sources totaled $126 million, all of which has been 
distributed by the Department of State to other USG agencies. Not all 
pledges of cash resulted in actual donations--over $450 million in 
pledges were not fulfilled.
    Working with imperfect information from first responders on 
conditions and needs on the ground, the Department of State worked with 
FEMA and other agencies to identify and arrange transport of 
commodities, equipment, experts and other in-kind assistance that could 
be utilized quickly and efficiently.
    Not all international material assistance offered was needed. 
Disaster logisticians at FEMA and USAID evaluated the commodities and 
services offered by foreign governments and organizations, and accepted 
only those that made sense given all of the normal considerations 
during a disaster--e.g. transport, storage, and processing. In many 
cases, material assistance was more readily available from within the 
United States. Furthermore, some of the foreign commodities offered 
were not approved for entry into the United States by U.S. regulators, 
especially foodstuffs and medical equipment and supplies. Similarly, 
some offers of medical services and emergency medical teams were also 
not accepted due to state-based licensing requirements and related 
issues. We did not want to accept goods which could or would not be 
used. In total, the Department of State, working with USAID and FEMA, 
coordinated the donation of over 5 million pounds of relief supplies.
    Question. Was an internal investigation conducted on this 
mishandling? Was any action taken against employees who were identified 
in trying to cover-up or hide mishandling of situations, specifically 
the individual just quoted in regards to the Italy debacle?
    Answer. Hurricane Katrina was an unprecedented disaster that 
presented unique challenges to domestic agencies and foreign 
governments trying to assist. The State Department, working with other 
agencies, responded to foreign offers of assistance as quickly and 
flexibly as circumstances permitted.
    The State Department has participated in extensive interagency 
lessons learned reviews and exercises that addressed problems 
identified during Hurricane Katrina. As a result, the U.S. Government 
has developed significantly improved policies, procedures, and plans 
for managing international assistance for future domestic disasters.
    The Homeland Security Council (HSC) led an after action review of 
the U.S. Government response to Katrina, including how we handled 
offers of assistance from foreign governments. The HSC and key 
agencies, including the State Department, reviewed the response, both 
what went well and what we can do better, and updated the National 
Response Plan to guide agency actions if another major disaster were to 
strike the United States. The State Department, USAID, FEMA, the 
Defense Department and others contributed to the plan.
    USG officials did the best they could under unprecedented 
circumstances. There was no cover up of the Italy medical supply 
contribution. State Department officials were in regular contact with 
Italian authorities regarding the contribution, including on the 
disposal of the spoiled supplies.
    GAO reviewed the handling of foreign assistance in its report on 
Hurricane Katrina International Aid (GAO-06-460, April 2006). In its 
report, the GAO recognized that ``although DOS's procedures were ad 
hoc, they did ensure the proper recording of international cash 
donations that have been received to date, and [GAO was] able to 
reconcile the funds received with those held in the designated DOS 
account at Treasury.''
    Question. I know $60 million of the $126.4 million has been 
allocated to Louisiana and Mississippi K-12 and Higher Ed institutions 
and that $66 million was contracted to a consortium of 10 faith-based 
and charity groups, but how much has actually been distributed/used to 
date? What is holding up the distribution of the remaining funds?
    Answer. The Department of State transferred $66 million to FEMA on 
October 20, 2005 and $60 million to the Department of Education (DoEd) 
on March 17, 2006. Although State is not directly responsible for 
managing the distribution of these funds, we understand from FEMA and 
DoEd that:
    FEMA awarded $66 million to The United Methodist Committee of 
Relief (UMCOR) as a grant to provide case management services.
    FEMA facilitates the UMCOR grant. UMCOR established Katrina Aid 
Today (KAT), a consortium of 10 non-profit relief organizations, to 
provide case management services in Louisiana and Mississippi. To date, 
KAT has utilized $33 million and are on track to utilize the balance of 
the $66 million in the remaining time of the grant.
    DoEd awarded grants totaling $30 million available to 14 Higher 
Education institutions in Louisiana and Mississippi. These institutions 
have been able to draw on those funds according to their own 
reconstruction timetables. We understand that as of April 27, 2007, 
some institutions had utilized their entire grants; others were still 
drawing on the available funds as they proceed with their 
rehabilitation plans.
    DoEd asked the Louisiana DoEd to develop a program to award grants 
totaling $25 million. On April 19, 2007, the Louisiana Board of 
Education approved grants of $190,000 each to 130 private and public 
schools. The current award period for use of these funds runs until 
November 30, 2007. Funds would be available on a year to year basis 
until all funds have been expended.
    DoEd distributed $5 million to the Greater New Orleans Educational 
Foundation for the planning and implementation of a long range strategy 
for K-12 educational services.
    Question. Also, some questions were raised surrounding the terms in 
the contract proposal for the $66 million consortium contract. Are you 
conducting oversight on this proposal, to ensure it is being used 
solely for its intended purposes?
    Answer. The Department of State distributed $66 million to the 
Federal Emergency Management Agency (FEMA) in October 2005, to finance 
a social service case management system for Katrina's victims. In 
December 2005, DHS/FEMA granted the $66 million to the United Methodist 
Committee on Relief (UMCOR), which established Katrina Aid Today, a 
case management consortium of ten social service and voluntary 
organizations.
    FEMA has assured State that it is conducting oversight of the 
contract to ensure appropriate use in accordance with standard auditing 
practice/procedures. State officials met with officials from FEMA's 
Office of Inspector General when that entity was developing its 
auditing plans.
    FEMA requires quarterly reports that address both financial and 
programmatic information as well as weekly reports detailing the number 
of cases and case managers. FEMA has appointed a liaison to Katrina Aid 
Today that not only monitors reports but attends meetings at all levels 
(national, regional, grass roots) and consults with Katrina Aid Today 
on all programmatic and informational exchanges.
    Question. What is the progress/status of the State Department's 
progress on completing all 9 recommendations from the Federal 
Government Katrina Lessons Learned exercise? If you have completed all 
recommendations, were they finished before June 1, 2006?
    Answer. Below are the recommendation and status of the nine items 
identified for the State Department from the Katrina Lessons Learned 
exercise:
    Recommendation 89. DOS should lead the revision of the 
International Coordination Support Annex (ICSA) to the National 
Response Plan (NRP), clarifying responsibilities of Department of State 
(DOS), Department of Homeland Security (DHS), Department of Defense 
(DOD), and other supporting agencies in response to domestic incidents. 
This revision should begin immediately.
    Status: Completed. A State Department-led interagency group 
completed the first revision of the ICSA in February 2007 in 
consultation with the Homeland Security Council. The revisions clarify 
expanded roles and responsibilities of USG agencies in managing the 
international aspects of a domestic incident. The group also included 
representatives from the Departments of Homeland Security, Defense, 
Health and Human Services, Agriculture, and Transportation, and the 
Agency for International Development.
    Recommendation 90. DOS and DHS should lead an interagency effort 
that will quickly develop procedures to review, accept or reject any 
offers of international assistance for a domestic catastrophic 
incident.
    Status: Completed. An interagency group consisting of the 
Department of State, USAID/Office of Foreign Disaster Assistance (AID), 
DHS/FEMA, DOD, and the American Red Cross (ARC) has developed a system 
for managing international assistance during a domestic disaster. The 
system outlines policies and procedures to systematically manage offers 
of, or United States requests for, international material assistance 
during a United States domestic disaster. It also specifies the roles 
and responsibilities of participant agencies, provides standard 
operating procedures for managing offers of foreign assistance and 
domestic requests for foreign resources, and outlines the process for 
receiving and distributing international assistance that is accepted by 
the U.S. Government. The core procedures and arrangements detailed in 
the manual were agreed informally among participants by June 1, 2006.
    Recommendation 91. DHS should lead an interagency effort to create 
and routinely update a prioritized list of anticipated disaster needs 
for foreign assistance and a list of items that cannot be accepted.
    Status: Completed. The interagency has established procedures for 
coordinating with USG regulatory agencies for the entry, handling, and 
use of foreign resources during a disaster. Regulatory agencies provide 
technical advice and review offers of international assistance prior to 
FEMA acceptance. The procedures include guidance on acceptable and 
unacceptable items to assist the Department of State in communicating 
with the international community.
    Recommendation 92. DOS should establish an interagency process to: 
determine appropriate uses of international cash donations; to ensure 
timely use of these funds in a transparent and accountable manner; to 
meet internal Federal Government accounting requirements; and to 
communicate to donors how their funds were used.
    Status: Completed. Procedures have been established to manage the 
receipt, distribution, and use of foreign cash donations made during a 
domestic disaster. An interagency Working Group will be convened as 
necessary to address fund management issues and make recommendations on 
funding disaster recovery projects. Immediate needs would be pre-
identified by FEMA, with the understanding that certain donations may 
be directed to longer term disaster recovery.
    Recommendation 93. Public and Diplomatic Communications during 
domestic emergencies should both encourage cash donations--preferably 
to recognized nonprofit voluntary organizations with relevant 
experience--and emphasize that donations of equipment or personnel 
should address disaster needs.
    Status: Completed. As was done during Katrina, the State Department 
provides instructions to all U.S. diplomatic missions abroad advising 
them to encourage foreign entities wishing to assist to make cash 
donations directly to appropriate NGOs rather than the USG.
    Recommendation 94. The Department of State and the Department of 
Homeland Security should jointly develop procedures to ensure that the 
needs of foreign missions are included in domestic plans for tracking 
inquiries regarding persons who are unaccounted for in a disaster zone.
    Status: Completed. The Department of State has worked with DHS/FEMA 
and the ARC to ensure that, during a domestic disaster, the USG honors 
its international obligations under the Vienna Convention on Consular 
Relations. Although the USG is not required to track down and find 
missing foreign nationals during a disaster in the United States, under 
the Convention it is obligated to assist foreign missions in obtaining 
``appropriate consular access'' to their nationals.
    The Department of State's Office of Public Affairs has designated 
personnel to work with DHS/FEMA during domestic emergencies. These 
personnel will train with DHS/FEMA and will be part of FEMA's 
information operation from the outset of a major domestic crisis, in 
order to ensure efficient handling of queries from and consistent 
messaging to foreign missions and foreign media.
    The Department of State's Office of Foreign Missions and the ARC 
have discussed with foreign missions in Washington, DC how foreign 
missions can best utilize the ARC's missing persons' registry to locate 
missing foreign nationals in the United States.
    Recommendation 95. DHS and DOS should revise the NRP to include DOD 
and Department of Agriculture (USDA)-Food Safety Inspection Service as 
cooperating agencies to the International Coordination Support Annex. 
Including DOD more directly in foreign assistance management would 
leverage existing relationships with partner military establishments 
and help to ensure that staging areas for the acceptance of foreign aid 
are preplanned and quickly available.
    Status: Completed. The revised ICSA Annex to the NRP includes both 
DOD and USDA as cooperating agencies. Within the IAS, regulatory 
agencies such as the USDA provide technical advice and review offers of 
international assistance prior to FEMA acceptance.
    Recommendation 96. DHS should include DOS and foreign assistance 
management in domestic interagency training and exercise events. 
Inclusion in the new National Exercise Program (NEP) should occur 
before the end of fiscal year 2006.
    Status: We refer you to DHS regarding its training and exercise 
events. We understand DHS is developing an international assistance 
training module for use in future exercises. DHS can provide more 
detailed information.
    Recommendation 97. DHS should provide daily disaster response 
situational updates through the Secretary of State to all Chiefs of 
Mission or Charge d'Affaires. These updates should improve situational 
awareness and provide information to address host government concerns 
or questions.
    Status: DHS has assured State it will provide appropriate updates 
to inform U.S. Missions overseas and, by extension, foreign 
governments.
    Question. What is the timeline of when an amendment to the 
International Coordination Support Annex to the National Response Plan 
may take place? What else must be completed to reach this goal?
    Answer. An interagency group completed the first revision of the 
ICSA in February 2007. The group included representatives from the 
Departments of State, Homeland Security, Defense, Health and Human 
Services, Agriculture, and Transportation, and the Agency for 
International Development. Within the Department of State, we continue 
to ensure that relevant bureaus are familiar with the changes to the 
National Response plan and prepared to act in the event the National 
Response Plan is activated.
    Question. With DOS designated the lead agency, can I get from you, 
in writing, the status of where all affected agencies are in completing 
the nine recommendations. If they are complete, I want to know their 
status on completing final recommendation for amending the 
International Coordination Support Annex to the National Response Plan?
    Answer. Below are the recommendation and status of the nine items 
identified for the State Department from the Katrina Lessons Learned 
exercise:
    Recommendation 89. DOS should lead the revision of the 
International Coordination Support Annex (ICSA) to the National 
Response Plan (NRP), clarifying responsibilities of Department of State 
(DOS), Department of Homeland Security (DHS), Department of Defense 
(DOD), and other supporting agencies in response to domestic incidents. 
This revision should begin immediately.
    Status: Completed. A State Department-led interagency group 
completed the first revision of the ICSA in February 2007 in 
consultation with the Homeland Security Council. The revisions clarify 
expanded roles and responsibilities of USG agencies in managing the 
international aspects of a domestic incident. The group also included 
representatives from the Departments of Homeland Security, Defense, 
Health and Human Services, Agriculture, and Transportation, and the 
Agency for International Development.
    Recommendation 90. DOS and DHS should lead an interagency effort 
that will quickly develop procedures to review, accept or reject any 
offers of international assistance for a domestic catastrophic 
incident.
    Status: Completed. An interagency group consisting of the 
Department of State, USAID/Office of Foreign Disaster Assistance (AID), 
DHS/FEMA, DOD, and the American Red Cross (ARC) has developed a system 
for managing international assistance during a domestic disaster. The 
system outlines policies and procedures to systematically manage offers 
of, or United States requests for, international material assistance 
during a United States domestic disaster. It also specifies the roles 
and responsibilities of participant agencies, provides standard 
operating procedures for managing offers of foreign assistance and 
domestic requests for foreign resources, and outlines the process for 
receiving and distributing international assistance that is accepted by 
the U.S. Government. The core procedures and arrangements detailed in 
the manual were agreed informally among participants by June 1, 2006.
    Recommendation 91. DHS should lead an interagency effort to create 
and routinely update a prioritized list of anticipated disaster needs 
for foreign assistance and a list of items that cannot be accepted.
    Status: Completed. The interagency has established procedures for 
coordinating with USG regulatory agencies for the entry, handling, and 
use of foreign resources during a disaster. Regulatory agencies provide 
technical advice and review offers of international assistance prior to 
FEMA acceptance. The procedures include guidance on acceptable and 
unacceptable items to assist the Department of State in communicating 
with the international community.
    Recommendation 92. DOS should establish an interagency process to: 
determine appropriate uses of international cash donations; to ensure 
timely use of these funds in a transparent and accountable manner; to 
meet internal Federal Government accounting requirements; and to 
communicate to donors how their funds were used.
    Status: Completed. Procedures have been established to manage the 
receipt, distribution, and use of foreign cash donations made during a 
domestic disaster. An interagency Working Group will be convened as 
necessary to address fund management issues and make recommendations on 
funding disaster recovery projects. Immediate needs would be pre-
identified by FEMA, with the understanding that certain donations may 
be directed to longer term disaster recovery.
    Recommendation 93. Public and Diplomatic Communications during 
domestic emergencies should both encourage cash donations--preferably 
to recognized nonprofit voluntary organizations with relevant 
experience--and emphasize that donations of equipment or personnel 
should address disaster needs.
    Status: Completed. As was done during Katrina, the State Department 
provides instructions to all U.S. diplomatic missions abroad advising 
them to encourage foreign entities wishing to assist to make cash 
donations directly to appropriate NGOs rather than the USG.
    Recommendation 94. The Department of State and the Department of 
Homeland Security should jointly develop procedures to ensure that the 
needs of foreign missions are included in domestic plans for tracking 
inquiries regarding persons who are unaccounted for in a disaster zone.
    Status: Completed. The Department of State has worked with DHS/FEMA 
and the ARC to ensure that, during a domestic disaster, the USG honors 
its international obligations under the Vienna Convention on Consular 
Relations. Although the USG is not required to track down and find 
missing foreign nationals during a disaster in the United States, under 
the Convention it is obligated to assist foreign missions in obtaining 
``appropriate consular access'' to their nationals.
    The Department of State's Office of Public Affairs has designated 
personnel to work with DHS/FEMA during domestic emergencies. These 
personnel will train with DHS/FEMA and will be part of FEMA's 
information operation from the outset of a major domestic crisis, in 
order to ensure efficient handling of queries from and consistent 
messaging to foreign missions and foreign media.
    The Department of State's Office of Foreign Missions and the ARC 
have discussed with foreign missions in Washington, DC how foreign 
missions can best utilize the ARC's missing persons' registry to locate 
missing foreign nationals in the United States.
    Recommendation 95. DHS and DOS should revise the NRP to include DOD 
and Department of Agriculture (USDA)-Food Safety Inspection Service as 
cooperating agencies to the International Coordination Support Annex. 
Including DOD more directly in foreign assistance management would 
leverage existing relationships with partner military establishments 
and help to ensure that staging areas for the acceptance of foreign aid 
are preplanned and quickly available.
    Status: Completed. The revised ICSA Annex to the NRP includes both 
DOD and USDA as cooperating agencies. Within the IAS, regulatory 
agencies such as the USDA provide technical advice and review offers of 
international assistance prior to FEMA acceptance.
    Recommendation 96. DHS should include DOS and foreign assistance 
management in domestic interagency training and exercise events. 
Inclusion in the new National Exercise Program (NEP) should occur 
before the end of fiscal year 2006.
    Status: We refer you to DHS regarding its training and exercise 
events. We understand DHS is developing an international assistance 
training module for use in future exercises. DHS can provide more 
detailed information.
    Recommendation 97. DHS should provide daily disaster response 
situational updates through the Secretary of State to all Chiefs of 
Mission or Charge d'Affaires. These updates should improve situational 
awareness and provide information to address host government concerns 
or questions.
    Status: DHS has assured State it will provide appropriate updates 
to inform U.S. Missions overseas and, by extension, foreign 
governments.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed

    Question. The START Strategic Arms Reduction Treaty expires 
December 2009 but either side must notify the other one year in 
advance. The Russians have expressed an interest in beginning 
discussions, but the United States does not appear to be interested. 
When will the United States begin discussions on START I extension?
    The Moscow Treaty, even though it is a Treaty of no duration beyond 
the day in 2012 when it comes into force and expires, relies on the 
inspection provisions of START I. Unless START I is extended there is 
no transparency or semblance of verification under the Moscow Treaty.
    Would the administration support multiparty talks along the lines 
of those suggested by Senator Nunn, George Schultz, and Henry 
Kissinger, to substantially reduce total stockpiles of nuclear weapons?
    Why should other nations not be worried about the U.S. decision to 
pursue a Reliable Replacement Warhead? How is this program consistent 
with the U.S. obligations under Article VI of the NPT? (Article VI 
directs the nuclear weapons states to work toward the elimination of 
nuclear weapons)
    Answer. The START Treaty was valuable in a time when the United 
States and Russia had a relationship based on enmity and distrust. The 
Moscow Treaty took the first step in formalizing our new strategic 
relationship. As a result, by the end of 2012, both sides will have 
reduced their strategic nuclear warheads to no more than 1,700-2,200, 
the lowest levels in decades and less than one quarter of their cold 
war peak. In addition, the United States and Russia have both stated 
their intention to carry out strategic offensive reductions to the 
lowest level consistent with their national security requirements, 
including commitments to allies and friends.
    By its terms, the START Treaty is scheduled to expire in December 
2009. In anticipation of the expiration, the United States and Russia 
have begun to consider and discuss what type of arrangement will follow 
START. Both sides believe that it is important for a follow-on 
arrangement to provide predictability for the sides in strategic 
matters. We need to understand the trends and directions of each 
others' strategic nuclear forces. Neither side believes that extension 
of the START Treaty is the most effective way to achieve the 
predictability we seek, although both are drawing upon the START Treaty 
to find the best tools to either employ or modify for gaining the 
predictability our two nations seek.
    Former Under Secretary of State for Arms Control and International 
Security Affairs, Robert Joseph, met several times over the past year 
with his Russian counterpart, Deputy Foreign Minister Sergey Kislyak to 
explore a post-START arrangement. At their meeting on January 29 in 
Moscow, they agreed to hold experts talks to continue the exchanges on 
this subject.
    The first of these meetings was held in Berlin on March 28. The 
United States effort is led by Assistant Secretary of State for 
Verification, Compliance and Implementation, Paula DeSutter. The 
Russian effort is lead by Ministry of Foreign Affairs Director of 
Security and Disarmament Affairs, Anatoliy Antonov.
    The United States and Russia are now engaged in discussions aimed 
at developing transparency and other measures to provide continuity and 
predictability regarding strategic nuclear forces in a post-START 
arrangement, including exchanges of information, notifications, visits, 
and other mutually agreed measures.
    With respect to the Reliable Replacement Warhead (RRW), RRW will 
enable us to fulfill the President's goal of achieving a credible 
deterrent with the lowest possible number of nuclear warheads 
consistent with our national security needs, including our obligations 
to our allies. RRW is not a new military capability, but is a means to 
incorporate new technology for safety, security, and to ensure-long-
term reliability of the U.S. nuclear stockpile. RRW is fully consistent 
with our obligations under the Nuclear Nonproliferation treaty--
including Article VI--and would eventually enable further reductions in 
the stockpile. RRW will reduce the likelihood of the need to return to 
underground nuclear testing. It will also strengthen extended 
deterrence and our commitment to allies and friends.
    Question. In its fiscal year 2008 budget request, the 
administration breaks the parity between Armenia and Azerbaijan, in 
favor of Azerbaijan, in both Foreign Military Financing (FMF) and 
International Military Education and Training (IMET). What is the 
rationale for the divergence from military parity between Armenia and 
Azerbaijan?
    Would a break in military parity in Azerbaijan's favor undermine 
the Nagorno Karabakh peace process and negate the role of the United 
States as an impartial broker of peace?
    Answer. In light of the ongoing conflict over Nagorno-Karabakh, 
U.S. military assistance to both Azerbaijan and Armenia is carefully 
considered to ensure that it does not undermine or hamper ongoing 
efforts to negotiate a peaceful settlement between Armenia and 
Azerbaijan or be used for offensive purposes against Armenia. In fiscal 
year 2008, the administration looks forward to a robust program of 
military cooperation with both Azerbaijan and Armenia, based on 
activities tailored to U.S. interests and local capabilities in each 
country.
    Specific increases for Azerbaijan are linked to U.S. priorities in 
the war on terror, building Azerbaijan's peacekeeping capabilities, and 
enhancing Caspian maritime security. The administration believes that 
building the maritime capabilities of Caspian Sea countries including 
Azerbaijan is important to prevent the transit of dangerous materials, 
to deter and prevent terrorist activity, and to support the growing 
contribution of the Caspian basin to world energy supplies.
    We do not believe that the differences in security assistance in 
the fiscal year 2008 budget requests undermine prospects for peace or 
compromise our ability to serve in good faith as an impartial mediator 
for the Nagorno-Karabakh conflict. As a mediator, we consistently 
deliver the message to both sides that only a peaceful solution for the 
conflict is acceptable. We hope that the presidents of Armenia and 
Azerbaijan will endorse as soon as possible the set of Basic Principles 
for the peaceful settlement of the conflict that they have been 
negotiating for the past several months. It is longstanding U.S. policy 
that we support the territorial integrity of Azerbaijan and--through 
our role as one of the three OSCE Minsk Group Co-Chair countries, along 
with Russia and France--seek to help Armenia and Azerbaijan reach a 
peaceful negotiated settlement of the Nagorno-Karabakh conflict. A 
peaceful resolution of the conflict will increase regional security and 
allow for the opening of trade and communications links that will be 
important for the future prosperity of the South Caucasus region.
    Question. On what grounds has the administration sought a 
substantial reduction in economic assistance to Armenia?
    Does the Millennium Challenge Account continue to supplement and 
not replace traditional economic assistance to Armenia?
    Answer. The administration considers the totality of U.S. 
assistance resources available when formulating its bilateral budget 
requests. The fiscal year 2008 budget request for Armenia decreased by 
48 percent (over $35 million) from fiscal year 2006. This decline 
reflects in part reduced need as a result of Armenia's successful 
indicators and performance, particularly in promoting economic growth 
and addressing rural poverty, but also Armenia's 5-year, $236 million 
Millennium Challenge Corporation (MCC) Compact. If estimated MCC 
disbursements (over $60 million) for fiscal year 2008 are taken into 
account, the actual fiscal year 2008 funding level for Armenia 
increases by 34 percent to more than $98 million.
    Armenia's MCC Compact is focused on irrigation systems and rural 
road rehabilitation. While the country's recent economic growth and 
standard of living surpass most developing countries, the 
sustainability of this performance may be weakened by the government's 
inconsistent approach to implementing democratic reforms. In line with 
the MCC Compact signed in March 2006 and Armenia's good indicators and 
performance, we have shifted some investments from Economic Growth and 
Investing in People and increased our focus on Ruling Justly to promote 
the sustainability of reform.
    Existing development funding in the economic sector is therefore 
targeted to providing support for small- and medium-sized enterprise 
development, financial sector development, and regulatory reform to 
complement the MCC program and maximize its impact.
    Question. One of the most useful tools in Afghanistan and Iraq has 
been the ``Commanders Emergency Response Program'', or CERP funds, 
which gives military commanders unrestricted, undedicated funds to 
immediately address relief and reconstruction issues. I have heard 
during my visits that it would be very useful if the State Department 
has an equivalent program--that there is too much bureaucracy in State 
Department funding and the State Department has to go the DOD for 
needed funds. Is it true State personnel ask for CERP funds? Should the 
State Department institute a CERP-like program--particularly since 
State Department and USAID workers will be in Iraq and Afghanistan long 
after the military leaves?
    Answer. The Department of State and USAID coordinate with DOD at 
the Provincial Reconstruction Team (PRT) level on the use of Commanders 
Emergency Response Program (CERP) funds. Department of State and USAID 
foreign assistance currently incorporates a number of programs to 
expediently respond to local needs in places like Iraq and Afghanistan. 
In Iraq, these programs, coordinated through the Provincial 
Reconstruction Teams, include Provincial Reconstruction Development 
Councils (PRDC), the Community Action Program (CAP) and the Community 
Stabilization Program (CSP). In close coordination with Iraqi 
officials, the Provincial Reconstruction Development Councils (PRDCs) 
in all eighteen governorates in Iraq identify critical projects that 
fulfill immediate community needs and implement those programs. 
Coordinated project selection by the PRTs and PRDCs fosters consensus-
building among Iraqi officials, while helping to enhance the position 
of moderate officials and to isolate extremists. This program has 
already started to show impressive results and is accelerating with an 
additional $600 million appropriated in the fiscal year 2007 
supplemental.
    The PRDC program is complemented by two USAID programs, also 
coordinated through the PRTs, which reach out to neighborhoods and 
transform communities. USAID's CAP program establishes neighborhood 
councils to conduct small scale infrastructure projects and community 
revitalization. The CSP targets conflict-prone neighborhoods and works 
to revitalize the economy through job creation and infrastructure 
projects. CSP recently reached its target of establishing 40,000 jobs 
in Baghdad.
    While USAID and State do not have a precisely CERP-equivalent 
mechanism by which we can obligate funds without procurement and other 
restrictions, each of these is a flexible, quick response program that 
enables the U.S. Government to respond to relief and reconstruction 
needs in Iraq.
    We are eager, however, to continue to work with Congress to 
determine the most effective mechanisms to respond fully to relief and 
reconstruction needs worldwide. At present, we work to use existing 
authorities and funds to be as flexible and responsive as possible in 
states characterized by political, economic, and security instability.
    For example, we appreciate Congress' support for funding accounts 
like International Disaster and Famine Assistance (IDFA), Peacekeeping 
Operations (PKO), and Transition Initiatives (TI) that address urgent 
humanitarian and post-conflict needs. The President also requested 
funding in fiscal year 2008 within the PKO account to bolster flexible 
reconstruction and stabilization capability in places such as Lebanon 
and Sudan. In addition, as you are aware, the Department of State has 
created the Office of the Coordinator for Reconstruction and 
Stabilization, with the intent to foster rapid response capabilities 
and programming. We appreciate the Senate's support in its passage of 
$50 million in the fiscal year 2007 supplemental (contingent on 
specific authorization in a subsequent act of Congress) to support and 
maintain a Civilian Reserve Corps, whose expertise and rapid deployment 
will allow us to further ensure effective use of post-conflict 
assistance.
    Finally, the fiscal year 2008 budget request is built to support 
and implement stabilization strategies in such countries as Iraq, 
Afghanistan, Sudan, Liberia, and the Democratic Republic of the Congo. 
The request carefully considered the appropriate amount, account 
authorities, and purpose for the funds requested, such that 
stabilization strategies could be supported with the appropriate tools. 
Earmarks and account shifts limit our ability to effectively employ 
funds within current authorities to achieve success in difficult and 
rapidly transitioning environments. We appreciate Congress's 
consideration of these factors as you evaluate the fiscal year 2008 
request.
    Question. Report on the Need to Improve Interagency Support to 
National Security Efforts.
    Madam Secretary, section 1035 of the Fiscal Year 2007 National 
Defense Authorization bill directed the President to submit a report on 
improving interagency civil-military support for U.S. national security 
missions, including peace and stability operations. The report was due 
on April 1, but the Armed Services Committee has not received it. When 
will it be submitted? Tell us, please, why it has been delayed.
    Answer. The National Security Council tasked the Department of 
Defense with drafting the report called for in section 1035 of the 
Fiscal Year 2007 National Defense Authorization bill, in coordination 
with the State Department. Given the complexity and importance of the 
report's topic, Defense and State have worked closely together in its 
preparation. We regret the delay in its submission; the report is in 
the final stages of review and we anticipate that it will be 
transmitted to Congress shortly.
    Question. Madam Secretary, the Fiscal Year 2007 National Defense 
Authorization bill also directed the President--in section 1211--to 
appoint a senior coordinator for North Korea policy by December 16, 
2006. This is similar to action Congress took in 1998 when it directed 
President Clinton to review his North Korea policy and appoint a 
special coordinator. President Clinton appointed Former Secretary of 
Defense William J. Perry. Secretary Perry launched a comprehensive 
review, and established new unity among Republicans and Democrats and, 
the United States managed to keep most of North Korea's nuclear and 
missile activities frozen. I understand that last December diplomatic 
efforts--that led to the February 13 agreement--were ongoing. But since 
then, 3 months have gone by. This action is 5 months overdue, and our 
negotiations are stalled.
    Why have we had a 5-month delay, and when can we expect a 
coordinator to be appointed?
    Answer. As noted in your question, the Six-Party Talks have made 
progress--marked by the February 13 Initial Actions agreement to 
implement the September 2005 Joint Statement, the March 13-14 visit of 
IAEA Director General ElBaradei to North Korea and the March inaugural 
meetings of the Six-Party working groups. Assistant Secretary Hill and 
the interagency delegations supporting the Talks and its five 
constituent working groups continue to engage our Six-Party partners, 
as well as the IAEA, on the way forward on DPRK denuclearization. 
Interagency coordination and attention to North Korea issues also 
continues on a regular basis with the engagement of senior State 
Department officials.
    The 2007 National Defense Authorization Bill directed the President 
to appoint a senior coordinator for North Korea policy. The interagency 
is continuing to deliberate on this and will send its recommendation to 
the President shortly. The State Department will continue to 
concentrate its efforts on this important issue.
    Question. How does the U.S. position on Nagorno-Karabagh in the 
human rights report differ from the Azerbaijani position?
    Could you please explain the decision process behind crafting and 
introducing this new language?
    The State Department did post revised language on its website but 
then restored the original language a few days later. Can you please 
walk me through that process--who was involved in the initial revision, 
then the subsequent return to the original text, and the justifications 
they used to guide their actions?
    The press widely reported that the Azerbaijani government lodged 
protests with the administration on this issue--and even went to the 
extent of postponing a planned bilateral security meeting until the 
text of our human rights report was changed to its satisfaction. Is it 
the case that the Azerbaijani government has been in touch with the 
administration on this matter? If so, did the Azerbaijani government 
indicate that it would like to see the language changed in any way?
    In light of this recent controversy, I think it would be 
constructive for the Department of State to clearly articulate the role 
that the self-determination of the people of Nagorno Karabagh should 
play in the settlement of this conflict. Do you agree?
    Does the report's language describing Armenia as an occupier of
    Azerbaijani territory and Nagorno Karabagh reflect U.S. policy?
    Answer. Some mistakenly interpreted the language in the human 
rights report as a change in U.S. policy concerning the Nagorno-
Karabakh conflict. There has been no change in U.S. policy. The United 
States remains deeply committed to finding a peaceful settlement of the 
Nagorno-Karabakh conflict as an honest broker in the OSCE's Minsk Group 
process. As a result of the conflict over Nagorno-Karabakh, Armenian 
forces control most of that region, as well as large portions of 
surrounding territory. We support the territorial integrity of 
Azerbaijan and hold that the future status of Nagorno-Karabakh is a 
matter of negotiations between the parties.
    The language on Nagorno-Karabakh was intended only as a brief 
backdrop to the description of human rights issues as covered in depth 
by the country report. After the report was published a number of 
questions arose about the implications of the passage in question. We 
attempted to clarify the language. In so doing, however, we encountered 
additional questions over terminology, and realized that we had only 
added to the confusion by adding new language. We therefore restored 
the original language to that of the version submitted to Congress, 
while assuring both the Government of Armenia and the Government of 
Azerbaijan that our policy had not changed.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

    Question. A. Secretary Rice, how long is this war going to 
last, and how, specifically, are you measuring ``progress?'' 
What evidence can you give us that this time is different, and 
we are about to see progress in Iraq?
    B. Secretary Rice, can you explain to the Committee why a 
coordinator for Iraq policy--what has been dubbed a ``war 
czar'' by the media--is necessary? I thought, according to the 
Constitution, the President was the ``war czar.'' Who has been 
managing Iraq policy in the administration in the absence of 
this position? How do you foresee working with the new ``war 
czar,'' if one were to be appointed?
    Answer. A. We measure progress along three tracks--
security, political, and economic--and remain fully committed 
to helping the Iraqi Government meet ``benchmarks'' it has 
articulated. This includes passing key legislation, including a 
hydrocarbons law, De-Ba'thification reform, constitutional 
review, and provincial elections. The Iraqi Government 
understands the importance of meeting these benchmarks and is 
working towards that goal. We have already seen some progress, 
but much hard work is yet to be done. For example, Iraqi 
political leaders are actively negotiating a de-Ba'thification 
Reform Law and a hydrocarbon package of laws.
    B. As the White House has said, an Assistant to the 
President and Deputy National Security Advisor for Iraq and 
Afghanistan is necessary because the President's ``New Way 
Forward'' in Iraq requires greater coordination and involvement 
from across the Government. The individual named to fill this 
role will handle, full-time, the implementation and execution 
of our strategies for Iraq and Afghanistan, and will lead the 
policy development process for these two theaters. He or she 
will report directly to the President and, as an Assistant to 
the President, will work closely with National Security Advisor 
Steven Hadley, who provides overall leadership of the National 
Security Council staff. He or she will also be empowered by the 
President to request and receive information and assistance 
from the Federal Departments and Agencies, including the 
Department of State, needed to carry out the President's 
strategies. For our part, the Department of State will work 
closely with the new Deputy National Security Advisor for Iraq 
and Afghanistan to make sure he or she has the tools and 
information needed to carry out the duties of the position.
    Question. Secretary Rice, on April 30, 2003, the State 
Department reported that the number of international terrorist 
attacks worldwide decreased 44 percent and anti-U.S. terrorist 
attacks decreased 65 percent from the previous year. A year and 
a half after September 11, we were apparently doing some things 
right. Unfortunately, 4 years later, the picture is not so 
bright: the latest ``Country Report on Terrorism'' issued by 
the State Department on April 30, 2007, concluded that 
terrorist attacks in Iraq had increased 91 percent from 2005 to 
2006 and that 65 percent of global fatalities from terrorism 
occurred in Iraq during 2005-2006. In the words of the April 
2006 National Intelligence Estimate, Iraq has become ``the 
`cause celebre' for jihadists.'' Looking back, and based on 
those figures, would you argue that the Iraq war has been a 
positive development for U.S. national security interests?
    Answer. The war in Iraq resulted in the removal of a brutal 
dictator who terrorized his people, threatened the region and 
the international community, sanctioned the massacre of more 
than 300,000 Iraqis, and launched the invasion and occupation 
of Kuwait. The international community tried to counter the 
threat posed by Saddam Hussein by imposing sanctions on his 
regime. However, the sanctions did not have their intended 
affect, and Hussein continued his course unabated, which 
prompted the administration to pursue other avenues of action. 
On balance, U.S. national security interests have been strongly 
enhanced by the removal Saddam Hussein.
    We would advise against placing too much emphasis on any 
single set of incident data to gauge success or failure against 
the forces of terrorism. Tallying incident data necessarily 
involves relying exclusively on frequently incomplete and 
ambiguous information that is not derived from Federal 
Government collection programs created or operated specifically 
to obtain the data. Simply counting terrorist incidents 
provides an incomplete measure of our counter terrorism 
efforts; this does not account for the large number of 
terrorists arrested, plots disrupted, and potential recruits 
and sympathizers who are persuaded to reject the violent 
ideology and misinformation spread by terrorists.
    Clearly, Iraq has a significant terrorism challenge. A 
paramount strategic objective in Iraq and the region is 
preventing al-Qaida, its affiliates or other terrorists from 
establishing safe haven in al-Anbar or anywhere else in Iraq. 
Groups like al-Qaida in Iraq (AQI) and Ansar al-Sunna are 
attempting to drive the United States out of Iraq in order to 
establish a safe haven from which to train and plan attacks. 
Together with the Iraqi Government and our Coalition partners, 
we are destroying terrorist networks and helping the Iraqis 
secure their territory so al-Qaida cannot do in Iraq what they 
did in Afghanistan before the fall of the Taliban.
    Although Iraq is a proven ally in the War on Terror, Iraq's 
developing security and armed forces will require further 
training and resources before they can effectively address the 
terrorist groups already operating within their borders without 
international assistance. Iraq's intelligence services continue 
to improve in both competency and confidence but will require 
additional support before they can adequately identify and 
respond to internal and external terrorist threats. The 
international community's support is critical to ensure that 
the Government of Iraq's plans to reduce violence, improve 
services, and increase economic opportunities are successful.
    Prospects for increasing stability in Iraq will depend on: 
the extent to which the Iraqi government and political leaders 
can establish effective national institutions that transcend 
sectarian or ethnic interests and, within this context, the 
ability of the Iraqi Security Forces to pursue extremist 
elements of all kinds; the extent of international assistance 
to the Government of Iraq to do so; the extent to which 
extremists, most notably AQI, can be defeated in their attempt 
to foment inter-sectarian struggle between Shia and Sunnis; and 
the extent to which Iraq's neighbors, especially Iran and 
Syria, can be persuaded to stop the flow of militants and 
munitions across their borders.
    Question. Secretary Rice, we have received reports from 
former Ambassadors and Foreign Service Officers serving 
overseas that U.S. policy toward detainees--particularly in 
Guantanamo Bay--is impacting our diplomatic credibility and 
placing our personnel at risk. There is now a widespread belief 
in the rest of the world that the United States routinely 
tortures prisoners and denies them due process when it suits 
us. The global perception that this is our policy makes it more 
likely that our own citizens could face the same treatment if 
they are detained overseas. Would you agree that it is in our 
national security interests to reverse this perception? What 
steps would you take in order to do so?
    Answer. The administration is acutely aware of concerns 
that have been raised both at home and abroad about detentions 
of individuals at Guantanamo Bay. Our challenge has been to 
explain to the world that the United States and other nations 
around the world share a common problem in dealing with 
dangerous terrorists intent on harming our civilian 
populations, while at the same time being mindful of the need 
to operate lawfully and in a manner that preserves our 
commitment to principles of human rights and international 
humanitarian law.
    Unfortunately, the detention facility at Guantanamo Bay has 
become a lightning rod for international criticisms stemming 
from the misperception that detainees there are in a ``legal 
black hole.'' In fact, detainees at Guantanamo enjoy a robust 
set of procedural and treatment protections. All detainees at 
Guantanamo have received or will receive a Combatant Status 
Review Tribunal to confirm that they are properly detained as 
enemy combatants. Under the Detainee Treatment Act of 2005, 
detainees have the opportunity to challenge these status 
determinations in the U.S. Court of Appeals for the D.C. 
Circuit.
    In addition, the administration remains committed to trying 
by military commission those who have violated the laws of war 
or committed other serious offences under the Military 
Commissions Act of 2006 (MCA). After the Supreme Court in 
Hamdan v. Rumsfeld set aside the original system of military 
commissions, we worked with the Congress to create a new set of 
military commission procedures in the MCA that are fully 
consistent with U.S. law and Common Article 3 of the Geneva 
Conventions.
    The Detainee Treatment Act, the Department of Defense 
Detainee Directive, and the revised Army Field Manual on 
interrogation collectively provide detainees at Guantanamo a 
robust set of treatment protections that are fully consistent 
with, and in some respects exceed, our international 
obligations, including Common Article 3 of the Geneva 
Conventions. The success of these legal protections in creating 
an environment at Guantanamo that meets international standards 
is reflected in the reports of visitors to Guantanamo, such as 
the Special Representative of the OSCE Parliamentary Assembly 
President for Guantanamo, Belgian Senator Anne Marie Lizin and 
the U.K. House of Commons Foreign Affairs Committee. These 
groups have found that conditions there mirror, and in some 
respects improve upon, those of high security prisons in Europe 
and the United States, with no evidence of ongoing detainee 
abuse. Where allegations are made of detainee abuse, those 
allegations are investigated fully, and if true, those 
responsible are held accountable.
    Given the national security imperative to dispel these 
misimpressions, the Department has made dialogue with our 
allies on these difficult issues a priority. The Department has 
undertaken extensive bilateral and multilateral efforts to 
discuss with our international partners a common approach to 
legal issues arising out of asymmetric armed conflicts, such as 
the one we are now in with al-Qaida. In addition, we have made 
explanation of our detainee policy a cornerstone of our public 
diplomacy efforts through the use of media events, editorials, 
and outreach to academia and international opinion makers. The 
result of these efforts has been a growing international 
recognition that the threat posed by al Qaida does not neatly 
fit within existing legal frameworks, and that the need exists 
to work on common approaches to difficult international legal 
questions posed by this conflict.
    In the long run, the President has stated that he would 
like to move towards the day when we can eventually close the 
detention facility at Guantanamo Bay. We have worked hard with 
the Department of Defense to reduce the population of 
Guantanamo by more than half. Although our critics abroad and 
at home have called for Guantanamo to be shut immediately, they 
have not offered any credible alternatives for dealing with the 
dangerous individuals that are detained there. We are 
frequently unable to transfer or release approved detainees 
because of the human rights or security conditions in the 
detainees' home countries. And with few exceptions we have been 
unable to resettle these detainees in third countries because 
other nations are unwilling to accept them for resettlement. 
Moving forward, it is critical that the international community 
recognize, as the UK Foreign Affairs Committee recently did, 
that many of the detainees at Guantanamo pose a threat not just 
to the United States but to its allies, and that the longer-
term solution to Guantanamo, including resettlement of 
detainees who cannot be repatriated, is a responsibility shared 
between the United States and those allies.
    Question. Secretary Rice, I'm sure that you were as 
disgusted as I was to see in the latest SIGIR report that out 
of eight rebuilding projects in Iraq recently investigated, 
which cost approximately $150 million and were declared 
successes, seven are now in disrepair or have been abandoned. 
Seven out of eight projects that the U.S. taxpayer has built in 
Iraq are now falling apart. What are you doing to ensure this 
waste does not continue? Are you investigating other 
reconstruction projects that have been completed, to verify 
that they are still operational? Have any lessons been learned 
from the failure of these efforts?
    Answer. We share your concerns about operations and 
maintenance of our completed reconstruction projects in Iraq. 
Adequate operations and maintenance are essential to ensure 
that U.S. funded reconstruction projects are used to the 
maximum benefit of the Iraqi people. The Special Inspector 
General for Iraq Reconstruction (SIGIR), Stuart Bowen, has 
repeatedly acknowledged the progress that has been made in 
improving our management efforts and has stated that the 
majority of U.S. reconstruction programs have been completed on 
time and as planned.
    Initially, we anticipated that the Government of Iraq would 
assume responsibility for operations and maintenance of 
completed reconstruction projects. As SIGIR points out, 
however, there is a clear need for assistance in increasing the 
Iraqis' capacity to operate and maintain completed 
reconstruction projects. To address this need, we shifted the 
emphasis of our assistance programs away from large scale 
reconstruction projects toward capacity development programs. 
We programmed $285 million within the fiscal year 2006 
Supplemental Appropriations to contribute to the operations and 
maintenance of completed reconstruction projects and another 
$60 million for capacity development for Iraqi technicians and 
plant managers.
    We continue to work closely with SIGIR, the GAO, and our 
Inspector General to improve management and oversight of U.S. 
reconstruction projects in Iraq. We have benefited from SIGIR's 
recommendations on how we can better manage our reconstruction 
projects in Iraq.
    We are working closely with the Iraqi government to ensure 
that Iraq's own resources are used to provide essential 
services such as oil, water, and electricity for the Iraqi 
people. Despite repeated attacks, the Iraqis have been able to 
maintain key infrastructure facilities in extremely difficult 
circumstances. Our continued assistance will help Iraq improve 
the security, operation, and maintenance of these critical 
facilities.
                                ------                                

              Questions Submitted by Senator Sam Brownback

    Question. The State Department request for FMF to Ethiopia is only 
$850,000. In your estimation, does the Ethiopian Government have the 
resources it needs to continue fighting the war against the Islamic 
Courts and their allies in Somalia?
    Does the administration plan on increasing FMF for Ethiopia in the 
near future? If so, for what specifically will the money be used?
    Answer. Fiscal year 2008 funding request levels were determined in 
early 2006 before the Council of Islamic Courts in Somalia had begun to 
pose a threat to the Horn of Africa region. Ethiopia's ongoing 
intervention in Somalia to promote the Transitional Federal Government 
and to support the establishment of security and national 
reconciliation have significantly depleted its hard currency reserves 
and taxed its budget. The Ethiopian Government does not have sufficient 
resources to continue at its current pace indefinitely.
    In light of recent developments in the Horn of Africa region and 
Ethiopia's needs, the administration is reassessing assistance to 
Ethiopia.
    Questions. Recent news reports have indicated that the Iranian 
regime has targeted and harassed NGO's and human rights groups inside 
Iran in response to the announcement of the U.S. allocating $75 million 
for democracy programs in Iran. Are such reports credible, and if so, 
what kinds of steps are being taken to avoid doing harm to the very 
groups we are trying to empower?
    Where does the administration place the issue of the Iranian 
regime's human rights violations in the context of the regime's ongoing 
nuclear proliferation and state sponsorship of terrorism?
    Is there any downside to establishing a special envoy to coordinate 
human rights and democracy promotion for Iran along the lines of Sudan 
and North Korea?
    Answer. The Department of State's monitoring of Iranian regime's 
reaction to dissidents and activists indicates that the number of 
arrests has remained consistently high, with no noticeable increase 
following our announcement of the $75 million for democracy programs in 
Iran. We are sensitive to the fact that democracy and human rights 
advocates face risks in Iran. Recent criticism of the USG's Iran 
democracy programming activities has missed the mark; it is the actions 
of the Iranian regime that put its own people in danger, not USG 
support for freedom and personal liberty. We must be clear: the Iranian 
government, like other authoritarian and totalitarian regimes, views 
democracy and human rights activists as a threat. The Islamic Republic 
has little tolerance for those encouraging reform, irrespective of the 
origins of their funding. But that has never been a justification for 
us to stop supporting democratic actors around the world. Our 
programming remains important to encourage the development of personal 
liberty and freedom in Iran and we have safeguards to ensure the 
confidentiality of those with whom we work. We would be happy to 
discuss these safeguards with you.
    While the nuclear debate overshadows other categories of our Iran 
policy, we maintain a strong message on human rights, including not 
only the condemnation of random arrests and tyrannical actions, but 
also support for the universal rights of speech, assembly, press and 
religion--as a crucial element of the President's policy of support to 
the Iranian people.
    Undersecretary for Political Affairs Nick Burns coordinates the 
Department's Iran efforts, including human rights issues. We do not see 
the need for a separate human rights envoy. Human rights need to be 
advanced in the overall policies, which we are following. Since 
ultimately the Iranian people must determine their future, public 
outreach, support to Iranian civil society and people-to-people 
exchanges provide the United States the best opportunity for 
encouraging democratic reform in Iran.
    Question. What is the timeline for taking more coercive, bilateral 
and multilateral, action against the Sudanese Government if they don't 
accept U.N. peacekeeping troops and take real steps toward ending the 
genocide?
    Answer. The United States continues to engage with partners to 
press Sudan to fully cooperate in the peaceful resolution of the crisis 
in Darfur. We have repeatedly made clear to the Sudanese Government 
that all options remain on the table should Khartoum continue to defy 
the will of the international community.
    President Bush announced on April 18 the USG's intention to impose 
increased bilateral sanctions on Sudan and pursue additional 
multilateral sanctions through the United Nations if President Bashir 
does not take significant political, humanitarian and peacekeeping 
actions to improve the situation in Darfur. The USG agreed to allow 
United Nations Secretary-General Ban Ki-Moon more time to urge 
President Bashir to honor his commitments, but our patience is not 
open-ended. We continue to work towards concerted international 
pressure on Khartoum. This includes possible multilateral and bilateral 
sanctions.
    Question. What action are you, and the State Department as a whole, 
doing to engage China to play a more productive role in getting a 
robust peacekeeping force into Sudan and ending the genocide?
    Answer. One of the central objectives of our diplomatic engagement 
with China has been to persuade Beijing to assume responsibilities 
commensurate with its rising influence and stature. Nowhere is this 
more the case than on Darfur. China's leverage with Khartoum is not 
absolute, but there is much that China can do to persuade the 
Government of Sudan to accept the full deployment of the U.N./AU hybrid 
peacekeeping force under U.N. command structures, and to convince 
Khartoum to engage seriously in a peace process that involves all 
parties to the conflict. Special Envoy Natsios, Deputy Secretary 
Negroponte, and Assistant Secretary Frazer have all had serious, in-
depth discussions on Sudan with the Chinese, as have I.
    Let me be clear. China is not where we would like it to be on 
Darfur. The no-interest loan to build a palace in Khartoum that 
President Hu announced on his February visit to Khartoum is one 
example. We have also communicated our serious concerns to China that 
weapons sold to the government of Sudan have contributed to the 
violence in Darfur. At the same time, we do see movement in China's 
position and believe that Beijing has made a decision that it must join 
with the international community in insisting that the atrocities in 
Darfur must stop.
    For example, China's lead diplomat at the United Nations, Wang 
Guangya, helped broker the November agreement in Addis Ababa in which 
the Government of Sudan accepted, in principle, the three-phase 
deployment of the U.N./AU force. China's diplomacy was likely 
influential in convincing President Bashir to accept the 3,000-person 
``heavy support package'' (HSP) under phase two of the deployment. 
Perhaps most significantly, Beijing recently agreed to send a 275-
person engineering unit as part of the HSP. These are important steps, 
taken with our active diplomatic encouragement and support.
    President Bashir has reneged on a number of his commitments and 
continues to obstruct the full deployment of the U.N./AU force under 
phase three. While China's support for the preliminary deployments is 
welcome, the critical element, as you suggest, is the full deployment 
of the U.N./AU force under robust U.N. command structures. China has 
said publicly (and to us in private) that it supports this. We are 
committed to working with China and our other international partners to 
apply pressure on President Bashir to accept the full U.N./AU force 
unequivocally.
    Question. Are Baghdad's mixed neighborhoods still mixed, or are 
they continuing to become mostly Sunni and mostly Shi'a enclaves? What 
about other previously mixed areas of Iraq?
    Answer. Some mixed neighborhoods still remain in Baghdad, and, 
although demographic shifts in Baghdad's neighborhoods and throughout 
Iraq continue to occur as a result of sectarian violence, such shifts 
have been slowed (and in some areas halted) by Operation Fardh al-
Qanoon (Baghdad Security Plan). Older neighborhoods in Baghdad, which 
have been historically mixed for generations, are feeling pressures 
from rival terrorist, insurgent, and militia groups who are trying to 
win territory in these old neighborhoods, but we are working with the 
Iraqis to try to overcome these sectarian problems.
    Question. What is the strategy to diffuse tensions between the 
Iraqi Kurds and Turkey? Are you getting sufficient cooperation from the 
Iraqi Kurds on fighting the PKK terrorists based in the Kurdish region?
    Answer. We are engaged in intense diplomatic efforts to prevent an 
escalation in tension between Turkey and Iraq. Our efforts are led by 
General Joseph Ralston, the Secretary of State's Special Envoy for 
Countering the PKK. The General continues to work closely with his 
Turkish and Iraqi counterparts, as well as officials of the Kurdistan 
Regional Government, on this issue. His conversations have focused on 
building confidence between Turkey and Iraq and obtaining cooperation 
to fight against the terrorist Kurdistan Workers Party (PKK), which is 
using Northern Iraq as a base of operations for attacks against Turkey. 
Iraq and Turkey share a long border and have many common problems--
including ending PKK terror attacks in Turkey--and interests; we are 
hopeful that leading figures in both countries will focus on solving 
problems and advancing mutual interests rather than exploiting 
differences.
    Question. After receiving reports that USAID was supporting 
programs in occupied Cyprus without consultation with the Government of 
the Republic of Cyprus, the Senate Appropriations Committee included in 
its fiscal year 2006 Report the following: ``The Committee is concerned 
that funds made available for bi-communal projects on Cyprus have been 
obligated without appropriate notification and participation of the 
Government of Cyprus. The Committee believes that if such funds are to 
improve the prospect for peaceful reunification of the island, they 
must be allocated transparently and in full consultation with the 
[Government of Cyprus] and other interested parties.''
    How does USAID engage and consult with the Government of the 
Republic of Cyprus as Congress directed in the 2006 appropriation? What 
has USAID done to address the concerns expressed by Congress?
    Since 1993, Congress has imposed a statutory restriction on the use 
of ESF monies: ``to be used only for scholarships, administrative 
support of the scholarship program, bi-communal projects, and measures 
aimed at reunification of the island and designed to reduce tensions 
and promote peace and cooperation between the two communities on 
Cyprus.'' Has USAID or the State Department used funds outside of ESF 
for programs on Cyprus, thus avoiding Congress's statutory restriction?
    Answer. The United States is committed to consultation and 
transparency with ``the Government of Cyprus and other interested 
parties'' on the U.S. foreign assistance program for Cyprus, consistent 
with the fiscal year 2006 Senate Appropriations Committee report. 
Embassy Nicosia has made it a priority to increase the frequency and 
breadth of consultations since 2005. The Ambassador, Public Affairs 
Officer and USAID Representative in Nicosia have had numerous meetings 
with Cypriot Government officials to discuss U.S. foreign assistance in 
Cyprus. USAID has also regularly provided the Government of Cyprus with 
written information on existing and planned activities, and we have 
taken into account in our programs both U.S. policy and concerns 
expressed by Cypriot officials. For example, we have been careful to 
avoid any implication of recognition of Turkish Cypriot authorities, 
and we have chosen locations for our programs, including for contractor 
offices, to ensure that they do not raise any questions of property 
claims.
    We support and consistently offer the Government of Cyprus 
consultations on our assistance programs, although the government has 
not always accepted our offers. Obtaining government approval for each 
project, however, would effectively cede decision-making authority to 
the Government of Cyprus and in so doing would nullify the basic 
premise of over 30 years of bi-communal programming. This would 
jeopardize the Turkish Cypriots' pro-solution leadership and discourage 
Turkish Cypriots from participating in our programs. Although we 
welcome consultations with the Government of Cyprus, the U.S. 
Government maintains full authority over and accountability for U.S. 
assistance programs in Cyprus to ensure that they remain consistent 
with U.S. law and U.S. Government policy in support of the 
reunification of Cyprus as a bi-zonal, bi-communal federation.
    USAID conducts its activities in Cyprus in a manner consistent with 
Congressional concerns and statutes. USAID programs in Cyprus are 
conducted exclusively through use of Economic Support Funds (ESF) and 
for the purposes outlined in the Congressional statutory restriction. 
The U.S. Embassy uses ESF as well as funds from the Department of 
State's International Information Program Office, the Education and 
Cultural Affairs Office, and the European and Eurasian Affairs Press 
and Public Diplomacy Office, for cultural and bi-communal programs in 
Cyprus, including Fulbright Scholarships. In addition, the Embassy uses 
Export and Border Security funds to help establish fully effective 
export controls and nonproliferation investigations and prosecutions in 
Cyprus. We use all of these funds transparently, and offer to the 
Government of Cyprus consultations on the use of these funds. Use of 
ESF funds in Cyprus complies fully with the 1993 restriction; non-ESF 
funds are expended in a manner fully consistent with the objectives of 
that restriction.
    Question. There have been several instances recently of Eastern 
European governments allowing excavation of and construction on 
historic Jewish cemeteries. This has taken place in Grodno, Belarus; 
Vilna, Lithuania (Snipiskes Jewish cemetery); Pilsen, Czech Republic; 
and Thessalonika, Greece.
    It has come to my attention that in some countries--particularly 
Lithuania--the U.S. embassy staff has assisted in the protection of 
Jewish cemeteries, while in other countries the U.S. mission has not 
gotten involved. Does the administration have a comprehensive plan to 
address the desecration of Jewish cemeteries abroad? What is being done 
to ensure that this issue is consistently on the agenda of U.S. 
Missions in Europe?
    Is the U.S. Mission to the European Union involved in this issue, 
and if so, how?
    Answer. The Department and our Embassies have been very much 
involved in the effort to protect historic Jewish cemeteries in Europe. 
Belarus, the Czech Republic, Greece, Ukraine and Lithuania have been 
particular areas of focus. Our Embassies have approached national, 
provincial and municipal governments, and have worked with the 
indigenous Jewish communities and with organizations that have cemetery 
protection as one of their goals.
    In addition, the Commission for the Protection of America's 
Heritage Abroad has also been helpful with threatened cemeteries. The 
Department and U.S. embassies have worked closely with the Commission 
to protect and preserve cemeteries by assisting in the negotiation of 
bilateral agreements and through joint efforts to prevent intrusions 
into burial places.
    The circumstances in each of these cases have differed, but our 
approach and commitment have been the same: the United States takes 
these issues seriously and works with interested parties to achieve a 
solution.
    The issue is essentially local in nature. Municipal planning, 
zoning, cultural, and building authorities frequently have primary 
jurisdiction. Our role has been to bring municipal and national 
authorities together with religious organizations and NGOs to seek a 
settlement that respects the interests of all concerned. In several 
cases, our Ambassadors have been directly involved in these efforts.
    Several years ago our Embassy in Prague brokered an agreement 
involving the construction of a building on a cemetery site in that 
city. More recently Embassies Prague and Minsk have been involved with 
similar situations in Pilzen and Grodno, respectively. Our Embassy in 
Vilnius has been particularly active in an effort to protect the 
Snipiskes cemetery. The cemetery issue in Greece goes back many years, 
although there have been no recent developments. There has been no 
occasion for the U.S. Mission to the European Union to be involved.
    As demonstrated above, the Department takes the issue of cemetery 
desecration extremely seriously. The Department's annual International 
Religious Freedom Report covers cemetery desecration in considerable 
detail.
    Question. On February 24, 2005 I joined all 99 of my Senate 
colleagues in signing an appeal to President Putin to return the sacred 
Schneerson Collection to its rightful owners, Agudas Chasidei Chabad of 
the United States. During the Helsinki Committee's hearings on the 
plight of these Jewish texts on April 6, 2005, I had the opportunity to 
meet with elderly survivors of Soviet and Nazi persecution who 
struggled and sacrificed to protect these holy writings and the ideals 
they represent.
    As you may recall, the case of the Schneerson Collection was raised 
with you at your Senate confirmation hearings, and I certainly 
appreciate the efforts that you and President Bush have made to 
encourage Russia to finally restore Chabad's spiritual legacy. Could 
you please provide an update on the administration's recent efforts to 
free the Schneerson Collection?
    Do you plan to raise the issue of the Schneerson Collection with 
appropriate Russian officials during your visit? Will the 
administration continue to press Moscow on this important issue?
    Answer. Shortly after the April 2005 hearing, the administration 
made a high level effort to convince the Russian Federation to transfer 
the Schneerson collection to Brooklyn. The result was a carefully 
worded but firmly negative response.
    During his visit to Russia last month, Special Envoy to Monitor and 
Combat Anti-Semitism Gregg Rickman requested that the Russian 
Government transfer the collection. The Russian authorities declined 
this request as well.
    I, and other State Department officials, will continue to raise 
this subject with Russian officials as opportunities arise.
    Question. It has come to my attention that Al-Hurra, the 
Congressionally-funded commercial-free Arabic language satellite 
television network for the Middle East, has broadcasted a number of 
problematic and inappropriate programs since its new director, Mr. 
Larry Register, assumed leadership of the station last November. 
Specifically, on December, 7, 2006, Al-Hurra broadcasted live a full 
speech given by Sheikh Hassan Nasrallah, the leader of the terrorist 
group Hezbollah. Also aired that month was coverage of the now infamous 
Holocaust denial conference in Iran, with follow-up remarks by the 
tiny, fiercely anti-Zionist Jewish group Neturei Karta, which sent 
representatives to the conference.
    During a State Department press conference on May 9, 2007, 
spokesman Sean McCormack said that Secretary Rice and the 
administration believe that Mr. Register is, ``actually doing a pretty 
good job, a very good job.''
    Does the administration still stand by this assessment of Mr. 
Register's leadership of Al-Hurra? What specific steps are being taken 
to prevent Al-Hurra in the future from serving as a platform for 
terrorists and Holocaust-deniers?
    Answer. The Broadcasting Board of Governors and the management at 
Alhurra have repeatedly and clearly acknowledged that the incidents you 
have noted were mistakes and not in line with the Middle East 
Broadcasting Network's (MBN) own editorial policies.
    To deal with this problem, MBN has re-issued its editorial policy, 
strengthened editorial controls, and provided more and better training 
to its journalists.
    At the same time, MBN has substantially increased its coverage of 
events related to U.S. foreign policy, American society and values, and 
the network is broadcasting a number of innovative programs to serve as 
a platform for dialogue between and among Americans and Arab publics, a 
niche that is nowhere else to be found on Arab television. Alhurra has 
also taken on the task of promoting democracy with its audiences; it 
did an outstanding job of covering recent elections in Mauritania and 
Egypt, and it recently added a second congressional correspondent to 
cover the policy debates occurring in our own national legislature. 
Increasingly we hear from contacts in the Arab world and elsewhere that 
this kind of coverage resonates with Alhurra's audiences and as a 
result it is gaining traction and broadening its reach.
                                 ______
                                 
             Question Submitted by Senator Lamar Alexander

    Question. The Senate Committee report language from fiscal year 
2006 State and Foreign Operations Appropriations bill stated, ``The 
Committee directs USAID to provide $10 million to support the programs 
and activities of the Financial Services Volunteer Corps (FSVC), a 
moderate increase over prior year funding levels.'' Yet, FSVC only 
received $4.3 million in fiscal year 2006, down from $7.2 million in 
fiscal year 2005 and $8.1 million in fiscal year 2004. The mission of 
the FSVC is consistent with U.S. foreign policy objectives to 
strengthen market economies and promote democracy, and it relies on 
highly qualified volunteers from the U.S. financial sector to 
accomplish its objectives.
    What is your opinion of the Financial Services Volunteer Corps? If 
it enhances our foreign policy objectives, is there a reason why its 
funding has been reduced by almost 50 percent since fiscal year 2004--
and is less than half of what was called for in the fiscal year 2006 
Committee report? Does USAID intend to increase FSVC funding in the 
future?
    Answer. Current USAID records indicate that new obligations to FSVC 
were $9,555,782 from fiscal year 2006 funds, $2,427,222 from fiscal 
year 2005 and $5,208,219 from fiscal year 2004.
    FSVC was created specifically to deal with the transition of 
Eastern European and former Soviet Union countries from communism to 
market economies and has played an important part in this process. 
These programs are winding down, most rapidly in the economic area. 
Russia, for example, is slated to have no programs at all in the 
economic growth area by 2008.
    In addition to the reduced demand for the kinds of sophisticated 
financial services offered by FSVC, there is an increased supply in the 
form of additional organizations like the International Executive 
Service Corps that have expanded to provide such services. This may 
result in more competition for funding.

                         CONCLUSION OF HEARINGS

    Senator Leahy. Thank you all very much for being here. That 
concludes our hearings.
    [Whereupon, at 11:59 a.m., Thursday, May 10, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


      LIST OF WITNESSES, COMMUNICATIONS, AND PREPARED STATEMENTS

                              ----------                              
                                                                   Page
Alexander, Senator Lamar, U.S. Senator from Tennessee, question 
  submitted by...................................................   232

Bond, Senator Christopher S., U.S. Senator from Missouri, 
  statements of.................................................14, 168
Brownback, Senator Sam, U.S. Senator from Kansas, questions 
  submitted by...................................................   228
Byrd, Senator Robert C., U.S. Senator from West Virginia, 
  questions submitted by.........................................   225

Daulaire, Dr. Nils, president, Global Health Council.............    65
    Prepared statement...........................................    68
Durbin, Senator Richard J., U.S. Senator from Illinois, questions 
  submitted by..................................................85, 213

Garrett, Laurie, senior fellow for global health, Council on 
  Foreign Rela- 
  tions..........................................................    59
    Prepared statement...........................................    61
Gayle, Dr. Helene, president, Cooperative for Assistance and 
  Relief Everywhere..............................................    51
    Prepared statement...........................................    54
Gregg, Senator Judd, U.S. Senator from New Hampshire, prepared 
  statements..................................................... 3, 94

Harkin, Senator Tom, U.S. Senator from Iowa, questions submitted 
  by.......................................................84, 190, 212

Kent, Dr. R. Hill, Assistant Administrator, United States Agency 
  for International Development..................................    25
    Prepared statement...........................................    29

Landrieu, Senator Mary L., U.S. Senator from Louisiana:
    Prepared statement...........................................   108
    Questions submitted by.......................................   216
Leahy, Senator Patrick J., U.S. Senator from Vermont:
    Opening statements........................................1, 25, 93
    Prepared statement...........................................     1
    Questions submitted by.......................................   190

Murray, Senator Patty, U.S. Senator from Washington, question 
  submitted by...................................................    85

Reed, Senator Jack, U.S. Senator from Rhode Island, questions 
  submitted by...................................................   221
Rice, Hon. Condoleezza, Secretary, Office of the Secretary, 
  Department of State............................................    93
    Prepared statement...........................................    97
    Summary statement............................................    95

Tobias, Hon. Randall L., Administrator, United States Agency for 
  International Development......................................     1
    Prepared statement...........................................     3


                             SUBJECT  INDEX

                              ----------                              

                          DEPARTMENT OF STATE

                        Office of the Secretary

                                                                   Page

Additional Subcommittee Questions................................   190
Assisting Adaptation.............................................   215
Core Exchange Programs...........................................   181
Empowering our People............................................    98
Foreign Aid:
    Our Moral Imperative.........................................   184
    Reform and Transformational Diplomacy........................   185
Funding for International Environmental Programs.................   197
Health and Development...........................................   215
Helping Developing Countries and the Most Vulnerable Populations.   102
Meeting Global Challenges........................................   101
Millennium Development Goals.....................................   216
Most Katrina Aid From Overseas Went Unclaimed....................   112
Programs.........................................................   188
Regional:
    Overview.....................................................   188
    Programs.....................................................   182
Securing Peace, Supporting Democracy.............................    99
Specific Priorities..............................................   184
The Asia Foundation's Mission, Capabilities, and Approach........   188
Transforming the State Department................................    97
U.S. Assessed Contributions to U.N. Peacekeeping Missions........   190

           UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

A Call to Action.................................................    73
Additional Subcommittee Questions................................    84
Afghanistan......................................................    20
African Health Capacity/Brain Drain..............................    85
Age of Generosity Commences: Still not Enough, but Rapidly 
  Increasing.....................................................    61
Agriculture Development in Afghanistan...........................    14
Assistance for the Middle East...................................    18
Building Capacity While Saving Lives............................47, 722
Child Survival...................................................    34
Egypt............................................................    21
Family Planning and Reproductive Health..........................    41
Financial Services Volunteers....................................    15
Fiscal Year 2008 Budget: International Affairs...................    64
Foreign Assistance Budget........................................    10
    Cuts.........................................................    16
Former Soviet Republics..........................................    11
Going Backwards on Half a Trillion Dollars.......................    62
Health Worker Global Policy Advisory Council.....................    90
    Secretariat..................................................    91
Healthtech and the Child Survival and Health Account.............    85
Improving Health, Saving Lives...................................    71
In the U.S. Interest.............................................    72
Iran.............................................................    23
Maternal:
    Mortality....................................................    85
    Newborn:
        Child Survival and Health................................    30
        Health...................................................    31
Members..........................................................    90
Millennium Challenge Corporation.................................    19
Modest Investments, Maximum Impact...............................    72
New Initiative Seeks Practical Solutions to Tackle Health Worker 
  Migration......................................................    89
Oslo Ministerial Declaration: Global Health--a Pressing Foreign 
  Policy Issue of our Time.......................................    89
Polio Eradication................................................    84
Principles.......................................................     4
Regional Funding Trends..........................................     7
Responsiveness to This Subcommittee..............................     3
Solutions........................................................    88
The World:
    Needs Healthcare Workers.....................................    63
    Women & Children.............................................    69
Transformational Diplomacy.......................................     9
Treatment, yes: But not Without Prevention.......................    61
U.S. Investments--Progress Undermined............................    70
USAID Administrator and Director of Foreign Assistance...........    13
What is the Goal?................................................    64

                                   - 

</pre></body></html>
